U.S. Department of Labor

Good jobs for everyone




                   U.S. Department of Labor
         FY 2009 Performance and Accountability Report




                                            Fiscal Year
                                                 2010

                     Agency Financial Report
                                            FY 2010 Agency Financial Report
                                                           May 20111
FY 2010 Agency Financial Report




                    FY 2010 Agency Financial Report   3
                                                                   Table of Contents
Message from the Secretary of Labor ....................................................................................................... 5
Management’s Discussion and Analysis ................................................................................................... 9
     Program Performance Overview ............................................................................................................................ 12
     American Recovery and Reinvestment Act of 2009 ............................................................................................... 20
     Financial Performance Overview ............................................................................................................................ 21
     Management Assurances ....................................................................................................................................... 25
Financial Section .................................................................................................................................... 27
     Message from the Chief Financial Officer .............................................................................................................. 29
     Independent Auditors’ Report................................................................................................................................ 30
     Annual Financial Statements .................................................................................................................................. 61
         Principal Financial Statements and Notes........................................................................................................ 63
         Required Supplementary Stewardship Information ...................................................................................... 123
         Required Supplementary Information ........................................................................................................... 129
Other Accompanying Information ........................................................................................................ 155
     Top Management Challenges ............................................................................................................................... 157
     Management’s Response to the 2010 Top Management Challenges .................................................................. 171
     Summary of Financial Statement Audit and Management Assurances ............................................................... 172
     Improper Payments Information Act Reporting Details ....................................................................................... 173
     Acronyms .............................................................................................................................................................. 183

This report can be found on the Internet at http://www.dol.gov/dol/aboutdol/.

If you have questions or comments regarding this report, contact:

Office of the Chief Financial Officer
U.S. Department of Labor
200 Constitution Avenue, NW, Room S-4030
Washington, DC 20210
202-693-6800

The photographs in this publication were furnished by numerous individuals. All photographs are proprietary and
prior permission from the photographer is required for any use or reproduction of the photographs. All references
to non-governmental companies or organizations, their services, products or resources in this report are offered for
informational purposes and should not be construed as an endorsement by the Department of Labor of any of the
companies or organizations, or their services, products or resources. The Department of Labor does not endorse,
takes no responsibility for, and exercises no control over non-governmental organizations’ Web sites mentioned in
this report, or their views or contents; nor does it vouch for the accuracy of the information contained on other
organizations’ Web sites.




                                                                                                                             FY 2010 Agency Financial Report                  3
                           Message from the Secretary of Labor
May 20, 2011
                             I am pleased to submit the Department of Labor’s (Department or DOL) revised
                            Agency Financial Report for Fiscal Year 2010. The report is one of three integrated
                            reports the Department produces in place of the consolidated annual Performance and
                            Accountability Report issued in prior years. The other two reports, the Annual
                            Performance Report for Fiscal Year 2010, which was included in the Department’s
                            Congressional Budget Justification, and the Summary of Performance and Financial
                            Information for Fiscal Year 2010, are available on the Department’s website.
                            This Agency Financial Report presents a detailed assessment of the Department’s
                            financial results and stewardship over taxpayer resources, in support of DOL’s mission
                            to promote the welfare of job seekers, wage earners, and retirees of the United States,
                            and my vision of good jobs for everyone.
Here are some of the important factors I believe are inherent in a good job:
    •   a good job increases workers’ incomes, narrows wage and income inequality, and provides workplace
        flexibility;
    •   a good job ensures workplaces are safe and healthy; assures workers a voice in the workplace and fosters
        fair working conditions in the global marketplace;
    •   a good job is sustainable and innovative, for example a green job;
    •   a good job helps rebuild a strong middle class;
    •   a good job provides health benefits, retirement security and income security when work is impossible or
        unavailable.

What We Have Done
We have accomplished a great deal since my arrival at the Department of Labor, and we could not have done so
much, so quickly, without the continued professionalism and dedication of the DOL workforce. Since my Senate
confirmation in February 2009, we have initiated an aggressive agenda to transform the Department’s programs,
through reforms that deploy research, evaluation and data to enhance effectiveness, streamline organizational
structures and introduce 21st century technology and transparency to the Department’s day to day operations.
We have also made possible the kind of training opportunities that will ensure our nation’s workers can better
meet the challenges of the 21st century workplace. We have restored the focus of the Department to protecting
workers; and we have helped ease the burden of the recession on working families.


    •Provision of Training Opportunities to Meet New Workplace Challenges
        Through the American Recovery and Reinvestment Act of 2009 and the Workforce Investment Act, the
        Department has created Green Job and Health Care training initiatives to provide workers with the skills
        they need for good jobs in these sectors. DOL’s competitive grant programs are providing workers with job
        training and certification in green industry sectors, while grants jointly administered by DOL and its Federal
        partners are preparing low income adults and dislocated workers for careers in the health care sector.
    •Strengthening of Worker Protections
        The Department continues to focus resources on its critical worker protection programs, and the agencies
        charged with enforcing workplace safety and health laws and minimum standards for fair compensation
        and working conditions in the United States. DOL’s Wage and Hour Division has expanded public

                                                                                    FY 2010 Agency Financial Report   5
Message from the Secretary of Labor
(Unaudited)
        awareness and outreach to workers through the We Can Help campaign, which I was proud to announce
        in Chicago in 2010. The campaign helps connect America’s most vulnerable workers with the array of
        services offered by the Department. To support this and other worker protection initiatives, the
        Department has implemented a comprehensive hiring plan for its worker protection agencies.
    •Easing of Recessionary Burden on Working Families
        Through existing state programs, the Recovery Act and subsequent enabling legislation, the Department
        has moved aggressively to provide and maintain critical income support to unemployed workers through
        DOL’s unemployment insurance programs. More than $158 billion was made available to the states in FY
        2010 to provide regular, extended and emergency benefits to workers who had lost their jobs during the
        recession.

Where We Are Going
We know that the Department will continue to face challenges as we work to serve and protect America’s
workers. We have tasked DOL’s agencies to undertake strategies focused on innovation, evaluation, and improved
implementation in an effort to reform how they operate. And we have developed a strategic plan to guide our
future success.
    •DOL Strategic Plan for FY 2011 – 2016
        The Department published in September 2010 the first DOL strategic plan under this administration. The
        plan is organized around five strategic goals and fourteen outcome goals. Together they provide the
        foundation for our work going forward, and the necessary components to support good jobs for everyone.
        Strategic Goals for FY 2011 ‐2016
        1. Prepare workers for good jobs and ensure fair compensation;

        2. Ensure workplaces are safe and healthy;

        3. Assure fair and high quality work‐life environments;

        4. Secure health benefits and, for those not working, provide income security;

        5. Provide timely and accurate data on the economic conditions of workers and their families.

Management Assurances
In January 2010, the Department retired a 25 year old legacy accounting system, and in its place deployed the New
Core Financial Management System (NCFMS), a commercially available, state of the art, shared service provider
system bringing necessary modernization to DOL’s financial management process. The new system positively
impacts over 15,000 people across the Department of Labor, enhancing transparency and accountability, while
providing financial managers with timely, relevant information to enable more innovative decision making. DOL
agencies are using NCFMS to provide high quality service, control or reduce costs, and improve efficiency and
effectiveness by reducing duplicative processes and system response time.
An independent public accounting firm under contract with the Department’s Office of Inspector General was
engaged to audit the Department’s FY 2010 financial statements, which originally were published on November
15, 2010. Difficulties with the implementation of NCFMS, including data migration from the legacy system,
produced significant challenges during implementation which delayed financial reporting capabilities and audit
readiness, and created certain material weaknesses in internal control over financial reporting.




6   United States Department of Labor
                                                                                 Message from the Secretary of Labor
                                                                                                        (Unaudited)
We continued our efforts to resolve the outstanding issues, and are pleased to be able to reissue the FY 2010
financial statements at this time. The auditors have evaluated these revised FY 2010 statements and we are
extremely proud to report that DOL received an unqualifed (clean) opinion on them on May 20, 2011.
The Department is committed to the timely resolution of all material weaknesses in internal controls over financial
reporting. This ongoing process, as well as the results of management’s assessment of internal controls pursuant to
the Federal Managers' Financial Integrity Act (FMFIA) and compliance of financial management systems with the
Federal Financial Management Improvement Act of 1996 (FFMIA) are discussed in the Management's Discussion
and Analysis section of this report.
Conclusion
We must continue to strive for the type of transparency that is at the heart of what the President and I call Open
Government. DOL’s revised Agency Financial Report for Fiscal Year 2010 exemplifies this transparency and
openness, and I am pleased to submit it to Congress and the American people, with the assurance that the
reporting difficulties encountered in FY 2010 were temporary and are being quickly corrected.




Hilda L. Solis
Secretary of Labor




                                                                                 FY 2010 Agency Financial Report   7
Management’s Discussion and Analysis




                 FY 2010 Agency Financial Report   9
                                                                           Agency Financial Report

The Department of Labor (DOL or Department) has chosen to produce this Agency Financial Report (AFR) as an
alternative to the Performance and Accountability Report (PAR) produced in prior years. Information on program
performance will be now included in the Department’s Annual Performance Report (APR), submitted as part of
DOL’s Congressional Budget Justification. The APR was posted on DOL’s web site at http://www.dol.gov/
sec/media/reports/.

Mission Statement and Organizational Structure1
DOL’s mission remains as relevant today as at the Department’s founding in 1913: to foster, promote and develop
the welfare of the job seekers, wage earners and retirees of the United States; improve working conditions, advance
opportunities for profitable employment; and assure work related benefits and rights.
To accomplish this mission, DOL is organized into the program agencies and offices depicted in the chart below,
which administer the various statutes and programs for which the Department is responsible. The major program
agencies, each headed by an Assistant Secretary, Commissioner, or Director, are the Employment and Training
Administration (ETA), Office of Job Corps (OJC) 2, Employment Standards Administration (ESA)3, Occupational Safety
and Health Administration (OSHA), Mine Safety and Health Administration (MSHA), Veterans’ Employment and
Training Service (VETS), Employee Benefits Security Administration (EBSA) and Bureau of Labor Statistics (BLS).


                                   Executive Secretariat                                                                                              Chief of Staff
                                                                                      Office of the Secretary of Labor
                                                                                                                                                Office of Administrative
                                Center for Faith Based and                                                                                             Law Judges
                                Neighborhood Partnerships
                                                                                                                                                 Benefits Review Board
                                                                                             Office of the Deputy
                                 Employees' Compensation                                      Secretary of Labor                                 Administrative Review
                                      Appeals Board
                                                                                                                                                        Board


                                                 Office of the Assistant
                      Office of the Chief             Secretary for                                        Office of Inspector    Office of the Assistant        Office of Disability
                                                                             Office of the Solicitor
                       Financial Officer          Administration and                                            General            Secretary for Policy          Employment Policy
                                                      Management




                       Employment and         Office of Congressional and                               Bureau of International                                Employment Standards
                                                                             Office of Public Affairs                               Women's Bureau
                    Training Administration    Intergovernmental Affairs                                     Labor Affairs                                        Adminisration




                                                Occupational Safety and        Mine Safety and           Veterans' Employment       Employee Benefits              Bureau of Labor
                      Office of Job Corps
                                                 Health Administration       Health Administration        and Training Service    Security Administration             Statistics




1
    The Pension Benefit Guaranty Corporation (PBGC), a Federal corporation under the chairmanship of the Secretary of Labor, is designated by
    the Office of Management and Budget (OMB) as a separate reporting entity for financial statement purposes, and is not included as part of
    the DOL reporting entity in this AFR.
2
    The Consolidated Appropriations Act of 2010 transferred the Job Corps program and its administrative funding from the Office of the
    Secretary back to ETA, to better integrate the program with other employment and training programs overseen by ETA.
3
    In FY 2010, DOL dissolved ESA and established its four component offices/divisions, the Office of Federal Contract Compliance Programs, the
     Office of Labor‐Management Standards, the Office of Workers’ Compensation Programs, and the Wage and Hour Division, as stand-alone
     agencies reporting directly to the Office of the Secretary. This reorganization was reflected in DOL’s FY 2011 budget, in which funding
     previously requested for ESA was requested separately for these four component agencies. In FY 2010, all applicable appropriations
     occurred under the previous ESA structure. Consequently, ESA’s four component agencies are referenced in the AFR’s Program
     Performance Overview, whereas references to ESA are retained in the financial section of this report.


                                                                                                                                          FY 2010 Agency Financial Report               11
Management’s Discussion and Analysis
(Unaudited)

                                  Program Performance Overview
This is the Department’s first AFR. From 1999-2009, DOL published a consolidated annual PAR with a Performance
Section that included measures used for reporting under the Government Performance and Results Act (GPRA) and
a summary of those performance results in the Management’s Discussion and Analysis (MD&A) that was also
referred to as the Program Performance Overview (PPO). This PPO is quite different from its predecessors because
it is now part of the AFR and GPRA results are reported separately in the APR. The FY 2010 APR was published in
February 2011 as part of the FY 2012 Congressional Budget Justification. A third report, the Summary of
Performance and Financial Information for Fiscal Year 2010, was published on February 15, 2011.
Reporting outcome data a couple of months later improves data quality; prior GPRA reports included estimates
because data were not available in time. Moreover, publication with the budget facilitates presentation of results,
targets, and strategies in the highly relevant context of funding levels. It will be much easier to demonstrate how
DOL uses performance information to make adjustments. Finally, this section of the AFR offers an opportunity to
present another aspect of DOL program performance – one more easily related to spending as reported in the
Financial Section. All DOL agencies measure outputs for activities intended to positively impact outcomes – for
example, how many investigations a worker protection agency will conduct in a calendar quarter, or how many
workers receive DOL-funded employment skills training – and use them to track progress in implementation of
strategies. This report provides FY 2010 data for such measures from each agency listed in the table below.

In FY 2010, the Department updated its five-year Strategic Plan (http://www.dol.gov/_sec/stratplan/) through a
comprehensive effort guided by five strategic goals and 14 outcome goals supporting the Secretary’s vision of good
jobs for everyone. The new goal framework signals the Secretary’s commitment to leading a stronger, more
effective Department of Labor. An important innovation of the new goal structure is the Department’s
commitment to measuring the effect of its agencies’ activities on the day-to-day lives of working families – their
wages, working hours, benefits, work-life balance, workplace safety and health, and equal employment
opportunity, among other issues. This focus on workers and their families is reflected in the table below, which
organizes DOL program agencies into five categories. The Department’s mission is also supported by
administrative, policy, legal, public affairs, and congressional liaison offices.

                                                Employment and Training
                                    Employment and Training Administration (ETA)
                                   Veterans’ Employment and Training Service (VETS)
                                                    Worker Protection
                                Office of Federal Contract Compliance Programs (OFCCP)
                                 Occupational Safety and Health Administration (OSHA)
                                             Wage and Hour Division (WHD)
                                    Employee Benefits Security Administration (EBSA)
                                     Mine Safety and Health Administration (MSHA)
                                     Office of Labor-Management Standards (OLMS)
                                                          Policy
                                                   Women’s Bureau (WB)
                                       Office of Disability Employment Policy (ODEP)
                                        Bureau of International Labor Affairs (ILAB)
                                                         Benefits
                                   Office of Workers’ Compensation Programs (OWCP)
                        Federal-State Unemployment Insurance (UI) System (administered by ETA)
                                                         Statistics
                                              Bureau of Labor Statistics (BLS)




12 United States Department of Labor
                                                                                     Management’s Discussion and Analysis
                                                                                                             (Unaudited)
The section that follows presents a brief description of the programs administered by each agency and the most
recent results for key output measures. The Department has over 100 such measures; these were selected as most
representative of agencies’ activities from resource allocation and strategic perspectives. Some measures are new
and have little, if any, historical data; where there are several years’ data available, charts are provided to illustrate
trends.


                                             Employment and Training

Employment and Training Administration (ETA)
ETA provides high quality employment assistance, labor market information and job training through the
administration of programs authorized by the Workforce Investment Act of 1998 (WIA) for adults, dislocated
workers, youth, and targeted populations; Job Corps; Trade Adjustment Assistance (TAA); Employment Services (ES)
authorized under the Wagner-Peyser Act; Foreign Labor Certification activities; the Community Service Employment
for Older Americans program (CSEOA); and Apprenticeship programs. Numerous measures help ETA track outputs
for these programs; here are descriptions and available data for just a few:

•   Number of risk assessments conducted for Grant Programs (WIA, ES, and CSEOA) – Federal Project Officers
    conduct risk assessments of grantee work plans and award documents to ensure procedures and performance
    expectations are clearly outlined and to assess grantees’ ability to carry out all tasks. Risk assessments are
    conducted at the onset of a grant and documented in the Grants e-Management System (GEMS). In FY 2010,
    ETA conducted 2,272 risk assessments for these programs. FY 2010 was the baseline year for this measure;
    historical data are not available.

•   Average petition processing time in days for TAA – This measure represents the average number of days to
    process TAA petitions from initial filing to final determination during the applicable year. Processing time
    nearly tripled between 2009 and 2010 because of the impact of the huge influx of petitions filed after the 2009
    Trade Act Amendments (2009 Amendments) took effect in May of 2009. During FY 2010, ETA increased staffing
    and focused on reducing backlogs. Those efforts led to a steady decline in average processing times in the
    second half of the year – from 177 days in April 2010 to 92 days in September 2010. This downward trend is
    expected to continue as the petition backlog declines. However, the 2009 Amendments expired after February
    12, 2011, so the program could experience more significant changes in petition volume and hence, average
    processing times.

    The recession led to an increase in petitions and a corresponding increase in processing times from FY 2008-
    2009. However, there are several factors that exaggerated its impact on FY 2010 results. First, backlogged
    cases for FY 2009 were not counted until FY 2010 because processing time is not known until determinations
    are made – in this case several months after petitions are submitted. In addition, the 2009 Amendments that
    expanded services and benefits for petitions filed after May 18, 2009 added to the workload that would
    normally have accompanied this recession. Finally, a significant number of petitions submitted prior to the new
    legislation were withdrawn and resubmitted. This had the effect of further reducing average processing time
    for FY 2009 due to the speedy disposition of those cases, while placing the new petitions in the backlogged
    queue of petitions that were not processed until FY 2010.


                  Measure                    FY 2004    FY 2005    FY 2006    FY 2007      FY 2008    FY 2009    FY 2010

Average petition processing time (in days)     32         29         31         33            35         48        143


•   Number of Regional Office Desk Audits and Contractor Past Effectiveness Ratings (CPER) Updates Completed for
    Job Corps – Regional Office Desk Audits are conducted monthly using Job Corps reports to assess contract


                                                                                        FY 2010 Agency Financial Report    13
Management’s Discussion and Analysis
(Unaudited)
    operations. CPERs are updated every six months within the contract period and are included in each Option
    Year package sent to the national office for review. This measure is new for FY 2010; historical data are not
    available. In FY 2010, Job Corps conducted 2,822 regional office desk audits and CPER updates.

Veterans’ Employment and Training Service (VETS)
VETS helps veterans obtain positive employment outcomes through services provided at One-Stop Career Centers
and other locations. Grants are provided to State Workforce Agencies (SWA) and other service providers to support
staff dedicated to serving veterans, including those who require special assistance due to disabilities or other
barriers to employment. VETS also protects the employment and reemployment rights of veterans and other
service members under the provisions of the Uniformed Services Employment and Reemployment Rights Act
(USERRA) program so that they can serve on active duty without harm to their employment status; and by assuring
that veterans who seek Federal employment obtain the preferences agencies are required to apply. An output
measure of importance to VETS’ USERRA effort is “Percent of USERRA investigations completed within 90 days.” To
provide prompt resolution for both claimants and employers, VETS strives to complete USERRA investigations
within 90 days as directed by the Veterans’ Benefits Improvement Act of 2008. VETS' response to this 2008
legislation has significantly improved case timeliness in FY 2009 and FY 2010, compared to prior years.


                   Measure                      FY 2005    FY 2006    FY 2007     FY 2008    FY 2009     FY 2010

Percent of USERRA investigations completed
                                                 78%         81%        78%         78%        86%         84%
within 90 days



                                               Worker Protection

Office of Federal Contract Compliance Programs (OFCCP)
OFCCP ensures that employers doing business with the Federal Government comply with the laws and regulations
requiring a fair and diverse workplace, free of discrimination and harassment. A key measure is Compliance
Evaluations (see table). Specifically, OFCCP selects Federal Contractor establishments for compliance audits
through an administrative process in which its examines compliance with the nondiscrimination and affirmative
action mandates under Executive Order 11246, Section 503 of the Rehabilitation Act of 1973, and the Vietnam Era
Veterans’ Readjustment Assistance Act of 1974. OFCCP enforcement efforts in FY 2010 show a significant increase
of more than 26% in audit activity over FY 2009 as a result of aggressive enforcement strategy that focused on all
three program areas.


                         Measure                          FY 2006     FY 2007    FY 2008     FY 2009     FY 2010

Compliance Evaluations                                     3,975       4,923      4,333       3,917       4,960

Occupational Safety and Health Administration (OSHA)
OSHA was established by the Occupational Safety and Health Act of 1970 with the mission to assure, so far as
possible, that every working man and woman in the American workplace has safe and healthful working conditions.
OSHA ensures the safety and health of America's workers by setting and enforcing workplace safety and health
standards; delivering effective enforcement; providing training, outreach, and education; and encouraging
continual improvement in workplace safety and health. Through these efforts, OSHA aims to reduce the number of
worker illnesses, injuries, and fatalities and contribute to the broader goals aimed at promoting economic recovery
and the competitiveness of our nation's workers. The most recent data for key measures of OSHA’s activity – the
number of safety, health, and construction industry inspections – are presented in the table below.
Safety inspections in general industry encompass a variety of high-hazard and high-consequence industries, such as
the chemical and refinery industries, oil and gas well drilling, manufacturing, maintenance, arborist and logging


14 United States Department of Labor
                                                                                  Management’s Discussion and Analysis
                                                                                                          (Unaudited)
work, power distribution and generation, coal manufacturing, telecommunications, green industries such as the
windmill industry, forging, steel manufacturing, food manufacturing, and grain handling. Workers in these
industries are exposed to a multitude of serious hazards, including falls, electrocutions, struck-by, caught
in/between, amputations, powered industrial trucks, confined spaces, uncontrolled energy, chemical exposures,
lead, asbestos, silica, combustible dust, cranes, and engulfment, as well as possible near misses and catastrophes in
chemical and other facilities. Since FY 2005, safety inspections have been increasing and fatalities have been
decreasing.

Health inspections are conducted by industrial hygienists and address hazards such as chemical hazards (e.g., lead,
hexavalent chromium, silica, asbestos, formaldehyde, metals, and diacetyl), biological hazards (e.g., bloodborne
pathogens and tuberculosis), physical hazards (e.g., noise, radiation, and heat and cold stress), and ergonomic
hazards (e.g., patient handling, repetitive motion, excessive force, and awkward postures). Although the number of
health inspections declined from FY 2005 through FY 2008, there was an increase in FY 2009 and OSHA has
maintained the upward trend through FY 2010.

The construction industry includes construction, alteration, and/or repair, including residential construction, bridge
erection, roadway paving, excavations, demolitions, and large scale painting jobs. OSHA tracks safety and health
inspections of these worksites separately because construction is a large industry that exposes workers to serious
hazards, such as falling from rooftops, unguarded machinery, being struck by heavy construction equipment,
electrocutions, silica dust, and asbestos. The industry’s fatality rate is almost three times the rate for all workers.


                     Measure                        FY 2005     FY 2006    FY 2007     FY 2008     FY 2009     FY 2010

 Number of Safety Inspections Conducted               31,197     31,843     33,063       33,074     33,221       34,320
 Number of Health Inspections Conducted                7,638       6,736     6,316        5,517       5,783       6,649
 Number of Safety and Health Inspections
 Conducted in Construction Industry                   22,166      22,915     23,192       23,062     23,754      24,326


Wage and Hour Division (WHD)
WHD is responsible for administering and enforcing laws that establish the minimum standards for wages and
working conditions in the United States. The Fair Labor Standards Act (FLSA) minimum wage provisions and the
prevailing wage laws provide a floor for the payment of fair wages; overtime provisions are intended to broaden
work opportunities and promote employment. The Migrant and Seasonal Agricultural Worker Protection Act and
the immigration programs establish working conditions intended both to protect the wages and the safety and
health of vulnerable workers and to ensure that the labor force is not displaced by lower-paid foreign or migrant
labor. The prevailing wage programs provide protection to local middle class workers who may be disadvantaged
by competition from outside labor who offer their services at wages lower than those in the locality. The Family
and Medical Leave Act was enacted to help workers balance family and work responsibilities, and the child labor
provisions of the FLSA ensure the safe employment of young workers, encourage their educational endeavors, and
provide a path to future employment.

The agency uses directed investigations to increase WHD presence in high risk industries – those industries with
high minimum wage and overtime violations – and among vulnerable worker populations. Vulnerable workers are
those who are at risk of exploitation at work, such as workers that are reluctant to complain when they are subject
to violations for fear of retaliation. The measure is directed investigations as a percentage of all those conducted.
As the backlog of complaints was reduced in FY 2010 by the addition of new investigators, WHD has positioned
itself to shift resources to directed investigations in future years.




                                                                                     FY 2010 Agency Financial Report   15
Management’s Discussion and Analysis
(Unaudited)

                  Measure                   FY 2004      FY 2005     FY 2006    FY 2007    FY 2008   FY 2009   FY 2010

Percent of Directed Investigations            23%          23%        23%         23%       24%        23%      17%


Employee Benefits Security Administration (EBSA)
EBSA protects workers and their families’ retirement and health benefits security through administration and
enforcement of the Employee Retirement Income Security Act of 1974 (ERISA) through proactive enforcement,
outreach and education programs that protect the most vulnerable populations while ensuring broad compliance
with ERISA and related laws. EBSA is committed to protecting more than 150 million Americans covered by an
estimated 708,000 private retirement plans, 2.8 million health plans, and similar numbers of other welfare benefit
plans; as well as plan sponsors and members of the employee benefits community.

Historical data for a key performance measure, “Number of Civil Investigations Processed,” are shown in the table
below. EBSA’s civil investigation program is designed to deter and correct violations of ERISA. The number of civil
investigations processed has declined due to, among other things, the launch of a new criminal enforcement
project. Each year, EBSA identifies certain national enforcement projects in which field offices are to place
particular investigative emphasis.


                      Measure                         FY 2005      FY 2006     FY 2007    FY 2008    FY 2009   FY 2010

Number of Civil Investigations Processed                3,782      3,411       3,236       3,570      3,669     3,112


Mine Safety and Health Administration (MSHA)
MSHA protects the safety and health of the nation’s miners under the provisions of the Federal Mine Safety and
Health Act of 1977, as amended by the Mine Improvement and New Emergency Response (MINER) Act of 2006.
The purpose of MSHA is to prevent death, disease, and injury from mining and to promote safe and healthful
workplaces for the nation’s miners through the enactment and enforcement of mandatory safety and health
standards, mandated inspections which require four complete inspections annually at active underground mines
and two complete inspections annually at active surface mines, and miner training and compliance assistance. A
key measure for MSHA is “Total Number of Regular Mandated Inspections.” The metal and nonmetal mining
industry is influenced by economic and product need causing continual fluctuations in the number of mines
operating during any given time period.


         Total Number of Regular Mandated Inspections              FY 2006     FY 2007    FY 2008    FY 2009   FY 2010

 Coal Safety and Health                                             5,402       4,822      5,385      5,526     5,121
 Metal and Non-metal Safety and Health                             16,867      15,945     18,235     17,168    16,127


Office of Labor-Management Standards (OLMS)
OLMS administers the Labor-Management Reporting and Disclosure Act of 1959 (LMRDA) and related laws. These
laws primarily establish safeguards for union democracy and union financial integrity and require public disclosure
reporting by unions, union officers, union employees, employers, labor consultants and surety companies. OLMS
also administers employee protections under various Federally-sponsored transportation programs that require
fair, equitable protective arrangements for transit employees when Federal funds are used to acquire, improve, or
operate a transit system. For OLMS, key measures are “Criminal investigations conducted” and “Number of days to
resolve union officer election complaints,” recent results for which are provided in the table below.

OLMS conducts criminal investigations to determine if potential criminal violations of the LMRDA have occurred.
Most OLMS criminal investigations involve embezzlement or theft of union funds. Evidence of suspected


16 United States Department of Labor
                                                                                   Management’s Discussion and Analysis
                                                                                                           (Unaudited)
embezzlement is obtained through leads, analysis of union financial reports, surety company reports, contacts with
union officials, employees or members, and its compliance audit program. The number of criminal investigations
conducted by OLMS declined in FY 2010 because OLMS had fewer investigators on staff; this trend will likely
continue in FY 2011 given reduced funding. However, OLMS will enhance audit targeting techniques to focus
reduced audit resources on labor unions most likely to be in violation of the law and thereby conduct fewer audits
without a significant decline in those leading to investigations. The success of audit targeting strategies is
measured by “percent of targeted audits that result in a criminal case,” results for which appear in the FY 2010
Annual Performance Report published with the Department’s FY 2012 Congressional Budget Justification in
February 2011.

For the election resolution measure, the apparent drastic improvement in FY 2009 results is considered anomalous
because few high-complexity cases were closed that year, and such cases account for large variances in average
resolution time. As expected, the relative number of high-complexity cases in FY 2010 returned to normal.
Improvement from FY 2008 is attributed to efficiency gains.


                          Measure                             FY 2006    FY 2007     FY 2008     FY 2009     FY 2010

Criminal investigations conducted                                  341    406          393         405         355
Number of days to resolve union officer election complaints        77      86           92          70          81



                                                          Policy

Women’s Bureau (WB or Bureau)
The Bureau – the only Federal office dedicated to serving and promoting the interests of women in the workforce –
develops policies and standards and conducts inquiries to safeguard the interests of working women; advocate for
their equality and economic security for themselves and their families; and promote quality work environments.
The Bureau’s vision is to empower all working women to achieve economic security by preparing them for high-
paying jobs, ensuring fair compensation, promoting workplace flexibility, and helping homeless women veterans
reintegrate into the workforce.

For the Bureau, a key measure is the number of collaborations that promote the adoption and implementation of
policies/strategies to improve employment outcomes for wage-earning women. “Number of collaborations” is
defined as a collaboration or partnership between the Bureau or its sponsored initiatives and another entity such as
other DOL agencies, other Federal, state or local government agencies, and/or community-based organizations.
They include formal agreements; inter/intra agency, public/private partnerships, and verbal agreements or
discussions that convey a course of activity to generate policy or practice outcomes in support of improving the
work environment and increasing opportunities for women. This is a new measure for FY 2010; through the end of
the year, there were 95 WB collaborations.

Office of Disability Employment Policy (ODEP)
ODEP was established to bring a permanent focus within the U.S. Department of Labor and across the Federal
government to the development, evaluation, and dissemination of policy strategies that address the significant
barriers to employment faced by individuals with disabilities. Although many people with disabilities are prepared,
willing, and able to work, they remain a largely untapped labor pool. ODEP brings together Federal agencies,
private and public sector employers, labor organizations, and other stakeholders to develop policy solutions that
expand physical and programmatic access to One-Stop Career Centers and the workforce system in general;
improves employer organizational practices and make workplaces more inclusive; and increases access to
employment support for workers with a disability.



                                                                                    FY 2010 Agency Financial Report    17
Management’s Discussion and Analysis
(Unaudited)
ODEP works to achieve its outcomes through the adoption and implementation of its policies and strategies,
accomplished through its public and private partners. For ODEP, a key measure is “Formal Agreements,” which
formally document partnerships between ODEP and federal, state, local and private employer entities and
organizations that directly lead to the development and dissemination of ODEP policies and strategies and
support increased employment for people with disabilities. As indicated by the table, agreements rose from FY
2006-2008 as ODEP's policies and strategies were developed based on its initial investments in demonstration
projects and research from ODEP's first five years (FY 2001-2005). The number of Formal Agreements dropped in
FY 2009 as ODEP worked to develop new alliances and partnerships – an investment that paid off in FY 2010, as
indicated by the increased number of agreements.


                          Measure                               FY 2006       FY 2007        FY 2008        FY 2009    FY 2010

Formal Agreements                                                       21             24             27          15          16


Bureau of International Labor Affairs (ILAB)
ILAB works to ensure that global markets are governed by fair market rules that protect vulnerable people,
including women and children, and provide workers a fair share of their productivity and voice in their work lives.
In order to carry out these strategic objectives, responsibilities, and mandates, ILAB collaborates with other U.S.
government agencies to formulate international economic, trade, and labor policies, including the formulation and
implementation of the labor aspects of international trade and investment agreements; coordinates U.S.
government participation in international organizations relative to labor issues; oversees and implements technical
assistance programs; and conducts research and analysis and publishes reports on international labor issues.

ILAB tracks the number of countries engaged in policy dialogue or collaboration as a measure of its scope of
influence and opportunities to 1) improve labor rights and living standards of workers in the global economy, and 2)
reduce the prevalence of the worst forms of child labor and forced labor. Data in the table below may understate
engagements because they do not include all forms of collaboration. ILAB has not systematically collected these
data and will do so for the first time in FY 2011. Additionally, the decrease over the past few years is due to a shift
from many small projects to fewer yet larger projects.


                    Measure                      FY 2005      FY 2006        FY 2007        FY 2008        FY 2009     FY 2010

Number of foreign governments with which ILAB
engages in policy dialogue, collaboration, or       90          83             81             71             73          68
negotiation



                                                         Benefits

Office of Workers’ Compensation Programs (OWCP)
OWCP is comprised of four separate compensation programs which provide wage replacement, medical treatment,
and vocational rehabilitation benefits. The Federal Employees' Compensation Act (FECA) program provides
monetary wage-loss and medical compensation to civilian employees of the Federal Government injured at work,
and to certain other designated groups, as well as survivor benefits for a covered employee’s employment-related
death. The Longshore and Harbor Workers' Compensation Act program provides similar benefits to injured private
sector workers engaged in certain maritime and related employment, and also provides monetary benefits to the
survivors of deceased workers. The Black Lung Benefits program provides monetary and medical benefits to totally
disabled miners suffering from coal mine pneumoconiosis stemming from mine employment, and monetary
benefits to their dependent survivors. The Energy Employees Occupational Illness Compensation Program Act
(EEOICPA) provides monetary compensation and/or medical benefits to employees or survivors of employees of the


18 United States Department of Labor
                                                                                        Management’s Discussion and Analysis
                                                                                                                (Unaudited)
Department of Energy (DOE) and certain contractors or subcontractors with DOE who have been diagnosed with
cancer or other occupational diseases due to exposure to radiation or toxic substances at covered facilities.

A key measure for OWCP is Lost Production Day rates (LPD), expressed as days per 100 employees in Federal
Government agencies. The LPD rate provides a valuable measure of the overall incidence and severity of workplace
injuries for Federal employees and the effectiveness of OWCP’s and Federal employers’ return to work efforts since
it measures actual lost days from work during the first year of injury. OWCP uses nurse case managers to provide
early assistance in more severe injury cases to coordinate medical care and return to work services for workers
covered by FECA. OWCP also assists Federal employers with accommodation and reemployment of their injured
workers. These strategies have contributed to a greater than 30 % reduction in the Government-wide LPD rate
since FY 2006. During this period, a joint OWCP/OSHA Safety, Health and Return to Employment initiative also
contributed to this success by establishing government-wide goals for Federal employers to improve their
compensation case handling and return to work activities.


                           Measure                              FY 2006         FY 2007      FY 2008       FY 2009     FY 2010

 Government-Wide LPD Rate in Non-Postal Agencies                       49.5           46.3        41.3         35.8        34.6


Federal-State Unemployment Insurance (UI) System (administered by ETA)
The federal-state UI program, authorized under the Federal Unemployment Tax Act and Title III of the Social
Security Act, provides temporary, partial wage replacement for unemployed workers, providing them with income
support when suitable work is unavailable. To be eligible for benefits, unemployed workers must meet eligibility
requirements established by state laws that conform to federal law, including that they have worked recently, be
involuntarily unemployed, and be able and available for work. One of the key measures for this program is
“Percent of all intrastate first payments made within 21 days after the last day of the first compensable week.” The
table below provides historical data, along with unemployment statistics, that illustrate the impact of increasing
claims volume on program performance during the recession that began in FY 2008. The Total Unemployment Rate
is the average of the monthly unadjusted Bureau of Labor Statistics data.


               Measure                  FY 2003    FY 2004   FY 2005    FY 2006       FY 2007    FY 2008    FY 2009    FY 2010

First payment timeliness                  88.9%      90.3%     89.3%          87.6%     88.4%      86.8%       83.8%     82.2%
Total Unemployment Rate                    6.0%       5.7%      5.2%           4.8%       4.5%      5.2%        8.3%       9.7%



                                                      Statistics

Bureau of Labor Statistics (BLS)
BLS produces timely, accurate, and relevant statistics reflecting labor market activity, working conditions, and price
changes in the economy. Statistics produced by BLS support the formulation of economic and social policy affecting
virtually all Americans. The BLS uses the American Customer Satisfaction Index (ACSI) to measure customer
satisfaction with its website, since most users access BLS data through bls.gov, which averages more than 7 million
user sessions each month. The ACSI survey prompts users while they are on the website for feedback regarding the
extent to which the website meets their needs. The BLS uses these results to improve the website to better serve
its stakeholders and as a measure of mission achievement. For FY 2009 – the first year this measure was used for
the full website – the ACSI score was 75 out of 100. In FY 2010, the score remained at 75.




                                                                                          FY 2010 Agency Financial Report    19
Management’s Discussion and Analysis
(Unaudited)

                     American Recovery and Reinvestment Act of 2009
                                    (Recovery Act)
Since our nation’s greatest resource is its workers, the Recovery Act targeted investments to key areas that create
and preserve good jobs. DOL has two key roles in this recovery effort: providing worker training for these jobs; and
easing the burden of the recession on workers and employers by providing extended and expanded unemployment
benefits and assisting and educating them regarding expanded access to continued health benefits. Listed below
are descriptions of a few of the largest (by funding level) among DOL’s 24 Recovery Act programs. More details are
posted on the Web at www.recovery.gov and www.dol.gov/recovery.

    • Unemployment Insurance – Extension of the Emergency Unemployment Compensation, 2008 (EUC08) and
        Federal Additional Compensation Program (FAC). The Recovery Act extended the Emergency UI program,
        commonly known as EUC08, which provides weekly UI benefits to individuals who have exhausted their
        regular State-financed UI benefits, through December 31, 2009. Subsequent legislation further extended
        these benefits to January 3, 2012. The Recovery Act also created a new federally-funded program (FAC)
        which temporarily increases UI benefits by $25 a week.

    • Unemployment Insurance – Modernization ($7 Billion Incentive Fund).          The Federal-State UI Program
        provides unemployment benefits to eligible workers who are unemployed because of a lack of suitable
        work, and meet other eligibility requirements. States operate UI programs under their own laws, which
        must conform to Federal law. The Modernization Program helps States make UI more accessible to workers
        by temporarily defraying the costs of certain eligibility liberalizations.

    • Workforce Investment Act Dislocated Worker Program. An additional $1.25 billion was made available to the
        program for expanding services, as authorized by WIA, using the same State and local allocation formula.
        States were expected to improve assessments and career counseling to place workers in high growth
        sectors with long term opportunities.

    • Workforce Investment Act Youth. The Recovery Act made an additional $1.2 billion available for WIA Youth
        activities, using the same formula as the regular appropriation and extended the youth eligibility age from
        21 to 24. Grantees focused on creating summer employment opportunities for youth, including
        opportunities in the health care sector and in green jobs within the construction, energy efficiency,
        renewable energy, and other related industries.




20 United States Department of Labor
                                                                               Management’s Discussion and Analysis
                                                                                                       (Unaudited)

                                 Financial Performance Overview

Financial Management Systems and Strategy

DOL continues to pursue its financial management system strategy to improve reporting, accountability, and
decision making, while furthering implementation of key Government-wide initiatives, e-Gov requirements, and
other regulatory mandates. The Department seeks to maintain financial management systems, processes, and
controls that ensure financial accountability, provide useful information to management, and satisfy Federal laws,
regulations, and guidance.

In FY 2010, DOL deployed the New Core Financial Management System (NCFMS) as its financial system of record to
improve the Department’s compliance with legislation and regulations , such as the Chief Financial Officers Act of
1990, the Government Performance and Results Act of 1993, the Federal Financial Management Improvement Act
of 1996, the Reports Consolidation Act of 2000, and the Federal Information Security Management Act (FISMA) of
2002, that drive Federal accounting, financial management systems, financial management reporting, and security.
Through business process assessment leading to the implementation of NCFMS, DOL has taken great strides to
standardize systems, business processes and data elements.

NCFMS will allow DOL to control or reduce costs and improve efficiency and effectiveness by:

   •   Reducing duplicative processes.
   •   Reducing system response time.
   •   Providing workflow for approvals, including invoice processing.
   •   Leveraging evolving technologies through the use of shared services and the utilization of Commercial-Off-
       the-Shelf (COTS) solutions.
   •   Better aligning of Information Technology (IT) activities with business management goals.

Continued assessment and change management will further assure the accuracy and completeness of migrated
data, standardize the business processes, institutionalize financial practices and improve ease of preparation and
completeness of all types of financial reports.




                                                                                FY 2010 Agency Financial Report   21
Management’s Discussion and Analysis
(Unaudited)
                                                   Analysis of Financial Statements

The principal financial statements summarize the Department's financial position, net cost of operations, and
changes in net position, and provide information on budgetary resources for FY 2010 and FY 2009.
Financial Position
The Department's Balance Sheet presents DOL’s financial position through the identification of agency assets,
liabilities, and net position. The Department's total assets decreased from $44.2 billion in FY 2009 to $42.8 billion in
FY 2010, a decrease of about 3%. Liabilities increased from $29.7 billion at the end of FY 2009 to $61.8 billion at the
end of FY 2010, an increase of over 108 %. This increase was primarily due to increases in liabilities for current and
future benefits (43.4%) and intra-governmental debt (181.5%). Liabilities for current and future benefits increased
due to the increase in current unemployment benefits payable, future workers' compensation benefits liability, and
future benefits payable under the Energy Employees Occupational Illness Compensation program. Intra-
governmental debt increased due to Unemployment Trust Fund borrowings from the General Fund of the Treasury
to meet unemployment benefit requirements.


                                                            ASSETS ($ in Billions)

                                          2010 - $42.8 billion                     2009 - $44.2 billion

               $30

               $25

               $20

               $15

               $10

                $5

                 $-
                        Funds with U.S. Treasury    Investments in Treasury Receivables and advances      Property, plant and
                                                           securities                                         equipment




Net Cost of Operations
The Department's Net Cost of Operations for the year ended September 30, 2010 was $179.8 billion, an increase of
$40.7 billion (29.3%) over 2009. This increase was attributable to the major programs discussed below:


                                           NET COST OF MAJOR PROGRAMS ($ in Billions)
                                        2010 - $179.8 billion                        2009 - $139.1 billion

                 $165
                 $150
                 $135
                 $120
                 $105
                  $90
                  $75
                  $60
                  $45
                  $30
                  $15
                   $0
                              Income          Employment and           Standards      Worker Safety and         Statistics
                            Maintenance          Training                                  Health




22 United States Department of Labor
                                                                                 Management’s Discussion and Analysis
                                                                                                         (Unaudited)
Income Maintenance programs continue to comprise the major portion of Departmental costs. These programs
include unemployment benefits paid to covered individuals who are out of work and seeking employment, as well
as payments to individuals who qualify for disability benefits due to injury or illness suffered on the job. Income
maintenance net costs were $168.9 billion, an increase of 30.39% over FY 2009. This increase was primarily due to
increases in benefits for regular, extended, emergency and additional unemployment compensation (EUC) provided
under existing legislation, with supplemental provisions extended through FY 2010.

Employment and Training programs comprise DOL’s second largest cost. These programs are designed to help
individuals deal with the loss of a job, identify new occupational opportunities, find training to acquire different
skills, start a new job, or make long-term career plans. Employment and training costs were $8.4 billion in FY 2010,
an increase of 16.9% over FY 2009. This increase was primarily due to increases in costs for job training programs
for dislocated workers and youth under the Recovery Act.

Budgetary Resources
The Statement of Budgetary Resources reports the budgetary resources available to DOL to effectively carry out the
activities of the Department during FY 2010 and FY 2009, as well as the status of these resources at the end of each
fiscal year. The Department had direct obligations of $256.6 billion in FY 2010, an increase of $81.9 billion (46.9 %)
over FY 2009.

Limitations on the Principal Financial Statements
As required by the Government Management Reform Act of 1994 (31 USC 3515(b)), the principal financial
statements report the Department's financial position and results of operations. While the statements have been
prepared from the Department's books and records in accordance with formats prescribed by OMB, the statements
differ from the financial reports used to monitor and control budgetary resources, which are prepared from the
same books and records. The statements should be read with the realization that they are a component of the U.S.
Government, a sovereign entity, and that liabilities reported in the financial statements cannot be liquidated
without legislation providing resources to do so.

Reducing Improper Payments

Improved financial performance through the reduction of improper payments continues to be a key financial
management focus of the Federal government. At DOL, developing strategies and the means to reduce improper
payments is a matter of good stewardship. Accurate payments lower program costs.

In accordance with the Improper Payments Information Act (IPIA) of 2002, as implemented by the OMB Circular A-
123, Appendix C, Requirements for Effective Measurement and Remediation of Improper Payments, the Department
reviews its programs and activities annually, identifies programs that may be susceptible to significant improper
payments, performs testing of programs considered high risk, establishes improper payment reduction targets in
accordance with OMB guidance and develops and implements corrective actions for high risk programs.

The Department has two programs that are classified to be at risk of significant improper payments in accordance
with OMB criteria or classification – the Unemployment Insurance (UI) benefit program and the Workforce
Investment Act (WIA) grant program. The table below shows the target and actual improper payments error rates
for the programs classified as at-risk:

             DOL Program                FY 2008              FY 2009         FY 2010          FY 2011
                                    Target     Actual     Target Actual Target Actual          Target
       Unemployment Insurance       11.5%      10.0%      10.0%    10.3% 9.9%     11.2%         9.8%
       Workforce Investment Act      0.19%      0.07%      0.07%    0.2% 0.07%     0.2%         0.07%



                                                                                   FY 2010 Agency Financial Report   23
Management’s Discussion and Analysis
(Unaudited)
The target UI improper payments error rate for FY 2010 was 9.9 %, whereas the actual error rate was 11.2 %. This
difference is primarily due to increases in overpayments to claimants who continued to claim benefits after they
returned to work, claimants ineligible for benefits because they voluntarily quit their jobs or were discharged for
cause, and claimants who failed to meet active work search requirements. These 3 causes accounted for 64% of
overpayments in FY 2009 and 65% of overpayments in FY 2010 and represent approximately 70% of the increase in
the overpayment rate. Corrective actions to address these causes are described in “Improper Payments
Information Act Reporting Details” in the Other Accompanying Information section of this report. The higher actual
error rate for WIA in FY 2009 and FY 2010 compared to the program’s annual target is primarily due to including the
results of DOL Office of Inspector General audits and other monitoring activities in the measurement methodology
and higher incidence of error.

The Department has implemented various corrective actions to address the causes and reduce improper payments
in both of these programs. Like many other Federal agencies, the Department faces challenges in meeting its
improper payment reduction and recovery targets, particularly with programs that are sensitive to economic
fluctuations or natural disasters, such as the UI program. Furthermore, meeting improper payment reduction and
recovery targets of programs such as UI and WIA are contingent upon the cooperation and support of State
agencies and other outside stakeholders who are intricately involved in the day-to-day administration and
management of these programs' activities.

See “Improper Payments Information Act Reporting Details” in the Other Accompanying Information section of this
report for additional information on improper payments.




24 United States Department of Labor
                                                                               Management’s Discussion and Analysis
                                                                                                       (Unaudited)

                                       Management Assurances
Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
FMFIA requires that agencies establish internal controls and financial systems that provide reasonable assurance
that the integrity of Federal programs and operations is protected. It requires that the head of the agency provide
an annual assurance statement whether the agency has met this requirement.
Appendix A of OMB Circular A-123 provides specific requirements for conducting management’s assessment of
internal control over financial reporting, and also requires the agency head to provide an assurance statement on
the effectiveness of internal controls over financial reporting.
Federal Financial Management Improvement Act of 1996 (FFMIA)
FFMIA requires that agencies implement and maintain financial management systems that comply substantially
with the Federal financial management system requirements, applicable Federal accounting standards, and the
United States Government Standard General Ledger at the transaction level. The agency head is to make an annual
determination whether the financial systems substantially comply with FFMIA.




                                                                                FY 2010 Agency Financial Report   25
Management’s Discussion and Analysis
(Unaudited)
                                       Summary of Material Weaknesses

Weaknesses over Financial Reporting -- DOL implemented the New Core Financial Management System (NCFMS) in
January 2010. The Department experienced significant transaction and reporting errors in its financial reporting
processes resulting from the implementation. This was primarily due to data migration problems that required
significant corrections during the remainder of the year; interfaces with subsystems initially not operating as
intended; certain processes, such as for accounting for property, plant, and equipment, were not functioning
properly within the new system and required workarounds; and lack of adequate policies and procedures to
account for and reconcile data on a timely basis and the preparation and review of financial statements and
reports. The Department was not able to prepare interim financial statements for the quarter ending March 31,
2010, for submission to OMB. Such financial statements were completed by early July but were not accurate. The
Department is currently unable to produce auditable financial statements on a timely basis. Audit readiness and
financial reporting have been delayed as a result of the need to resolve issues related to the migration, process
workarounds, and legacy interfaces. Although significant progress has been made to correct the migrated data and
resolve the issues with the interfaces such that day-to-day financial transaction processing is being performed on a
timely basis, the Department must complete the correction of inaccurate data from the migration and implement
formal policies and procedures for the preparation and review of interim and annual financial statements and
reports. Management is in the process of implementing corrective action plans to address these deficiencies and
expects to complete the corrective actions by the end of FY 2011.

Weakness over Preparation and Review of Journal Vouchers -- Journal vouchers, which are used to account for
various significant activities, were not available when NCFMS was implemented in January 2010. Journal voucher
templates, which are used to prepare the journal vouchers, were then created and training was provided to the
users in late April 2010. An Accounting Handbook that explained how the journal vouchers are to be used was not
prepared until July 2010. During the third and fourth quarter, additional journal voucher templates had to be
prepared as it was determined that certain accounting transactions were not being properly recorded in the new
system. A significant amount of journal vouchers were prepared and recorded in the new system prior to June 30,
2010, that subsequently needed to be corrected. In addition, a significant amount of the journal vouchers were not
adequately supported or properly reviewed and approved by supervisory personnel. To remediate these
deficiencies, management has developed a corrective action plan which includes assessing the adequacy of existing
policies regarding journal voucher creation, approval, and supporting documentation requirements, drafting
updates to existing policies to reflect needed changes and developing a mandatory training program for key
stakeholders responsible for journal voucher creation and approval.

Weakness over Budgetary Accounts Reconciliations -- As of June 30, 2010, quarterly reconciliations between the
Apportionment and Reapportionment Schedules (SF-132) and the Report on Budget Execution and Budgetary
Resources (SF-133) were not performed, and the SF-133 was not reconciled to the Statement of Budgetary
Resources. Formal policies and procedures were not in place for the reconciliations and the required
documentation to support the handling of differences. The lack of these significant reconciliations places
management at risk of preparing inaccurate financial reports and producing and relying on inaccurate status of
funds data for operations, which could result in the inefficient and inappropriate use of appropriations, duplicate
postings of multiyear funding, and possible Antideficiency Act violations. Management is currently reviewing
existing policies and procedures to identify areas that can be strengthened with budgetary accounts reconciliation
processes, particularly the SF-132 to SF-133 reconciliation, to ensure that all reconciliations are prepared, reviewed,
and approved on a timely basis, properly documented, and differences resolved.




26 United States Department of Labor
Financial Section
                            Message from the Chief Financial Officer
The U.S. Department of Labor implemented the New Core Financial Management System
in January 2010 to increase productivity and improve internal controls when processing
financial transactions and preparing financial reports. The event marked the first
implementation of a secure, cloud computing-based financial management solution by a
cabinet-level agency.

New technology such as this enables employees to perform their jobs efficiently and
effectively, eliminating the need for cumbersome paper processes. By moving to a cloud-
based system, the Department expects to drive major operational efficiencies, saving time
and financial investments in hardware, software, and maintenance. This system is clearly
aligned with the Obama administration’s push for modernizing government through
technology.

Another goal of the Obama administration and this Department is to foster American workers’ efforts to find jobs,
develop new skills in the workforce, and support an economic recovery. Through the American Recovery and
Reinvestment Act of 2009, unemployment benefits eased the burdens of unemployment on the American
workforce and stimulated a recessed economy. The Department’s financial operations monitored the appropriate
use of these funds.

As a consequence of converting to the New Core Financial Management System, the auditors were unable to
complete a full examination of the Department’s FY 2010 financial statements issued in November 2010.
Difficulties with financial reporting capabilities and the timely migration of data from the legacy system delayed the
new system’s audit readiness, and created certain material weaknesses in the internal control over financial
reporting.

Since that time, with the cooperation of the Office of Inspector General and their audit team, we continued our
efforts to improve the quality of our financial reporting. Consequently, on May 20, 2011, we received an
unqualified (clean) opinion on the financial statements as of and for the year ended September 30, 2010.

A clean audit opinion provides independent confirmation that the Department’s financial statements are presented
fairly and in conformity with generally accepted accounting principles. Accurate and timely financial information
improves DOL’s accountability to its stakeholders and the operational, budget, and policy decisions-making process.
DOL is committed to upholding the unqualified (clean) audit opinion it has held for 14 years, and to resolving the
material weaknesses in internal control.

The Office of the Chief Financial Officer leads the Department’s financial management and fiscal integrity effort
and, as stewards of taxpayers’ dollars, we take our responsibility seriously. The Department will continue to strive
for financial management excellence during 2011.




James L. Taylor
Chief Financial Officer

May 20, 2011


                                                                                   FY 2010 Agency Financial Report   29
                                  KPMG LLP
                                  2001 M Street, NW
                                  Washington, DC 20036




                                              Independent Auditors’ Report


Secretary and Inspector General
U.S. Department of Labor:

We have audited the accompanying consolidated balance sheets of the U.S. Department of Labor (DOL) as of
September 30, 2010 and 2009; the related consolidated statements of net cost and changes in net position and combined
statements of budgetary resources for the years then ended; and the statements of social insurance as of September 30,
2010, 2009, 2008, 2007, and 2006 (hereinafter referred to as “consolidated financial statements”). The objective of our
audits was to express an opinion on the fair presentation of these consolidated financial statements. In connection with our
fiscal year (FY) 2010 audit, we also considered DOL’s internal control over financial reporting and tested DOL’s
compliance with certain provisions of applicable laws, regulations, contracts, and grant agreements that could have a
direct and material effect on these consolidated financial statements.

We have also examined DOL’s compliance with section 803(a) of the Federal Financial Management Improvement Act
of 1996 (FFMIA) as of September 30, 2010.

SUMMARY

As discussed in our opinion on the financial statements, in our report dated November 15, 2010, we did not express an
opinion on DOL’s FY 2010 consolidated financial statements because DOL’s implementation of a new financial
accounting and reporting system hindered its ability to assure the accuracy and completeness of consolidated financial
statement balances. Subsequently, management was able to prepare the consolidated financial statements, and we were
able to obtain sufficient support of the balances reported in the consolidated financial statements. Accordingly, our present
opinion on the FY 2010 consolidated financial statements, as presented herein, is different from that expressed in our
previous report.

As stated in our opinion on the financial statements, we concluded that DOL’s consolidated financial statements present
fairly, in all material respects, the financial position of DOL as of September 30, 2010 and 2009; its net costs, changes in
net position, and budgetary resources for the years then ended; and the financial condition of its social insurance program
as of September 30, 2010, 2009, 2008, 2007, and 2006, in conformity with U.S. generally accepted accounting principles.

As discussed in our opinion on the financial statements, the statements of social insurance present the actuarial present
value of DOL’s future expenditures to be paid to or on behalf of participants, estimated future income to be received from
excise taxes, and estimated expenditures for administrative costs during a projection period ending in 2040.

Our consideration of internal control over financial reporting resulted in identifying certain deficiencies that we consider
to be material weaknesses and other deficiencies that we consider to be significant deficiencies, as defined in the Internal
Control over Financial Reporting section of this report, as follows:

                                            KPMG LLP is a Delaware limited liability partnership,
                                            the U.S. member firm of KPMG International Cooperative
                                            (“KPMG International”), a Swiss entity.




30 United States Department of Labor
                                                                                                  Independent Auditors’ Report




Material Weaknesses

1. Lack of Sufficient Controls over Financial Reporting

2. Lack of Sufficient Controls over Budgetary Accounting

3. Improvements Needed in the Preparation and Review of Journal Entries

4. Lack of Adequate Controls over Access to Key Financial and Support Systems

Significant Deficiencies

5. Weakness Noted over Payroll Accounting

6. Untimely and Inaccurate Processing of Property, Plant, and Equipment (PP&E) Transactions

The results of our tests of compliance with certain provisions of laws, regulations, contracts, and grant agreements,
exclusive of those referred to in the FFMIA, disclosed noncompliance with the Federal Managers’ Financial Integrity Act
of 1982 (FMFIA) and one other matter that are required to be reported under Government Auditing Standards, issued by
the Comptroller General of the United States, and OMB Bulletin No. 07-04, Audit Requirements for Federal Financial
Statements, as amended.

As stated in our opinion on DOL’s compliance with section 803(a) of FFMIA, we concluded that DOL did not comply, in
all material respects, with the requirements of section 803(a) of FFMIA as of September 30, 2010.

The following sections discuss our opinion on DOL’s consolidated financial statements; our consideration of DOL’s
internal control over financial reporting; our tests of DOL’s compliance with certain provisions of applicable laws,
regulations, contracts, and grant agreements; our opinion on compliance with FFMIA; and management’s and our
responsibilities.

OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying consolidated balance sheets of the U.S. Department of Labor as of September 30,
2010 and 2009; the related consolidated statements of net cost and changes in net position and the combined statement of
budgetary resources for the years then ended; and the statements of social insurance as of September 30, 2010, 2009,
2008, 2007, and 2006.

In our report dated November 15, 2010, we did not express an opinion on DOL’s FY 2010 consolidated financial
statements because DOL’s implementation of a new financial accounting and reporting system hindered its ability to
assure the accuracy and completeness of consolidated financial statement balances. Subsequently, management was able
to prepare the consolidated financial statements, and we were able to obtain sufficient support of the balances reported in
the consolidated financial statements. Accordingly, our present opinion on the FY 2010 consolidated financial statements,
as presented herein, is different from that expressed in our previous report.

In our opinion, the consolidated financial statements referred to above present fairly, in all material respects, the financial
position of the U.S. Department of Labor as of September 30, 2010 and 2009; its net costs, changes in net position, and


                                                                                           FY 2010 Agency Financial Report 31
Financial Section




budgetary resources for the years then ended; and the financial condition of its social insurance program as of September
30, 2010, 2009, 2008, 2007, and 2006, in conformity with U.S. generally accepted accounting principles.

As discussed in Note 1-W to the consolidated financial statements, the statements of social insurance present the actuarial
present value of DOL’s future expenditures to be paid to or on behalf of participants, estimated future income to be
received from excise taxes, and estimated expenditures for administrative costs during a projection period ending in 2040.
In preparing the statements of social insurance, management considers and selects assumptions and data that it believes
provide a reasonable basis for the assertions in the statements. However, because of the large number of factors that affect
the statement of social insurance and the fact that future events and circumstances cannot be known with certainty, there
will be differences between the estimates in the statement of social insurance and the actual results, and those differences
may be material.

The information in the Management’s Discussion and Analysis, Required Supplementary Stewardship Information, and
Required Supplementary Information sections is not a required part of the consolidated financial statements, but is
supplementary information required by U.S. generally accepted accounting principles. We have applied certain limited
procedures, which consisted principally of inquiries of management regarding the methods of measurement and
presentation of this information. However, we did not audit this information and, accordingly, we express no opinion on
it.

The information in the Message from the Secretary of Labor and Other Accompanying Information section are presented
for purposes of additional analysis and are not required as part of the consolidated financial statements. This information
has not been subjected to auditing procedures and, accordingly, we express no opinion on it.

INTERNAL CONTROL OVER FINANCIAL REPORTING

Our consideration of the internal control over financial reporting was for the limited purpose described in the
Responsibilities section of this report and was not designed to identify all deficiencies in internal control over financial
reporting that might be deficiencies, significant deficiencies, or material weaknesses and therefore, there can be no
assurance that all deficiencies, significant deficiencies, or material weaknesses have been identified. However, in our FY
2010 audit, we identified certain deficiencies in internal control over financial reporting that we consider to be material
weaknesses and other deficiencies that we consider to be significant deficiencies.

A deficiency in internal control exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent, or detect and correct misstatements on
a timely basis. A material weakness is a deficiency, or combination of deficiencies, in internal control such that there is a
reasonable possibility that a material misstatement of the entity’s financial statements will not be prevented, or detected
and corrected on a timely basis. We consider the deficiencies described in Exhibit I to be material weaknesses.

A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe than a
material weakness, yet important enough to merit attention by those charged with governance. We consider the
deficiencies described in Exhibit II to be significant deficiencies.

We noted certain additional matters that we reported to management of DOL in a separate letter.




32 United States Department of Labor
                                                                                                Independent Auditors’ Report




COMPLIANCE AND OTHER MATTERS

The results of certain of our tests of compliance as described in the Responsibilities section of this report, exclusive of
those referred to in the FFMIA, disclosed one instance of noncompliance that is required to be reported herein under
Government Auditing Standards or OMB Bulletin No. 07-04, as amended, and is described in Exhibit III.

The results of our other tests of compliance as described in the Responsibilities section of this report, exclusive of those
referred to in FFMIA, disclosed no instances of noncompliance that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04.

Other Matters. DOL is currently reviewing an incident regarding a potential violation of the Anti-deficiency Act. As of the
date of this report, no final noncompliance determination has been made for this incident.

We noted certain additional matters that we reported to management of DOL in a separate letter.

OPINION ON COMPLIANCE WITH FFMIA

DOL represented that, in accordance with the provisions and requirements of FFMIA, the Secretary of Labor determined
that DOL’s financial management systems were not in substantial compliance with FFMIA as of September 30, 2010.

We have examined the U.S. Department of Labor’s compliance with section 803(a) of the Federal Financial Management
Improvement Act of 1996 as of September 30, 2010. Under section 803(a) of FFMIA, the U.S. Department of Labor’s
financial management systems are required to substantially comply with (1) Federal financial management systems
requirements, (2) applicable Federal accounting standards, and (3) the United States Government Standard General
Ledger at the transaction level. We used OMB’s Implementation Guidance for the Federal Financial Management
Improvement Act, dated January 9, 2009, to determine compliance.

Our examination disclosed certain weaknesses in DOL’s financial management systems’ access controls and related
manual controls. DOL was also unable to produce timely and reliable financial reports, including auditable FY 2010
consolidated financial statements by the OMB reporting deadline of November 15, 2010. These matters are further
described in Exhibit III.

In our opinion, because of the effects of the matters discussed in the preceding paragraph, the U.S. Department of Labor
did not substantially comply with FFMIA section 803(a) as of September 30, 2010.

                                                       *******
RESPONSIBILITIES

Management’s Responsibilities. Management is responsible for the consolidated financial statements; establishing and
maintaining effective internal control; and complying with laws, regulations, contracts, and grant agreements applicable to
DOL.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the FY 2010 and 2009 consolidated financial
statements of DOL based on our audits. We conducted our audits in accordance with auditing standards generally
accepted in the United States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and OMB Bulletin No. 07-04, as amended. Those
standards and OMB Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about

                                                                                         FY 2010 Agency Financial Report 33
Financial Section




whether the consolidated financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the circumstances,
but not for the purpose of expressing an opinion on the effectiveness of DOL’s internal control over financial reporting.
Accordingly, we express no such opinion.

An audit also includes:

•     Examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated financial
      statements;
•     Assessing the accounting principles used and significant estimates made by management; and
•     Evaluating the overall consolidated financial statement presentation.

We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our FY 2010 audit, we considered DOL’s internal control over financial reporting by
obtaining an understanding of DOL’s internal control, determining whether internal controls had been placed in operation,
assessing control risk, and performing tests of controls as a basis for designing our auditing procedures for the purpose of
expressing our opinion on the consolidated financial statements, but not for the purpose of expressing an opinion on the
effectiveness of DOL’s internal control over financial reporting. Accordingly, we do not express an opinion on the
effectiveness of DOL’s internal control over financial reporting. We did not test all controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

As part of obtaining reasonable assurance about whether DOL’s FY 2010 consolidated financial statements are free of
material misstatement, we performed tests of DOL’s compliance with certain provisions of laws, regulations, contracts,
and grant agreements, noncompliance with which could have a direct and material effect on the determination of the
consolidated financial statement amounts, and certain provisions of other laws and regulations specified in OMB Bulletin
No. 07-04, as amended. We limited our tests of compliance to the provisions described in the preceding sentence, and we
did not test compliance with all laws, regulations, contracts, and grant agreements applicable to DOL. However, providing
an opinion on compliance with laws, regulations, contracts, and grant agreements was not an objective of our audit and,
accordingly, we do not express such an opinion.

Our responsibility also included expressing an opinion on DOL’s compliance with FFMIA section 803(a) requirements as
of September 30, 2010, based on our examination. Our examination was conducted in accordance with attestation
standards established by the American Institute of Certified Public Accountants and the standards applicable to attestation
engagements contained in Government Auditing Standards issued by the Comptroller General of the United States, and
accordingly, included examining, on a test basis, evidence about DOL’s compliance with the requirements of FFMIA
section 803(a) and performing such other procedures as we considered necessary in the circumstances. We believe that
our examination provides a reasonable basis for our opinion. Our examination does not provide a legal determination on
DOL’s compliance with specified requirements.

                                           ______________________________

DOL’s response to the findings identified in our audit is presented in Exhibits I and II. We did not audit DOL’s response
and, accordingly, we express no opinion on it.




34 United States Department of Labor
                                                                                        Independent Auditors’ Report




This report is intended solely for the information and use of DOL’s management, DOL’s Office of Inspector General,
OMB, the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should not be
used by anyone other than these specified parties.




May 20, 2011




                                                                                  FY 2010 Agency Financial Report 35
Financial Section

Material Weaknesses
Exhibit I



1. Lack of Sufficient Controls over Financial Reporting

    In fiscal year (FY) 2009, we reported a significant deficiency relating to the lack of sufficient internal controls
    over financial statement preparation. We recommended that the Chief Financial Officer (a) ensure that Office of
    Chief Financial Officer (OCFO) personnel perform a more detailed review of all financial information in the
    Performance and Accountability Report (PAR) including financial statements, notes, supplementary information,
    and supplementary stewardship information; and (b) update the U.S. Department of Labor Manual Series
    (DLMS) to include guidance for U.S. Department of Labor (DOL) supervisors to follow during their financial
    statement reviews, including procedures for comparing financial data reported on the different statements and
    notes to ensure accuracy and consistency.

    In January 2010, DOL implemented the New Core Financial Management System (NCFMS) to replace its legacy
    accounting and reporting system, the Department of Labor Accounting and Related Systems (DOLAR$). In late
    2009, we conducted a pre-implementation performance audit of NCFMS, which identified a number of
    implementation risks related to user acceptance, interface, integration, and mock data conversion testing. These
    risks were not addressed prior to implementation, which contributed to DOL subsequently facing many
    significant challenges related to its financial reporting process.

    DOL encountered implementation issues related to migrating data from DOLAR$ to NCFMS, completing the
    interfaces between the legacy subsystems and NCFMS, developing new accounting processes to effectively use
    NCFMS, and identifying all the necessary reporting requirements. In addition, reports needed for management,
    control, and audit purposes were not readily available or had not been created upon activation of NCFMS.

    As a result, the ability of management officials to monitor their budgets was significantly impacted and
    operational control procedures were not performed routinely throughout FY 2010. DOL also experienced delays
    in meeting certain Office of Management and Budget (OMB) reporting deadlines and in preparing audit
    deliverables.

    Despite substantial effort by the OCFO, DOL was unable to fully address many of these implementation
    problems during FY 2010. Specifically, we noted the following issues:

    Reconciliation of Data: Data errors related to coding, configuration, and migration and subsequent operational
    problems created significant differences between the payroll, trust fund, and property modules and the NCFMS
    general ledger. DOL also identified a number of reconciling differences and adjustments related to beginning
    balances migrated from DOLAR$ to NCFMS that were not resolved until the third quarter of FY 2010. In
    addition, the system was not able to produce all required reports necessary to perform manual reconciliations
    between the subsystems, general ledger, and third party service providers. DOL was eventually able to complete
    all necessary reconciliations for the year ended September 30, 2010.

    Also, DOL had significant difficulty reconciling its disbursement and collection activity with the U.S.
    Department of the Treasury’s (Treasury) records subsequent to the implementation of NCFMS. The various
    differences and errors resulting from data migration and subsequent corrections significantly complicated and
    delayed efforts to verify the accuracy of the fund balance with Treasury account. In addition, the monthly
    submissions of the Statement of Transactions (SF-224) for the second quarter were delayed, and the collection
    and disbursement information for the SF-224s that were finally submitted to Treasury were based on estimated
    data because of the aforementioned difficulties. Furthermore, we were informed that monthly fund balance with
    Treasury reconciliations were not performed for the eight month period ended August 31, 2010 prior to fiscal
    year end and a net un-reconciled difference of $1.7 billion was identified by DOL in its fund balance with
    Treasury account at that time. DOL was ultimately able to materially reconcile the net differences that were
    identified in its fund balance with Treasury account for the year ended September 30, 2010.


36 United States Department of Labor
                                                                                       Independent Auditors’ Report

                                                                                               Material Weaknesses
                                                                                                           Exhibit I




In addition, we identified an overstatement of debt related to repayable advances of $11 billion because DOL did
not properly reconcile the balance to Treasury’s records as of June 30, 2010. This error was corrected by DOL
for the year ended September 30, 2010.

The inability of DOL to complete reconciliations and resolve reconciling differences timely was primarily due to
NCFMS implementation errors that prevented users from retrieving complete and accurate information from
NCFMS and from producing reports needed for reconciliation purposes. In addition, resource constraints and
competing priorities related to the correction of implementation errors reduced time available for staff to perform
reconciliations and maintain effective internal control. Prompt resolution of differences and errors is an essential
component of financial data integrity, and its absence compromises the integrity of the financial statements.

Interfaces between the General Ledger and Subsystems: Certain interfaces between the subsystems and
NCFMS were not working properly subsequent to the system conversion. For instance, grant expense
information in E-grants was not being transferred to NCFMS in a complete manner. In addition, certain grant
obligations were not transmitted properly from NCFMS to the U.S. Department of Health and Human
Services/Payment Management System in order for grantees to drawdown funds. In February 2010, certain
“work-arounds” were developed and implemented to address these and other interface problems, and the
majority of the underlying issues were corrected as of June 2010. We also noted that DOL experienced
significant difficulties uploading data files from Treasury’s Bureau of Public Debt and the Integrated Federal
Employees Compensation System into NCFMS. As a result, DOL was unable to record the majority of the
second quarter data related to the Unemployment Trust Fund (UTF) and Federal Employees’ Compensation Act
(FECA) activities in the general ledger until June 2010. Furthermore, significant differences existed between the
data ultimately uploaded into NCFMS and these two subsystems. DOL was able to materially reconcile these
differences for the year ended September 30, 2010.

Financial Processes: NCFMS-specific accounting processes were not fully developed upon implementation of
the system. For example, processes needed to record current year apportionments, evaluate the accuracy of the
grant accrual, and record property, plant, and equipment additions and deletions were not fully implemented and
documented for a significant part of the year. In addition, DOL had not fully implemented and documented the
process to compile the quarterly financial statements, including development of procedures related to
eliminations and allocations. As a result, DOL was unable to submit second quarter financial statements to OMB.

DOL was eventually able to provide the second quarter financial statements for audit purposes on July 2, 2010.
During our review of these financial statements, we noted numerous errors that were not identified in the OCFO
review nor communicated to us prior to delivery of the financial statements. In addition, management’s responses
to our findings on the second quarter financial statements were not completely provided until three weeks after
the due date. For example, we identified the following issues:

•   Certain beginning balances in the financial statements did not agree with the ending balances reported in the
    FY 2009 audited consolidated financial statements.
•   Certain balances that were reported in multiple places in the statements did not agree.
•   The allocation for the working capital fund for the second quarter was not recorded in the general ledger, and
    therefore, was not included in the financial statements.
•   The financial statements presented several abnormal balances, such as Unexpended Appropriations –
    Earmarked Funds.




                                                                                 FY 2010 Agency Financial Report 37
Financial Section

Material Weaknesses
Exhibit I


    Furthermore, the OCFO did not perform an initial overall analytical review to compare the current period
    financial statements to the prior period financial statements to determine the reasonableness of large or unusual
    fluctuations or identify additional errors.

    The OCFO was able to submit the third quarter financial statements on July 22, 2010. However, upon delivery,
    the OCFO identified numerous errors in these financial statements that required significant adjustments,
    including errors identified in the second quarter financial statements that remained unresolved.

    The delays in compiling the second quarter financial statements resulted from the initial data migration, system
    configuration, and coding errors, and an inability to produce reports from the system for external reporting
    purposes. The financial statement errors occurred because it was necessary for DOL to defer performance of a
    sufficiently detailed review and other financial analyses of the consolidated financial statements and trial balance
    to devote more resources to its corrective action plan related to NCFMS, which was not completed in time for
    submission of the third quarter financial statements. The lack of sufficient review of the DOL consolidated
    financial statements increases the risk that material errors or fraud would not be detected and corrected timely.

    The OCFO also encountered significant difficulties in preparing the financial statements at year-end for OMB’s
    reporting deadline of November 15. The draft financial statements were initially due on October 22, 2010;
    however, the OCFO was unable to complete the initial draft financial statements until November 6, 2010.
    Furthermore, several notes to the draft financial statements had not been completed at that time. In addition, the
    OCFO was not able to provide sufficient supporting documentation for all notes to the financial statements until
    November 11, 2010. Because the OCFO was unable to perform a sufficient review of the draft financial
    statements prior to submission to us, we identified numerous errors in the initial draft financial statements
    provided that were not identified in the OCFO review nor communicated to us prior to delivery of the draft
    financial statements. For example, we identified the following issues:

    •   Unexpended Appropriations - Other Funds in the amount of $10.8 billion was incorrectly presented as
        Unexpended Appropriations - Earmarked Funds in FY 2009 column on the balance sheet.

    •   Numerous balances in the notes to the financial statements did not agree to the financial statements or other
        notes. For example, the Energy Employees Occupational Illness Compensation Benefits Liability of $12.1
        billion reported on the balance sheet as of September 30, 2010, was incorrectly reported as $7.966 billion in
        the notes to the financial statements. In addition, the undiscounted liability of $19.805 billion as of
        September 30, 2010, was incorrectly reported as $12.989 billion.

    •   Distributed offsetting receipts of $76 billion were incorrectly reported on the Reconciliation of Budgetary
        Resources Obligated to Net Cost of Operations presented in the notes to the financial statements.

    •   Note 2, Funds with U.S. Treasury, included misclassifications totaling $2.1 billion.

    We noted that the final FY 2010 consolidated financial statements were revised to correct these errors.

    The OCFO informed us that the delay in submission of its draft financial statements was caused by difficulties
    encountered in completing the year-end Federal Agencies Centralized Trial Balance System II (FACTS II)
    accounting data submission. These difficulties prevented the OCFO from finalizing and recording the adjusting
    entries needed to begin preparation of the financial statements.

    Identifying and Reporting Intragovernmental Transactions: Within NCFMS, various issues related to the
    identification and coding of intragovernmental transactions by trading partner, including incomplete vendor
    information, were encountered as a result of data migration errors. These errors prevented DOL from preparing


38 United States Department of Labor
                                                                                       Independent Auditors’ Report

                                                                                              Material Weaknesses
                                                                                                          Exhibit I


and submitting the required intragovernmental information to Treasury for the second quarter of FY 2010.
Although DOL was able to prepare and submit the required intragovernmental information to Treasury for the
third and fourth quarters, we were informed that certain reconciliation procedures had not been completed for all
trading partners. In addition, significant, unexplained reconciling differences were reported in Treasury’s
Intragovernmental Fiduciary Confirmation System (IFCS) as of June 30, 2010. For instance, interest receivable,
investments, and interest revenue related to UTF had unexplained differences of $158 million, $7.2 billion, and
$345 million, respectively, which were corrected in the fourth quarter. Although some errors related to
intragovermental transactions remained unresolved, DOL was able to correct material errors and accurately
classify and report its intragovernmental transactions and balances, in all material respects, for the year ended
September 30, 2010.

Accounting Resources: During our FY 2010 audit, we observed that the OCFO did not have a sufficient depth of
accounting personnel with the accounting expertise to perform all necessary functions and provide all prepared
by client (PBC) items in support of the audit in a timely and accurate manner. As a result, the OCFO relied
heavily on a few key employees and contractors to perform certain accounting functions because of their
historical knowledge of certain processes, including UTF. In the absence of these key employees and contractors,
the OCFO lacked additional resources who could respond to questions we raised in relation to these processes
during the course of the audit. In addition, the OCFO did not have a contingency plan in place to adequately and
timely perform all accounting functions and internal control procedures related to these processes, without the
assistance of these key individuals. For example, we noted that DOL did not record interest payable and interest
expense related to the UTF repayable advances in the general ledger as of June 30, 2010, when one of its
contractors was on extended leave. In addition, reconciliations and results of procedures performed by OCFO
contractors related to the data migrated from DOLAR$ to NCFMS could not be provided in their absence, which
significantly delayed our audit procedures.

Although OCFO management supplemented their staff with outside resources, the OCFO did not have
sufficiently skilled and knowledgeable employees assigned to monitor its contractors. We noted weaknesses in
supervision, communication, and coordination between the OCFO and its contractors. Furthermore, certain PBC
items, such as data extracts related to the general ledger transactions, undelivered orders, expenses, receivables,
and UTF transfers were initially incomplete and/or incorrect. These issues were the result of poor communication
with contractors and inadequate review of their work by OCFO employees. As a result, we encountered
significant delays to the audit, and the OCFO and its contractors were required to incur substantial effort to
correct the issues.

Other Financial Reporting Controls: The grant accrual calculation was not reviewed by someone other than the
preparer before it was recorded in the general ledger for the periods ended June 30 and September 30, 2010.
Certain key elements of grant data changed with the implementation of NCFMS, requiring that the grant accrual
database be modified. Because DOL encountered significant difficulties in modifying the grant accrual database,
the person normally responsible for reviewing the grant accrual had to perform the calculation for the periods
noted above. As a result, no one with sufficient expertise was available to perform the review of the grant
accrual. Without proper review, the grant accrual could be misstated.

We also noted the OCFO incorrectly recorded UTF Accounts Receivable in the general ledger using the balance
of $1.04 billion instead of the activity, which was $40.2 million as of June 30, 2010. This error was caused by a
new contractor recording the UTF-related entries and resulted in an error of $1.0 billion that was subsequently
corrected prior to year-end.

U.S. Standard General Ledger (USSGL) Compliance: In addition to the intragovernmental transactions
identified above, we identified various other transactions that were not compliant with the USSGL. For example,
we identified the following:


                                                                                FY 2010 Agency Financial Report 39
Financial Section

Material Weaknesses
Exhibit I




    •   Transfers totaling $3.7 billion were not properly recorded by the receiving agencies in the appropriation trust
        fund expenditure transfers collected account because NCFMS was not configured properly. This error was
        manually corrected as of September 30, 2010.

    •   The $4.05 billion change in the liability for estimated future benefits related to the Energy Employees
        Occupational Illness Compensation Program was incorrectly recorded as a contingent liability and a future
        funded expense in the general ledger. This issue was caused by DOL using the incorrect general ledger
        accounts to record this entry. The change in the liability was presented correctly in the financial statements
        as of September 30, 2010.

    •   Expended Appropriations and Appropriations Used were improperly recognized in the general ledger for
        Federal Employees’ Compensation Act benefit payments that were not funded by appropriations because of
        the posting logic used in NCFMS. This situation resulted in abnormal balances of $3.8 billion for Expended
        Appropriations and Unexpended Appropriations Used in the general ledger as of September 30, 2010. The
        OCFO recorded an on-top adjustment prior to submission of the draft financial statements to correct this
        error.

    •   Expended Appropriations and Appropriations Used were improperly recognized in the general ledger for
        State Unemployment Insurance and Employment Service Operations expenditure transfers because of the
        posting logic used in NCFMS. This situation resulted in abnormal balances of $3.2 billion for Expended
        Appropriations and Unexpended Appropriations Used in the general ledger as of June 30, 2010. Although
        DOL implemented a manual process to substantially correct this error for financial reporting purposes, as of
        September 30, 2010, the configuration problem had not been resolved.

    •   Appropriations Used totaling $202 million were improperly recorded in certain earmarked funds because
        NCFMS was configured incorrectly. Although DOL implemented a manual process to correct this error for
        financial reporting purposes, as of September 30, 2010, the configuration problem had not been resolved.

    •   Expenditure Transfers were improperly recorded to expense because NCFMS was configured incorrectly.
        Although DOL did implement a manual process to correct the transfers and record them in the proper
        account, as of September 30, 2010, the configuration problem had not been corrected.

    •   Intragovernmental employee benefit program expenses in the amount of $187 million were misclassified as
        of September 30, 2010. This issue was caused by DOL incorrectly configuring its object class codes related
        to employee benefit programs in the general ledger.

    Federal Managers’ Financial Integrity Act of 1982 (FMFIA) Assessment Process: DOL was unable to
    complete and submit the results of its FMFIA assessment prior to its receipt of the draft FY 2010 internal control
    report in October 2010, which cited four material weaknesses. The OCFO did verbally inform us initially that
    one material weakness had been identified related to financial reporting, which included deficiencies over journal
    entries. When we received the draft Management Assurances on November 6, 2010, we noted that management
    did not identify one material weakness that we identified during the FY 2010 audit – Lack of Adequate Controls
    over Access to Key Financial and Support Systems – and did not identify all elements included in the Lack of
    Sufficient Controls over Budgetary Accounting material weakness we reported. Because management did not
    concur with our reported material weakness related to controls over access to key financial and support systems it
    was not reported in the Management Assurances.

    DOL’s FMFIA assessment process, including activities specifically related to Appendix A of OMB Circular No.
    A-123, Management’s Responsibility for Internal Control, was not appropriately designed to identify material

40 United States Department of Labor
                                                                                       Independent Auditors’ Report

                                                                                              Material Weaknesses
                                                                                                          Exhibit I


weaknesses in internal control and timely prepare and provide the draft assurance statement. In addition, the
OCFO did not receive the financial management quarterly certifications from the DOL agencies, likely as a result
of the issues encountered with the implementation of NCFMS.

The Government Accountability Office (GAO) Standards for Internal Control in the Federal Government (the
Standards) states, “Internal control should generally be designed to assure that ongoing monitoring occurs in the
course of normal operations. It is performed continually and is ingrained in the agency’s operations. It includes
regular management and supervisory activities, comparisons, reconciliations, and other actions people take in
performing their duties.”

OMB Circular No. A-123 states, “The agency head must establish controls that reasonably ensure that
obligations and costs are in compliance with applicable laws; funds, property, and other assets are safeguarded
against waste, loss, unauthorized use, or misappropriation; and revenues and expenditures applicable to agency
operations are properly recorded and accounted for to permit the preparation of accounts and reliable financial
and statistical reports....”

OMB Circular No. A-136, Financial Reporting Requirements (September 2010), section V states, “…Agencies
are required to reconcile intragovernmental balances and transactions at least quarterly. While much of this
reconciliation will occur after the fact, there are tools available that enable agencies to reconcile certain
transaction types prior to final report submission. These transaction types include investments or borrowings with
the Department of the Treasury, benefit-related transactions with the Department of Labor and the Office of
Personnel Management, and transfers of budget authority.”

The USSGL contains the chart of accounts that provides the basic accounting structure for Federal agencies’
general ledger systems. It incorporates both proprietary and budgetary accounts. It also provides the accounting
transactions for events occurring throughout the Federal Government. These transactions illustrate the proper
proprietary and budgetary entries for each accounting event.

FMFIA paragraph 3 states, “...The head of each executive agency shall, on the basis of an evaluation conducted
in accordance with guidelines prescribed under paragraph (2) of this subsection, prepare a statement – that the
agency’s systems of internal accounting and administrative control fully comply with the requirements of
paragraph (1)….” In addition, per OMB Circular No. A-123, Section IV.A, “The agency head's assessment of
internal control can be performed using a variety of information sources. Management has primary responsibility
for assessing and monitoring controls, and should use other sources as a supplement to -- not a replacement for --
its own judgment.”

To address the issues noted above, the Chief Financial Officer should (a) ensure that routine reconciliation
controls are implemented and performed; (b) ensure that all necessary financial reports are developed and
available to the agencies; (c) ensure that any remaining interface errors are promptly resolved; (d) fully document
and implement all business processes and controls required for the accurate and timely operation of NCFMS; (e)
promptly resolve the classification issues related to intragovernmental balances; (f) develop and implement
policies and procedures to monitor the work of OCFO contractors, including the designation of appropriately
skilled and knowledgeable individuals from the OCFO to monitor each accounting process that is primarily
performed by an OCFO contractor, to ensure the work is being properly performed; (g) ensure that someone
other than the preparer is properly reviewing the grant accrual calculation and the UTF accounts receivable
journal entry prior to recording them in the general ledger; (h) review significant transactions for USSGL
compliance and make any necessary corrections; (i) review its FMFIA assessment process and implement
enhancements to better identify material weaknesses in internal control and more timely complete its draft
FMFIA assurance statement; and (j) ensure that the draft DLMS policies and procedures requiring detailed
review of all financial information in the draft financial statements are comprehensive and finalized and that
OCFO personnel adhere to these policies. Financial statement review should include procedures for comparing

                                                                                FY 2010 Agency Financial Report 41
Financial Section

Material Weaknesses
Exhibit I


    financial data reported on the different statements to ensure accuracy and consistency; agreeing the financial data
    to the general ledger to ensure existence, completeness, and accuracy of financial data reported; and analyzing
    significant variances between current period and prior period financial information.

    Management’s Response: As indicated by the auditors, DOL encountered a number of challenges during FY
    2010 with the implementation of the new financial management system, NCFMS. These challenges hampered
    our ability to perform certain quality assurance procedures relative to financial reporting and system operations,
    while simultaneously maintaining routine, day-to-day control activities and procedures. The OCFO chose to
    focus its attention and limited resources on identifying and implementing permanent system corrections to the
    many unforeseen system control and mapping issues. Workgroups were organized for both financial reporting
    and operational issues, and the OCFO aggressively managed the workgroups to ensure that issues identified with
    NCFMS were documented, tracked and corrected in a systematic manner.

    While we generally concur with the auditor’s recommendations, we note that many of the recommendations
    correspond with actions planned or already taken by the OCFO in its efforts to produce accurate and complete
    year-end financial statements. Quality assurance steps were performed for year-end financial reporting, and as
    noted by the auditors many of the issues identified by the auditors were resolved prior to the issuance of the
    financial statements. For the recommendations not yet resolved, OCFO resources will be prioritized to address
    these recommendations.

    With respect to our available resources and the use of contractor staff, we do not agree with the auditor’s
    conclusions. As noted above, the NCFMS implementation created many challenges for DOL and stretched
    staffing resources in our attempts to address system-related implementation issues. As such, OCFO management
    secured additional contractor resources during FY 2010 to support NCFMS operational issues and quarterly
    financial reporting requirements. The use of contractor support for financial management is well established in
    the federal government. We will continue to use contractors as we deem necessary, and believe that the practice
    is a prudent use of available resources and one that produces effective results. We will continue to ensure that
    work performed by contractors is well documented, supervised, and readily available to the auditors.

    In addition, DOL did complete its internal controls assessment process on a timely basis although we agree that a
    draft of the assurance statement was not provided to the auditors by the requested date. The discussion noted by
    the auditors was preliminary as the Department was considering how to present the material weaknesses, such as
    one overall material weakness in financial reporting with various subparts, (e.g., financial statements preparation
    process, account and reports reconciliations, journal voucher preparation and approval process, and data
    validation) or as separate weaknesses. We also informed the auditors that our assessment did not determine that
    there was a material weakness in controls over access to financial systems and management has responded to the
    auditors that it does not agree with their assessment.

    Auditor’s Response: Management has provided a corrective action plan to address our recommendations. FY
    2011 audit procedures will determine whether these recommendations have been adequately addressed and can
    be considered closed.

2. Lack of Sufficient Controls over Budgetary Accounting

    As part of the FY 2009 significant deficiency we reported relating to the lack of sufficient internal controls over
    financial statement preparation, we recommended that the Chief Financial Officer (a) implement procedures to
    require that OCFO staff reconcile the amount of distributed offsetting receipts reported on DOL’s quarterly
    Statement of Budgetary Resources (SBR) to distributed offsetting receipts reported on Treasury’s Quarterly
    Distributed Offsetting Receipts by Department Report, and (b) complete the quarterly reconciliations of the SBR
    to the Report on Budget Execution and Budgetary Resources (SF-133), including the completion of documented


42 United States Department of Labor
                                                                                       Independent Auditors’ Report

                                                                                              Material Weaknesses
                                                                                                          Exhibit I


supervisory reviews over these reconciliations, by a certain date that facilitates timely identification and
correction of potential SBR misstatements.

During FY 2010, DOL encountered numerous issues related to its budgetary accounting. Specifically, we noted
the following issues:

Budgetary Resources: We tested the reconciliation of the Apportionment and Reapportionment Schedules (SF-
132) to the SF-133 for the first quarter. We noted that the reconciliation identified a material difference between
the SF-132 and SF-133, which lacked supporting documentation to substantiate that it was adequately researched
and resolved. Upon further investigation, we noted that this difference was the result of appropriations received
in the amount of $12.5 billion that were recorded twice in the general ledger, resulting in appropriations received
being overstated. During the first quarter, DOL appropriately recorded the initial entry in an annual fund for
approved funding related to the continuing resolution. However, the appropriation law that was subsequently
passed changed it from an annual fund to a multi-year fund. DOL subsequently submitted an updated SF-132 for
the multi-year fund, and upon OMB approval during the second quarter, recorded the $12.5 billion a second time
without reversing the initial entry. The misstatement was corrected as of September 30, 2010. This error was not
detected because the OCFO staff had limited time available to sufficiently and timely perform control activities
due to competing priorities related to efforts resolving NCFMS implementation issues.

During our second quarter testing, we noted that DOL recorded an adjustment in the general ledger to decrease
Appropriations Received in order to correct data migration errors stemming from the implementation of NCFMS.
However, this entry was not properly reversed in the subsequent period, and as a result, Appropriations Received
was understated by $224 million. The misstatement was corrected as of September 30, 2010.

Lack of Budgetary Reconciliations: The following budgetary reconciliations were not prepared by management
for the second and third quarters: (1) SF-132 to the SF-133; (2) SF-133 to the SBR; (3) budgetary to proprietary
account relationship analysis; (4) net outlays per the Government-wide Accounting (GWA) Account Statement
Expenditure Activity Report to the SBR; and (5) distributed offsetting receipts per the SBR and general ledger to
distributed offsetting receipts per Treasury’s Quarterly Distributed Offsetting Receipts by Department Report
(Department Report). While these reconciliations were performed in prior years, the OCFO informed us that the
reconciliations would not be provided for the second and third quarters of FY 2010 because the OCFO staff
needed to focus its efforts on resolving issues related to the implementation of NCFMS. Because the OCFO did
not perform these reconciliations, we identified the following differences as of June 30, 2010:

SF-132 to the SF-133
• Spending Authority from Offsetting Collections: Expenditure Transfers from Trust Funds Collected,
   Anticipated reported on the SF-133 and in the general ledger was overstated by $563 million.
• Temporarily not Available Pursuant to Public Law was overstated and total budgetary resources reported on
   the SF-133 and in the general ledger were understated by $485.3 million.
• Appropriation Actual reported on the SF-133 and in the general ledger was overstated by $11.95 billion
   while Appropriation Anticipated was understated by $22.45 billion.

These misstatements were corrected in the general ledger for the year ended September 30, 2010.

SF-133 to the SBR
• Unobligated Balance Brought Forward, October 1, reported on the SBR exceeded the amounts reported on
   both the SF-133 and the general ledger by $14.3 billion.
• Appropriation: Borrowing Authority reported on the SBR and in the general ledger exceeded the amounts
   reported on the SF-133 by $11 billion.



                                                                                FY 2010 Agency Financial Report 43
Financial Section

Material Weaknesses
Exhibit I


    •   Nonexpenditure Transfers, Net reported on the SBR was less than the amount report on the SF-133 by $28.8
        billion.
    •   Total Budgetary Resources reported on the SBR exceeded the amount reported on the SF-133 by $6 billion.
    •   Obligations Incurred reported on the SBR exceeded the amount reported on the SF-133 by $18.8 billion.
    •   Net Outlays reported on the SBR exceeded the amount reported on the SF-133 by $3 billion.

    These misstatements were corrected in the general ledger for the year ended September 30, 2010.

    Budgetary to Proprietary Account Relationship Analysis
    We identified numerous differences between budgetary and proprietary accounts during our account relationship
    analysis as of June 30, 2010. Specifically, we identified material differences between budgetary and proprietary
    accounts related to fund balance with Treasury, accounts receivable, accounts payable, expenses, expended
    appropriations, unexpended appropriations, and revenue. These differences ranged from $1.6 billion to $14.8
    billion. We also performed the account relationship analysis as of September 30, 2010. While we identified
    fewer differences at year end, we did note several differences related to expended appropriations, unexpended
    appropriations, accounts payable, expenses, and revenue. These differences ranged from $482 million to $3.2
    billion. These differences were resolved in the final FY 2010 financial statements.

    Distributed Offsetting Receipts
    During our March 31, 2010 testing, we noted that distributed offsetting receipts reported on the SBR did not
    agree to Treasury’s Department Report. The amount reported on the SBR was understated by approximately
    $43.8 billion. DOL subsequently corrected the discrepancy in its June 30, 2010 SBR. However, we identified
    that the distributed offsetting receipts reported on the SBR as of June 30, 2010, did not agree to the general
    ledger. When we compared the distributed offsetting receipts recorded in the general ledger to Treasury’s
    Department Report as of June 30, 2010, we noted that the general ledger was understated by $11.4 billion. This
    misstatement was corrected as of September 30, 2010.

    Nonexpenditure Transfers: During our testing, we identified that nonexpenditure transfers in the amount of
    $12.5 billion were recorded twice in the general ledger related to the Appropriations Received issue discussed in
    the Budgetary Resources section above. Furthermore, because the transfer was from a general fund to UTF, it
    was not compliant with OMB Circular No. A-11, Preparation, Submission, and Execution of the Budget, or the
    USSGL. This misstatement was corrected as of September 30, 2010.

    In addition, we identified a nonexpenditure transfer in the amount of $16.6 billion that was incorrectly recorded
    in the general ledger as Transfers – Current-Year Authority instead of Amounts Appropriated from Specific
    Invested TAFS – Transfer-Out. As a result, Nonexpenditure Transfers, Net was understated and Actual
    Appropriation was overstated by $16.6 billion as of June 30, 2010. The error also resulted in noncompliance
    with the USSGL at the transactional level. This error occurred because the OCFO did not have policies and
    procedures in place regarding how to properly record UTF repayable advances. An on-top adjustment was
    recorded to the year-end financial statements to correct this issue.

    We also identified 17 nonexpenditure transfers that were recorded in the general ledger but were not supported
    by a Non Expenditure Transfer Authorization (FMS 1151). This resulted in Nonexpenditure Transfers, Net being
    overstated by $337 million as of June 30, 2010. We submitted follow-up questions to DOL to determine the
    cause of these discrepancies but did not receive a response to our inquiry. A $249 million adjustment was
    subsequently recorded in the general ledger to partially correct this error as of September 30, 2010.

    Budgetary Entries for Multi-year and No-Year Funds: DOL did not record certain apportionments approved by
    OMB for multi-year and no-year funds. Our procedures disclosed eight instances where an apportionment
    approved by OMB was not recorded in the general ledger during the first quarter of FY 2010 because DOL had


44 United States Department of Labor
                                                                                      Independent Auditors’ Report

                                                                                              Material Weaknesses
                                                                                                          Exhibit I


not developed policies and procedures for this activity. This resulted in Unobligated Balances Available being
understated by approximately $1.5 billion as of December 31, 2009. This misstatement was corrected as of
September 30, 2010.

Obligations and Fund Control: Certain contracts and obligations were not migrated from DOLAR$ or were
migrated with incorrect identifying information. As a result, several agencies reported concerns regarding the
accuracy of the balances associated with their unliquidated and unpaid obligations, which adversely affected their
ability to monitor and control their budgets. In addition, the posting logic contained within NCFMS prevented
the reconciliation of paid and unpaid obligations from the purchasing and payables modules.

Furthermore, quarterly reviews of UDOs to determine whether any UDO balances required deobligation were not
performed during the fiscal year. Because of resource constraints and competing priorities related to NCFMS
implementation issues, the OCFO did not have sufficient resources to implement formal processes for the
quarterly reviews. Without effective controls to monitor the status of UDOs and deobligate remaining funds
timely, UDOs may be overstated.

In addition, we performed an analysis over DOL’s obligations as of June 30, 2010. Specifically, we compared
the amount of obligations incurred reported on the SF-133s to the total amount available to obligate on the SF-
132s. Based on our review, we determined that the amount of obligations incurred exceeded total funds available
by $9.7 billion, raising a question about compliance with the Anti-deficiency Act. We submitted the results of our
analysis to OCFO personnel and asked them to investigate and identify the causes of these discrepancies. OCFO
personnel provided sufficient evidence in March 2011 that these discrepancies were not instances of
noncompliance with the Anti-deficiency Act.

Additionally, we initially could not perform the same comparison as of September 30, 2010 because DOL did not
submit the final FY 2010 SF-133s to us as of November 15, 2010. Once DOL submitted the final FY 2010 SF-
133s, we performed a similar analysis as of September 30, 2010 and determined that the amount of obligations
incurred exceeded total funds available by $562,000. However, OCFO personnel provided evidence in April
2011 that this discrepancy was not an instance of noncompliance with the Anti-deficiency Act.

Reconciliation of the SBR and the Budget of the United States Government: The balances reported in the
initial reconciliation to the Budget of the United States Government related to Budgetary Resources, Obligations
Incurred, and Net Outlays as of September 30, 2009, did not agree to the underlying supporting documentation.
The differences were caused by the improper exclusion of amounts related to the Black Lung Disability Trust
Fund refinancing from the Budget of the United States Government line item. As a result, DOL improperly
presented a reconciling difference between the SBR and the Budget of the United States Government of $6.5
billion for each of the three aforementioned categories. We communicated the error to DOL, and it was
subsequently resolved in the revised reconciliation. The error occurred because DOL did not perform an
adequate review of the reconciliation prior to submitting it to us.

USSGL Compliance: In addition to certain issues noted above, we identified the following budgetary
transactions that were not recorded in compliance with the USSGL.

•   DOL did not properly record the post-closing budgetary entries for unobligated balances related to unexpired
    multi-year funds at the end of FY 2009. While this error had no financial statement impact as both of the
    accounts affected were properly reported as Unobligated Balance Not Available in the FY 2009 consolidated
    financial statements, it did result in noncompliance with the USSGL at the transactional level that continued
    in FY 2010. This misstatement, which was subsequently corrected as of June 30, 2010, occurred because
    DOL did not develop policies and procedures for recording such entries. Additionally, the preparer of the
    entries did not have the technical accounting proficiency needed to properly record the entries, and the


                                                                                FY 2010 Agency Financial Report 45
Financial Section

Material Weaknesses
Exhibit I


        entries were not properly reviewed by someone other than the preparer prior to recording them in the general
        ledger.
    •   Budgetary and proprietary entries were not recorded simultaneously for economic events related to the
        enactment of an appropriation or budget authority. On average, the entries we identified were recorded 10
        days apart, but we identified several transactions that were recorded 60 days or more apart. The budget and
        proprietary entries were not recorded simultaneously because they were recorded by two separate agencies
        that did not coordinate accordingly.
    •   Appropriated receipts from trust funds in the amount of $599 million were improperly recorded in the
        general ledger as Other Appropriations Realized instead of Appropriated Trust or Special Fund Receipts as
        of September 30, 2010. The entries to record the appropriated receipts were not properly reviewed by
        someone other than the preparer prior to recording them in the general ledger. This misstatement was
        subsequently corrected through a post-closing journal entry.

    The Standards state:

    •   “Internal control and all transactions and other significant events need to be clearly documented, and the
        documentation should be readily available.”
    •   “Internal control should generally be designed to assure that ongoing monitoring occurs in the course of
        normal operations. It is performed continually and is ingrained in the agency’s operations. It includes regular
        management and supervisory activities, comparisons, reconciliations, and other actions people take in
        performing their duties.”
    •   “Transactions should be promptly recorded to maintain their relevance and value to management in
        controlling operations and making decisions. This applies to the entire process or life cycle of a transaction
        or event from the initiation and authorization through its final classification in summary records. In addition,
        control activities help to ensure that all transactions are completely and accurately recorded.”
    •   “Control activities occur at all levels and functions of the entity. They include a wide range of diverse
        activities such as approvals, authorizations, verifications, reconciliations, performance reviews, maintenance
        of security, and the creation and maintenance of related records which provide evidence of execution of these
        activities as well as appropriate documentation.”
    •   “The documentation should appear in management directives, administrative policies, or operating manuals
        and may be in paper or electronic form. All documentation and records should be properly managed and
        maintained.”

    According to OMB Circular No. A-136, section II.4.6.1, "... Information on the SBR should be reconcilable to
    the budget execution information reported on the SF 133 Report on Budget Execution and Budgetary Resources
    and with information reported in the Budget of the United States Government to ensure the integrity of the
    numbers presented. The SBR is an agency-wide report, which aggregates account-level information reported in
    the SF 133 ..."

    OMB Circular No. A-136, section II.4.9.35 states, “Identify and explain material differences between amounts
    reported in the SBR and the actual amounts reported in the Budget of the United States Government as required
    by SFFAS No. 7. Since the financial statements are now published before the Budget, this reconciliation will be
    based on the prior year’s SBR and actual amounts for that year in the most recently published Budget.”

    OMB Circular No. A-11 states, “… Nonexpenditure transfers are limited to transactions in which both accounts
    are within the same fund group (i.e., trust-to-trust or Federal-to-Federal).”

    OMB Circular No. A-11 also states, “The Antideficiency Act 665(a), No officer or employee or the United States
    shall make or authorize any expenditure from or create or authorize an obligation under any appropriations or
    fund in excess of the amount available therein:..”


46 United States Department of Labor
                                                                                       Independent Auditors’ Report

                                                                                              Material Weaknesses
                                                                                                          Exhibit I




OMB Circular No. A-11 states, “You need to adjust the spending authority from cash collections if the account is
authorized to perform reimbursable work for another Federal account and you incur obligations against
receivables from Federal sources and unfilled customer orders from Federal sources without an advance—that is,
before receiving the cash. The law allows you to incur such obligations as long as the paying account is a Federal
account and an obligation is recorded against resources available to the paying account. For example, a financing
account can obligate against a subsidy accounts receivable from the program account before the cash is received
from the program account if the program account has recorded an obligation in the form of a subsidy accounts
payable to the financing account. (You cannot incur obligations against customer orders received from non-
Federal sources without an advance, unless a law specifically allows it.)”

The USSGL contains the chart of accounts that provides the basic accounting structure for Federal agencies’
general ledger systems. It incorporates both proprietary and budgetary accounts. It also provides the accounting
transactions for events occurring throughout the Federal Government. These transactions illustrate the proper
proprietary and budgetary entries for each accounting event.

To address the issues noted above, the Chief Financial Officer should ensure that (a) policies and procedures over
the SF-132 and SF-133 reconciliations are enhanced to address the minimum documentation requirements
needed to substantiate that identified differences were properly researched and resolved; (b) individuals
performing supervisory reviews are required to check the reconciliations for appropriate supporting
documentation; (c) adequate resources are in place to complete all necessary reconciliations timely and to
maintain adequate internal controls over financial reporting, both while NCFMS implementation issues are being
resolved and for all periods thereafter; (d) procedures are implemented to periodically obtain and review the
results of the agencies’ review of their unliquidated obligations and ensure expired and invalid UDOs are
deobligated timely in the general ledger either by the agency or OCFO; (e) appropriate corrective actions are
performed to ensure that the identifying information and balances for obligations are correct, and that the posting
logic in NCFMS is properly configured; (f) preparers of budgetary entries are properly trained and possess the
technical accounting proficiencies needed to properly record the entries; (g) one agency is responsible for
recording both the budgetary and proprietary journal entries for economic events, or if separate agencies continue
to record the entries, that those agencies are appropriately coordinating; and (h) procedures are developed and
implemented for multi-year and no-year funds to ensure that post-closing entries for unobligated balances are
properly recorded at year end, and reapportionments are promptly recorded to the general ledger in the
subsequent year.

Management’s Response: Management concurs with these recommendations and has initiated appropriate
corrective action plans. For FY 2010 year-end financial reporting we were able to address all significant issues
and recorded adjustments as required. Budgetary accounts were analyzed and adjusted as necessary to ensure
accurate budgetary reporting. The year-end Statement of Budgetary Resources was extensively reviewed and
subjected to various analytical procedures.

Management is also reviewing existing policies and procedures to identify areas that could be strengthened
within our budgetary accounts reconciliation processes, particularly the SF-132 to SF-133 reconciliation.

The OCFO fiscal year-end closing checklist includes tasks for unexpired multi-year and no-year funds to ensure
that post-closing entries for unobligated balances are properly recorded at year end, and that reapportionments
are promptly recorded to the budgetary subsystem and general ledger.

The implementation of a new accounting system has required substantial additional resources, and has in some
instances changed the skill levels necessary to perform routine operational activities. The OCFO is committed to
providing additional training and support as needed to ensure that budgetary accounts are recorded accurately,
completely and timely.

                                                                                FY 2010 Agency Financial Report 47
Financial Section

Material Weaknesses
Exhibit I




    Auditor’s Response: Management has provided a corrective action plan to address our recommendations. FY
    2011 audit procedures will determine whether these recommendations have been adequately addressed and can
    be considered closed.

3. Improvements Needed in the Preparation and Review of Journal Entries

    During the FY 2006 audit, we noted that accounting staff from all DOL agencies were able to prepare and enter
    journal entries into DOLAR$ without approval. Although the OCFO developed Department-wide manual
    policies and procedures designed to ensure the segregation of journal entry preparation and approval authority in
    the second quarter of FY 2007, which was revised and reissued in the second quarter of FY 2008, the same lack
    of supporting documentation evidencing management review and approval was noted during the FYs 2007, 2008,
    and 2009 audits.

    During the course of the FYs 2006, 2007, 2008, and 2009 audits, we issued several recommendations to the
    OCFO, including the FY 2007 recommendation that management reconfigure DOLAR$ (and its successor
    system) so that journal entries entered into the DOLAR$ general ledger system (and its successor system) are
    required to be approved electronically by an individual other than the preparer before posting. We also
    recommended that:

    •   Agencies implement manual compensating review controls until system controls have been implemented.
    •   OCFO management monitor DOL employees’ and agencies’ compliance with DOL-wide policies and
        procedures in place for documenting the review of all journal entries.
    •   OCFO management design and implement detective controls that require supervisors to periodically generate
        and review activity reports that list all journal entries posted to DOLAR$.
    •   OCFO management revise DOL-wide policies and procedures to require that all manual entries, including
        top-side adjustment entries, be documented and reviewed and approved by a supervisor or someone other
        than the preparer before the financial statements are adjusted.

    During our FY 2010 audit, we tested a sample of 151 journal entries recorded in DOLAR$ from October 1, 2009,
    through December 31, 2009. For 10 of these journal entries, the OCFO did not provide support evidencing that
    they had been properly reviewed by a supervisor or someone other than the preparer before they were posted to
    DOLAR$. Additionally, 20 of these journal entries were not supported by adequate supporting documentation
    (e.g., DL-1280, Miscellaneous Obligations Record, Invoice, or equivalent), which reflected the underlying
    economic transactions. Furthermore, seven of these journal entries were not in accordance with the USSGL.

    In addition, we selected a sample of 242 journal entries recorded in NCFMS from January 1, 2010, through June
    30, 2010. The OCFO was unable to provide any supporting documentation for 181 of the journal entries
    selected. None of the 61 journal entries tested had sufficient documentation to evidence that the entry was
    properly reviewed by a supervisor or someone other than the preparer prior to being posted. Additionally, 48 of
    these journal entries were not supported by adequate documentation, which prevented us from determining
    whether these journal entries were recorded in the proper period and in accordance with the USSGL.

    In addition, we identified that 110 of the 242 journal entries were not prepared and approved by DOL personnel
    within NCFMS, because these entries were directly uploaded into the general ledger by the OCFO’s shared
    service provider (SSP). Of these 110 journal entries, 104 (including 32 of the 61 exceptions noted above) did not
    have documentation to support that they were properly reviewed and approved by a DOL supervisor prior to
    posting.




48 United States Department of Labor
                                                                                      Independent Auditors’ Report

                                                                                              Material Weaknesses
                                                                                                          Exhibit I


By posting transactions to the general ledger without proper review and approval and allowing individuals the
authority to prepare and approve their own transactions, there is an increased risk that a material error would not
be prevented or detected and corrected in a timely manner. In addition, without adequate supporting
documentation, management is unable to determine the appropriateness of transactions posted to the general
ledger.

DOL supervisors did not sufficiently review journal entries to ensure they were properly prepared and supported
before posting to the general ledger. In addition, certain individuals did not follow, or document that they
followed, DOL policies for the proper segregation of duties related to the preparation and posting of journal
entries.

In the case of the journal entries posted by the SSP in Q2 and Q3, the journal entries were not automatically
routed to the appropriate authorized approver in NCFMS because of system errors, necessitating the posting by
the SSP. Given time constraints, proper DOL approval of some of these entries was not completed and
documented.

In addition, DOL did not reconfigure DOLAR$ to provide for electronic approval by an individual other than the
preparer before posting because of the implementation of NCFMS in January 2010.

The Standards state, “Internal control and all transactions and other significant events need to be clearly
documented, and the documentation should be readily available for examination. The documentation should
appear in management directives, administrative policies, or operating manuals and may be in paper or electronic
form. All documentation and records should be properly managed and maintained.”

The Standards also state that, “Key duties and responsibilities need to be divided or segregated among different
people to reduce the risk of error or fraud. This should include separating the responsibilities for authorizing
transactions, processing and recording them, reviewing the transactions, and handling any related assets. No one
individual should control all key aspects of a transaction or event.”

Furthermore, the Standards state that, “Internal control should generally be designed to assure that ongoing
monitoring occurs in the course of normal operations. It is performed continually and is ingrained in the agency’s
operations. It includes regular management and supervisory activities, comparisons, reconciliations, and other
actions people take in performing their duties.”

Because management has implemented a new general ledger system that requires electronic approval by
someone other than the preparer before journal entries are posted, the recommendation we made in FY 2007 is
considered closed. In addition, the recommendations we made in FY 2006 through FY 2009 related to manual
controls were closed because of the change in the control environment resulting from the new general ledger
system implementation.

To address the issues identified during FY 2010, we recommend that the Chief Financial Officer (a) evaluate the
system errors that are preventing certain journal entries from being routed to the approver, and develop and
implement appropriate corrective action; (b) enhance policies and procedures and provide related training to
address the minimum documentation requirements needed to sufficiently support journal entries; and (c) develop
monitoring controls to ensure that supervisors or individuals other than the preparer are performing adequate
reviews of journal entries and related documentation before the entries are posted to ensure they are properly
supported.

Management’s Response: Management generally concurs with the findings and recommendations noted above
and has initiated appropriate corrective actions to address these recommendations. We have revised our policies


                                                                                FY 2010 Agency Financial Report 49
Financial Section

Material Weaknesses
Exhibit I


    covering the preparation and approval of journal entries and the required supporting documentation. We have
    also provided training to staff preparing journal entries.

    Management does not agree that journal entries directly uploaded by the OCFO SSP were not prepared, properly
    reviewed, and approved by authorized personnel and/or DOL supervisors prior to posting in NCFMS.
    Management considers vendor responsibilities with regard to manual JVs to include the upload and transfer of
    JVs to the general ledger as part of the SSP services provided. Systematic controls inherent to the NCFMS
    system are designed to ensure management review and approval of all data changes to journal vouchers prior to
    posting.

    Auditor Response: Management has provided a corrective action plan to address our recommendations. FY
    2011 audit procedures will determine whether these recommendations have been adequately addressed and can
    be considered closed.

4. Lack of Adequate Controls over Access to Key Financial and Support Systems

    In FY 2006 through FY 2009, we reported a significant deficiency relating to the lack of adequate controls over
    access to key financial and support systems.

    We recommended that the Chief Information Officer (a) coordinate efforts among the DOL agencies to develop
    and/or enforce procedures and controls to address access control weaknesses in current financial management
    systems; (b) monitor the agencies’ progress to ensure that procedures and controls are appropriately implemented
    and maintained; and (c) ensure that sufficient resources are available to develop, implement, and monitor the
    procedures and controls that address control weaknesses.

    In FY 2010, DOL agencies were able to complete corrective action to address certain previously-identified
    control weaknesses. However, the results of our FY 2010 testing of DOL’s information technology (IT) systems
    indicated that access control weaknesses continued to be systemic across various DOL agencies. In our testing,
    we identified new access control weaknesses in addition to access control weaknesses that were reported in prior
    years.

    We have classified the weaknesses identified into the following three categories: account management, system
    access settings, and system audit log reviews. The first two categories summarize those weaknesses identified
    related to controls that are designed to help prevent unauthorized access to IT systems. The specific weaknesses
    identified in these two categories were as follows:

    Account Management

        •    Account management controls were not performed, evidenced by incomplete or missing access requests,
             non-disclosure agreements, modification forms, and termination forms;
        •    Certain user accounts were granted more privileges than what was requested on their access request
             forms;
         •   User accounts were not timely removed for separated users. Certain separated users had active system
             accounts, and in some cases, separated users accessed systems after their separation dates;
         •   Certain system account access was not properly restricted to those with a need-to-know;
         •   Periodic user account reviews or re-certifications were not appropriately performed;
         •   Procedures requiring periodic review of data center access were not updated;
         •   Generic accounts existed on a system without a proper business justification for approximately half of
             the fiscal year;
         •   Multiple user accounts existed for the same user; and


50 United States Department of Labor
                                                                                       Independent Auditors’ Report

                                                                                              Material Weaknesses
                                                                                                          Exhibit I


    •   Incidents were not timely reported.

System Access Settings

    •   Unnecessary services were not disabled;
    •   Servers were not configured to the most appropriate settings;
    •   Inactive accounts were not disabled in a timely manner; and
    •   Password settings and remote session timeouts did not comply with the Office of the Chief Information
        Officer Computer Security Handbook.

The account management access control weaknesses increase the risk that current employees, separated
employees, and/or contractors may obtain unauthorized or inappropriate access to financial systems and/or data.
Such access could lead to unauthorized activities and/or inappropriate disclosures of sensitive data. Additionally,
system access setting weaknesses may be exploited, in either a singular fashion or in combination, by a malicious
user, which may affect the confidentiality, integrity, and/or availability of DOL systems and data.

The system audit logs review category represents controls designed to detect unauthorized access to IT systems.
Although DOL has certain detective controls in place to mitigate the aforementioned risks, we also identified
certain weaknesses in those controls, as follows:

System Audit Logs Review

    •   Certain system administrator activities were not properly logged;
    •   Audit logs monitoring user and administrator activity, changes to security profiles, remote access logs,
        access to sensitive directories, and failed login attempts were not reviewed, or documentation of audit
        log reviews was not maintained;
    •   Audit logs monitoring firewall and Intrusion Detection System activity were not reviewed; and
    •   Application-level audit logs (e.g., high risk transactions) were not proactively reviewed.

The lack of system audit log reviews may allow for unauthorized or inappropriate activities to go undetected by
management. Collectively, the aforementioned weaknesses pose a significant risk to the integrity of DOL’s data,
which could ultimately impact its ability to accurately and timely perform its financial reporting duties. The
specific nature of these weaknesses, their causes, and the systems impacted by them has been communicated
separately to management.

Additionally, during the second quarter of FY 2010, DOL implemented a new general ledger system, which
significantly changed its control environment and led to a deterioration of manual compensating controls that had
historically mitigated certain access control weaknesses. As a result, we consider the recurring prior year access
control weaknesses coupled with new access control weaknesses identified in our FY 2010 testing of DOL’s IT
systems a material weakness in the aggregate.

The identified IT control weaknesses were a result of systemic issues in the implementation and monitoring of
Departmental procedures and controls. DOL agencies have not invested the necessary level of effort and
resources to ensure that IT policies and procedures are operating effectively.




                                                                                FY 2010 Agency Financial Report 51
Financial Section

Material Weaknesses
Exhibit I


    To address the issues noted above, the Chief Information Officer should (a) coordinate efforts among the DOL
    agencies to develop procedures and controls to address access control weaknesses in current financial
    management systems; (b) monitor the agencies’ progress to ensure that procedures and controls are appropriately
    implemented and maintained; and (c) ensure that sufficient resources are available to develop, implement, and
    monitor the procedures and controls that address access control weaknesses.

    Management’s Response: The Office of the Assistant Secretary for Administration and Management (OASAM)
    does not concur with the aggregated material weakness regarding lack of adequate controls over access to key
    financial and support systems. DOL management asserts DOL policies, procedures, and standards collectively
    provide compound safeguards and redundant security measures to ensure the integrity of DOL financial systems.

    The findings, as presented, do not adequately represent the operating environments of the systems audited in a
    holistic manner. The financial systems are physically and logically separated with appropriate supporting
    boundary controls. The segregated environments that host DOL financial applications provide supplemental
    controls aligned to the security best practice concept of defense in depth. The layers of security safeguards
    required to be overcome to successfully exploit access control weaknesses identified in the report suggests that
    the report does not accurately reflect the risk associated with the identified vulnerabilities.

    The diversity and inconsistent distribution of the findings across systems and fiscal years does not support a
    Department-wide systemic access control deficiency, but rather system and agency specific access control
    weaknesses. In FY 2010 64% of the financial system audit findings related to only two agencies and 33% of the
    total were attributed to two individual systems in separate agencies. This distribution of control weakness
    finding supports the need for a focused effort within the offending agencies and systems; however, this does not
    substantiate a Department-wide material weakness.

    A Department-wide comprehensive risk strategy was established to address identified conditions associated with
    the FY 2009 audit findings, and the following milestones were achieved in FY 2010:

         •   Developed FY 2010 Agency Core Profiles to establish a baseline for overall compliance, including
             access control and configuration management elements;
         •   Implemented an Enterprise Risk Management Compliance Program (RMCP) to measure agency
             compliance with security control requirements and Plan of Action and Milestone (POAM) resolution and
             issued Agency Dashboards in March 2011; and
         •   Successfully resolved of the highest priority FY 2009 configuration management findings for the timely
             application of patches and access restrictions to sensitive files, directories and software.

    Management remains committed to safeguarding DOL financial systems. In FY 2011, Management will
    continue to deploy policies, procedures, and automated tools aimed at strengthening providing continuous
    monitoring of the overall security posture of DOL’s computer security program.

    Auditor Response: The details of our FY 2010 IT findings and recommendations were provided to DOL
    management through the established Notification of Findings and Recommendations process. Although we did
    not identify any individual finding as a material weakness, we evaluated the combination of certain findings, in
    accordance with auditing standards generally accepted in the United States of America, to conclude that a
    material weakness does exist, taking into consideration that certain findings, when assessed in aggregate,
    identified deficiencies in both detective and preventive access controls related to one or more financial systems.
    Although management stated that they do not concur with our recommendations, they plan on taking steps to
    address them. FY 2011 audit procedures will determine whether these recommendations have been adequately
    addressed and can be considered closed.



52 United States Department of Labor
                                                                                          Independent Auditors’ Report

                                                                                                 Significant Deficiencies
                                                                                                                Exhibit II


5. Weakness Noted over Payroll Accounting

   During fiscal years (FY) 2006 through 2010, the U.S. Department of Labor (DOL) used the U.S. Department of
   Agriculture’s (USDA) Office of Chief Financial Officer (OCFO)/National Finance Center (NFC) to process its
   payroll. For each pay period, DOL submitted to the NFC payroll information that included all DOL employees
   for the period, along with their hours worked, leave used, and other payroll-related information for the period.
   The NFC processed the payroll for DOL each period and made available for download a Detail Pay and Deduct
   Register report for each DOL Human Resources office.

   In FY 2006, we noted that DOL did not utilize the Detail Pay and Deduct Register reports to perform reviews or
   reconciliations of data processed by the NFC, and no other controls were in place during the year to ensure that
   the information that was submitted to NFC via Time and Attendance records was reconciled to what was shown
   as paid in the Detail Pay and Deduct Register.

   We recommended that management develop and implement policies and procedures to reconcile payroll
   information provided to the NFC to the payroll information processed by the NFC each pay period. These
   reconciliations should be documented, reviewed, approved by an appropriate supervisor, and maintained.

   As part of DOL’s corrective action plan for FY 2007, the OCFO’s PeoplePower Task Force created a Time and
   Attendance Reconciliation Report, and the DOL OCFO issued policies and procedures that stated that each DOL
   Human Resources office should review the Time and Attendance Reconciliation Reports each pay period and
   research and resolve differences identified. No offices that we tested in FY 2007 complied with the new OCFO
   procedures, but two offices that we tested performed their own reconciliation procedures.

   During FY 2008, the OCFO issued revised policies and procedures dated October 23, 2007, requiring a review of
   the Time and Attendance Reconciliation Reports, and implemented these policies and procedures. The OCFO
   also performed monitoring department-wide to ensure that the reviews were completed, documented, and
   approved by an appropriate supervisor, and maintained. However, we noted that the reconciliation tested from
   the Atlanta processing center did not contain a signature to validate the review. In addition, the Time and
   Attendance Reconciliation Reports do not contain a space for the date of the review; therefore, the timeliness of
   the reconciliations and certifications was not verifiable. Furthermore, the policies and procedures issued and the
   related reviews and audits reconciled and certified time and attendance records only.

   In FY 2009, DOL issued revised policies and procedures with an effective date of July 24, 2009, to provide
   guidance on the need for agencies to review payroll-related items other than time and attendance records. In
   addition to the revised policies issued, OCFO management represented that they also implemented a procedure to
   monitor the completion of the reviews of payroll-related items other than time and attendance. Since the revised
   policies and procedures were not effective until the last quarter of FY 2009, our testwork focused on the time and
   attendance reconciliation policies that were effective for the first three quarters (i.e., the majority) of FY 2009,
   and we did not test the revised procedures implemented in July 2009. Our test results for the first three quarters
   indicated that insufficient evidence existed to determine that the preparation and review of payroll-related items,
   including time and attendance, were completed.

   In FY 2010, we tested the revised policies and procedures issued by DOL in July 2009. We selected a sample of
   25 reviews of payroll-related items from various agencies for the period of October 1, 2009, to June 30, 2010.
   Although we eventually received all 25 agency reviews selected, they were not provided timely, and DOL did
   not respond to our follow-up questions regarding the information submitted to us. For the 25 Payroll/Time and
   Attendance Reconciliation Reports tested, we identified the following exceptions:




                                                                                    FY 2010 Agency Financial Report 53
Financial Section

Significant Deficiencies
Exhibit II


         •   11 instances where HR offices failed to provide sufficient documentation to support that errors were
             adequately researched and corrective actions were initiated;
         •   14 instances where HR officials did not review the Payroll/Time and Attendance Reconciliation Reports
             and investigate issues timely; and
         •   9 instances where supervisor and HR certifier review and approval of the Payroll/Time & Attendance
             Reconciliation Certification & Review form were not documented.

    As a result, we noted insufficient evidence existed to determine that the preparation and review of payroll-related
    items, including time and attendance and gross pay, were completed properly and timely and identified issues
    were resolved. The OCFO policy and procedures issued in July 2009, requiring the responsible HR official to
    review the Payroll/Time and Attendance Reconciliation Reports and investigate issues identified, were not
    adequately enforced by the HR officials’ supervisors.

    We also noted that the OCFO monitoring control for the Payroll/Time and Attendance Reconciliation Reports
    was not routinely performed and was not operating effectively. The OCFO’s failure to adequately monitor
    compliance with the July 2009 policy and procedures was partially attributed to the decentralized HR
    organization within DOL. As a result of the organizational structure, the OCFO had difficulty obtaining the
    needed documentation to monitor that the Payroll/Time and Attendance Reconciliation Reports were being
    properly completed, in a timely fashion, and adequately reviewed.

    Although the Payroll/Time and Attendance Reconciliation Reports had been updated to include hourly pay and
    total earnings, the reports continued to lack sufficient details, such as employee and employer withholdings, to
    arrive at an employee’s net pay and total benefits expense. These reports were not properly designed to contain
    the information needed to ensure that errors in all relevant payroll-related items were identified and resolved
    timely as the OCFO did not sufficiently consider all items that should have been addressed in the reconciliation.

    In addition, the last reconciliation of the payroll register provided by the NFC to the general ledger was
    completed as of December 31, 2009. OCFO management represented that they did not have adequate resources
    to resolve New Core Financial Management System (NCFMS) implementation issues and perform payroll
    reconciliations simultaneously. As a result, management has not reconciled the payroll register to the general
    ledger for the majority of FY 2010.

    The lack of compensating reconciliation controls around the NFC compensation outputs increases the risk that
    payroll-related line items may be misstated due to errors in payroll processing by the NFC. In addition, DOL’s
    failure to reconcile the NFC payroll registers to the general ledger since the implementation of NCFMS further
    increases the risk that a payroll-related misstatement would not be detected by management.

    Federal agencies that use external service providers, such as the NFC, should have controls in place to ensure the
    accuracy of processing outputs. As stated by the USDA Office of Inspector General (OIG) in its FY 2010 Report
    No. 11401-33-FM, “The relative effectiveness and significance of specific controls at NFC and their effect on the
    assessments of control risk at customer agencies are dependent on their interaction with the controls and other
    factors present at individual customer agencies.”

    Office of Management and Budget (OMB) Circular No. 123, Management’s Responsibility for Internal Control,
    states, “Application control should be designed to ensure that transactions are properly authorized and processed
    accurately and that the data is valid and complete. Controls should be established at an application’s interfaces to
    verify inputs and outputs, such as edit checks.”

    Additionally, per the Government Accountability Office’s (GAO) Standards for Internal Control in the Federal
    Government (the Standards), “Internal control should generally be designed to assure that ongoing monitoring


54 United States Department of Labor
                                                                                          Independent Auditors’ Report

                                                                                                Significant Deficiencies
                                                                                                               Exhibit II


   occurs in the course of normal operations. It is performed continually and is ingrained in the agency’s operations.
   It includes regular management and supervisory activities, comparisons, reconciliations, and other actions people
   take in performing their duties.”

   To close the prior year recommendation and address the new control weakness identified during FY 2010, the
   Chief Financial Officer should ensure that (a) the Payroll/Time and Attendance Reconciliation Reports are
   properly designed to reflect the necessary payroll-related information to conduct an adequate reconciliation; and
   (b) proper monitoring is routinely completed by the OCFO to ensure that the July 2009 policy and procedures are
   implemented and complied with throughout DOL.

   We recommend that the Director of the Human Resource Center ensure that the OCFO July 2009 policy and
   procedures are properly and consistently implemented, by enforcing the requirements that all payroll-related
   reconciliations are documented, reviewed, and approved by an appropriate supervisor, and maintained.

   Management’s Response: Management concurs with the recommendations noted above and has initiated
   appropriate corrective actions to address these recommendations.

   Management understands that effective reconciliation controls, including timely preparation of proper
   reconciliations and resolution of differences, will enhance quarterly consolidated financial statements and
   minimize differences between DOL’s general ledger and the NFC-processed payroll data. Likewise,
   management recognizes the importance of accurate information when performing effective reviews of financial
   statements. OCFO management will work with the Director, Human Resource Center and the Office of
   Inspector General to design and implement internal audit procedures to ensure that revised payroll monitoring
   procedures are implemented and consistently applied agency-wide.

   Auditor Response: Management has provided a corrective action plan to address our recommendations. FY
   2011 audit procedures will determine whether these recommendations have been adequately addressed and can
   be considered closed.


6. Untimely and Inaccurate Processing of Property, Plant, and Equipment (PP&E) Transactions

   Because of the implementation of NCFMS, DOL had to revise its process for recording PP&E transactions in the
   general ledger. As of June 30, 2010, we noted that DOL’s revised process had not been implemented, which
   resulted in the untimely processing of certain PP&E transactions. Specifically, during our testwork over DOL’s
   PP&E balances as of June 30, 2010, we noted the following errors in both the general ledger and the related
   PP&E module:

   •   Untimely recording of construction-in-progress additions in the amount of $46.8 million;
   •   Untimely recording of building deletions in the amount of $9.2 million; and
   •   Untimely recording of transfers to the building account in the amount of $47.1 million.

   During July 2010, the OCFO performed an analysis of current year additions and deletions related to the
   construction-in-progress and buildings asset categories, resulting in correcting adjustments being recorded in the
   general ledger via journal entry. However, as of August 31, 2010, an analysis of current year additions and
   deletions to the remaining PP&E asset categories (i.e., other structures and facilities, land, leasehold
   improvements, internal use software, software in development, and equipment) had yet to be performed. As a
   result, certain other additions and deletions may have been omitted from the PP&E module and the related
   general ledger accounts.



                                                                                   FY 2010 Agency Financial Report 55
Financial Section

Significant Deficiencies
Exhibit II


    In addition to the issues noted above, we also noted inaccuracies in the calculation of accumulated depreciation
    within the PP&E module. Subsequent to the implementation of NCFMS, the OCFO performed an analysis of the
    accumulated depreciation balances calculated by the newly implemented PP&E module. As a result of this
    analysis, the OCFO determined that the system-calculated balances were overstated by $228.6 million. The
    OCFO elected not to record these balances in the general ledger, but instead utilized the December 31, 2009,
    accumulated depreciation balances, which were converted from the prior general ledger for interim financial
    reporting purposes. At year-end, DOL posted a manual adjustment to both the accumulated depreciation and
    current year depreciation expense accounts to record current year activity.

    The above misstatements resulted in the net book value of PP&E recorded in the NCFMS general ledger and
    related PP&E module initially being understated by $37.7 million and $266.3 million, respectively. Furthermore,
    the continued inability of DOL to timely and accurately record PP&E additions and deletions, and also to timely
    and accurately calculate accumulated depreciation and depreciation expense, increases the likelihood that PP&E
    will continue to be misstated going forward.

    As stated above, DOL implemented a new general ledger system in January 2010. The above issues occurred as
    a result of DOL’s failure to dedicate the resources necessary to implement a formalized process for identifying
    and recording PP&E additions and deletions in NCFMS. Additionally, as of June 30, 2010, the PP&E module
    within NCFMS was not configured to accurately calculate either accumulated depreciation balances or current
    year depreciation expense amounts.

    Statement of Federal Financial Accounting Standards (SFFAS) No. 6, Accounting for Property, Plant, and
    Equipment, paragraph 34 states that, “PP&E shall be recognized when title passes to the acquiring entity or when
    the PP&E is delivered to the entity or to an agent of the entity. In the case of constructed PP&E, the PP&E shall
    be recorded as construction work in process until it is placed in service, at which time the balance shall be
    transferred to general PP&E.” In addition, paragraph 36 states, “Depreciation expense shall be accumulated in a
    contra asset account—accumulated depreciation.”

    The Standards state that, “Transactions should be promptly recorded to maintain their relevance and value to
    management in controlling operations and making decisions. This applies to the entire process or life cycle of a
    transaction or event from the initiation and authorization through its final classification in summary records. In
    addition, control activities help to ensure that all transactions are completely and accurately recorded.”

    OMB Circular No. A-123 states, “Transactions should be promptly recorded, properly classified, and accounted
    for in order to prepare timely accounts and reliable financial and other reports.”

    We recommend that the Chief Financial Officer (a) dedicate the appropriate resources to implement the
    documented process for identifying and recording PP&E additions and deletions in NCFMS to ensure that these
    transactions are accurately and timely recorded; and (b) configure NCFMS to accurately calculate both
    accumulated depreciation balances and current year depreciation expense amounts.

    Management’s Response: Management agrees with the recommendation that the NCFMS needs to be
    configured to record PP&E additions, deletions and depreciation in a timely manner. However, the conditions
    noted above were not caused because the OCFO did not dedicate resources necessary to implement formalized
    processes. Formalized processes for identifying and recording PP&E additions and deletions, and calculating
    depreciation expense, were developed and documented in the NCFMS Acquire to Dispose and Build to Cost user
    manuals. The conditions noted occurred because the NCFMS PP&E subledgers were not properly configured or
    working as intended.

    As such the NCFMS subledgers and the related amounts noted by the auditor were not used for reporting
    purposes and transactions were recorded directly in the general ledger. OCFO implemented alternative

56 United States Department of Labor
                                                                                    Independent Auditors’ Report

                                                                                          Significant Deficiencies
                                                                                                         Exhibit II


procedures to ensure that PP&E transactions and depreciation expense from migration, on January 1, 2010,
through September 30, 2010 were properly recorded in the general ledger. The alternative procedures applied
included:

Construction in Progress:
   • Determined the status of each construction in progress (CIP) project;
   • Analyzed the recorded expenses according to project status and compiled the costs that needed to be
       transferred to either CIP or PP&E in use;
   • Analyzed the costs previously recorded as CIP and determined those costs that needed to be transferred
       to either PP&E in use or written-off;
   • Created subsidiary ledgers to provide an audit trail of balances and transactions; and
   • Recorded applicable costs in CIP and transferred the accumulated costs of completed projects to PP&E.

PP&E:
   • Obtained the list of disposals of land and buildings and compiled the costs of the retired assets by
      inventory number;
   • Obtained the data files of DOL property under IOUE custody, compiled the costs of additions and
      dispositions of such property and calculated depreciation expense;
   • Analyzed the recorded balance of equipment, compiled the costs of additions and dispositions of
      equipment and calculated depreciation expense for equipment;
   • Calculated depreciation expense for all other PP&E;
   • Prepared supporting work papers to provide an audit trail of balances and transactions; and
   • Record additions, deletions and depreciation expense.

Software
    • Analyzed the status of software projects in development for EBSA, ETA and MSHA (other agencies do
       not have major software projects);
    • Analyzed the recorded expenses according to the completion status of the projects and compiled the
       costs that needed to be transferred to either software in development or software in use;
    • Calculated the DOL labor and overhead costs associated with the software projects in development;
    • Calculated depreciation expense for software in use including for those projects that became operational;
    • Prepared supporting work papers to provide an audit trail of balances and transactions; and
    • Recorded additions, deletions and depreciation expense.

Based on the above procedures, we believe that PP&E balances and depreciation expense are properly stated as
of September 30, 2010, and for the year then ended.

As noted above, the OCFO agrees with the audit recommendation and will work to ensure that the NCFMS
PP&E subledgers are properly configured so that PP&E transactions (additions, deletions and depreciation
expense) are properly and timely recorded in the general ledger in FY 2011.

Auditor Response: Management has provided a corrective action plan to address our recommendations. FY
2011 audit procedures will determine whether these recommendations have been adequately addressed and can
be considered closed.




                                                                              FY 2010 Agency Financial Report 57
Financial Section

Compliance and Other Matters
Exhibit III


1. Federal Managers’ Financial Integrity Act of 1982 (FMFIA)

FMFIA requires that agencies establish internal controls and financial systems that provide reasonable assurance that
the integrity of Federal programs and operations is protected. It requires that the head of the agency provide an
annual assurance statement about whether the agency has met this requirement.

The U.S. Department of Labor’s (DOL) FY 2010 FMFIA assessment process was not in full compliance with
FMFIA. Specifically, we noted that DOL was unable to prepare and provide a complete draft of the fiscal year (FY)
2010 FMFIA assurance statement in a timely manner. Furthermore, DOL did not complete and submit the results of
its FMFIA assessment prior to its receipt of the draft FY 2010 internal control report in October 2010. See Material
Weakness No. 1 in Exhibit I for further information.

FMFIA paragraph 3 states, “...The head of each executive agency shall, on the basis of an evaluation conducted in
accordance with guidelines prescribed under paragraph (2) of this subsection, prepare a statement – that the agency’s
systems of internal accounting and administrative control fully comply with the requirements of paragraph (1)…” In
addition, per Office of Management and Budget (OMB) Circular No. A-123, Section IV.A, “The agency head's
assessment of internal control can be performed using a variety of information sources. Management has primary
responsibility for assessing and monitoring controls, and should use other sources as a supplement to -- not a
replacement for -- its own judgment.”

We recommend that DOL follow the recommendation provided in Material Weakness No. 1, in Exhibit I, and
improve its process to ensure compliance with the requirements of FMFIA in FY 2011.

2. Federal Financial Management Improvement Act of 1996 (FFMIA)

Under section 803(a) of FFMIA, DOL’s financial management systems are required to substantially comply with (1)
Federal financial management systems requirements, (2) applicable Federal accounting standards, and (3) the United
States Government Standard General Ledger (USSGL) at the transaction level. DOL represented that in accordance
with the provisions and requirements of FFMIA, the Secretary of Labor determined that DOL’s financial
management systems were not in substantial compliance with FFMIA as of September 30, 2010.

As a result of FY 2010 testing, we concluded that DOL did not substantially comply with the requirements of section
803(a) of FFMIA. Specifically, we noted the following:

•   DOL was unable to produce auditable financial statements by the OMB reporting deadline of November 15,
    2010 based on data from its financial accounting and reporting system, and numerous financial reports were not
    available to perform analyses or complete decision making. See Material Weakness No. 1 in Exhibit I for further
    information.

•   Numerous information technology (IT) general and application control weaknesses related to computer security
    were identified as part of the IT testing in FY 2010. These weaknesses impact the IT environments and systems
    in several large DOL agencies. See Material Weakness No. 4 in Exhibit I for further information.

•   Several material transactions, such as nonexpenditure transfers, appropriations used, appropriated receipts,
    unexpended appropriations, and the change in actuarial liability, were not recorded in accordance with the
    USSGL. See Material Weakness Nos. 1, 2 and 3 in Exhibit 1.

•   Certain budgetary and proprietary accounts were not in balance as of September 30, 2010. See Material
    Weakness No. 2 in Exhibit 1.



58 United States Department of Labor
                                                                                   Independent Auditors’ Report

                                                                                  Compliance and Other Matters
                                                                                                     Exhibit III


We recommend that DOL follow the recommendations provided in Material Weakness Nos. 1, 2, 3 and 4 in Exhibit
I, and improve its processes to ensure compliance with FFMIA section 803(a) requirements in FY 2011.




                                                                             FY 2010 Agency Financial Report 59
Annual Financial Statements
Principal Financial Statements and Notes
Financial Section

PRINCIPAL FINANCIAL STATEMENTS



Principal Financial Statements Included in This Report

The principal financial statements included in this report have been prepared in accordance with the requirements
of the Chief Financial Officers Act of 1990 (P.L. 101-576), the Government Management Reform Act of 1994 and
Office of Management and Budget’s (OMB) Circular No. A-136, “Financial Reporting Requirements.” The
responsibility for the integrity of the financial information included in these statements rests with management of
the U.S. Department of Labor (DOL). The audit of DOL’s principal financial statements was performed by KPMG LLP.
The auditors’ report accompanies the principal statements.

The Department’s principal financial statements for fiscal years (FY) 2010 and 2009 consist of the following:

•    The Consolidated Balance Sheet, which presents as of September 30, 2010 and 2009 those resources owned or
     managed by DOL that are available to provide future economic benefits (assets); amounts owed by DOL that will
     require payments from those resources or future resources (liabilities); and residual amounts retained by DOL,
     comprising the difference (net position).

•    The Consolidated Statement of Net Cost, which presents the net cost of DOL operations for the years ended
     September 30, 2010 and 2009. DOL’s net cost of operations includes the gross costs incurred by DOL less any
     exchange revenue earned from DOL activities. Due to the complexity of DOL’s operations, the classification of
     gross cost and exchange revenues by major program and suborganization is presented in Note 15 to the
     consolidated financial statements.

•    The Consolidated Statement of Changes in Net Position, which presents the change in DOL’s net position
     resulting from the net cost of DOL operations, budgetary financing sources other than exchange revenues, and
     other financing sources for the years ended September 30, 2010 and 2009.

•    The Combined Statement of Budgetary Resources, which presents the budgetary resources available to DOL
     during FY 2010 and 2009, the status of these resources at September 30, 2010 and 2009, the change in
     obligated balance during FY 2010 and 2009, and net outlays of budgetary resources for the years ended
     September 30, 2010 and 2009.

•    The Statement of Social Insurance, which presents the net present value of projected cash inflows and cash
     outflows of the Black Lung Disability Trust Fund as of September 30, 2010, 2009, 2008, 2007, and 2006.




64   United States Department of Labor
                                                                                                              Annual Financial Statements

                                                                                                          CONSOLIDATED BALANCE SHEET
                                                                                                        As of September 30, 2010 and 2009
                                                                                                                    (Dollars in Thousands)



                                                                                                             2010                2009

ASSETS

  Intra-governmental
     Funds with U.S. Treasury (Notes 1-C and 2)                                                         $     12,618,146     $   14,406,751
     Investments (Notes 1-D and 3)                                                                            19,281,093         20,111,346
     Accounts receivable (Notes 1-E and 4)                                                                     5,882,371          5,467,497
  Total intra-governmental                                                                                    37,781,610         39,985,594

  Accounts receivable, net of allowance (Notes 1-E and 4)                                                      2,011,881          1,353,841
  Property, plant and equipment, net
   of accumulated depreciation (Notes 1-F and 5)                                                               1,174,713          1,154,240
  Other
    Advances (Notes 1-G and 6)                                                                                 1,872,192          1,691,098

Total assets                                                                                            $     42,840,396     $   44,184,773


LIABILITIES AND NET POSITION

Liabilities (Note 1-I)
  Intra-governmental
     Accounts payable                                                                                   $         11,965     $       17,983
     Debt (Notes 1-J and 8)                                                                                   40,400,725         14,351,967
     Other liabilities (Note 9)                                                                                  222,511            101,424
  Total intra-governmental                                                                                    40,635,201         14,471,374

  Accounts payable                                                                                             1,466,974          1,346,997
  Accrued benefits (Notes 1-K and 10)                                                                          5,284,543          4,627,250
  Future workers' compensation benefits (Notes 1-L and 11)                                                     2,075,547            889,259
  Other
    Energy employees occupational illness
     compensation benefits (Note 1-M)                                                                         12,114,480          8,063,563
    Accrued leave (Note 1-N)                                                                                     116,505            107,311
    Other liabilities (Note 9)                                                                                   155,209            150,442

Total liabilities                                                                                             61,848,459         29,656,196

  Contingencies (Note 13)

Net position (Note 1-R)
  Unexpended appropriations - other funds                                                                     10,539,272         10,825,237
  Cumulative results of operations
     Earmarked funds (Note 21)                                                                               (23,762,133)         4,562,666
     Other funds                                                                                               (5,785,202)         (859,326)

Total net position                                                                                           (19,008,063)        14,528,577

Total liabilities and net position                                                                      $     42,840,396     $   44,184,773




                                     The accompanying notes are an integral part of these statements.


                                                                                                  FY 2010 Agency Financial Report 65
Financial Section

CONSOLIDATED STATEMENT OF NET COST
For the Years Ended September 30, 2010 and 2009
(Dollars in Thousands)



                                                                                                         2010              2009

NET COST OF OPERATIONS (Notes 1-S and 15)

CROSSCUTTING PROGRAMS

     Income maintenance
       Gross cost                                                                                    $ 173,153,232     $ 133,351,382
       Less earned revenue                                                                              (4,302,214)       (3,780,083)
         Net program cost                                                                              168,851,018       129,571,299
     Employment and training
       Gross cost                                                                                        8,420,173         7,205,646
       Less earned revenue                                                                                  (11,262)          (11,439)
         Net program cost                                                                                8,408,911         7,194,207
     Labor, employment and pension standards
       Gross cost                                                                                          779,994           720,836
       Less earned revenue                                                                                  (8,872)           (13,517)
         Net program cost                                                                                  771,122           707,319
     Worker safety and health
       Gross cost                                                                                        1,020,139           943,808
       Less earned revenue                                                                                  (6,025)            (2,750)
         Net program cost                                                                                1,014,114           941,058

OTHER PROGRAMS

     Statistics
       Gross cost                                                                                          694,918           629,399
       Less earned revenue                                                                                  (13,634)           (8,321)
          Net program cost                                                                                 681,284           621,078

COSTS NOT ASSIGNED TO PROGRAMS

       Gross cost                                                                                           96,580            96,777
       Less earned revenue not attributed to programs                                                        (9,453)         (13,247)
         Net cost not assigned to programs                                                                  87,127            83,530

Net cost of operations                                                                               $ 179,813,576     $ 139,118,491




                                      The accompanying notes are an integral part of these statements.


66     United States Department of Labor
                                                                                                                        Annual Financial Statements

                                                                                 CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                                                                         For the Years Ended September 30, 2010 and 2009
                                                                                                                   (Dollars in Thousands)



                                                                 2010                                                      2009
                                           Consolidated       Consolidated                           Consolidated       Consolidated
                                            Earmarked           All Other         Consolidated        Earmarked           All Other        Consolidated
                                              Funds              Funds               Total              Funds              Funds              Total

Cumulative results
 of operations, beginning              $      4,562,666 $         (859,326) $        3,703,340 $       62,052,699 $        (2,908,108) $     59,144,591
  Adjustments
    Change in accounting principle
     (Note 1-B)                                           -                  -                   -                  -         (30,268)           (30,268)
Beginning balances, as adjusted               4,562,666           (859,326)          3,703,340         62,052,699          (2,938,376)       59,114,323

  Budgetary financing sources
    (Note 1-T)
   Appropriations used                                    -    99,719,400           99,719,400                 -          42,689,532         42,689,532
   Non-exchange revenue (Note 16)
     Employer taxes                          41,060,101                 -           41,060,101         35,954,378                  -         35,954,378
     Interest                                   778,939                 10             778,949          2,059,807                 187         2,059,994
     Assessments                                     -                    8                  8                 -                  779               779
     Reimbursement of
      unemployment benefits                   4,721,275              3,997           4,725,272          2,763,817                 -           2,763,817
    Total non-exchange revenue               46,560,315              4,015          46,564,330         40,778,002                 966        40,778,968
    Transfers without
     reimbursement (Note 17)                 70,525,944        (70,322,150)            203,794         18,514,212         (18,414,660)           99,552
  Other financing sources
   (Note 1-U)
    Imputed financing from
     costs absorbed by others                       214           172,840              173,054                170            136,483            136,653
    Transfers without
     reimbursement (Note 17)                          -              3,507               3,507                 -                2,803              2,803
    Other                                        (52,950)          (48,234)           (101,184)                -                   -                  -
  Total financing sources                   117,033,523         29,529,378         146,562,901          59,292,384         24,415,124         83,707,508
  Net cost of operations                   (145,358,322)       (34,455,254)       (179,813,576)      (116,782,417)        (22,336,074)     (139,118,491)
  Net change                                 (28,324,799)        (4,925,876)        (33,250,675)       (57,490,033)         2,079,050        (55,410,983)
Cumulative results
 of operations, ending                       (23,762,133)       (5,785,202)        (29,547,335)         4,562,666           (859,326)         3,703,340
Unexpended appropriations,
 beginning                                           -         10,825,237           10,825,237                 -           8,169,166          8,169,166
  Budgetary financing sources
   (Note 1-T)
    Appropriations received
     (Note 18-F)                                     -        101,266,852          101,266,852                 -           35,525,352         35,525,352
    Appropriations transferred                       -             (214,474)           (214,474)               -           10,466,238         10,466,238
    Appropriations not available                     -           (1,618,943)         (1,618,943)               -             (645,987)          (645,987)
    Appropriations used                              -         (99,719,400)        (99,719,400)                -          (42,689,532)       (42,689,532)
    Subtotal                                         -             (285,965)           (285,965)               -            2,656,071          2,656,071
Unexpended appropriations,
 ending                                              -         10,539,272           10,539,272                 -          10,825,237         10,825,237

Net position                           $     (23,762,133) $      4,754,070 $ (19,008,063) $             4,562,666 $        9,965,911 $       14,528,577




                                     The accompanying notes are an integral part of these statements.



                                                                                                           FY 2010 Agency Financial Report 67
Financial Section

COMBINED STATEMENT OF BUDGETARY RESOURCES
For the Years Ended September 30, 2010 and 2009
(Dollars in Thousands)


                                                                                                          2010                  2009

BUDGETARY RESOURCES
  Unobligated balance, brought forward, October 1                                                   $       4,124,635     $      4,157,428
  Recoveries of prior year unpaid obligations                                                                 162,552              262,069
  Budget authority
     Appropriations received (Note 18-F)                                                                 227,533,225          167,463,706
     Borrowing authority                                                                                  29,110,000           14,445,717
     Spending authority from offsetting collections
        Earned
           Collected                                                                                        2,973,698            1,860,954
           Change in receivables from Federal sources                                                          (20,973)              5,136
        Change in unfilled customer orders
           Advance received                                                                                    33,299              (23,131)
           Without advance from Federal sources                                                                   (822)                    -
        Expenditure transfers from trust funds                                                             5,070,175            5,348,330
  Total budget authority                                                                                 264,698,602          189,100,712
  Nonexpenditure transfers, net                                                                                 (6,382)              (1,703)
  Temporarily not available pursuant to Public Law                                                            (38,626)             (35,130)
  Permanently not available
     Redemption of debt                                                                                   (3,242,445)        (10,483,557)
     All other                                                                                            (1,730,312)          (1,080,459)
Total budgetary resources                                                                           $    263,968,024      $ 181,919,360
STATUS OF BUDGETARY RESOURCES
  Obligations incurred (Note 18-A)
     Direct                                                                                         $    256,587,422      $ 174,719,690
     Reimbursable                                                                                          3,189,059          3,075,035
  Total obligations incurred                                                                             259,776,481        177,794,725
  Unobligated balances available
     Apportioned                                                                                           3,067,897          3,232,633
     Exempt from apportionment                                                                               386,996            301,633
  Total unobligated balances available                                                                     3,454,893          3,534,266
  Unobligated balances not available                                                                         736,650            590,369
Total status of budgetary resources                                                                 $    263,968,024      $ 181,919,360
CHANGE IN OBLIGATED BALANCE
  Obligated balance, net
    Unpaid obligations, brought forward, October 1                                                  $     18,216,935      $      9,363,199
    Less uncollected customer payments from Federal sources,
      brought forward, October 1                                                                            (2,331,775)          (1,183,351)
  Total unpaid obligated balance, net                                                                      15,885,160             8,179,848
  Obligations incurred, net                                                                               259,776,481          177,794,725
  Less gross outlays                                                                                     (259,382,936)        (168,678,920)
  Other                                                                                                            150                     -
  Less recoveries of prior year unpaid obligations, actual                                                    (162,552)            (262,069)
  Change in uncollected customer payments from Federal sources                                                 420,236           (1,148,424)
     Obligated balance, net, end of period
       Unpaid obligations                                                                                 18,448,078           18,216,935
       Less uncollected customer payments from Federal sources                                             (1,911,539)          (2,331,775)
     Total unpaid obligated balance, net, end of period                                             $     16,536,539      $    15,885,160
NET OUTLAYS
    Gross outlays                                                                                   $    259,382,936      $ 168,678,920
    Less offsetting collections                                                                            (8,475,613)         (6,078,853)
    Less distributed offsetting receipts                                                                  (76,620,902)       (24,625,433)
    Net outlays                                                                                     $    174,286,421      $ 137,974,634



                                      The accompanying notes are an integral part of these statements.



68     United States Department of Labor
                                                                                                                Annual Financial Statements

                                                                                                       STATEMENT OF SOCIAL INSURANCE
                                                                                      As of September 30, 2010, 2009, 2008, 2007, and 2006
                                                                                                                     (Dollars in Thousands)


                                                                    For the Projection Period Ending September 30, 2040 (Note 1W)

                                                             2010              2009             2008            2007                2006

BLACK LUNG DISABILITY
 BENEFIT PROGRAM (Note 1-W)

Actuarial present value of future benefit
 payments during the projection
 period to disabled coal miners
 and dependent survivors                                $    2,125,231 $       2,170,943 $      2,139,810 $     2,450,064 $     2,722,801

Present value of estimated future
 administrative costs during
 the projection period                                         881,311          984,996          827,437          831,439            848,218

Actuarial present value of future benefit
 payments and present value of estimated
 administrative costs during the projection period           3,006,542         3,155,939        2,967,247       3,281,503       3,571,019

Less the present value of estimated future
 excise tax income during
 the projection period                                       8,457,022         8,876,813        8,009,265       7,897,423       7,957,821

Excess of present value of estimated future
 excise tax income over actuarial present value of
 future benefit payments and present value of
 estimated administrative costs during
 the projection period                             $         5,450,480 $       5,720,874 $      5,042,018 $     4,615,920 $     4,386,802



Trust fund net position deficit at start
 of projection period (Note 21)                         $   (6,238,612) $     (6,320,321) $ (10,439,186) $ (10,027,701) $       (9,604,743)




                                           The accompanying notes are an integral part of these statements.



                                                                                                       FY 2010 Agency Financial Report 69
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2010 and 2009


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

A. Reporting Entity

The U.S. Department of Labor (DOL or the Department), a cabinet level agency of the Executive Branch of the United
States Government, was established in 1913, to promote the welfare of the wage earners of the United States.
Today the Department’s mission remains the same: to foster, promote and develop the welfare of the job seekers,
wage earners and retirees of the United States; improve working conditions, advance opportunities for profitable
employment; and assure work related benefits and rights.

DOL accomplishes this mission through the execution of its congressionally approved budget, operating in five major
Federal program areas, under four major budget functions: (i) education, training, employment, and social services;
(ii) health (occupational health and safety); (iii) income security; and (iv) national defense. DOL is organized into
major program agencies, which administer the various statutes and programs for which the Department is
responsible. DOL’s major program agencies and the major programs in which they operate, are shown below.

    1.Major program agencies
       • Employment and Training Administration (ETA)
       • Employment Standards Administration (ESA)
       • Office of Job Corps
       • Occupational Safety and Health Administration (OSHA)
       • Bureau of Labor Statistics (BLS)
       • Mine Safety and Health Administration (MSHA)
       • Employee Benefits Security Administration (EBSA)
       • Veterans’ Employment and Training Services (VETS)
       • Departmental Management
           - Office of the Secretary                       - Office of the Deputy Secretary
           - Office of the Assistant Secretary for         ‐ Office of Inspector General
               Administration and Management               ‐ Office of the Solicitor
           - Office of the Assistant Secretary for Policy  ‐ Office of Public Affairs
           - Women’s Bureau                                ‐ Office of the Chief Financial Officer
           - Bureau of International Labor Affairs         ‐ Office of Disability Employment Policy

         In FY 2010, DOL dissolved ESA and established its four component offices/divisions, the Office of Federal
         Contract Compliance Programs, the Office of Labor‐Management Standards, the Office of Workers’
         Compensation Programs, and the Wage and Hour Division, as stand-alone agencies reporting directly to the
         Office of the Secretary. Once these four component agencies were reorganized, their funding, previously
         requested under the ESA appropriation, would be requested under separate appropriations for each
         component agency. This reorganization was reflected in DOL’s FY 2011 budget. In FY 2010, funding for
         these component agencies occurred under the ESA appropriation; and consequently, references to ESA are
         retained throughout this report.

         The Consolidated Appropriations Act of 2010 transferred funding for the Office of Job Corps and the Job
         Corps program from Departmental Management to a separate appropriation account under ETA, to better
         coordinate management of the Job Corps program with other employment and training programs managed
         by ETA. However, the Office of Job Corps continues to be reported as a separate major program agency in
         Note 15.


70 United States Department of Labor
                                                                                         Annual Financial Statements

                                                                   NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                    For the Years Ended September 30, 2010 and 2009


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

A. Reporting Entity - Continued

   1.Major program agencies (continued)

       The Pension Benefit Guaranty Corporation (PBGC), wholly owned by the Federal government under the
       chairmanship of the Secretary of Labor, has been designated by OMB as a separate reporting entity for
       financial statement purposes and has been excluded from these financial statements.

   2.Major programs

       •   Income maintenance
       •   Employment and training
       •   Labor, employment, and pension standards
       •   Worker safety and health
       •   Statistics

       Note 15 presents earned revenues and expenses by major program agency and by major program.

   3.Fund accounting structure

       DOL’s financial activities are accounted for by Federal account symbol, using individual funds and fund
       accounts within distinct fund types to report to the U.S. Department of the Treasury’s (Treasury), Financial
       Management Services and to OMB. For financial statement purposes, DOL funds are further classified as
       earmarked funds, fiduciary funds and all other funds. DOL’s earmarked funds, fiduciary funds and all other
       funds are discussed below:

       Earmarked funds

       Earmarked funds are financed by specifically identified revenues, which can be supplemented by other
       financing sources, both of which remain available over time. These revenues and financing sources are
       required by statute to be used for designated purposes and must be accounted for separately from the
       Government’s general revenues. DOL’s earmarked funds are shown below:

       The Unemployment Trust Fund was established under the authority of Section 904 of the Social Security Act
       of 1935, as amended, to receive, hold, invest, and disburse monies collected under the Federal
       Unemployment Tax Act, as well as state unemployment taxes collected by the states and transferred to the
       Fund, and unemployment taxes collected by the Railroad Retirement Board and transferred to the Fund.

       The Black Lung Disability Trust Fund was established under Part C of the Black Lung Benefits Revenue Act, to
       provide compensation and medical benefits to coal miners who suffer disability due to pneumoconiosis
       (Black Lung disease), and compensation benefits to their dependent survivors for claims filed subsequent to
       June 30, 1973. Claims filed from the origination of the program until June 30, 1973 are paid by the Special
       Benefits for Disabled Coal Miners fund. (See Note 1.A.3 – All other funds.)




                                                                                FY 2010 Agency Financial Report 71
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2010 and 2009


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

A. Reporting Entity - Continued

    3.Fund accounting structure - continued

         Earmarked funds - continued

         The Gifts and Bequests Fund uses miscellaneous funds received by gift or bequest to support various
         activities of the Secretary of Labor.

         The Panama Canal Commission Compensation Fund was established to provide for the accumulation of
         funds provided by the Commission to pay the workers compensation obligations of the Panama Canal
         Commission under the Federal Employees’ Compensation Act .

         H-1B Funds provide demonstration grants to regional and local entities to provide technical skills training to
         unemployed and incumbent workers. The funds are supported by fees paid by employers applying for
         foreign workers under the H-1B temporary alien labor certification program authorized by the American
         Competitiveness and Workforce Improvement Act of 1998.

         Fiduciary funds

         Fiduciary funds are used to account for DOL’s fiduciary activities, which involve the collection or receipt and
         subsequent disposition of cash or other assets in which non-Federal entities have an ownership interest
         that the Department must uphold. Fiduciary assets are not assets of DOL or the Federal Government, and
         accordingly, are not recognized on the Department’s balance sheet. The fiduciary assets held by DOL and
         the fiduciary activities related to these assets are disclosed in Note 22 to these financial statements. DOL’s
         fiduciary funds are discussed below.

         The Wage and Hour and Public Contracts Restitution Fund, a deposit fund established by the Fair Labor
         Standards Amendments of 1949, receives deposits from employers assessed by the Department for unpaid
         minimum wages or unpaid overtime compensation owed to employees as a result of labor law violations,
         and pays these wages directly to the affected employees.

         The Longshore and Harbor Workers’ Compensation Act Trust Fund, established under the authority of the
         Longshore and Harbor Workers’ Compensation Act, provides medical benefits, compensation for lost wages,
         and rehabilitation services for job-related injuries and diseases or death to private sector workers in certain
         maritime and related employment. The Act authorizes the Department to assess insurance carriers on
         behalf of these beneficiaries.

         The District of Columbia Workmen’s Compensation Act Trust Fund, established under the authority District
         of Columbia Workmen’s Compensation Act, provides compensation and medical payments to District of
         Columbia employees for work-related injuries or death which occurred prior to July 26, 1982. The Act
         authorizes the Department to assess insurance carriers on behalf of these beneficiaries.




72 United States Department of Labor
                                                                                        Annual Financial Statements

                                                                  NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                   For the Years Ended September 30, 2010 and 2009


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

A. Reporting Entity - Continued

   3.Fund accounting structure - continued

       All other funds

       Salaries and Expenses include appropriated funds which are used to carry out the missions and functions of
       the Department, except where specifically provided for from other Departmental funds.
       Training and Employment Services provides for a flexible, decentralized system of Federal and local
       programs of training and other services for the economically disadvantaged designed to lead to permanent
       gains in employment, through grants to states and Federal programs such as Job Corps, authorized by the
       Workforce Investment Act and the Job Training Partnership Act.
       The Office of Job Corps supports the administration and management of the Job Corps program, which
       helps at-risk youth who need and can benefit from intensive education and training services to become
       more employable, responsible, and productive citizens. The Consolidated Appropriations Act, 2008
       appropriated Job Corps funding directly to the Office of Job Corps in a separate appropriation account
       under a new Federal account symbol as a sub-organization of Departmental Management, Office of the
       Secretary. In FY 2009, under mandate by OMB, all outstanding Job Corps balances under prior year
       appropriations were transferred from ETA to the new appropriation account for the Office of Job Corps
       under Departmental Management. The Consolidated Appropriations Act of 2010 transferred funding for
       the Job Corps program from Departmental Management back to ETA. Funding for the Job Corps program in
       FY 2010 is recorded in a separate appropriation account for the Office of Job Corps under ETA.

       Welfare to Work Jobs provides funding for the activities of the Welfare-to-Work Grants program established
       by the Balanced Budget Act of 1997. The program provides formula grants to States and Federally
       administered competitive grants to other eligible entities to assist welfare recipients in securing lasting
       unsubsidized employment.
       State Unemployment Insurance and Employment Service Operations includes grants to states for
       administering the Unemployment Compensation and Employment Service programs. Unemployment
       Compensation Program provides administrative grants to state agencies which pay unemployment benefits
       to eligible individuals and collect state unemployment taxes from employers. The Employment Service
       Program is a nationwide system providing no-fee employment services to individuals seeking employment
       and to employers seeking workers. Employment Service activities are financed by allotments to states
       distributed under a demographically based funding formula established under the Wagner-Peyser Act, as
       amended.
       Payments to the Unemployment Trust Fund was initiated as a result of amendments to the Emergency
       Unemployment Compensation (EUC) law, which provided general fund financing to the Unemployment
       Trust Fund to pay emergency unemployment benefits and the related administrative costs. This account is
       also used to make general fund reimbursements for benefits and administrative costs incurred under the
       new Emergency Unemployment Compensation program, first enacted in Public Law 110-252, and
       subsequently expanded and extended. Funds are transferred from the account to a receipt account in the
       Unemployment Trust Fund, for transfer to the Trust Fund’s Employment Security Administration Account
       for administrative costs or the Extended Unemployment Compensation Account for benefit costs.



                                                                               FY 2010 Agency Financial Report 73
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2010 and 2009


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

A. Reporting Entity - Continued

    3.Fund accounting structure - continued

         All other funds - continued

         Advances to the Unemployment Trust Fund and Other Funds provides advances to other accounts within
         the Unemployment Trust Fund to pay unemployment compensation whenever the balances in these
         accounts prove insufficient or whenever reimbursements to certain accounts, as allowed by law, are to be
         made. This account also makes advances to the Federal Unemployment and Benefits Allowances account to
         pay the cost of benefits and services under the Trade Adjustment Assistance for Workers program; and
         provides loans to the Black Lung Disability Trust Fund to make disability payments whenever the fund
         balance proves insufficient.

         Federal Unemployment Benefits and Allowances provides for payment of benefits, training, job search, and
         relocation allowances as authorized by the Trade Act of 1974.

         Community Service Employment for Older Americans provides part time work experience in community
         service activities to unemployed, low income persons aged 55 and over.

         The Federal Employees’ Compensation Act Special Benefit Fund provides wage replacement benefits and
         payment for medical services to covered Federal civilian employees injured on the job, Federal employees
         and certain other workers who have incurred a work-related illness or injury, and survivors of employees
         whose death is attributable to a job-related injury. The Fund also provides for vocational rehabilitation of
         injured employees to facilitate their return to work. Under extensions of FECA, benefits are also paid to
         certain groups such as people related to War Hazards, non-Federal law enforcement officers, Job Corps
         enrollees, and certain Federally-supported volunteers. Section 10(h) of the amended Longshore and
         Harbor Workers’ Compensation Act authorized payments from the Special Benefit fund for 50 % of the
         annual increase in benefits for compensation and related benefits for certain pre-1972 Longshore cases.

         The Energy Employees Occupational Illness Compensation Fund was established to adjudicate, administer,
         and pay claims for benefits under the Energy Employees Occupational Illness Compensation Program Act of
         2000. The Act authorizes lump sum payments and the reimbursement of medical expenses to employees of
         the Department of Energy (DOE) or of private companies under contract with DOE, who suffer from
         specified diseases as a result of their work in the nuclear weapons industry. The Act also authorizes
         compensation to the survivors of these employees under certain circumstances. The Act was amended by
         the Ronald Reagan National Defense Authorization Act of 2005 to provide coverage to additional claimants.

         Special Benefits for Disabled Coal Miners was established under the Federal Mine Safety and Health Act to
         pay benefits to coal miners disabled from pneumoconiosis and to their widows and certain other
         dependents. Part B of the Act assigned processing of claims filed from the origination of the program until
         June 30, 1973 to the Social Security Administration. Part B claims processing and payment operations were
         transferred to DOL effective October 1, 2003.

         Federal Additional Unemployment Compensation was established under the American Recovery and
         Reinvestment Act of 2009 (Recovery Act) to provide a $25 weekly supplement to the unemployment
         compensation of eligible claimants.

74 United States Department of Labor
                                                                                          Annual Financial Statements

                                                                    NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                     For the Years Ended September 30, 2010 and 2009


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

A. Reporting Entity - Continued

   3.Fund accounting structure - continued

       All other funds - continued

       DOL played a key role in the implementation of the Recovery Act, enacted in February 2009. Departmental
       efforts included the provision of worker job training; the payment of extended and expanded
       unemployment benefits to help ease the burden of the recession on workers and employers; and the
       education and assistance of workers and employers regarding expanded access to continued health
       benefits. These efforts were funded under additional Federal account symbols established within existing
       DOL programs, including Training and Employment Services, Office of Job Corps, State Unemployment
       Insurance and Employment Service Operations, and Payments to the Unemployment Trust Fund.

       The Working Capital Fund maintains and operates a program of centralized services in the national office
       and the field. The Fund is paid in advance by the agencies, bureaus, and offices for which centralized
       services are provided, at rates which return the full cost of operations.

       Miscellaneous receipt accounts hold non-entity receipts and accounts receivable from DOL activities which
       by law cannot be deposited into funds under DOL control. The U.S. Department of the Treasury (Treasury)
       automatically transfers all cash balances in these receipt accounts to the general fund of the Treasury at the
       end of each fiscal year.

       Clearing accounts hold monies that belong to DOL, but for which a specific receipt account has not been
       determined.

       Deposit funds account for monies held temporarily by DOL until ownership is determined, or monies held
       by DOL as an agent for others.

   4.Inter-departmental relationships

       DOL and Treasury are jointly responsible for the operations of the Unemployment Trust Fund and the Black
       Lung Disability Trust Fund. DOL is responsible for the administrative oversight and policy direction of the
       programs financed by these trust funds. Treasury acts as custodian over monies deposited into the funds
       and also invests amounts in excess of disbursing requirements in Treasury securities on behalf of DOL. DOL
       consolidates the financial results of the Unemployment Trust Fund and the Black Lung Disability Trust Fund
       into these financial statements.




                                                                                 FY 2010 Agency Financial Report 75
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2010 and 2009


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

    B. Basis of Accounting and Presentation

    These consolidated financial statements present the financial position, net cost of operations, changes in net
    position and budgetary resources of the U.S. Department of Labor, and estimated and actuarial projections for
    the Department’s Black Lung social insurance program, in accordance with U.S. generally accepted accounting
    principles and the form and content requirements of OMB Circular No. A 136, “Financial Reporting
    Requirements.” Except as described in the following paragraphs, they have been prepared from the books and
    records of DOL, and include the accounts of all funds under the control of the DOL reporting entity. All inter-
    fund balances and transactions have been eliminated, except in the Statement of Budgetary Resources, which is
    presented on a combined basis, as required by OMB Circular No. A-136.

    DOL is a party to allocation transfers with other Federal agencies as both a transferring (parent) entity and a
    receiving (child) entity. Allocation transfers are legal delegations by one department of its authority to obligate
    budget authority and outlay funds to another department. A separate fund account (allocation account) is
    created in the U.S. Treasury as a subset of the parent fund account to track and report allocation transfers. All
    allocation transfers of balances are credited to this account, and subsequent obligations and outlays incurred
    by the child entity on behalf of the parent entity are charged to this allocation account. OMB Circular No. A-136
    requires the parent to report all budgetary and proprietary activity in its financial statements. DOL (parent
    entity) allocates appropriations to the Department of Agriculture and the Department of Interior (child entities)
    to provide funds for youth training programs. Accordingly, all activity for these allocation accounts is included in
    the DOL financial statements. DOL (child entity) receives allocated appropriations from the Environmental
    Protection Agency, the State Department and the Agency for International Development (parent entities).
    Accordingly, all activity for these allocation accounts is excluded from the DOL financial statements and
    reported by the parent agencies.

    Effective for FY 2009, SFFAS 31, "Accounting for Fiduciary Activities” removed fiduciary assets and related
    activities from the proprietary financial statements. The effect on beginning cumulative results of operations in
    FY 2009 of this change in accounting principle is reflected on the Consolidated Statement of Changes in Net
    Position for FY 2009.

    U.S. generally accepted accounting principles encompass both accrual and budgetary transactions. Under
    accrual accounting, revenues are recognized when earned, and expenses are recognized when a liability is
    incurred. Budgetary accounting facilitates compliance with legal constraints on, and controls over, the use of
    federal funds. These consolidated financial statements are different from the financial reports, also prepared by
    DOL pursuant to OMB directives, used to monitor DOL’s use of budgetary resources.

    Throughout these financial statements, assets, liabilities, earned revenue, and costs have been classified
    according to the type of entity with whom the transactions were made. Intra-governmental assets and liabilities
    are those from or to other federal entities. Intra-governmental earned revenue represents collections or
    accruals of revenue from other federal entities, and intra-governmental costs are payments or accruals to other
    federal entities.




76 United States Department of Labor
                                                                                          Annual Financial Statements

                                                                    NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                     For the Years Ended September 30, 2010 and 2009


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

C. Funds with U.S. Treasury

DOL’s cash receipts and disbursements are processed by the U.S. Treasury. Funds with U.S. Treasury represent
obligated and unobligated balances available to finance allowable expenditures and restricted balances, including
amounts related to expired authority and amounts not available for use by DOL. (See Note 2)

D. Investments

The Federal Government does not set aside assets to pay future benefits or other expenditures associated with
DOL’s earmarked funds. The cash receipts collected from the public for earmarked funds are deposited in the U.S.
Treasury, which uses the cash for general Government purposes. Interest earning Treasury securities are issued to
DOL’s earmarked funds as evidence of the receipts. These Treasury securities are assets to DOL and liabilities to the
U.S. Treasury. Because DOL and the U.S. Treasury are both parts of the Government, these assets and liabilities
offset each other from the standpoint of the Government as a whole. For this reason, they do not represent an
asset or a liability in the U.S. Government-wide financial statements. Treasury securities provide DOL with
authority to draw upon the U.S. Treasury to make future benefit payments or other expenditures. When DOL
requires redemption of these securities to make expenditures, the Government finances those expenditures out of
accumulated cash balances, by raising taxes or other receipts, by borrowing from the public or repaying less debt,
or by curtailing other expenditures, just as the Government finances all other expenditures.

Balances held in the Unemployment Trust Fund are invested in non-marketable, special issue Treasury securities
(certificates of indebtedness and bonds) available for purchase exclusively by Federal government agencies and
trust funds. Special issues are purchased and redeemed at face value (cost), which is equivalent to their net
carrying value on the Consolidated Balance Sheet. Interest rates and maturity dates vary.

Balances held in the Panama Canal Commission Compensation Fund are invested in marketable Treasury securities.
These investments are stated at amortized costs that equal their net carrying value on the Consolidated Balance
Sheet. Discounts and premiums are amortized using the effective interest method. Interest rates and maturity
dates vary. Management expects to hold these marketable securities until maturity; therefore, no provision is
made in the financial statements for unrealized gains or losses.

Balances held in the Energy Employees Occupational Illness Compensation Fund are invested in non-marketable
Treasury one day certificates. (See Note 3.)




                                                                                 FY 2010 Agency Financial Report 77
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2010 and 2009


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

E. Accounts Receivable, Net of Allowance

Accounts receivable consists of intra-governmental amounts due to DOL, as well as amounts due from the public.

    1.Intra-governmental accounts receivable

         The Federal Employees Compensation (FEC) account within the Unemployment Trust Fund provides
         unemployment insurance to eligible Federal workers (UCFE) and ex-service members (UCX). DOL recognizes
         as accounts receivable amounts due from other Federal agencies for unreimbursed UCFE and UCX benefits.
         DOL’s Federal Employees’ Compensation Act (FECA) Special Benefit Fund provides workers’ compensation
         benefits to eligible Federal workers on behalf of other Federal agencies. DOL recognizes as accounts
         receivable amounts due from other Federal agencies to the Special Benefit Fund for unreimbursed FECA
         benefits.

         DOL also has receivables from other Federal agencies for work performed on their behalf under various
         reimbursable agreements.

    2.Accounts receivable due from the public

         DOL recognizes as accounts receivable State unemployment taxes due from covered employers and
         reimbursements of benefits paid on behalf of reimbursable employers. Also recognized as accounts
         receivable are benefit overpayments made by DOL to individuals not entitled to receive the benefit.

         DOL recognizes as accounts receivable amounts due from the public for fines and penalties levied against
         employers by OSHA, MSHA, ESA, and EBSA; and for amounts due from grantees and contractors for grant
         and contract costs disallowed by ETA.

    3.Allowance for doubtful accounts

         Accounts receivable due from the public are stated net of an allowance for uncollectible accounts. The
         allowance is estimated based on an aging of account balances, past collection experience, and an analysis of
         outstanding accounts at year-end. Intra-governmental accounts receivable are considered fully collectible.
         (See Note 4)

F. Property, Plant and Equipment, Net of Accumulated Depreciation

The majority of DOL’s property, plant and equipment (PP&E) is general purpose PP&E held by Job Corps centers
owned and operated by DOL through a network of contractors. Internal use software is considered general purpose
PP&E.




78 United States Department of Labor
                                                                                                Annual Financial Statements

                                                                        NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                         For the Years Ended September 30, 2010 and 2009


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

F. Property, Plant and Equipment, Net of Accumulated Depreciation - Continued

DOL’s capitalization thresholds are displayed in the following table.
   Property classification                        Prior to FY 1996   FY 1996 through      FY 2002 and     Useful life
                                                                     FY 2001              thereafter
   Equipment – WCF                                > $5,000           > $5,000             >= $50,000      >= 2 years
   Equipment – Non WCF                            > $5,000           > $25,000            >= $50,000      >= 2 years
   Real Property Purchases or Improvements        > $5,000           > $25,000            > $500,000      >= 2 years
   Leasehold Improvements                         > $5,000           > $25,000            > $500,000      >= 2 years
   Internal Use Software – WCF                    > $5,000           > $5,000             > $300,000      >= 2 years
   Internal Use Software – Non WCF                > $5,000           > $300,000           > $300,000      >= 2 years

PP&E purchases and additions are stated at cost. Normal repairs and maintenance are charged to expense as
incurred. PP&E are depreciated over their estimated useful lives using the straight-line method of depreciation.

Job Corps center construction costs are capitalized as construction-in-progress until completed. Upon completion
they are reclassified as structures or facilities and depreciated over their estimated useful lives. Leasehold
improvements made at Job Corps centers and DOL facilities leased from the General Services Administration are
recorded at cost and amortized over the remaining life of the lease or the useful life of the improvements,
whichever is shorter, using the straight-line method of amortization. DOL operating leases have one year terms with
multiple option years. The leases are cancelable by the government upon appropriate notice as specified in the
lease agreements. Historically, these leases have not been canceled, and DOL has no intention to cancel these
leases in the near term.

Internal use software development costs are capitalized as software development in progress until the development
stage has been completed and successfully tested. Upon completion and testing, software development-in-progress
costs are reclassified as internal use software and amortized over their estimated useful lives.

The table below shows the major classes of DOL’s depreciable PP&E, and the depreciation periods used for each
major classification. (See Note 5)
                                                                Years
                     Structures, facilities and improvements    20 - 50
                     Furniture and equipment                     2 - 36
                     Internal use software                       2 - 15

G. Advances

DOL advances consist primarily of payments made to State employment security agencies (SESAs) and to grantees
and contractors to provide for future DOL program expenditures. These advance payments are recorded by DOL as
an asset, which is reduced when actual expenditures or the accrual of estimated unreported expenditures are
recorded by DOL. (See Note 6)

H. Non-entity Assets

Assets held by DOL which are not available to DOL for obligation are considered non-entity assets. DOL holds non-
entity assets for the Railroad Retirement Board and for transfer to the U.S. Treasury. (See Note 7)

                                                                                       FY 2010 Agency Financial Report 79
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2010 and 2009


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

I. Liabilities

Liabilities represent probable amounts to be paid by DOL as a result of past transactions, and are recognized when
incurred, regardless of whether there are budgetary resources available to pay them. However, the liquidation of
these liabilities will consume budgetary resources and cannot be made until available resources have been
obligated. For financial reporting purposes, DOL’s liabilities are classified as covered or not covered by budgetary
resources.

Liabilities are classified as covered by budgetary resources if budgetary resources are available to pay them.
Liabilities are also considered covered by budgetary resources if they are to be funded by permanent indefinite
appropriations, which have been enacted and signed into law and are available for use as of the balance sheet date,
provided that the resources may be apportioned by OMB without further action by the Congress and without a
contingency having to be met first. Liabilities are classified as not covered by budgetary resources if budgetary
resources are not available. These classifications differ from budgetary reporting, which categorizes liabilities as
obligated, consuming budgetary resources, or unobligated, not consuming budgetary resources. Unobligated
liabilities include those covered liabilities for which available budgetary resources have not been obligated, as well
as liabilities not covered for which budgetary resources are not available to pay them. (See Note 12)

J. Debt

DOL’s debt consisted of the following:

    1.Black Lung Disability Trust Fund borrowings from U.S. Treasury

    The Energy Improvement and Extension Act of 2008 (P.L. 110-343, section 113), enacted October 3, 2008,
    authorized restructuring of the Black Lung Disability Trust Fund (BLDTF) debt by the repayment at market value
    the fund’s outstanding repayable Advances from U.S. Treasury, using the proceeds from borrowings from
    Treasury’s Bureau of Public Debt and a one-time appropriation. In FY 2009, the BLDTF borrowed from Treasury
    $6.496 billion and received a one time appropriation of $6.498 billion; total proceeds from the transactions
    were $12.994 billion, an amount equal to the market value of the outstanding repayable Advances from U.S.
    Treasury at refinancing. The corresponding carrying value of the outstanding advances, including accrued
    interest, was $10.498 billion. The BLDTF recognized a loss of $2.496 billion for the difference between the
    market value as determined by Treasury and the carrying value of the outstanding repayable Advances from
    U.S. Treasury in FY 2009. BLDTF borrowings from Treasury’s Bureau of Public Debt were structured into 32
    discounted instruments with sequential annual September 30th maturities over the 32-year period 2009
    through 2040, bearing interest rates ranging from 1.412% to 4.556%. Interest on each instrument accrues until
    its September 30th maturity date or the instrument’s prepayment, whichever occurs first. In the event that the
    BLDTF cannot repay a discounted instrument when it matures, or make benefit payments or other authorized
    expenditures, the Act authorizes the issuance of one-year discounted instruments to finance these activities.
    There were no additional borrowings in FY 2009. The BLDTF issued additional debt on September 30, 2010 (due
    September 30, 2011) bearing an interest rate of 0.267%. (See Note 8.)




80 United States Department of Labor
                                                                                        Annual Financial Statements

                                                                  NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                   For the Years Ended September 30, 2010 and 2009


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

J. Debt - Continued

   2.Unemployment Trust Fund Advances from U.S. Treasury

       Unemployment Trust Fund advances from U.S. Treasury outstanding as of September 30, 2010 and 2009
       represent borrowings from the General Fund of the U.S. Treasury pursuant to the authority of section 1203
       of the Social Security Act (42 USC 1323) and appropriated through P.L. 111-8 (123 Stat. 754), P.L. 111-46
       (123 Stat. 1970), and P.L. 111-117 (123 Stat. 3230) to pay unemployment benefits, when amounts in the
       Unemployment Trust Fund are insufficient to fund these benefits. These repayable advances bear interest
       rates of 3.25% and 3.375% and were computed as the average interest rate, as of the end of the calendar
       month preceding the issuance date of the advance, for all interest bearing obligations of the United States
       then forming the public debt, to the nearest lower one-eighth of 1 %. Interest on the repayable advances is
       due on September 30th of each year. Advances will be repaid by transfers from the Unemployment Trust
       Fund to the General Fund of the Treasury when the Secretary of the Treasury, in consultation with the
       Secretary of Labor, has determined that the balances in the Unemployment Trust Fund allow repayment.
       (See Note 8.)

K. Accrued Benefits

The financial statements include a liability for unemployment, workers’ compensation, and disability benefits due
and payable from various DOL funds, as discussed below. (See Note 10.)

   1.Unemployment benefits payable

       The Unemployment Trust Fund provides benefits to unemployed workers who meet State and Federal
       eligibility requirements. Regular and extended unemployment benefits are paid from State accounts within
       the Unemployment Trust Fund, financed primarily by a State unemployment tax on employer payrolls. Fifty
       percent of the cost of extended unemployment benefits is paid from the Extended Unemployment
       Compensation Account (EUCA) within the Unemployment Trust Fund, financed by a Federal unemployment
       tax on employer payrolls. The Recovery Act provided for a 100% Federal funding of extended benefits
       through December 2009. This 100% Federal funding provision has been extended several times until
       January 4, 2012.

       Emergency unemployment compensation benefits, first authorized by the Supplemental Appropriations Act
       of 2008, and financed by Federal unemployment taxes paid from EUCA, were extended by the Recovery Act
       through December 2009, and funded entirely from Treasury General Fund revenues, which the Recovery Act
       appropriated. Emergency unemployment compensation benefits have been extended several times until
       January 3, 2012.

       The Recovery Act also provided for Federal Additional Unemployment Compensation (FAUC), a $25 weekly
       supplement entirely funded from Treasury General Fund revenues, payable through December 2009 to
       individuals who are entitled under state law to otherwise receive any type of unemployment compensation.
       FAUC benefits were extended three times after the expiration of the Recovery Act in May 2010, with phase
       out through December 2010.



                                                                               FY 2010 Agency Financial Report 81
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2010 and 2009


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES – Continued

 K. Accrued Benefits - Continued

    1.Unemployment benefits payable – (continued)

         Unemployment benefits to unemployed Federal workers are paid from the Federal Employment
         Compensation Account within the Unemployment Trust Fund, which is then reimbursed by the responsible
         Federal agency.

         A liability is recognized for unpaid unemployment benefits applicable to the current period and for benefits
         paid by states that have not been reimbursed by the fund. DOL also recognizes a liability for Federal
         employees’ unemployment benefits to the extent of unpaid benefits for existing claims filed during the
         current period, payable in the subsequent period, to the extent reimbursed by other Federal entities.

    2.Federal employees disability and 10(h) benefits payable

         The Federal Employees’ Compensation Act Special Benefit Fund provides income and medical cost
         protection to covered Federal civilian employees injured on the job, employees who have incurred a work-
         related occupational disease and beneficiaries of employees whose death is attributable to a job-related
         injury or occupational disease. The fund is reimbursed by other Federal agencies for the FECA benefit
         payments made on behalf of their workers. The fund assumes the liability for unreimbursed (non-
         chargeable) FECA benefits. The fund also provides 50% of the annual cost-of-living adjustments for pre-
         1972 compensation cases under the authority of Section 10(h) of the Longshore and Harbor Workers’
         Compensation Act and the District of Columbia Workmen’s Compensation Act. A liability for FECA benefits
         payable by the Special Benefit Fund to the employees of DOL and other Federal agencies and for 10(h)
         benefits is accrued to the extent of unpaid benefits applicable to the current period.

    3.Black lung disability benefits payable

         The Black Lung Disability Trust Fund and Special Benefits for Disabled Coal Miners provide compensation
         and medical benefits for eligible coal miners who are disabled due to pneumoconiosis (black lung disease).
         DOL recognizes a liability for disability benefits to the extent of unpaid benefits applicable to the current
         period.

    4.Energy employees occupational illness compensation benefits payable

         The Energy Employees Occupational Illness Compensation Fund provides benefits to eligible current or
         former employees of the Department of Energy (DOE) and its contractors suffering from designated illnesses
         incurred as a result of their work with DOE. Benefits are also paid to certain survivors of those employees
         and contractors, as well as to certain beneficiaries of the Radiation Exposure Compensation Act (RECA). DOL
         recognizes a liability for disability benefits to the extent of unpaid benefits applicable to the current period.




82 United States Department of Labor
                                                                                               Annual Financial Statements

                                                                         NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                          For the Years Ended September 30, 2010 and 2009


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES – Continued

L. Future Workers’ Compensation Benefits

The financial statements include an actuarial liability for future workers’ compensation benefits payable by DOL to
its employees, to employees of the Panama Canal Commission and to enrollees of the Job Corps, as well as benefits
not chargeable to other Federal agencies, which must be paid by DOL’s Federal Employees’ Compensation Act
Special Benefit Fund. The liability includes the expected payments for death, disability, medical, and miscellaneous
costs for approved compensation cases, as well as a component for incurred but not reported claims. The liability is
determined using historical benefit payment patterns related to injury years to predict the ultimate payments.

The actuarial methodology provides for the effects of inflation and adjusts historical payments to current year
constant dollars by applying wage inflation factors (cost of living adjustments or COLAs) and medical inflation factors
(consumer price index-medical or CPIMs) to the calculation of projected benefits. The COLAs and CPIMs used in the
projections for FY 2010 and FY 2009 were as follows:

                                        COLA                      CPIM
                      FY         2010          2009        2010          2009

                     2010        N/A           0.47%       N/A           3.42%
                     2011        2.23%         1.40%       3.45%         3.29%
                     2012        1.13%         1.50%       3.43%         3.48%
                     2013        1.70%         1.80%       3.64%         3.71%
                     2014        1.90%         2.00%       3.66%         3.71%
                     2015+       1.93%         2.00%       3.73%         3.71%

Projected annual payments were discounted to present value based on OMB’s interest rate assumptions for ten year
Treasury notes. For 2010, interest rate assumptions were 3.653% in year one and 4.300% in year two and
thereafter. For 2009, interest rate assumptions were 4.223% in year one and 4.715% in year two and thereafter.
(See Note 11.)

M. Energy Employees Occupational Illness Compensation Benefits

The Energy Employees Occupational Illness Compensation Fund, established under the authority of the Energy
Employees Occupational Illness Compensation Program Act of 2000 (EEOICPA), provides benefits to eligible current
or former employees of DOE and its contractors, or to certain survivors of those employees and contractors, as well
as benefits to certain beneficiaries of RECA. DOL is responsible for adjudicating and administering claims filed under
the EEOICPA. Effective July 31, 2001, compensation of $150,000 and payment of medical expenses from the date a
claim is filed are available to covered individuals suffering from designated illnesses incurred as a result of their work
with DOE. Prior to October 2004, compensation of $50,000 and payment of medical expenses from the date a claim
is filed are available to individuals eligible for compensation under RECA. As a result of the October 2004 changes,
new RECA cases are paid the full $150,000 under EEOICPA.

The Ronald Reagan National Defense Authorization Act of 2005 amended EEOICPA to include Subtitle E –
Contractor Employee Compensation. This amendment replaces Part D of the EEOICPA, which provided assistance
from DOE in obtaining state workers’ compensation benefits. The amended program grants workers’
compensation benefits to covered employees and their families for illness and death arising from exposure to toxic


                                                                                      FY 2010 Agency Financial Report 83
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2010 and 2009


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES – Continued

M. Energy Employees Occupational Illness Compensation Benefits - Continued

substances at a DOE facility. The amendment also makes it possible for uranium workers as defined under Section
5 of RECA to receive compensation under Part E for illnesses due to toxic substance exposure at a uranium mine or
mill covered under that Act. These claims were formerly paid by the Department of Justice (DOJ).

DOL has recognized a $12.114 billion and $8.064 billion actuarial liability for estimated future benefits payable by
DOL at September 30, 2010 and 2009, respectively, to eligible individuals under the EEOICPA. At September 30,
2010 the undiscounted liability is $19.805 billion discounted to a present value liability of $12.114 billion based on
an interest rate of 4.30% projected over a 51 year period. The present value liability increased significantly at
September 30, 2010 due to increased cancer Special Exposure Cohort (SEC) claims, higher medical costs and a lower
discount rate. At September 30, 2009, the undiscounted liability is $12.759 billion discounted to a present value
liability of $8.064 billion based on an interest rate 4.715% projected over a 52 year period. The estimated liability
includes the expected lump sum and estimated medical payments for approved compensation cases and cases filed
pending approval, as well as claims incurred but not yet filed. The actuarial projection methodology provided an
estimate of the ultimate number of reported cases as a result of estimating future claims from the historical
patterns of reported claims and subsequent claim approval rates. Medical payments were derived by estimating an
average benefit award per living employee claimant.

N. Accrued Leave

A liability for annual and compensatory leave is accrued as leave is earned and paid when leave is taken. The
balance of leave earned but not taken will be paid from future funding sources. Sick leave and other types of non-
vested leave are expensed as taken.

O. Employee Health and Life Insurance Benefits

DOL employees are eligible to participate in the contributory Federal Employees Health Benefit Program (FEHBP)
and the Federal Employees Group Life Insurance Program (FEGLIP). DOL matches the employee contributions to
each program to pay for current benefits. During 2010, DOL’s contributions to the FEHBP and FEGLIP were $91.3
million and $2.3 million, respectively. During 2009, DOL’s contributions to the FEHBP and FEGLIP were $82.5 million
and $2.2 million, respectively. These contributions are recognized as current operating expenses.

P. Other Retirement Benefits

DOL employees eligible to participate in the FEHBP and the FEGLIP may continue to participate in these programs
after their retirement. DOL recognizes a current operating expense for the future cost of these other retirement
benefits (ORB) at the time the employee’s services are rendered. This ORB expense must be financed by OPM.
Using cost factors supplied by OPM, DOL recorded ORB imputed costs and imputed financing sources of $107.8
million in 2010 and $97.5 million in 2009.




84 United States Department of Labor
                                                                                         Annual Financial Statements

                                                                   NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                    For the Years Ended September 30, 2010 and 2009


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

Q. Employee Pension Benefits

DOL employees participate in either the Civil Service Retirement System (CSRS) or the Federal Employees’
Retirement System (FERS). For employees participating in CSRS, 7.0% of their gross earnings is withheld and
transferred to the Civil Service Retirement and Disability Fund. DOL contributes an additional 7.0% of the employee
gross earnings to the Civil Service Retirement and Disability Fund. For employees participating in FERS, DOL
withholds 0.8% of gross earnings and makes an 11.2% employer contribution. This total is transferred to the Federal
Employees’ Retirement Fund. The CSRS and FERS retirement funds are administered by the OPM. DOL
contributions to the CSRS and FERS are recognized as current operating expenses. FERS participants are also
covered under the Federal Insurance Contribution Act (FICA) and are subject to withholdings. DOL makes matching
FICA contributions, recognized as operating expenses. DOL’s matching contributions were $86.7 million in 2010 and
$78.5 million in 2009.

The Thrift Savings Plan (TSP) is a defined contribution retirement savings and investment plan for employees
covered by either CSRS or FERS. CSRS participants may contribute up to $16,500 of their gross pay to the TSP during
calendar years 2010 and 2009, but there is no departmental matching contribution. FERS participants may
contribute up to $16,500 of their gross pay to the TSP during calendar years 2010 and 2009. CSRS and FERS
participants aged 50 years or older may also contribute an additional $5,500 each calendar year in “catch-up”
contributions during calendar years 2010 and 2009, but there is no departmental matching on “catch-up”
contributions. For employees covered under FERS, DOL contributes 1% of the employees’ gross pay to the TSP. DOL
also matches employees’ contributions dollar-for-dollar on the first 3% of pay contributed each pay period and 50
cents on the dollar for the next 2% of pay contributed. DOL contributions to the TSP are recognized as current
operating expenses. Employee and employer contributions to the TSP are transferred to the Federal Retirement
Thrift Investment Board.

DOL recognizes the full cost of providing future CSRS and FERS pension benefits to covered employees at the time
the employees’ services are rendered. The pension expense recognized in the financial statements equals the
service cost for covered DOL employees, less amounts contributed by these employees. Service cost represents the
actuarial present value of benefits attributed to services rendered by covered employees during the accounting
period.

The measurement of service cost requires the use of actuarial cost methods to determine the percentage of the
employees’ basic compensation sufficient to fund their projected pension benefit. These percentages (cost factors)
are provided by OPM, and applied by DOL to the basic annual compensation of covered employees to arrive at the
amount of total pension expense to be recognized in DOL’s financial statements.

The excess of total pension expense over the amount contributed by the Department and by DOL’s employees
represents the amount of pension expense which must be financed directly by OPM. DOL recognized an imputed
cost and an imputed financing source equal to the excess amount. DOL does not recognize in its financial
statements FERS or CSRS assets, accumulated plan benefits or unfunded liabilities, if any, applicable to its
employees. (See Note 14.)




                                                                                FY 2010 Agency Financial Report 85
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2010 and 2009


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

R. Net Position

DOL’s net position consists of the following:

    1.Unexpended appropriations

         Unexpended appropriations include the unobligated balances and undelivered orders of DOL’s appropriated
         funds. Unobligated balances associated with appropriations that expire at the end of the fiscal year remain
         available for obligation adjustments, but not new obligations, until those appropriations are closed, five
         years after the appropriations expire. Unexpired multi-year and no-year appropriations remain available to
         DOL for obligation in future periods.

    2.Cumulative results of operations

         Cumulative results of operations include the accumulated historical difference between expenses
         consuming budgetary resources and financing sources providing budgetary resources in DOL’s trust,
         revolving and special funds; liabilities not consuming budgetary resources net of assets not providing
         budgetary resources; and DOL’s net investment in capitalized assets.


S. Net Cost of Operations

    1.Operating costs

         Full operating costs are comprised of all direct costs consumed by the program and those indirect costs
         which can be reasonably assigned or allocated to the program. Full costs are reduced by exchange (earned)
         revenues to arrive at net program cost. The full and net operating costs of DOL’s major programs are
         presented in the Consolidated Statement of Net Cost, and are also reported by sub-organization in Note 15
         to the financial statements.

    2.Earned revenue

         Earned revenues arise from exchange transactions which occur through the provision of goods and services
         for a price, and are deducted from the full cost of DOL’s major programs to arrive at net program cost.
         Earned revenues are recognized by DOL to the extent reimbursements are payable from other Federal
         agencies and from the public, as a result of costs incurred or services performed on their behalf. Major
         sources of DOL’s earned revenue include reimbursements to the Federal Employees’ Compensation Act
         Special Benefit Fund from Federal agencies for the costs of disability compensation and medical care
         provided to or accrued on behalf of their employees, and reimbursements to the Unemployment Trust Fund
         from Federal agencies for the cost of unemployment benefits provided to or accrued on behalf of their
         former employees.




86 United States Department of Labor
                                                                                         Annual Financial Statements

                                                                   NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                    For the Years Ended September 30, 2010 and 2009


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

T. Budgetary Financing Sources

Budgetary financing sources other than earned revenues provide funding for the Department’s net cost of
operations and are reported on the Consolidated Statement of Changes in Net Position. These financing sources
include appropriations received, less appropriations transferred and not available, non-exchange revenue, and
transfers without reimbursement, as discussed below:

   1.Appropriations received, appropriations transferred and appropriations not available

       DOL receives financing sources through congressional appropriations to support its operations. A financing
       source is recognized for these appropriated funds received, less appropriations transferred or not available
       through rescission or cancellation.

   2.Non-exchange revenue

       Non-exchange revenues arise primarily from the Federal government’s power to demand payments from
       the public. Non-exchange revenues are recognized by DOL on the Consolidated Statement of Changes in
       Net Position for the transfer of employer and excise taxes from the entities collecting these taxes and for
       interest from investments, as discussed below. (See Note 16)

       •   Employer taxes

       Employer tax revenues are recognized on a modified cash basis, to the extent of cash transferred by the
       collecting entity to DOL, plus the change in inter-entity balances between the collecting entity and DOL.
       Inter-entity balances represent revenue received by the collecting entity, net amounts due to the collecting
       entity and adjustments made to previous transactions by the collecting entity which have not been
       transferred to DOL.

       Federal and state unemployment taxes represent non-exchange revenues collected from employers based
       on wages paid to employees in covered employment. Federal unemployment taxes are collected by the
       Internal Revenue Service and transferred to designated accounts within the Unemployment Trust Fund.
       State unemployment taxes are collected by each State and deposited in separate State accounts within the
       Unemployment Trust Fund. Federal unemployment taxes are used to pay the Federal share of extended
       unemployment benefits and to provide for Federal and State administrative expenses related to the
       operation of the unemployment insurance program. State unemployment taxes are restricted in their use
       to the payment of unemployment benefits.

       •   Interest

       The Unemployment Trust Fund, the Panama Canal Commission Compensation Fund, and the Energy
       Employees Occupational Illness Compensation Fund receive interest on fund investments. The
       Unemployment Trust Fund receives interest from states that had accounts with loans payable to the Federal
       unemployment account at the end of the prior fiscal year. Interest is also earned on Federal funds in the
       possession of non-Federal entities. Interest is recognized as non-exchange revenue when earned.



                                                                                FY 2010 Agency Financial Report 87
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2010 and 2009


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

T. Budgetary Financing Sources - Continued

    2.Non-exchange revenue - continued

         •   Assessments

         Assessments consist of penalties levied against employers by ESA for regulatory violations. Assessments
         are recognized as non-exchange revenues when earned.

         •   Reimbursement of unemployment benefits

         The Unemployment Trust Fund receives reimbursements from state and local government entities and non-
         profit organizations for the cost of unemployment benefits provided to or accrued on behalf of their
         employees. These reimbursements are recognized as non-exchange revenue when earned.

    3.Transfers without reimbursement

         Transfers recognized as budgetary financing sources by DOL include transfers from the Department of
         Homeland Security H-1B Nonimmigrant Petitioner Account to H-1B Funds in ETA and ESA. Also included are
         transfers from the Longshore and Harbor Workers’ Compensation Act Trust Fund for administrative costs
         and transfers from various DOL general fund unexpended appropriation accounts to the Working Capital
         Fund’s cumulative results of operations. There are also transfers between DOL entities, primarily for the
         administration of the unemployment insurance program and additional appropriations for extended
         unemployment benefits. (See Note 17)

U. Other Financing Sources

Other financing sources include items that do not represent budgetary resources.

    1.Imputed financing

         A financing source is imputed by DOL to provide for pension and other retirement benefit expenses
         recognized by DOL but financed by OPM. (See Notes 1-P and Q)

    2.Transfers without reimbursement

         Transfers recognized as other financing sources by DOL include the transfers of property from the General
         Services Administration. (See Note 17)




88 United States Department of Labor
                                                                                          Annual Financial Statements

                                                                    NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                     For the Years Ended September 30, 2010 and 2009


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

V. Custodial Activity

DOL collects and transfers to the general fund of the U.S. Treasury custodial non-exchange revenues for penalties
levied against employers by OSHA, MSHA, ESA, and EBSA for regulatory violations; for ETA disallowed grant costs
assessed against canceled appropriations; and for FECA administrative costs assessed against government
corporations in excess of amounts reserved to finance capital improvements in the Federal Employees’
Compensation Act Special Benefit Fund. These collections are not available to the agencies for obligation or
expenditure. Penalties and other assessments are recognized as custodial revenues when collected or subject to
collection. (See Notes 1-B and 20)

W. Significant Assumptions Used in the Statement of Social Insurance

The Black Lung Disability Benefit Program provides for compensation, medical and survivor benefits for eligible coal
miners who are disabled due to pneumoconiosis (black lung disease) arising out of their coal mine employment.
The Black Lung Disability Trust Fund (BLDTF) provides benefit payments to eligible coal miners disabled by
pneumoconiosis when no responsible mine operator can be assigned the liability.

Black lung disability benefit payments are funded by excise taxes from coal mine operators based on the sale of
coal, as are the fund’s administrative costs. These taxes are collected by the Internal Revenue Service and
transferred to the BLDTF, which was established under the authority of the Black Lung Benefits Revenue Act, and
administered by the U.S. Department of the Treasury. Prior to October 3, 2008, the Black Lung Benefits Revenue
Act provided for repayable advances to the BLDTF from the General Fund of the Treasury, in the event that BLDTF
resources were not adequate to meet program obligations.

P.L. 110-343, Division B--Energy Improvement and Extension Act of 2008, enacted on October 3, 2008, in section
113, (1) allowed for the temporary increase in coal excise tax rates to continue an additional five years beyond the
current statutory limit and (2) restructured the BLDTF debt by refinancing the outstanding high interest rate
repayable advances with the proceeds from issuing low interest rate discounted debt instruments similar in form to
zero-coupon bonds, plus a one-time appropriation. This Act also allowed that any debt issued by the BLDTF
subsequent to the refinancing may be used to make benefit payments, other authorized expenditures, or to repay
debt and interest from the initial refinancing. Debt issued by the BLDTF subsequent to the initial refinancing will
have a maturity date of one year and bear interest at the Treasury 1-year rate. All debt issued by the BLDTF was
effected as borrowing from the Bureau of Public Debt. (See Notes 1-J and 8)




                                                                                 FY 2010 Agency Financial Report 89
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2010 and 2009


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

W. Significant Assumptions Used in the Statement of Social Insurance - Continued

P.L. 111-148, Patient Protection and Affordable Care Act of 2010, enacted on March 23, 2010, in section 1556,
amended the Black Lung Benefits Act and became effective immediately. Among other things, section 1556 affects
claims for (1) total disability benefits filed by miners with long histories of employment in the coal industry and (2)
survivors benefits filed by widows and other surviving dependents of totally disabled coal miners upon their death.
The amendments apply to claims which were filed after 2004 and pending on this Act's effective date and
thereafter. These amendments may make it easier for some coal miners and their surviving dependents to meet
the eligibility requirements for total disability and survivors benefits. The significant assumptions used in the
projections for the Statement of Social Insurance are the number of beneficiaries, life expectancy, coal excise tax
revenue estimates, the tax rate structure, Federal civilian pay raises and medical cost inflation.

Treasury’s Office of Tax Analysis provides estimates of future receipts of the black lung excise tax. Its estimates are
based on projections of future coal production and sale prices prepared by the Energy Information Agency of the
Department of Energy. Treasury’s Office of Tax Analysis provides the first eleven years of tax receipt estimates.
The remaining years are estimated using a growth rate based on both historical tax receipts and the Treasury’s
estimated tax receipts. The higher coal excise tax rate structure is $1.10 per ton of underground-mined coal and
$0.55 per ton of surface-mined coal sold, with a cap of 4.4% of sales price. Based on Treasury’s interpretation of
section 113 of P.L. 110-343, the higher excise tax rates will continue until the earlier of December 31, 2018 or the
first December 31 after 2008 in which there exist no (1) balance of repayable debt described in section 9501 of the
Internal Revenue Code and (2) unpaid interest on the debt. Starting in 2019, the tax rates revert to $0.50 per ton of
underground-mined coal and $0.25 per ton surface-mine coal sold, and a limit of 2.0% of sales price. Although
section 9501 of the Internal Revenue Code uses the terminology "advance," the Treasury has interpreted this to
mean any debt owed by the BLDTF to the Bureau of the Public Debt.

The beneficiary population data is updated from information supplied by the program. The beneficiary population
is a nearly closed universe in which attrition by death exceeds new entrants by a ratio of more than ten to one.
Projections for new participants are included in the overall projections and are considered immaterial. Social
Security Administration life tables are used to project the life expectancies of the beneficiary population. OMB
supplies assumptions for future monthly benefit rate increases based on increases in the Federal pay scale and
future medical cost inflation based on increases in the consumer price index-medical, which are used to calculate
future benefit costs. During the current projection period, the future benefit rate increases 5.0% in 2011 and 4.0%
in each year thereafter and medical cost increases 3.4% in 2011, and ranges from 3.5% to 3.8% thereafter.
Estimates for administrative costs for the first 11 years of the projection are supplied by DOL’s Budget Office, based
on current year enacted amounts, while later years are based on the number of projected beneficiaries.

The projection period ends September 30, 2040, because the primary purpose of the BLDTF, which was established
in 1978, is to compensate the victims of coal mine dust exposures which occurred prior to 1970. By the end of FY
2040, not only the disabled miners and their widows in that class, but also virtually all of their eligible dependent
disabled adult children will be deceased. All of the current year projections are discounted using an interest rate of
3.75% published by Treasury as of the start of the projection period. This rate is for Treasury loans to government
agencies for loans up to 30 years. Thirty years is the maximum period for which Treasury publishes rates for loans
to government agencies and approximates the projection period.




90 United States Department of Labor
                                                                                             Annual Financial Statements

                                                                      NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                       For the Years Ended September 30, 2010 and 2009


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

X. Tax Exempt Status

As an agency of the Federal government, the Department is exempt from all taxes imposed by any governing body
whether it is a Federal, state, commonwealth, local, or foreign government.

Y. Use of Estimates

The preparation of financial statements requires management to make certain estimates and assumptions that
affect the reported amounts of assets and liabilities and the reported amounts of revenue and expenses during the
reporting period. Actual results could differ from those estimates.

Z. Reclassifications

The FY 2009 statements were reclassified to conform to the FY 2010 Departmental financial statement presentation
requirements. The reclassifications had no effect on total assets, liabilities, net position, and change in net position
or budgetary resources as previously reported.

In connection with the preparation of the current year financial statements, the Department identified two
immaterial errors in the FY 2009 Statement of Changes in Net Position. The Appropriations Received and
Appropriations Transferred were each misstated by $7.95 billion. However, the errors offset each other and had no
net impact on any total line in the Statement of Changes in Net Position, including the Department’s net position as
of September 30, 2009. The balances of Appropriations Received and Appropriations Transferred have been
corrected in the FY 2009 Statement of Changes in Net Position. This correction also impacted the presentation of
Note 18F, Status of Budgetary Resources – Appropriations Received.




                                                                                   FY 2010 Agency Financial Report 91
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2010 and 2009


NOTE 2 - FUNDS WITH U.S. TREASURY

Funds with U.S. Treasury at September 30, 2010 consisted of the following:

                                                              Entity Assets
                                   Unobligated        Unobligated        Obligated
                                    Balance            Balance          Balance Not        Total               Non-entity
(Dollars in thousands)              Available         Unavailable      Yet Disbursed   Entity Assets            Assets           Total

     Revolving funds           $        14,633    $        23,630    $       58,361    $        96,624     $            -   $       96,624
     Trust funds                            91                 -            141,599            141,690                (629)        141,061
     General funds                   3,029,238            705,680         8,641,922         12,376,840                  -       12,376,840
     Other                                  -                  -                 -                  -                3,621           3,621

                               $     3,043,962 $          729,310 $       8,841,882 $ 12,615,154 $                   2,992 $    12,618,146




Funds with U.S. Treasury at September 30, 2009 consisted of the following:

                                                              Entity Assets
                                   Unobligated        Unobligated        Obligated
                                    Balance            Balance          Balance Not            Total           Non-entity
(Dollars in thousands)              Available         Unavailable      Yet Disbursed       Entity Assets        Assets           Total

     Revolving funds           $         16,351   $             -     $      61,785 $     78,136           $             -   $     78,136
     Trust funds                      2,340,232                 -          (298,848)   2,041,384                       (687)    2,040,697
     General funds                    2,742,223            637,147        8,902,843   12,282,213                         -     12,282,213
     Other                                   -                  -                -            -                       5,705         5,705

                               $      5,098,806 $          637,147 $      8,665,780 $ 14,401,733 $                    5,018 $ 14,406,751


The negative fund balances reported as of September 30, 2010 and 2009 relate to the Unemployment Trust Fund
(UTF) and are the result of the timing of processing the investments and redemptions of UTF. The investments and
redemptions relating to the last business day of the month are not processed until the first day of the next month.
This could result in a negative cash position for the preceding business day if the disbursements are greater than
the receipts to the fund.

Annual and multi-year budget authority expires at the end of its period of availability. During the first through the
fifth expired years, the unobligated balance is unavailable and may be used to adjust obligations and disbursements
that were recorded before the budgetary authority expired or to meet a legitimate or bona fide need arising in the
fiscal year for which the appropriation was made. The unobligated balance for no-year budget authority may be
used to incur obligations indefinitely for the purpose specified by the appropriation act. No-year budget authority
unobligated balances are still subject to the annual apportionment and allotment process

Unobligated Balance Available at September 30, 2010 includes $514 million of funds apportioned for use in the
subsequent year.




92     United States Department of Labor
                                                                                                       Annual Financial Statements

                                                                                NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                                 For the Years Ended September 30, 2010 and 2009


NOTE 3 - INVESTMENTS

Investments at September 30, 2010 consisted of the following:

                                            Face              Premium            Interest            Net             Market
(Dollars in thousands)                      Value            (Discount)         Receivable          Value            Value


Unemployment Trust Fund
  Non-marketable
  Special issue U.S. Treasury Bonds
  3.125% maturing June 30, 2011         $    5,981,782   $            -     $        20,672   $      6,002,454   $     5,981,782
  4.500% maturing June 30, 2011             12,720,998                -             143,111         12,864,109        12,720,998
                                            18,702,780                -             163,783         18,866,563        18,702,780

Panama Canal Commission
 Compensation Fund
  Marketable
  U.S. Treasury Notes
  3.625% maturing May 15, 2013                   3,968               (96)                54              3,926             3,968
  4.500% Maturing November 15, 2010             62,967              (794)             1,063             63,236            62,967
                                                66,935              (890)             1,117             67,162            66,935

Energy Employees Occupational Illness
 Compensation Fund
  Non-marketable
  One Day Certificate
  0.120% maturing October 1, 2010              347,368                -                  -             347,368           347,368

                                        $   19,117,083   $          (890)   $       164,900   $     19,281,093   $    19,117,083


Entity investments                      $   19,087,134   $          (890)   $       164,638   $     19,250,882   $    19,087,134
Non-entity investments                          29,949                -                 262             30,211            29,949

                                        $   19,117,083   $          (890)   $       164,900   $     19,281,093   $    19,117,083




                                                                                              FY 2010 Agency Financial Report 93
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2010 and 2009


NOTE 3 - INVESTMENTS - Continued

Investments at September 30, 2009 consisted of the following:
                                                   Face            Premium                Interest             Net             Market
(Dollars in thousands)                             Value           (Discount)            Receivable           Value            Value

Unemployment Trust Fund
     Non-marketable
     Special issue U.S. Treasury Bonds
     3.250% maturing June 30, 2010            $     334,382    $             -       $               32   $     334,414    $     334,382
     4.500% maturing June 30, 2011                19,293,800                 -               217,055          19,510,855       19,293,800
                                                  19,628,182                 -               217,087          19,845,269       19,628,182

Panama Canal Commission
 Compensation Fund
     Marketable
     U.S. Treasury Notes
     3.500% to 4.625% various maturities             66,664                     44              1,103            67,811           67,268
     U.S. Treasury Bonds
     11.750% to be called November 15, 2009           5,163                     52                228             5,443            5,234
                                                     71,827                     96              1,331            73,254           72,502

Energy Employees Occupational Illness
 Compensation Fund
  Non-marketable
     One Day Certificate
     0.070% maturing October 1, 2009                192,823                  -                       -          192,823          192,823

                                              $ 19,892,832     $                96   $       218,418      $   20,111,346   $   19,893,507

Entity investments                            $ 19,856,989     $                96   $       218,022      $   20,075,107   $   19,857,665
Non-entity investments                               35,843                  -                   396             36,239           35,842

                                              $ 19,892,832     $                96   $       218,418      $   20,111,346   $   19,893,507




94     United States Department of Labor
                                                                                                Annual Financial Statements

                                                                   NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                    For the Years Ended September 30, 2010 and 2009


NOTE 4 - ACCOUNTS RECEIVABLE, NET OF ALLOWANCE

Accounts receivable at September 30, 2010 consisted of the following:
                                                                         Gross                                      Net
(Dollars in thousands)                                                 Receivables           Allowance           Receivables

Entity intra-governmental assets
  Due for UCFE and UCX benefits                                    $        745,405      $           -       $       745,405
  Due for workers' compensation benefits                                  5,135,704                  -             5,135,704
  Other                                                                       1,262                  -                 1,262
                                                                          5,882,371                  -             5,882,371

Entity assets
  State unemployment taxes                                                  953,709             (691,600)            262,109
  Due from reimbursable employers                                         1,235,093              (92,864)          1,142,229
  Benefit overpayments                                                    2,933,557           (2,467,752)            465,805
  Other                                                                      55,214              (32,830)             22,384
                                                                          5,177,573           (3,285,046)          1,892,527

Non-entity assets
  Fines and penalties                                                       169,680              (50,326)            119,354

                                                                          5,347,253           (3,335,372)          2,011,881

                                                                   $ 11,229,624          $    (3,335,372)    $     7,894,252



Accounts receivable at September 30, 2009 consisted of the following:
                                                                          Gross                                     Net
(Dollars in thousands)                                                  Receivables          Allowance           Receivables

Entity intra-governmental assets
  Due for UCFE and UCX benefits                                    $        474,770      $               -   $        474,770
  Due for workers' compensation benefits                                  4,982,929                      -          4,982,929
  Other                                                                       9,798                      -              9,798
                                                                          5,467,497                      -          5,467,497

Entity assets
  State unemployment taxes                                                  945,324             (682,354)             262,970
  Due from reimbursable employers                                           733,404              (46,191)             687,213
  Benefit overpayments                                                    1,989,258           (1,640,575)             348,683
  Other                                                                       5,247                 (841)               4,406
                                                                          3,673,233           (2,369,961)           1,303,272

Non-entity assets
  Fines and penalties                                                        91,143              (40,574)              50,569
                                                                          3,764,376           (2,410,535)           1,353,841

                                                                   $      9,231,873      $    (2,410,535)    $      6,821,338




                                                                                      FY 2010 Agency Financial Report 95
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2010 and 2009


NOTE 5 - PROPERTY, PLANT AND EQUIPMENT, NET OF ACCUMULATED DEPRECIATION

Property, plant and equipment at September 30, 2010 consisted of the following:

                                                                                          2010
                                                                                       Accumulated
                                                                                       Depreciation/             Net Book
(Dollars in thousands)                                                 Cost            Amortization               Value
Structures, facilities and improvements
  Structures and facilities                                       $    1,134,773   $        (482,666)        $      652,107
  Improvements to leased facilities                                      423,915            (257,028)               166,887
                                                                       1,558,688            (739,694)               818,994
Furniture and equipment
  Equipment held by contractors                                         153,333             (148,963)                 4,370
  Furniture and equipment                                                39,410               (27,100)               12,310
                                                                        192,743             (176,063)                16,680
Internal use software                                                   216,452             (101,714)               114,738
Construction-in-progress                                                130,200                   -                 130,200
Land                                                                     94,101                   -                  94,101

                                                                  $    2,192,184   $       (1,017,471)       $     1,174,713




Property, plant and equipment at September 30, 2009 consisted of the following:
                                                                                      2009
                                                                                   Accumulated
                                                                                   Depreciation/             Net Book
(Dollars in thousands)                                                 Cost        Amortization               Value
Structures, facilities and improvements
  Structures and facilities                                       $   1,111,949    $      (468,889)      $        643,060
  Improvements to leased facilities                                     420,863           (244,674)               176,189
                                                                      1,532,812           (713,563)               819,249
Furniture and equipment
  Equipment held by contractors                                         170,681           (162,628)                 8,053
  Furniture and equipment                                                33,248             (22,614)               10,634
                                                                        203,929           (185,242)                18,687
Internal use software                                                   196,561            (73,408)               123,153
Construction-in-progress                                                 97,377                 -                  97,377
Land                                                                     95,774                 -                  95,774

                                                                  $   2,126,453    $      (972,213)      $       1,154,240




96   United States Department of Labor
                                                                                                          Annual Financial Statements

                                                                         NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                          For the Years Ended September 30, 2010 and 2009


NOTE 6 – ADVANCES

Advances at September 30, 2010 and 2009 consisted of the following:
(Dollars in thousands)                                                                                  2010                   2009

Advances to states for UI benefit payments                                                    $          1,746,918       $     1,583,858
Other                                                                                                      125,274               107,240

                                                                                              $          1,872,192       $     1,691,098

NOTE 7 - NON-ENTITY ASSETS

Non-entity assets consisted of the following at September 30, 2010 and 2009:


(Dollars in thousands)                                                                                  2010                   2009
Intra-governmental
   Funds with U.S. Treasury                                                                   $              2,992       $        5,018
   Investments                                                                                              30,211               36,239
                                                                                                           33,203                41,257
Accounts receivable, net of allowance                                                                     119,354                50,569
                                                                                              $           152,557        $       91,826


NOTE 8 - DEBT
DOL’s debt during FY 2010 consisted of the following:
                                                   Balance at                                                          Balance at
                                                 September 30,                                       Net             September 30,
(Dollars in thousands)                               2009            Refinancing                  Borrowing              2010

Intra-governmental
   Debt to Treasury
     Black Lung Disability Trust Fund
       Borrowing from U.S. Treasury              $      6,370,580    $               -        $          (80,834)    $       6,289,746
     Unemployment Trust Fund
       Advances from U.S. Treasury                      7,981,387                    -                26,129,592          34,110,979

                                                 $ 14,351,967        $               -        $ 26,048,758           $ 40,400,725


DOL’s debt during FY 2009 consisted of the following:

                                                       Balance at                                                          Balance at
                                                     September 30,                                       Net             September 30,
(Dollars in thousands)                                   2008                Refinancing              Borrowing              2009


Intra-governmental
   Debt to Treasury
     Black Lung Disability Trust Fund
       Advances from U.S. Treasury                $ 10,483,557           $ (10,483,557)           $            -         $           -
       Borrowing from U.S. Treasury                         -                6,495,717                   (125,137)            6,370,580
     Unemployment Trust Fund
       Advances from U.S. Treasury                             -                         -              7,981,387             7,981,387

                                                  $ 10,483,557           $     (3,987,840)        $     7,856,250        $ 14,351,967



                                                                                             FY 2010 Agency Financial Report 97
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2010 and 2009


NOTE 8 - DEBT - Continued

In FY 2009, refinancing includes the replacement of high interest rate Advances from U.S. Treasury with borrowings
in the form of discounted instruments, similar to zero coupon bonds. For the Black Lung Disability Trust Fund, net
borrowing includes capitalized interest of $223.9 million, repaid debt of ($353.4 million), interest of ($11.3 million),
and additional borrowing of $60.0 million, for a total of ($80.8 million) and capitalized interest of $212.3 million and
repaid debt of ($337.4 million) for a total of ($125.1 million) in FYs 2010 and 2009, respectively. For the
Unemployment Trust Fund, net borrowing includes new advances of $29.05 billion, repayments of $2.9 billion and
($31.4 million) for accrued interest for a net total of $26.1 billion and new advances of $7.95 billion and accrued
interest of $31.4 million for a total of $7.98 billion in FYs 2010 and 2009, respectively.

NOTE 9 - OTHER LIABILITIES

Other liabilities at September 30, 2010 and 2009 consisted of the following current liabilities:

(Dollars in thousands)                                                                    2010                  2009

Intra-governmental
   Accrued payroll benefits                                                           $        53,930       $        15,222
   Unearned FECA assessments                                                                       18                    18
   Non-entity receivables due to U.S. Treasury                                                119,354                50,332
   Amounts held for the Railroad Retirement Board                                              29,582                35,552
   Advances from other Federal agencies                                                        19,627                   300
Total intra-governmental                                                                      222,511               101,424

Accrued payroll and benefits                                                                   95,086                69,124
Deposit and clearing accounts                                                                   3,930                 5,944
Readjustment allowances and other Job Corps liabilities                                        53,453                75,374
Other Liabilities                                                                               2,740                    -
                                                                                              155,209               150,442

                                                                                      $       377,720       $       251,866



NOTE 10 - ACCRUED BENEFITS

Accrued benefits at September 30, 2010 and 2009 consisted of the following:

(Dollars in thousands)                                                                         2010                   2009

     State regular and extended unemployment benefits payable                             $    2,634,528        $     1,775,266
     Federal extended unemployment benefits payable                                              436,522                520,503
     Federal emergency unemployment benefits payable                                           1,524,946              1,300,425
     Federal employees' unemployment benefits payable                                            455,940                642,555
     Federal additional unemployment benefits payable                                            130,446                231,361
     Total unemployment benefits payable                                                       5,182,382              4,470,110

     Black lung disability benefits payable                                                        33,606               36,017
     Federal employees' disability and 10(h) benefits payable                                      40,639               90,017
     Energy employees occupational illness compensation benefits payable                           27,916               31,106

                                                                                          $    5,284,543        $     4,627,250




98     United States Department of Labor
                                                                                                   Annual Financial Statements

                                                                            NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                             For the Years Ended September 30, 2010 and 2009


NOTE 11 - FUTURE WORKERS' COMPENSATION BENEFITS

DOL’s liability for future workers’ compensation benefits at September 30, 2010 and 2009 consisted of the
following:


(Dollars in thousands)                                                                            2010                  2009

  Projected gross liability of the Federal government
   for future FECA benefits                                                                 $ 29,819,932          $ 26,953,702
  Less liabilities attributed to other agencies:
    U.S. Postal Service                                                                         (10,597,448)           (9,507,251)
    Department of Navy                                                                            (2,463,087)          (2,425,587)
    Department of Army                                                                            (1,813,932)          (1,790,270)
    Department of Veterans Affairs                                                                (1,862,265)          (1,734,929)
    Department of Air Force                                                                       (1,321,451)          (1,286,935)
    Department of Transportation                                                                    (976,753)            (970,738)
    Department of Homeland Security                                                               (1,937,837)          (1,826,221)
    Tennessee Valley Authority                                                                      (499,357)            (505,491)
    Department of Treasury                                                                          (544,345)            (525,430)
    Department of Agriculture                                                                       (881,453)            (845,995)
    Department of Justice                                                                         (1,314,107)          (1,233,899)
    Department of Interior                                                                          (723,131)            (697,210)
    Department of Defense, Other                                                                    (820,707)            (815,854)
    Department of Health and Human Services                                                         (259,500)            (253,312)
    Social Security Administration                                                                  (319,295)            (310,636)
    General Services Administration                                                                 (135,331)            (135,953)
    Department of Commerce                                                                          (210,235)            (171,187)
    Department of Energy                                                                              (93,317)             (95,897)
    Department of State                                                                               (71,997)             (71,621)
    Department of Housing and Urban Development                                                       (72,289)             (69,058)
    Department of Education                                                                           (17,603)             (16,199)
    National Aeronautics and Space Administration                                                     (55,402)             (56,912)
    Environmental Protection Agency                                                                   (44,938)             (44,122)
    Small Business Administration                                                                     (29,960)             (29,640)
    Office of Personnel Management                                                                    (22,043)             (21,695)
    National Science Foundation                                                                         (1,356)             (1,319)
    Nuclear Regulatory Commission                                                                       (7,575)             (7,628)
    Agency for International Development                                                              (26,035)             (26,885)
    Other                                                                                           (621,636)            (586,569)
                                                                                                (27,744,385)          (26,064,443)

                                                                                            $     2,075,547       $      889,259

  Projected liability of the Department of Labor for future FECA benefits
    FECA benefits not chargeable to other Federal agencies payable by
      DOL's Federal Employees' Compensation Act Special Benefit Fund                        $     1,794,522       $      616,541
    FECA benefits due to eligible workers of DOL and Job Corps enrollees                            226,491              216,793
    FECA benefits due to eligible workers of the Panama Canal Commission                             54,534               55,925

                                                                                            $     2,075,547       $      889,259




                                                                                         FY 2010 Agency Financial Report 99
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2010 and 2009


NOTE 12 - LIABILITIES NOT COVERED BY BUDGETARY RESOURCES

Liabilities not covered by budgetary resources at September 30, 2010 and 2009 consisted of the following:

(Dollars in thousands)                                                                  2010                2009

Intra-governmental
   Debt                                                                             $ 40,400,725     $ 14,320,580

Accrued benefits                                                                          359,002            515,593
Future workers' compensation benefits                                                   1,524,846            296,339
Accrued annual leave                                                                      116,505             99,737
Readjustment allowances and other Job Corps liabilities                                    53,453             74,699
                                                                                        2,053,806            986,368

                                                                                    $ 42,454,531     $ 15,306,948



NOTE 13 – CONTINGENCIES

The Department is involved in various lawsuits incidental to its operations. Judgments resulting from litigation
against the Department are generally paid by the Department of Justice. In the opinion of management, the
ultimate resolution of pending litigation will not have a material effect on the Department’s financial position.


NOTE 14 - PENSION EXPENSE

Pension expense in FY 2010 consisted of the following:

                                                                                                          Total
                                                                     Employer       Costs Imputed        Pension
(Dollars in thousands)                                             Contributions       by OPM            Expense

Civil Service Retirement System                                   $      20,299     $      46,277    $        66,576
Federal Employees' Retirement System                                    123,176            18,996            142,172
Thrift Savings Plan                                                      46,947                -              46,947

                                                                  $     190,422     $      65,273    $       255,695


Pension expense in FY 2009 consisted of the following:
                                                                                                          Total
                                                                     Employer       Costs Imputed        Pension
(Dollars in thousands)                                             Contributions       by OPM            Expense

Civil Service Retirement System                                   $      21,938     $      36,392    $        58,330
Federal Employees' Retirement System                                    110,402             2,849            113,251
Thrift Savings Plan                                                      41,613                -              41,613

                                                                  $     173,953     $      39,241    $       213,194




100   United States Department of Labor
                                                                                       Annual Financial Statements

                                                                 NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                  For the Years Ended September 30, 2010 and 2009


NOTE 15 - PROGRAM COST

Schedule A presents detailed cost and revenue information by major program and major program agency
(responsibility segment) in support of the summary information presented in the Statement of Net Costs for 2010.
Schedules B and C present a further breakdown of this cost and revenue information for DOL’s two largest program
agencies, the Employment and Training Administration and the Employment Standards Administration (See Note 1-
A.1).




                                                                             FY 2010 Agency Financial Report 101
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2010 and 2009


NOTE 15 - PROGRAM COST - Continued

A. Consolidating Statement of Net Cost by Major Program Agency

Net cost by major program agency for the year ended September 30, 2010 consisted of the following (intra-agency
transactions were eliminated within each agency column rather than shown under the eliminations column):

                                                       Employment              Employment               Office           Occupational
                                                       and Training             Standards                of            Safety and Health
(Dollars in thousands)                                Administration          Administration          Job Corps         Administration
CROSSCUTTING PROGRAMS
 Income maintenance
   Intra-governmental                             $         1,030,572 $                289,538 $                  -    $             108
   With the public                                       161,898,525                 9,893,696                    -                3,984
 Gross cost                                              162,929,097               10,183,234                     -                4,092
   Intra-governmental earned revenue                       (1,515,084)              (2,778,843)                   -                   -
   Public earned revenue                                         (932)                   (6,729)                  -                   -
 Less earned revenue                                       (1,516,016)             (2,785,572)                    -                   -
      Net program cost                                   161,413,081                 7,397,662                    -                4,092
 Employment and training
   Intra-governmental                                           24,832                    270               39,026                    -
   With the public                                          6,506,059                     610            1,623,673                    -
 Gross cost                                                 6,530,891                     880            1,662,699                    -
   Intra-governmental earned revenue                           (11,043)                    -                    (82)                  -
   Public earned revenue                                            -                      -                     -                    -
 Less earned revenue                                           (11,043)                    -                    (82)                  -
      Net program cost                                      6,519,848                     880            1,662,617                    -
 Labor, employment and pension
  standards
   Intra-governmental                                              -                  110,188                     -                   -
   With the public                                                 -                  366,591                     -                   -
 Gross cost                                                        -                  476,779                     -                   -
   Intra-governmental earned revenue                               -                    (1,404)                   -                   -
   Public earned revenue                                           -                        -                     -                   -
 Less earned revenue                                               -                    (1,404)                   -                   -
      Net program cost                                             -                  475,375                     -                   -
 Worker safety and health
   Intra-governmental                                              -                       -                      -              82,496
   With the public                                                 -                       -                      -             533,284
 Gross cost                                                        -                       -                      -             615,780
   Intra-governmental earned revenue                               -                       -                      -               (2,744)
   Public earned revenue                                           -                       -                      -               (1,354)
 Less earned revenue                                               -                       -                      -               (4,098)
      Net program cost                                             -                       -                      -             611,682
OTHER PROGRAMS
 Statistics
  Intra-governmental                                               -                       -                      -                   -
  With the public                                                  -                       -                      -                   -
 Gross cost                                                        -                       -                      -                   -
  Intra-governmental earned revenue                                -                       -                      -                   -
  Public earned revenue                                            -                       -                      -                   -
 Less earned revenue                                               -                       -                      -                   -
     Net program cost                                              -                       -                      -                   -
COSTS NOT ASSIGNED TO PROGRAMS
 Gross cost                                                        -                       -                      -                   -
 Less earned revenue not attributed to programs                    -                       -                      -                   -
     Net cost not assigned to programs                             -                       -                      -                   -
Net cost of operations                            $      167,932,929      $         7,873,917     $      1,662,617     $        615,774



102    United States Department of Labor
                                                                                                                       Annual Financial Statements

                                                                                         NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                                          For the Years Ended September 30, 2010 and 2009




    Bureau of              Mine Safety       Employee Benefits        Veterans'                 Other
      Labor                and Health            Security            Employment              Departmental
    Statistics            Administration      Administration         and Training             Programs              Eliminations           Total



$                -    $                -     $          5,388 $                     -    $              489     $                  -   $     1,326,095
                 -                     -               20,538                       -                10,394                        -       171,827,137
                 -                     -               25,926                       -                10,883                        -       173,153,232
                 -                     -                 (626)                      -                    -                         -        (4,294,553)
                 -                     -                   -                        -                    -                         -             (7,661)
                 -                     -                 (626)                      -                    -                         -        (4,302,214)
                 -                     -               25,300                       -                10,883                        -       168,851,018

                 -                     -                   -                  8,066                     136                        -            72,330
                 -                     -                   -                216,566                     935                        -         8,347,843
                 -                     -                   -                224,632                   1,071                        -         8,420,173
                 -                     -                   -                     (64)                    (73)                      -           (11,262)
                 -                     -                   -                      -                       -                        -                -
                 -                     -                   -                     (64)                    (73)                      -           (11,262)
                 -                     -                   -                224,568                     998                        -         8,408,911


                 -                     -               30,021                   795                   4,373                        -           145,377
                 -                     -              149,630                30,841                  87,555                        -           634,617
                 -                     -              179,651                31,636                  91,928                        -           779,994
                 -                     -               (7,461)                     (7)                   -                         -            (8,872)
                 -                     -                   -                     -                       -                         -                -
                 -                     -               (7,461)                     (7)                   -                         -            (8,872)
                 -                     -              172,190                31,629                  91,928                        -           771,122

                                   72,816                  -                        -                    17                        -           155,329
                 -                329,539                  -                        -                 1,987                        -           864,810
                 -                402,355                  -                        -                 2,004                        -         1,020,139
                 -                   (562)                 -                        -                    -                         -            (3,306)
                 -                 (1,365)                 -                        -                    -                         -            (2,719)
                 -                 (1,927)                 -                        -                    -                         -            (6,025)
                 -                400,428                  -                        -                 2,004                        -         1,014,114



          190,112                      -                   -                        -                    42                        -           190,154
          499,797                      -                   -                        -                 4,967                        -           504,764
          689,909                      -                   -                        -                 5,009                        -           694,918
          (10,725)                     -                   -                        -                    -                         -           (10,725)
            (2,909)                    -                   -                        -                    -                         -            (2,909)
          (13,634)                     -                   -                        -                    -                         -           (13,634)
          676,275                      -                   -                        -                 5,009                        -           681,284

                 -                     -                   -                        -                96,580                        -               96,580
                 -                     -                   -                        -                 (9,453)                      -               (9,453)
                 -                     -                   -                        -                87,127                        -               87,127
$         676,275     $           400,428    $        197,490    $          256,197      $          197,949     $                  -   $   179,813,576



                                                                                                         FY 2010 Agency Financial Report 103
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2010 and 2009


NOTE 15 - PROGRAM COST - Continued

B. Consolidating Statement of Net Cost - Employment and Training Administration

Net cost of the Employment and Training Administration for the year ended September 30, 2010 consisted of the
following (intra-agency transactions were eliminated within each program column rather than shown under the
eliminations column):

                                                         Training and
                                      Employment         Employment
(Dollars in thousands)                  Security          Programs             Eliminations        Total

CROSSCUTTING PROGRAMS
 Income maintenance
  Benefits                        $    156,692,552 $                -      $              -   $   156,692,552
  Grants                                 4,545,418                  -                     -          4,545,418
  Interest                               1,001,890                  -                     -          1,001,890
  Administrative and other                 689,237                  -                     -            689,237
 Gross cost                            162,929,097                  -                     -       162,929,097
  Less earned revenue                   (1,516,016)                 -                     -         (1,516,016)
     Net program cost                  161,413,081                  -                     -       161,413,081
 Employment and training
  Benefits                                     -                     -                    -                -
  Grants                                       -             6,498,223                    -         6,498,223
  Administrative and other                     -                 32,668                   -            32,668
 Gross cost                                    -             6,530,891                    -         6,530,891
  Less earned revenue                          -                (11,043)                  -           (11,043)
     Net program cost                          -             6,519,848                    -         6,519,848

Net cost of operations            $    161,413,081   $       6,519,848     $              -   $   167,932,929




104   United States Department of Labor
                                                                                                          Annual Financial Statements

                                                                                NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                                 For the Years Ended September 30, 2010 and 2009


NOTE 15 - PROGRAM COST - Continued

C. Consolidating Statement of Net Cost - Employment Standards Administration

Net cost of the Employment Standards Administration for the year ended September 30, 2010 consisted of the
following (intra-agency transactions were eliminated within each office column rather than shown under the
eliminations column):

                               Office of           Office of                           Office of
                               Workers'             Federal           Wage              Labor
                             Compensation          Contract          and Hour        Management
(Dollars in thousands)         Programs           Compliance         Division         Standards         Eliminations        Total

CROSSCUTTING PROGRAMS
 Income maintenance
  Benefits                   $     9,545,486 $            -      $              -   $         -     $             -    $     9,545,486
  Interest                           223,923              -                     -             -                   -            223,923
  Administrative and other           413,825              -                     -             -                   -            413,825
 Gross cost                      10,183,234               -                     -             -                   -        10,183,234
  Less earned revenue             (2,785,572)             -                     -             -                   -         (2,785,572)
    Net program cost               7,397,662              -                     -             -                   -          7,397,662
 Labor, employment and
  pension standards
  Benefits                              -                  -                 -                -                   -                -
  Administrative and other              -             124,828           295,139           56,812                  -           476,779
 Gross cost                             -             124,828           295,139           56,812                  -           476,779
  Less earned revenue                   -                (380)             (832)            (192)                 -            (1,404)
    Net program cost                    -             124,448           294,307           56,620                  -           475,375
 Employment and training
  Benefits                              -                 -                  -                -                   -                  -
  Administrative and other              -                 -                 880               -                   -                 880
 Gross cost                             -                 -                 880               -                   -                 880
  Less earned revenue                   -                 -                     -             -                   -                 -
    Net program cost                    -                 -                 880               -                   -                 880

Net cost of operations       $    7,397,662   $       124,448    $      295,187     $     56,620    $             -    $    7,873,917


Schedules D, E and F present detailed cost and revenue information by suborganization (responsibility segment) for
programs in the Department, the Employment and Training Administration, and the Employment Standards
Administration in support of the summary information presented in the Consolidated Statement of Net Cost for
2009.




                                                                                           FY 2010 Agency Financial Report 105
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2010 and 2009


NOTE 15 - PROGRAM COST - Continued

D. Consolidating Statement of Net Cost by Major Program Agency

Net cost by major program Agency for the year ended September 30, 2009 consisted of the following:

                                                       Employment              Employment             Office          Occupational
                                                       and Training             Standards              of           Safety and Health
(Dollars in thousands)                                Administration          Administration        Job Corps        Administration
CROSSCUTTING PROGRAMS
 Income maintenance
   Intra-governmental                             $           208,566 $             2,843,904 $                 -   $              -
   With the public                                       125,688,846                4,624,270                   -                  -
 Gross cost                                              125,897,412                7,468,174                   -                  -
   Intra-governmental earned revenue                       (1,015,214)             (2,787,375)                  -                  -
   Public earned revenue                                           -                       -                    -                  -
 Less earned revenue                                       (1,015,214)             (2,787,375)                  -                  -
      Net program cost                                   124,882,198                4,680,799                   -                  -
 Employment and training
   Intra-governmental                                           42,936                     -              17,029                   -
   With the public                                          5,451,065                      -           1,480,441                   -
 Gross cost                                                 5,494,001                      -           1,497,470                   -
   Intra-governmental earned revenue                           (11,611)                    -                  -                    -
   Public earned revenue                                            -                      -                (378)                  -
 Less earned revenue                                           (11,611)                    -                (378)                  -
      Net program cost                                      5,482,390                      -           1,497,092                   -
 Labor, employment and pension
  standards
   Intra-governmental                                              -                  119,662                   -                  -
   With the public                                                 -                  259,890                   -                  -
 Gross cost                                                        -                  379,552                   -                  -
   Intra-governmental earned revenue                               -                       -                    -                  -
   Public earned revenue                                           -                       -                    -                  -
 Less earned revenue                                               -                       -                    -                  -
      Net program cost                                             -                  379,552                   -                  -
 Worker safety and health
   Intra-governmental                                              -                       -                    -            125,474
   With the public                                                 -                       -                    -            417,460
 Gross cost                                                        -                       -                    -            542,934
   Intra-governmental earned revenue                               -                       -                    -                 (16)
   Public earned revenue                                           -                       -                    -              (1,370)
 Less earned revenue                                               -                       -                    -              (1,386)
      Net program cost                                             -                       -                    -            541,548
OTHER PROGRAMS
 Statistics
  Intra-governmental                                               -                       -                    -                  -
  With the public                                                  -                       -                    -                  -
 Gross cost                                                        -                       -                    -                  -
  Intra-governmental earned revenue                                -                       -                    -                  -
  Public earned revenue                                            -                       -                    -                  -
 Less earned revenue                                               -                       -                    -                  -
     Net program cost                                              -                       -                    -                  -
COSTS NOT ASSIGNED TO PROGRAMS
 Gross cost                                                        -                       -                    -                  -
 Less earned revenue not attributed to programs                    -                       -                    -                  -
     Net cost not assigned to programs                             -                       -                    -                  -
Net cost of operations                            $      130,364,588      $         5,060,351   $      1,497,092    $        541,548




106    United States Department of Labor
                                                                                                                          Annual Financial Statements

                                                                                            NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                                             For the Years Ended September 30, 2010 and 2009




    Bureau of               Mine Safety        Employee Benefits          Veterans'                Other
      Labor                 and Health             Security              Employment             Departmental
    Statistics             Administration       Administration           and Training            Programs             Eliminations           Total



$                -     $                -      $              -      $                  -   $            1,428    $          (42,542) $         3,011,356
                 -                      -                     -                         -                6,874                20,036         130,340,026
                 -                      -                     -                         -                8,302               (22,506)        133,351,382
                 -                      -                     -                         -                   -                 22,506           (3,780,083)
                 -                      -                     -                         -                   -                     -                    -
                 -                      -                     -                         -                   -                 22,506           (3,780,083)
                 -                      -                     -                         -                8,302                    -          129,571,299

                 -                      -                     -                   9,729                    435               (21,845)             48,284
                 -                      -                     -                 203,816                    745                21,295           7,157,362
                 -                      -                     -                 213,545                  1,180                  (550)          7,205,646
                 -                      -                     -                      -                      -                    550             (11,061)
                 -                      -                     -                      -                      -                     -                 (378)
                 -                      -                     -                      -                      -                    550             (11,439)
                 -                      -                     -                 213,545                  1,180                    -            7,194,207


                 -                      -                 56,438                    971                 15,527               (45,911)            146,687
                 -                      -               131,108                  19,521                117,719                45,911             574,149
                 -                      -               187,546                  20,492                133,246                    -              720,836
                 -                      -                (12,526)                    -                    (983)                   -              (13,509)
                 -                      -                      (8)                   -                      -                     -                    (8)
                 -                      -                (12,534)                    -                    (983)                   -              (13,517)
                 -                      -               175,012                  20,492                132,263                    -              707,319

                 -                 128,686                    -                         -                4,459               (59,951)            198,668
                 -                 260,774                    -                         -                6,955                59,951             745,140
                 -                 389,460                    -                         -               11,414                    -              943,808
                 -                       -                    -                         -                   -                     -                    (16)
                 -                   (1,364)                  -                         -                   -                     -                (2,734)
                 -                   (1,364)                  -                         -                   -                     -                (2,750)
                 -                 388,096                    -                         -               11,414                    -              941,058



          205,484                       -                     -                         -               12,818               (23,969)            194,333
          391,100                       -                     -                         -               19,997                23,969             435,066
          596,584                       -                     -                         -               32,815                    -              629,399
                 (5)                    -                     -                         -                   -                     -                    (5)
            (8,316)                     -                     -                         -                   -                     -                (8,316)
            (8,321)                     -                     -                         -                   -                     -                (8,321)
          588,263                       -                     -                         -               32,815                    -              621,078

                 -                      -                     -                         -               99,536                 (2,759)            96,777
                 -                      -                     -                         -              (16,006)                 2,759            (13,247)
                 -                      -                     -                         -               83,530                     -              83,530
$         588,263      $           388,096     $        175,012      $          234,037     $          269,504    $                  -   $   139,118,491




                                                                                                               FY 2010 Agency Financial Report 107
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2010 and 2009


NOTE 15 - PROGRAM COST - Continued

E. Consolidating Statement of Net Cost - Employment and Training Administration

Net cost of the Employment and Training Administration for the year ended September 30, 2009 consisted of the
following:
                                                               Training and
                                          Employment           Employment
(Dollars in thousands)                      Security            Programs             Eliminations        Total

CROSSCUTTING PROGRAMS
 Income maintenance
  Benefits                           $     120,912,065     $              82     $              -   $   120,912,147
  Grants                                      4,475,166                   -                     -         4,475,166
  Interest                                       34,228                   -                     -            34,228
  Administrative and other                      475,472                  399                    -           475,871
 Gross cost                                125,896,931                   481                    -       125,897,412
  Less earned revenue                        (1,015,214)                  -                     -        (1,015,214)
     Net program cost                      124,881,717                   481                    -       124,882,198
 Employment and training
  Benefits                                          -                  10,045                   -            10,045
  Grants                                         1,747             5,289,212                    -         5,290,959
  Administrative and other                          -                192,997                    -           192,997
 Gross cost                                      1,747             5,492,254                    -         5,494,001
  Less earned revenue                               -                 (11,611)                  -           (11,611)
     Net program cost                            1,747             5,480,643                    -         5,482,390

Net cost of operations               $     124,883,464     $       5,481,124     $              -   $   130,364,588




108   United States Department of Labor
                                                                                                       Annual Financial Statements

                                                                              NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                               For the Years Ended September 30, 2010 and 2009


NOTE 15 - PROGRAM COST - Continued

F. Consolidating Statement of Net Cost - Employment Standards Administration

Net cost of the Employment Standards Administration for the year ended September 30, 2009 consisted of the
following:
                               Office of          Office of                         Office of
                               Workers'            Federal          Wage             Labor
                             Compensation         Contract         and Hour       Management
(Dollars in thousands)         Programs          Compliance        Division        Standards         Eliminations        Total

CROSSCUTTING PROGRAMS
 Income maintenance
  Benefits                   $    4,398,133 $            -     $              -   $         -    $         (2,071) $     4,396,062
  Interest                          231,292              -                    -             -                  -           231,292
  Loss on debt refinancing        2,495,660              -                    -             -                  -         2,495,660
  Administrative and other          345,160              -                    -             -                  -           345,160
 Gross cost                       7,470,245              -                    -             -              (2,071)       7,468,174
  Less earned revenue            (2,789,446)             -                    -             -               2,071       (2,787,375)
    Net program cost              4,680,799              -                    -             -                  -         4,680,799
 Labor, employment and
  pension standards
  Benefits                             -              11,198           25,740            7,280                 -           44,218
  Administrative and other             -              87,040          202,363           45,931                 -          335,334
 Gross cost                            -              98,238          228,103           53,211                 -          379,552
  Less earned revenue                  -                  -                  -              -                  -                 -
    Net program cost                   -              98,238          228,103           53,211                 -          379,552

Net cost of operations       $   4,680,799   $        98,238   $      228,103     $     53,211   $             -    $   5,060,351




                                                                                         FY 2010 Agency Financial Report 109
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2010 and 2009


NOTE 16 - NON-EXCHANGE REVENUE

Non-exchange revenues reported on the Consolidated Statement of Changes in Net Position in 2010 and 2009
consisted of the following:


(Dollars in thousands)                                                                       2010              2009
Employer taxes
  Unemployment Trust Fund
    Federal unemployment taxes                                                          $    6,451,722    $    6,658,309
    State unemployment taxes                                                                34,013,576        28,651,188
                                                                                            40,465,298        35,309,497
  Black Lung Disability Trust Fund excise taxes                                                594,803           644,881
                                                                                            41,060,101        35,954,378
Interest
   Unemployment Trust Fund                                                                      776,082        2,056,548
   Panama Canal Commission Compensation Fund                                                        553            1,976
   Energy Employees Occupational Illness Compensation Fund                                           10              187
   Black Lung Disability Trust Fund                                                               2,304            1,283
                                                                                                778,949        2,059,994

Assessments                                                                                          8                779

Reimbursement of unemployment benefits from state and
 local governments and non-profit organizations
 to the Unemployment Trust Fund                                                              4,725,272         2,763,817

                                                                                        $ 46,564,330      $ 40,778,968




NOTE 17 - TRANSFERS WITHOUT REIMBURSEMENT

Transfers from (to) other Federal agencies in FY 2010 and FY 2009 consisted of the following:


(Dollars in thousands)                                                                       2010               2009
Budgetary financing sources
  From H-1B Nonimmigrant Petitioner Account, Department of Homeland Security            $       201,794   $       94,451
  From Longshore and Harbor Workers' Compensation Act Trust Fund                                     -             2,101
  From DOL general fund unexpended appropriation
   accounts to the DOL Working Capital Fund                                                       2,000            3,000
                                                                                                203,794           99,552
Other financing sources
  From General Services Administration                                                            3,507            2,803
                                                                                                  3,507            2,803

                                                                                        $       207,301   $      102,355


The balance of $203.8 and $99.6 million in budgetary financing sources for FY 2010 and 2009, respectively, reflects
the elimination of intra-DOL transfers of $70.5 and $18.5 billion.



110   United States Department of Labor
                                                                                           Annual Financial Statements

                                                                    NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                     For the Years Ended September 30, 2010 and 2009


NOTE 18 - STATUS OF BUDGETARY RESOURCES

A. Apportionment Categories of Obligations Incurred

Obligations incurred reported on the Combined Statement of Budgetary Resources in FY 2010 and FY 2009 consisted
of the following:


(Dollars in thousands)                                                                 2010               2009

Direct Obligations
  Category A                                                                     $     4,325,174    $     4,269,886
  Category B                                                                         100,212,112         44,407,391
  Exempt from apportionment                                                          152,050,136        126,042,413

Total direct obligations                                                             256,587,422        174,719,690

Reimbursable Obligations
  Category A                                                                             254,927            231,280
  Category B                                                                           2,934,132          2,843,755

Total reimbursable obligations                                                         3,189,059          3,075,035

                                                                                 $ 259,776,481      $ 177,794,725


B. Permanent Indefinite Appropriations

DOL’s permanent indefinite appropriations include all trust funds, the Federal Employees’ Compensation Act
Special Benefit Fund, the Panama Canal Commission Compensation Fund, the Energy Employees Occupational
Illness Compensation Fund, ETA and ESA H-1B funds, ETA’s Advances and Payments to the Unemployment Trust
Fund, and portions of State Unemployment Insurance and Employment Service Operations and Federal
Unemployment Benefits and Allowances. These funds are described in Note 1-A.3.


C. Legal Arrangements Affecting Use of Unobligated Balances

Unemployment Trust Fund receipts are reported as budget authority in the Combined Statement of Budgetary
Resources. The portion of UTF receipts collected in the current year in excess of amounts needed to pay benefits
and other valid obligations are precluded by law from being available for obligation. Therefore, these excess
receipts are not classified as budgetary resources in the Combined Statement of Budgetary Resources. Current year
excess receipts are reported as temporarily not available pursuant to Public Law. Conversely, when obligations
exceed receipts in the current year, amounts are drawn from unavailable collections to meet these obligations.
Cumulative excess receipts are not included in unobligated balances in the status of budgetary resources included in
that Statement. All excess receipts are reported as assets of the UTF and are included in the Consolidated Balance
Sheet. They will become available for obligation as needed in the future.

The cumulative amounts of excess UTF receipts are denoted as unavailable collections in the Budget of the United
States Government. The cumulative amount of these excess receipts at September 30, 2010 and 2009 reclassified
from unobligated balances to UTF unavailable collections is presented on the following page.



                                                                               FY 2010 Agency Financial Report 111
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2010 and 2009


NOTE 18 - STATUS OF BUDGETARY RESOURCES - Continued

C. Legal Arrangements Affecting Use of Unobligated Balances - Continued

(Dollars in millions)                                                                                            2010                    2009

Unemployment Trust Fund unavailable collections, beginning                                               $          14,221       $         69,509

  Budget authority from current year appropriations and borrowing authority                                        148,378                 66,556
  Less obligations incurred                                                                                       (151,636)              (121,844)

Excess (deficiency) of budget authority over obligations                                                            (3,258)               (55,288)

Unemployment Trust Fund unavailable collections, ending                                                  $          10,963       $         14,221




D. Explanation of Differences between the Combined Statement of Budgetary Resources and the Budget
    of the United States Government

A reconciliation of budgetary resources, obligations incurred and net outlays, as presented in the Combined
Statement of Budgetary Resources, to amounts included in the Budget of the United States Government for the
year ended September 30, 2009 is shown below.

                                                                                                                 Distributed
                                                                   Budgetary            Obligations              Offsetting                Net
(Dollars in millions)                                              Resources             Incurred                 Receipts                Outlays

Combined Statement of Budgetary Resources                     $          181,919    $        177,795         $          24,625       $      137,975
  Pension Benefit Guaranty Corporation reported separately                17,609                4,772                      -                       194
  Distributed offsetting receipts                                             -                    -                       -                    24,625
  Expired accounts                                                          (711)                (132)                     -                        -
  Other                                                                       81                   75                      -                        77

Budget of the United States Government                        $          198,898    $        182,510         $          24,625       $      162,871




E. Undelivered Orders

Undelivered orders at September 30, 2010 and 2009 were as follows.

(Dollars in thousands)                                                                                           2010                    2009

Undelivered orders                                                                                       $ 12,015,527            $ 12,169,557




112    United States Department of Labor
                                                                                                 Annual Financial Statements

                                                                         NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                          For the Years Ended September 30, 2010 and 2009


NOTE 18 - STATUS OF BUDGETARY RESOURCES - Continued

F. Appropriations Received

The Combined Statement of Budgetary Resources discloses appropriations received of $227,533 and $167,464
million for FY 2010 and 2009, respectively. Appropriations received on the Consolidated Statement of Changes in
Net Position are $101,267 and $35,525 million for FY 2010 and 2009, respectively. The differences of $126,266 and
$131,939 million primarily represent certain fiduciary and earmarked receipts recognized as exchange revenue or
non-exchange revenue reported on the Consolidated Statement of Net Cost or the Consolidated Statement of
Changes in Net Position, respectively, in the current or prior years. Detail of these differences is presented below.
Refer to Note 1.Z for a discussion regarding the reclassifications on the FY 2009 Statement of Changes in Net
Position.


(Dollars in millions)                                                                     2010                2009

Receipts recognized as revenue and transfers in current or prior years
  Unemployment Trust Fund                                                            $     125,474       $     113,894
  Black Lung Disability Trust Fund                                                             596               7,177
  Other earmarked funds                                                                        196                 193
  Fiduciary funds                                                                               -                  145
                                                                                           126,266             121,409
Other
  Black Lung Disability Trust Fund redemption of debt and Other                                     -            10,530
                                                                                     $     126,266       $     131,939




G. Borrowing Authority

As of September 30, 2010, section 2 of P.L. 111-46 (123 Stat. 1970 dated August 7, 2009) granted borrowing
authority for repayable advances and other debt in the amount of “such sums as may be necessary” to the
following trust funds: (1) Unemployment Trust Fund for advances as authorized by sections 905(d) and 1203 of the
Social Security Act and (2) Black Lung Disability Trust Fund (BLDTF) for advances as authorized by section 9501(c)(1)
of the Internal Revenue Code. Although section 9501 of the Internal Revenue Code and section 2 of P.L. 111-46
both use the terminology "advance," the Treasury has interpreted this to mean any debt owed by the BLDTF to the
Bureau of the Public Debt.




                                                                                    FY 2010 Agency Financial Report 113
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2010 and 2009


NOTE 19 - RECONCILIATION OF BUDGETARY RESOURCES OBLIGATED TO NET COST OF OPERATIONS

(Dollars in thousands)                                                              2010               2009

Resources used to finance activities
  Budgetary resources obligated
     Obligations incurred                                                      $   259,776,481     $ 177,794,725
     Recoveries of prior year obligations                                              (162,552)        (262,069)
     Less spending authority from offsetting collections                             (8,055,377)      (7,191,289)
     Obligations, net of offsetting collections and recoveries                     251,558,552       170,341,367
  Other resources
     Imputed financing from costs absorbed by others                                    173,055           136,653
     Transfers, net                                                                       3,507             2,803
     Exchange revenue not in budget                                                  (1,613,215)       (2,211,750)
Total resources used to finance activities                                         250,121,899       168,269,073

Resources used to finance items not part of the net cost of operations
  Change in budgetary resources obligated for goods, services and
   benefits ordered but not yet received or provided                                   188,220          (5,825,269)
  Resources that finance the acquisition of assets                                    (113,686)            (98,743)
  Obligations of fiduciary funds                                                            -             (140,736)
  Transfers that do not effect the net cost of operations                          (75,452,547)       (23,809,019)
Total resources used to finance items not part of the net cost of operations       (75,378,013)       (29,873,767)

Total resources used to finance the net cost of operations                         174,743,886       138,395,306

Components of the net cost of operations that will not require or generate
 resources in the current period
  Components requiring or generating resources in other periods
     Increase (decrease) in annual leave liability                                       9,194             (4,196)
     Increase in benefits liabilities                                                4,993,544           503,072
     Other                                                                             103,613           233,161
  Total                                                                              5,106,351           732,037
  Components not requiring or generating resources
     Depreciation and amortization                                                       82,310            76,038
     Revaluation of assets and liabilities                                           1,342,385            656,595
     Benefit overpayments                                                           (1,461,356)          (741,485)
  Total                                                                                 (36,661)            (8,852)
Total components of the net cost of operations that will not
 require or generate resources in the current period                                 5,069,690           723,185

Net cost of operations                                                         $   179,813,576     $ 139,118,491




114   United States Department of Labor
                                                                                                              Annual Financial Statements

                                                                                    NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                                     For the Years Ended September 30, 2010 and 2009


NOTE 20 - SOURCES AND DISPOSITIONS OF CUSTODIAL REVENUE

Custodial revenues in FY 2010 consisted of the following:

                                                                               Net Cash                  Increase
                                                                              Collections             (Decrease) in
                                                                            and Transfers to           Amounts to
                                       Cash              Less                U.S. Treasury             be Collected             Total
(Dollars in thousands)              Collections         Refunds              General Fund            and Transferred          Revenues

Civil monetary penalties
   OSHA                        $        120,259     $          (59)         $          120,200      $         28,128      $        148,328
   MSHA                                  82,986                 (4)                     82,982               (18,375)               64,607
   EBSA                                  24,761                  2                      24,763                     (5)              24,758
   ESA                                   13,270              (123)                      13,147                (5,212)                7,935
                                        241,276              (184)                     241,092                 4,536               245,628

ETA disallowed grant costs                 8,133               (86)                      8,047                 (1,098)               6,949
Other                                        580             (757)                        (177)                    (76)               (253)

                               $        249,989     $       (1,027)         $          248,962      $          3,362      $        252,324



Custodial revenues in FY 2009 consisted of the following:

                                                                                Net Cash                    Increase
                                                                               Collections               (Decrease) in
                                                                             and Transfers to             Amounts to
                                       Cash              Less                 U.S. Treasury               be Collected              Total
(Dollars in thousands)              Collections         Refunds               General Fund              and Transferred           Revenues

Civil monetary penalties
   OSHA                         $         65,418    $          (145)            $        65,273         $        6,077        $       71,350
   MSHA                                   63,527               (120)                     63,407                    954                64,361
   EBSA                                   25,511               (475)                     25,036                   (203)               24,833
   ESA                                    15,947                 -                       15,947                     53                16,000
                                         170,403               (740)                    169,663                  6,881               176,544

ETA disallowed grant costs                  5,479                 -                        5,479                   648                 6,127
Other                                       1,292                     (4)                  1,288                    (1)                1,287

                                $        177,174    $          (744)            $       176,430         $        7,528        $      183,958




                                                                                                  FY 2010 Agency Financial Report 115
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2010 and 2009


NOTE 21 - EARMARKED FUNDS

DOL is responsible for the operation of certain earmarked funds. Other earmarked funds include Gifts and
Bequests, Panama Canal Commission Compensation Fund, and H-1B Funds. The financial position of the earmarked
funds as of September 30, 2010 is shown below.

                                                                       Black Lung
(Dollars in thousands)                            Unemployment          Disability         Other              Total

Assets

  Intra-governmental
     Funds with U.S. Treasury                 $          88,491    $         52,471    $     349,615     $      490,577
     Investments                                     18,866,563                  -            67,162         18,933,725
     Accounts receivable, net
        Due from other Federal agencies
         for UCX and UCFE benefits                     745,405                   -                -             745,405
        Other                                               -                    -             1,113              1,113
  Total intra-governmental                           19,700,459              52,471          417,890         20,170,820

  Accounts receivable, net
    State unemployment tax                              262,109                  -                  3           262,112
    Due from reimbursable employers                   1,142,229                  -                -           1,142,229
    Benefit overpayments                                450,248              15,557               -             465,805
    Other                                                      -                 -                -                  -
  Advances                                            1,628,384                  -             2,871          1,631,255
  Other                                                      -                   -               705                705

Total assets                                  $      23,183,429    $         68,028    $     421,469     $   23,672,926


Liabilities
  Intra-governmental
     Accounts payable to DOL agencies         $       1,866,105    $             -     $           139   $    1,866,244
     Debt                                            34,110,979           6,289,746                 -        40,400,725
     Amounts held for the Railroad
        Retirement Board                                 29,582                  -                -              29,582
     Other                                                 (690)                 -             3,102              2,412
  Total intra-governmental                           36,005,976           6,289,746            3,241         42,298,963

  Accounts payable                                        1,861                  -            10,374             12,235
  Future workers' compensation benefits                                                       54,534             54,534
  Accrued benefits                                    5,051,818              16,894              615          5,069,327
Total liabilities                                    41,059,655           6,306,640           68,764         47,435,059
Net position
  Cumulative results of operations                  (17,876,226)         (6,238,612)         352,705         (23,762,133)

Total liabilities and net position            $      23,183,429    $         68,028    $     421,469     $   23,672,926




116    United States Department of Labor
                                                                                                    Annual Financial Statements

                                                                          NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                           For the Years Ended September 30, 2010 and 2009


NOTE 21 - EARMARKED FUNDS - Continued

The net results of operations of the earmarked funds for the year ended September 30, 2010 are shown below.

                                                                       Black Lung
(Dollars in thousands)                         Unemployment             Disability          Other                 Total

Cost, net of earned revenues
  Benefits                                 $      (143,689,319)    $       (220,977)    $          (289)    $   (143,910,585)
  Grants                                                     -                    -           (132,912)              (132,912)
  Interest                                           (1,001,853)           (223,923)                  (5)          (1,225,781)
  Administrative and other                           (1,568,235)              (9,410)           (10,714)           (1,588,359)
                                                  (146,259,407)            (454,310)          (143,920)         (146,857,637)
  Earned revenue                                     1,499,315                   -                  -              1,499,315
    Net cost of operations                        (144,760,092)            (454,310)          (143,920)         (145,358,322)

Net financing sources
  Taxes                                            40,465,298               594,803                  -            41,060,101
  Interest                                            776,082                 2,304                 553              778,939
  Reimbursement of unemployment benefits            4,721,275                    -                   -             4,721,275
  Imputed financing                                        -                     -                  214                  214
  Transfers-in
     Department of Homeland Security                        -                    -            195,728                195,728
    DOL entities                                   75,392,284                    -               6,000            75,398,284
  Transfers-out
    DOL entities                                   (5,009,930)              (58,138)                -              (5,068,068)
    Other financing sources                                -                  (2,950)          (50,000)               (52,950)
                                                  116,345,009               536,019           152,495            117,033,523
  Net results of operations                        (28,415,083)              81,709              8,575            (28,324,799)

Net position, beginning of period                  10,538,857            (6,320,321)          344,130               4,562,666


Net position, end of period                $       (17,876,226)    $     (6,238,612)    $     352,705       $     (23,762,133)




                                                                                        FY 2010 Agency Financial Report 117
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2010 and 2009


NOTE 21 - EARMARKED FUNDS - Continued

The financial position of the earmarked funds as of September 30, 2009 is shown below.

                                                                    Black Lung
(Dollars in thousands)                       Unemployment            Disability         Other              Total

Assets

  Intra-governmental
     Funds with U.S. Treasury                $     1,988,130    $         52,469    $     344,578      $    2,385,177
     Investments                                  19,845,269                  -            73,254          19,918,523
     Accounts receivable, net
        Due from other Federal agencies
         for UCX and UCFE benefits                   475,630                  -                -              475,630
  Total intra-governmental                        22,309,029              52,469          417,832          22,779,330

  Accounts receivable, net
    State unemployment tax                           262,970                  -                  -            262,970
    Due from reimbursable employers                  687,213                  -                  -            687,213
    Benefit overpayments                             308,359              15,129                 -            323,488
    Other                                                   -                 -                    2                2
  Advances                                         1,510,624                  -                  -          1,510,624
  Other                                                   -                   -                 588               588

Total assets                                 $    25,078,195    $         67,598    $     418,422      $   25,564,215


Liabilities
  Intra-governmental
     Accounts payable to DOL agencies        $     2,283,650    $             -     $            -     $    2,283,650
     Debt                                          7,981,387           6,370,580                 -         14,351,967
     Amounts held for the Railroad
        Retirement Board                              35,552                  -                -               35,552
     Other                                                -                   -             7,372               7,372
  Total intra-governmental                        10,300,589           6,370,580            7,372          16,678,541

  Accounts payable                                        -                   -            10,371              10,371
  Future workers' compensation benefits                   -                   -            55,925              55,925
  Accrued benefits                                 4,238,749              17,339               -            4,256,088
  Other                                                   -                   -               624                 624
Total liabilities                                 14,539,338           6,387,919           74,292          21,001,549

Net position
  Cumulative results of operations                10,538,857          (6,320,321)         344,130           4,562,666

Total liabilities and net position           $    25,078,195    $         67,598    $     418,422      $   25,564,215




118   United States Department of Labor
                                                                                             Annual Financial Statements

                                                                      NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                       For the Years Ended September 30, 2010 and 2009


NOTE 21 - EARMARKED FUNDS - Continued

The net results of operations of the earmarked funds for the year ended September 30, 2009 is shown below.

                                                                   Black Lung
(Dollars in thousands)                      Unemployment            Disability           Other               Total


Cost, net of earned revenues
  Benefits                                 $ (114,281,060)     $       (240,625)    $        (8,739)   $ (114,530,424)
  Grants                                                -                    -            (110,869)          (110,869)
  Interest                                         (34,228)            (231,292)                 -           (265,520)
  Loss on debt refinancing                              -            (2,495,660)                 -         (2,495,660)
  Administrative and other                       (368,303)                 (384)           (15,688)          (384,375)
                                               (114,683,591)         (2,967,961)          (135,296)        (117,786,848)
  Earned revenue                                  1,004,431                  -                  -             1,004,431
                                               (113,679,160)         (2,967,961)          (135,296)        (116,782,417)


Net financing sources
  Taxes                                         35,309,497              644,881                 -           35,954,378
  Interest                                       2,056,548                1,283              1,976           2,059,807
  Reimbursement of unemployment benefits         2,763,817                   -                  -            2,763,817
  Imputed financing                                     -                    -                 170                 170
  Transfers-in
     Department of Homeland Security                    -                    -              94,451              94,451
     DOL entities                               17,273,663            6,497,989                 -           23,771,652
  Transfers-out
     DOL entities                                (5,294,564)            (57,327)                 -           (5,351,891)
                                                52,108,961            7,086,826             96,597          59,292,384
  Net results of operations                     (61,570,199)          4,118,865            (38,699)         (57,490,033)

Net position, beginning of period               72,109,056          (10,439,186)           382,829          62,052,699

Net position, end of period                $    10,538,857     $     (6,320,321)    $      344,130     $     4,562,666




                                                                                   FY 2010 Agency Financial Report 119
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2010 and 2009


NOTE 22 - FIDUCIARY ACTIVITY

The Department has one deposit fund and two trust funds that fall under the definition of fiduciary activity
promulgated by SFFAS 31, "Accounting for Fiduciary Activities”. The schedule of fiduciary activity for these funds
for the year ended September 30, 2010 is shown below.
                                                                                                     Longshore                District of
                                                                           Wage and Hour            and Harbor                Columbia
                                                                            and Public                Workers'               Workmen's
                                                                             Contracts             Compensation             Compensation              Total
                                                                            Restitution               Act Trust               Act Trust             Fiduciary
(Dollars in thousands)                                                         Fund                     Fund                    Fund                  Funds


Fiduciary activity
             Assessments                                                   $       35,318          $       129,761           $ 11,094              $ 176,173
             Investment earnings                                                                                 41                    5                    46
             Administrative and other expenses                                           -                     (322)                  (6)                 (328)
             Transfer of funds to Treasury                                           (8,162)                 (2,124)                -                  (10,286)
             Disbursements to beneficiaries                                        (21,273)               (128,550)             (9,382)              (159,205)
                             Increase (decrease) in fiduciary net assets             5,883                   (1,194)             1,711                      6,400

Fiduciary net assets, beginning of year                                            86,447                   26,404               3,980                116,831


Fiduciary net assets, end of year                                          $       92,330          $        25,210           $   5,691             $ 123,231




The schedule of fiduciary net assets for these funds as of September 30, 2010 is shown below.

                                                                                                 Longshore               District of
                                                                     Wage and Hour              and Harbor               Columbia
                                                                      and Public                  Workers'              Workmen's
                                                                       Contracts               Compensation            Compensation               Total
                                                                      Restitution                 Act Trust              Act Trust              Fiduciary
(Dollars in thousands)                                                   Fund                      Fund                    Fund                   Funds


Fiduciary assets
             Cash                                                   $          91,304          $         5,446          $    2,870          $      99,620
             Investments                                                           -                    60,579               5,143                 65,722
             Other assets                                                       1,026                    2,946                 148                  4,120
                             Less: liabilities                                     -                   (43,761)             (2,470)               (46,231)


Total fiduciary net assets                                          $          92,330          $       25,210           $    5,691          $ 123,231


Unqualified opinions were expressed on separate financial statements issued for the Longshore and Harbor
Workers’ Compensation Act Trust Fund and the District of Columbia Workmen’s Compensation Act Trust Fund for FY
2009. These separate financial statements were presented in accordance with U.S. GAAP. Copies of these financial
statements are available on DOL’s website at http://www.oig.dol.gov.



120    United States Department of Labor
                                                                                               Annual Financial Statements

                                                                         NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                          For the Years Ended September 30, 2010 and 2009


NOTE 22 - FIDUCIARY ACTIVITY - Continued

The schedule of fiduciary activity for the fiduciary funds for the year ended September 30, 2009 is shown below.

                                                                      Longshore       District of
                                                   Wage and Hour     and Harbor       Columbia
                                                    and Public         Workers'      Workmen's
                                                     Contracts      Compensation    Compensation            Total
                                                    Restitution        Act Trust      Act Trust           Fiduciary
(Dollars in thousands)                                 Fund              Fund           Fund                Funds


Fiduciary activity
  Assessments                                      $      37,941    $    130,209    $       10,730    $       178,880
  Investment earnings                                         -               44                  4                 48
  Administrative and other expenses                           -           (2,101)               -               (2,101)
  Transfer of funds to Treasury                           (9,783)                                               (9,783)
  Disbursements to beneficiaries                         (23,653)       (128,993)           (9,777)          (162,423)
     Increase (decrease) in fiduciary net assets           4,505            (841)              957              4,621
Fiduciary net assets, beginning of year                  81,942           27,245             3,023            112,210

Fiduciary net assets, end of year                  $     86,447     $     26,404    $        3,980    $       116,831



The schedule of fiduciary net assets for these funds as of September 30, 2009 is shown below.

                                                                      Longshore       District of
                                                   Wage and Hour     and Harbor       Columbia
                                                    and Public         Workers'      Workmen's
                                                     Contracts      Compensation    Compensation            Total
                                                    Restitution        Act Trust      Act Trust           Fiduciary
(Dollars in thousands)                                 Fund              Fund           Fund                Funds


Fiduciary assets
  Cash                                             $     80,034     $      2,085    $          995    $        83,114
  Investments                                                -            58,969             5,228             64,197
  Other assets                                            6,413            3,756               674             10,843
     Less: liabilities                                       -           (38,406)           (2,917)           (41,323)

Total fiduciary net assets                         $     86,447     $     26,404    $        3,980    $       116,831




                                                                                    FY 2010 Agency Financial Report 121
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2010 and 2009


NOTE 23 - SUBSEQUENT EVENTS

Permanent Indefinite Appropriations Returned to the U.S. Department of the Treasury

Subsequent to September 30, 2010, the Department returned to the U.S. Department of the Treasury permanent
indefinite appropriations unobligated as of September 30, 2010, in the amount of $1.2 billion. In addition, $2.9
billion of borrowings from indefinite appropriations were repaid effective as of September 30, 2010. The effects of
these events are reflected in the Department’s financial statements, notes, and required supplementary
information.

The financial statements, notes, and required supplementary information do not reflect the effects of the
subsequent events described below.

Unemployment Insurance

Subsequent to September 30, 2010, the Extended Unemployment Compensation Account (EUCA) of the
Unemployment Trust Fund (UTF) borrowed as Advances from U.S. Treasury, $9.0 billion at interest rates ranging
from 2.875% to 3.0%. During the same period, the Federal Unemployment Account (FUA) of the UTF borrowed as
Advances from U.S. Treasury, $10.0 billion at interest rates ranging from 2.875% to 3.0%.

P.L. 111-312, the Tax Relief, Unemployment Insurance Reauthorization, and Job Creation Act of 2010, was enacted
on December 17, 2010. This Act, among other things, authorized continuing 100% Federal funding of extended
unemployment benefits to January 4, 2012, and changed the expiration date of the emergency unemployment
insurance program to January 3, 2012.

Office of Workers' Compensation Programs (OWCP)

The Division of Coal Mine Workers' Compensation (DCMWC) within OWCP administers the Black Lung Program and
the payment of benefits under the Black Lung Benefits Act. The Federal Coal Mine Health and Safety Act, Section
412(a)(1), sets Black Lung benefits at 37.5% of the base salary of a Federal employee at level GS-2, Step 1. P.L. 111-
322, the Continuing Appropriations and Surface Transportation Extensions Act of 2011, was enacted on December
22, 2010. This Act, among other things, provided that no Federal employee (as defined in 5 USC 2105) statutory
pay adjustment would take effect during the period January 1, 2011 through December 31, 2012. As a result,
because the Federal employee base salary will remain unchanged through 2012, the rates for Black Lung benefits
will likewise remain unchanged through 2012. The Statement of Social Insurance, related notes, and Black Lung
Disability Benefit Program required supplementary information do not reflect P.L. 111-322’s unchanged benefit
rates through 2012.

The Division of Federal Employees' Compensation within OWCP administers the Federal Employees' Compensation
Act (FECA) program and the payment of workers' compensation benefits to federal and postal workers for
employment-related injuries and occupational diseases. Federal Agencies and the U.S. Postal Service (USPS)
reimburse the FECA Special Benefits Fund for payments made on behalf of their workers. In October 2010, the
USPS reimbursed the FECA Special Benefits Fund for $1.145 billion. In their FY 2010 Annual Report issued
November 15, 2010, the USPS disclosed in the notes to their audited financial statements that they will have
insufficient cash available to make the 2011 annual payment. In their first and second quarter FY 2011 Quarterly
Reports issued in February and May 2011, respectively, the USPS repeated similar disclosures in the notes to their
financial statements. In Note 11, Future Workers’ Compensation Benefits, the USPS liability of $10.6 billion
represents the largest portion of the projected gross liability of the Federal government for future FECA benefits
attributed to other Agencies of $27.7 billion.


122   United States Department of Labor
Required Supplementary Stewardship Information
Financial Section

REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION
(Unaudited)


STEWARDSHIP INVESTMENTS IN HUMAN CAPITAL

Stewardship investments are made by DOL on behalf of the nation, providing long-term benefits that cannot be
measured in traditional financial reports. These investments are made for the general public, and are intended to
maintain or increase national economic productive capacity. DOL’s stewardship investments are in human capital,
reported as employment and training expenses in DOL’s net cost of operations. Within DOL, the Employment and
Training Administration (ETA), the Office of Job Corps (OJC), and the Veterans’ Employment and Training Service
(VETS) administer training programs that invest in human capital.

Employment and Training Administration
And the Office of Job Corps

In 2010, ETA incurred total net costs of $167.9 billion. The majority of ETA’s total net costs consisted of
unemployment benefit payments, which increased by over $100 billion from pre-recession levels. Also included in
ETA’s total net costs were investments in human capital of $6.5 billion, which provided services to over 9.3 million
participants in 2010. These investments were made through job training programs authorized by the Workforce
Investment Act of 1998 (WIA), Title V of the Older Americans Act, the Trade Act of 1974, as amended by the Trade
Adjustment Assistance Reform Act of 2002, and the National Apprenticeship Act of 1937. The Office of Job Corps
also invests in human capital through WIA job training programs. OJC’s investment in human capital in 2010 was
$1.7 billion. In February 2009, Congress enacted the American Recovery and Reinvestment Act (ARRA), which
authorized additional funding for job training, which was distributed through these established training programs in
2010. The ETA and OJC job training programs under WIA are discussed below.

Workforce Investment Act Job Training Programs

 Adult employment and training programs – ETA awards grants to States and territories to design and operate
    training and employment assistance programs for disadvantaged adults, including public assistance recipients.
    ETA’s 2010 investment in human capital through WIA adult programs was $899 million.

 Dislocated worker employment and training programs – ETA awards grants to States to provide reemployment
     services and retraining assistance to individuals dislocated from their employment. ETA awards non-
     competitive grants for unexpected economic impacts and emergency dislocations; and competitive grants from
     the national reserve account to build training capacity and to train workers through community and technical
     colleges. ETA’s 2010 investment in human capital through WIA dislocated worker programs was $2,539 million.

 Youth programs – ETA awards grants to states to support program activities and services to prepare low-income
    youth for academic and employment success, including summer jobs, by linking academic and occupational
    learning with youth development activities. ETA’s 2010 investment in human capital through WIA youth
    programs was $1,431 million.

 Job Corps program – OJC awards contracts to support a system of primarily residential centers offering basic
    education, training, work experience and other support, typically to economically disadvantaged youth. Large
    and small corporations and non-profit organizations manage and operate 96 Job Corps centers under these
    contractual arrangements. The remaining 28 centers are operated through interagency agreements between
    DOL and the U.S. Departments of Agriculture and Interior. In addition, 20 operators are contracted to provide
    outreach and admissions (OA) and career transition services (CTS). OJC’s 2010 investment in human capital
    through the WIA Job Corps program was $1,663 million.

124   United States Department of Labor
                                                                                           Annual Financial Statements

                                                             REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION
                                                                                                   (Unaudited)


 Reintegration of Ex-Offenders – ETA supports programs to help individuals exiting prison make a successful
    transition to community life and long-term employment through the provision of mentoring and job training
    programs to promote the successful return of adult and juvenile ex-offenders into mainstream society. ETA’s
    2010 investment in human capital through ex-offender programs was $70 million.

 National programs – ETA’s National programs provide employment and training services and support through WIA
    nationally administered activities, for segments of the population that have special disadvantages in the labor
    market, including grants to Indian tribes and other Native American governments or non-profit organizations,
    and to Migrant and Seasonal Farmworker service organizations, to provide training, work experience and
    employment-related services to eligible participants. ETA’s 2010 investment in human capital through WIA
    National Programs was $134 million.

Title V of the Older Americans Act, as Amended

ETA also invests in human capital through its older worker program, authorized under Title V of the Older
Americans Act, to benefit low income workers, age 55 and over. The Older Americans Act Amendments of 2006,
reauthorized and provided important reforms to Title V’s Community Service Employment for Older Americans
Program, including an increase in the percentage of program funds available for skills training and related services.

 Community Service Employment for Older Americans program (CSEOA) – An employment and training program
    that provides part-time training through work experience in community service activities for low-income
    persons age 55 and older, who wish to remain in or re-enter the workforce, with the ultimate goal of moving
    the participants into unsubsidized employment. ETA’s 2010 investment in human capital through the CSEOA
    program was $740 million.

Trade Act of 1974, as Amended

ETA makes investments in human capital through training programs authorized by the Trade Act of 1974, as
amended by the Trade Adjustment Assistance Reform Act of 2002, which consolidated the Trade Adjustment
Assistance (TAA) and the NAFTA Trade Adjustment Assistance programs into a single, enhanced TAA program.

 Trade Adjustment Assistance programs – TAA programs provide training, income support and related assistance
     to workers who have been adversely affected by foreign trade agreements. TAA benefit payments are
     classified as income maintenance program costs and are not included as investments in human capital. ETA’s
     2010 investment in trade adjustment assistance training programs was $540 million.

The National Apprenticeship Act

 The National Apprenticeship Act of 1937 established the foundation for development of the nation’s skilled
    workforce through apprenticeship programs, which combine on-the-job learning with related technical
    instruction to teach workers the theoretical aspects of skilled occupations. Funding provides a national system
    for skilled and technical occupational training, which promotes apprentices, registers apprenticeship programs,
    certifies apprenticeship standards, and safeguards the welfare of apprentices. ETA’s 2010 investment in
    apprenticeship programs was $28 million.




                                                                                 FY 2010 Agency Financial Report   125
Financial Section

REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION
(Unaudited)


Program Costs and Outputs

The cost of ETA and OJC investments in human capital, and the participants served by each, are shown in the chart
below, for the five year period FY 2006 through FY 2010.

                                        ETA And OJC Investments in Human Capital
                             Program Costs (in Millions) and Participants Served (in Thousands)*
                                     For The Five Year Period FY 2006 through FY 2010


                             2010                     2009                     2008                     2007                     2006
                                     Part.                    Part.                    Part.                    Part.                    Part.
      Program        Costs          Served    Costs          Served    Costs          Served    Costs          Served    Costs          Served

        WIA

 Adult (1)              $899        6,695.3     $878         4,921.8     $844         2,828.7    $ 896         1,723.2    $ 912         1,052.6
 Dislocated
 Worker (2)            2,539        1,250.4    1,440          842.1     1,307          401.3     1,409          413.1     1,543          398.2

 Youth (3)             1,431         316.3     1,125          438.9       966          250.7       866          248.9     1,017          272.9

 Job Corps             1,663          59.8     1,640           60.9     1,589           63.4     1,485           64.8     1,402           61.0
 Ex-
 Offenders (4)            70          36.1        58             9.8       61           14.2        76           15.7        52           11.5
 National
 Programs (5)            134          61.3       206           35.0       206           44.7       220           44.0       267           42.1

       Title V

 CSEOA                   740         103.6       543           89.0       479           89.6       444           86.4       432           93.5

      Trade Act

 TAA Training            540         232.7       286          105.0       248           82.1       223           79.2       189           84.2
 Apprenticeship
      Act
 Apprenticeship
 System                   28         485.4        25          301.6        25          385.7        24          309.5        25          237.9

      Other (6)          139          95.8       120             Na       108             Na        91             Na        99             Na


 TOTAL                $8,183        9,336.7   $6,321         6,804.1   $5,833         4,160.4   $5,734         2,984.8   $5,938         2,253.9

 * Certain program costs were reclassified, beginning in 2006, due to changes in allocation methodologies adopted in 2009.
(1) Adult program increases in participants served, beginning in 2006, can be attributed to state reports that include self-
      service only participants and/or co-enrolled Wagner-Peyser participants.
(2)   Dislocated Worker programs include Community Based Job Training Grants, National Emergency Grants and Green Job
      Training. ARRA activities account for the 2010 increases in costs and participants served.
(3)   Youth program participants served in 2010 include youth reported in ARRA monthly reports.
(4)   Ex-Offender programs include the Prisoner Re-entry and Youthful Offender programs.
(5)   National Programs include the Native American and Migrant and Seasonal Farmworker programs.
(6)   Other includes training programs for highly skilled occupations funded through H1-B fees, and costs for lapsed programs.

126     United States Department of Labor
                                                                                           Annual Financial Statements

                                                             REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION
                                                                                                   (Unaudited)


Program Outcomes

Outcomes for training programs comprising ETA’s investment in human capital are presented in the Department’s
Annual Performance Report for FY 2010 available on the DOL website www.dol.gov/%5Fsec/media/reports/.


Veterans Employment and Training Service

The mission of the Veterans Employment and Training Service (VETS) is to provide veterans and transitioning
service members with the resources and services to succeed in the 21st century workforce, maximizing employment
opportunities, protecting employment rights, and meeting labor market demands with qualified veterans.

Program Activities

Jobs for Veterans State Grants

The Jobs for Veterans Act (JVA) of 2002, which allocates resources to the States through the Jobs for Veterans State
grants program, supports the majority of VETS activities through three major VETS programs, as discussed below:

   Disabled Veterans Outreach Program (DVOP) Specialist – The DVOP, (38 U.S.C. 4103A), awards formula grants
    to State Workforce Agencies (SWAs) to support DVOP specialists providing intensive services to meet the
    employment needs of veterans, including counseling, assessment, lifelong learning skills and referral to training,
    particularly veterans with disabilities or those who recently separated from the military.

   Local Veterans Employment Representative (LVER) – The LVER, (38 U.S.C. 4104), provides grants to State
    Workforce Agencies (SWAs) for the appointment of LVER staff positions identified in Job Service local offices
    and One-Stop Career Centers, to enhance veterans’ services and help them into productive employment.

   Transition Assistance Program (TAP) – TAP, (38 U.S.C. 4215 and 10 U.S.C. 1144), operates as a partnership
    between the Departments of Labor, Defense, Homeland Security and Veterans Affairs. The program provides
    separating service members and their spouses or individuals retiring from military service with career
    counseling and training. TAP workshops are provided throughout the United States and overseas.

Federal Management

VETS Federal management activities provide programs and policies to meet the employment and training needs of
veterans. The majority of resources are devoted to Uniformed Services Employment and Reemployment Rights and
Veterans Preference Rights (USERRA) compliance and outreach. Activities, as discussed below:

   Uniformed Services Employment and Reemployment Rights and Veterans Preference Rights – The Uniformed
    Services Employment and Reemployment Rights Act (USERRA) of 1994, codified at 38 U.S.C. Chapter 43,
    protects civilian job rights and benefits for veterans, members of the National Guard and Reserves. Veterans
    Preference for Federal Employment is codified in 5 U.S.C. 2108. VETS promotes a productive relationship
    between employer and employee by educating both on the employment rights of the individual veterans.




                                                                                 FY 2010 Agency Financial Report   127
Financial Section

REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION
(Unaudited)


Homeless Veterans and Veterans’ Workforce Investment Programs

     Homeless Veterans Reintegration Project (HVRP) – The HVRP, codified at 38 U.S.C. 2021, provides employment
      assistance to homeless veterans through competitive grants to States or other entities in both urban and rural
      areas to operate employment programs to reach out to homeless veterans and help them become employed.

 Veterans’ Workforce Investment Program (VWIP) - The VWIP, (38 U.S.C. 2913), provides competitive grants for
    training and retraining of veterans to create highly skilled employment opportunities for targeted veterans.
Program Costs and Outputs

The full cost of VETS programs is presented in the Statement of Net Costs. The costs of VETS investments in human
capital, and the participants served by this investment, are presented below, by major program.

                                              VETS Investments in Human Capital
                                     Program Costs and Participants Served (in Thousands)
                                       For The Five Year Period FY 2006 through FY 2010


                          2010                  2009                 2008                  2007                   2006
                                  Part.                 Part.                Part.                 Part.                  Part.
    Program          Costs       Served    Costs       Served    Costs      Served    Costs       Served     Costs       Served

    DVOP             $99,818      351.1    $91,064      345.1    $86,844     363.8    $86,667      363.4     $86,153      398.1

    LVER              91,984      357.9     83,917      362.3     80,028     366.4     80,000      400.6      79,526      429.3

    TAP                7,928      129.0      7,233      124.7      6,898     150.0      7,704      151.3       4,792      139.5

    USERRA            11,043      101.6     10,075      107.9      9,100      93.0      9,170       70.8       8,819      109.9

    HVRP              31,746       14.4     28,962       13.7     27,620      14.0     27,504       12.8      26,975       13.8

    VWIP               8,794        3.3      8,023        3.6      7,651       3.3      7,667         3.6      9,123         3.8

      TOTAL         $251,313      957.3   $229,274      957.3   $218,141     990.5   $218,712     1,002.5   $215,388     1,094.4



Program Outcomes

Outcomes for the programs comprising VETS’ investment in human capital are presented in the Department’s
Annual Performance Report for FY 2010 available on the DOL website www.dol.gov/%5Fsec/media/reports/.




128    United States Department of Labor
Required Supplementary Information
Financial Section

REQUIRED SUPPLEMENTARY INFORMATION
(Unaudited)


DEFERRED MAINTENANCE

The U.S. Department of Labor (DOL) maintains one hundred twenty-four (124) Job Corps centers located throughout
the United States. Periodic maintenance is performed to keep these centers in acceptable condition, as determined
by Job Corps management. Maintenance requirements are stratified by management into critical and non-critical
projects. Critical maintenance involves life, safety, health, and environmental issues, as well as building code
compliance deficiencies. Critical maintenance projects are funded and performed in the year they are identified.
Non-critical maintenance projects are performed each year to the extent that funding constraints allow. Non-critical
maintenance projects that cannot be funded when scheduled are deferred to a future period.

Condition Assessment Surveys

Condition assessment surveys are conducted every three years at each Job Corps center to determine the current
condition of buildings and structures (constructed assets) and the estimated maintenance cost to correct
deficiencies. Surveys conducted during years one and two of this three year cycle are updated annually to reflect
maintenance performed, and rolled up with current assessments to provide a condition assessment for the entire
Job Corps portfolio of constructed assets. Condition assessment surveys are based on methods and standards
consistently applied, including:

        - condition descriptions of facilities                - recommended maintenance schedules
        - estimated costs of maintenance actions              - standardized condition codes

Asset Condition

Condition assessment surveys are used to estimate the current plant replacement value and deferred maintenance
repair backlog for every constructed asset at each Job Corps center. Plant replacement value and repair backlog are
used to calculate a Facilities Condition Index (FCI) for each building and structure. The chart below ranks each asset
within one of five categories of asset condition, based on the assets FCI score, for the previous five year period.

                                            Job Corps Center Constructed Assets
                                   Ranking of Individual Asset Condition By FCI Scores(1)
                           For the Fiscal Years Ended September 30, 2006 – September 30, 2010

                                       2010               2009               2008                2007              2006(2)
 Asset                          No. of     Asset   No. of     Asset   No. of     Asset    No. of     Asset    No. of    Asset
 Condition          FCI Score   Assets      %      Assets      %      Assets      %       Assets      %       Assets       %

 Excellent          90‐ 100%     3,273      86.4    3,037      84.6     2,878      81.9     2,966      80.9     2,665      75.1
 Good                80‐ 89%       282       7.4      290       8.1       311       8.9       338       9.2       433      12.2
 Fair                70‐ 79%        90       2.4       95       2.6       115       3.3       126       3.4       145       4.1
 Poor                60‐ 69%        57       1.5       71       2.0        89       2.5        98       2.7       135       3.8
 Very Poor            < 60%         88       2.3       96       2.7       118       3.4       136       3.8       170       4.8

                                 3,790     100.0    3,589     100.0     3,511     100.0     3,664     100.0     3,548     100.0

(1)   FCI = 1 – (Repair Backlog / Plant Replacement Value). An FCI closer to 100 % indicates better asset condition.
(2)   FCI scores for 2006 were distributed based on modifications to the calculation of asset condition implemented in 2007.




130    United States Department of Labor
                                                                                                                                Annual Financial Statements

                                                                                                          REQUIRED SUPPLEMENTARY INFORMATION
                                                                                                                                    (Unaudited)


Portfolio Condition and Deferred Maintenance Cost Estimates

The FCI assessments by building and structure are consolidated to calculate an FCI score for the entire portfolio of
constructed assets, which is used to evaluate the overall asset condition of the Job Corps portfolio. Job Corps has
set the goal of achieving and maintaining an FCI of 90% or greater (the standard used by the National Association of
College and University Business Offices) for its portfolio of constructed assets. In 2010, the portfolio’s aggregate FCI
score for 3,790 constructed assets was 93.4%, and deferred maintenance costs to return the portfolio to an
acceptable condition were estimated at $89.8 million, as shown in the table below. The final graph juxtaposes
deferred maintenance cost estimates with the FCI trend line for the five year period ending in 2010.

                                        Job Corps Center Constructed Assets
                          Portfolio Condition and Deferred Maintenance Cost Estimates at
                                             September 30, 2006 - 2010

                                                                  Number of         Portfolio Condition                Deferred Maintenance
                                                                  Constructed            Based on                      Costs to Return Assets
             Constructed Assets - FY                                Assets          Aggregate FCI Score               To Acceptable Condition

       Buildings and structures - 2010                                  3,790               Excellent - 93.4%                                            $89,827,363

       Buildings and structures - 2009                                  3,589               Excellent - 91.7%                                            $83,861,828

       Buildings and structures - 2008                                  3,511               Excellent - 92.2%                                            $71,901,425

       Buildings and structures - 2007                                  3,664               Excellent - 90.8%                                            $87,372,700

       Buildings and structures - 2006                                  3,548               Excellent - 96.3%                                            $92,100,000


                                                   Deferred Maintenance Cost Estim ates and FCI Trend Line

                                                                           DM      FCI           FCI Trendline

                                                   $100,000,000                                                     97.0%
                                                                                                                    96.0%
                                                                                                                            Facilities Condition Index
                            Deferred Maintenance




                                                    $80,000,000                                                     95.0%
                                                                                                                    94.0%
                                                    $60,000,000
                                                                                                                    93.0%
                                                                                                                    92.0%
                                                    $40,000,000
                                                                                                                    91.0%
                                                    $20,000,000                                                     90.0%
                                                                                                                    89.0%
                                                            $0                                                      88.0%
                                                                    2006    2007     2008        2009      2010
                                                                                   Fiscal Year




                                                                                                                  FY 2010 Agency Financial Report                      131
Financial Section

REQUIRED SUPPLEMENTARY INFORMATION
(Unaudited)


SOCIAL INSURANCE PROGRAMS

The Federal Accounting Standards Advisory Board (FASAB) has classified certain government income transfer
programs as social insurance programs. Recognizing that these programs have complex characteristics that do not
fit traditional accounting models, the FASAB has developed accounting standards for social insurance programs
which require the presentation of supplementary information to facilitate the assessment of the program’s long-
term sustainability.

The U.S. Department of Labor operates two programs classified under Federal accounting standards as social
insurance programs, the Unemployment Insurance Program and the Black Lung Disability Benefits Program.
Presented below is the supplementary information for the two programs.

Unemployment Insurance Program

The Unemployment Insurance (UI) Program was created in 1935 to provide income assistance to unemployed
workers who lose their jobs through no fault of their own. The program protects workers during temporary periods
of unemployment through the provision of unemployment compensation benefits. These benefits replace part of
the unemployed worker’s lost wages and, in so doing, stabilize the economy during recessionary periods by
increasing the unemployed’s purchasing power. The UI program operates counter cyclically, with benefits
exceeding tax collections during recessionary periods and UI tax revenues exceeding benefit payments during
periods of recovery.

Program Administration and Funding

The UI program is administered through a unique system of Federal-State partnerships, established in Federal law
but executed through conforming State laws by State officials. The Federal government provides broad policy
guidance and program direction through the oversight of the U.S. Department of Labor, while program details are
established through individual State UI statutes, administered through State UI agencies.

Federal and State Unemployment Taxes

The UI program is financed through the collection of Federal and State unemployment taxes levied on subject
employers and deposited in the Unemployment Trust Fund (UTF). The UTF was established to account for the
receipt, investment and disbursement of unemployment taxes. Federal unemployment taxes are used to pay for
the administrative costs of the UI program, including grants to each State to cover the costs of State UI operations
and the Federal share of extended UI benefits. Federal unemployment taxes are also used to maintain a loan
account within the UTF, from which insolvent States may borrow funds to pay UI benefits. State UI taxes are used
exclusively for the payment of regular UI benefits, as well as the State’s share of extended benefits.

         Federal Unemployment Taxes

         Under the provisions of the Federal Unemployment Tax Act (FUTA), a Federal tax is levied on covered
         employers, at a current rate of 6.2% of the first $7,000 in annual wages paid to each employee. This
         Federal tax rate is reduced by a credit of up to 5.4%, granted to employers paying State UI taxes under
         conforming State UI statutes. Accordingly, in conforming States, employers paid an effective Federal tax of
         0.8% (0.6% starting July 1, 2011). Federal unemployment taxes are collected by the Internal Revenue
         Service.

132   United States Department of Labor
                                                                                        Annual Financial Statements

                                                                         REQUIRED SUPPLEMENTARY INFORMATION
                                                                                                   (Unaudited)


       State Unemployment Taxes

       In addition to the Federal tax, individual States finance their UI programs through State tax contributions
       from subject employers based on the wages of covered employees. (Three States also collect contributions
       from employees.) Within Federal confines, State tax rates are assigned in accordance with an employer’s
       experience with unemployment. Actual tax rates vary greatly among the States and among individual
       employers within a State. At a minimum, these rates must be applied to the Federal tax base of $7,000;
       however, States may adopt a higher wage base than the minimum established by FUTA. State UI agencies
       are responsible for the collection of State unemployment taxes.

Unemployment Trust Fund

Federal and State UI taxes are deposited into designated accounts within the Unemployment Trust Fund. The UTF
was established under the authority of Title IX, Section 904 of the Social Security Act of 1935, as amended, to
receive, hold, invest, loan and disburse Federal and State UI taxes. The U.S. Department of the Treasury acts as
custodian over monies deposited into the UTF, investing amounts in excess of disbursing requirements in Treasury
securities. The UTF is comprised of the following accounts:

       Federal Accounts

       The Employment Security Administration Account (ESAA) was established pursuant to Section 901 of the
       Act. All tax receipts collected under the Federal Unemployment Tax Act (FUTA) are appropriated to the
       ESAA and used to pay the costs of Federal and State administration of the unemployment insurance
       program and veterans’ employment services, as well as 97 % of the costs of the State employment services.
       Excess balances in ESAA, as defined under the Act, are transferred to other Federal accounts within the
       Fund, as described below.

       The Federal Unemployment Account (FUA) was established pursuant to Section 904 of the Act. FUA is
       funded by any excesses from the ESAA as determined in accordance with Section 902 of the Act. Title XII,
       Section 1201 of the Act authorizes the FUA to loan Federal monies to State accounts that are unable to
       make benefit payments because the State UI account balance has been exhausted. Title XII loans must be
       repaid with interest. The American Recovery and Reinvestment Act of 2009 waived interest on advances to
       State accounts for the period February 17, 2009, through December 31, 2010. The FUA may borrow from
       the ESAA or EUCA, without interest, or may also receive repayable advances, with interest, from the
       general fund of the U.S. Treasury, when the FUA has a balance insufficient to make advances to the States.




                                                                              FY 2010 Agency Financial Report   133
Financial Section

REQUIRED SUPPLEMENTARY INFORMATION
(Unaudited)


         The Extended Unemployment Compensation Account (EUCA) was established pursuant to Section 905 of
         the Act. EUCA provides for the payment of extended unemployment benefits authorized under the
         Federal-State Extended Unemployment Compensation Act of 1970, as amended. Under the extended
         benefits program, extended unemployment benefits are paid to individuals who have exhausted their
         regular unemployment benefits. These extended benefits are financed one-half by State unemployment
         taxes and one-half by FUTA taxes from the EUCA. The EUCA is funded by a percentage of the FUTA tax
         transferred from the ESAA in accordance with Section 905(b)(1) and (2) of the Act. The EUCA may borrow
         from the ESAA or the FUA, without interest, or may also receive repayable advances from the general fund
         of the Treasury when the EUCA has a balance insufficient to pay the Federal share of extended benefits.
         During periods of sustained high unemployment, the EUCA may also receive payments and non-repayable
         advances from the general fund of the Treasury to finance emergency unemployment compensation
         benefits. Emergency unemployment benefits require Congressional authorization.

         The Federal Employees Compensation Account (FEC) was established pursuant to Section 909 of the Act.
         The FEC account provides funds to States for unemployment compensation benefits paid to eligible former
         Federal civilian personnel and ex-service members. Generally, benefits paid are reimbursed to the Federal
         Employees Compensation Account by the various Federal agencies. Any additional resources necessary to
         assure that the account can make the required payments to States, due to the timing of the benefit
         payments and subsequent reimbursements, will be provided by non-repayable advances from the general
         fund of the Treasury.

         State Accounts

         Separate State Accounts were established for each State and territory depositing monies into the Fund, in
         accordance with Section 904 of the Act. State unemployment taxes are deposited into these individual
         accounts and may be used only to pay State unemployment benefits. States may receive repayable
         advances from the FUA when their balances in the Fund are insufficient to pay benefits.

         Railroad Retirement Accounts

         The Railroad UI Account and Railroad UI Administrative Account were established under Section 904 of the
         Act to provide for a separate unemployment insurance program for railroad employees. This separate
         unemployment insurance program is administered by the Railroad Retirement Board, an agency
         independent of DOL. DOL is not responsible for the administrative oversight or solvency of the railroad
         unemployment insurance system. Receipts from taxes on railroad payrolls are deposited in the Railroad UI
         Account and the Railroad UI Administrative Account to meet benefit payment and related administrative
         expenses.




134   United States Department of Labor
                                                                                         Annual Financial Statements

                                                                          REQUIRED SUPPLEMENTARY INFORMATION
                                                                                                    (Unaudited)


UI Program Benefits

The UI program provides regular and extended benefit payments to eligible unemployed workers. Regular UI
program benefits are established under State law, payable for a period not to exceed a maximum duration. In
1970, Federal law began to require States to extend this maximum period of benefit duration by 50% during
periods of high unemployment. These extended benefit payments are paid equally from Federal and State
accounts.

       Regular UI Benefits

       There are no Federal standards regarding eligibility, amount or duration of regular UI benefits. Eligibility
       requirements, as well as benefit amounts and benefit duration are determined under State law. Under
       State laws, worker eligibility for benefits depends on experience in covered employment during a past base
       period, which attempts to measure the workers’ recent attachment to the labor force. Three factors are
       common to State eligibility requirements: (1) a minimum duration of recent employment and earnings
       during a base period prior to unemployment, (2) unemployment not the fault of the unemployed, and (3)
       availability of the unemployed for work.

       Benefit payment amounts under all State laws vary with the worker’s base period wage history. Generally,
       States compute the amount of weekly UI benefits as a percentage of an individual’s average weekly base
       period earnings, within certain minimum and maximum limits. Most States set the duration of UI benefits
       by the amount of earnings an individual has received during the base period. Currently, almost all States
       have established the maximum duration for regular UI benefits at 26 weeks. Regular UI benefits are paid by
       the State UI agencies from monies drawn down from the State’s account within the Unemployment Trust
       Fund.

       Extended UI Benefits

       The Federal/State Extended Unemployment Compensation Act of 1970 provides for the extension of the
       duration of UI benefits during periods of high unemployment. When the insured unemployment level
       within a State, or in some cases total unemployment, reaches certain specified levels, the State must
       extend benefit duration by 50%, up to a combined maximum of 39 weeks; certain States voluntarily
       extended the benefit duration up to a combined maximum of 46 weeks. Fifty percent of the cost of
       extended unemployment benefits is paid from the Extended Unemployment Compensation Account within
       the UTF, and 50% by the State, from the State’s UTF account. The American Recovery and Reinvestment
       Act of 2009 began temporary 100% Federal funding of extended benefits. P.L. 111-205, the Unemployment
       Compensation Extension Act of 2010, authorized 100% Federal funding of extended benefits to December 4,
       2010.




                                                                               FY 2010 Agency Financial Report   135
Financial Section

REQUIRED SUPPLEMENTARY INFORMATION
(Unaudited)


         Emergency UI Benefits

         During prolonged periods of high unemployment, Congress may authorize the payment of emergency
         unemployment benefits to supplement extended UI benefit payments. Emergency benefits began in July
         2008, authorized under the Supplemental Appropriations Act, 2008. This emergency program was
         temporarily extended and additionally funded by the Recovery Act and has been modified several times,
         most recently by P.L. 111-205, the Unemployment Compensation Extension Act of 2010, which extended
         the expiration date of the program to November 27, 2010. Emergency benefits were last authorized in
         2002 under the Temporary Extended Unemployment Compensation Act. Payments in excess of $23 billion
         were paid under the program which ended in January 2005. Prior to that, emergency benefits were
         authorized in 1991 under the Emergency Unemployment Compensation Act. Emergency benefit payments
         in excess of $28 billion were paid over the three year period ended in 1994.

         Federal UI Benefits

         Unemployment benefits to unemployed Federal workers are paid from the Federal Employees
         Compensation Account within the Unemployment Trust Fund. These benefit costs are reimbursed by the
         responsible Federal agency and are not considered to be social insurance benefits. Federal unemployment
         compensation benefits are not included in this discussion of social insurance programs.

Program Finances and Sustainability

At September 30, 2010, total liabilities within the UTF exceeded total assets by $17.9 billion. Although at the
present time there is a deficit, any future surplus of tax revenues and earnings on these revenues over benefit
payment expenses is available to finance benefit payments in future periods when tax revenues may be insufficient.
Treasury invests any accumulated surplus in Federal securities. The net value of these securities, including interest
receivable, at September 30, 2010 was $18.9 billion. This interest is distributed to eligible State and Federal
accounts within the UTF. Interest income from these investments during FY 2010 was $0.8 billion. Federal and
State UI tax and reimbursable revenues of $45.2 billion and regular, extended and emergency benefit payment
expense of $143.7 billion were recognized for the year ended September 30, 2010.

As discussed in Note 1.K.1 to the consolidated financial statements, DOL recognized a liability for regular, extended
and emergency unemployment benefits to the extent of unpaid benefits applicable to the current period and for
benefits paid by States that have not been reimbursed by the UTF. Accrued unemployment benefits payable at
September 30, 2010 were $5.1 billion.

During FY 2010, both the FUA and EUCA borrowed from the general fund of the U.S. Treasury in the form of
repayable advances. FUA had an outstanding repayable advances balance of $31.0 billion, of which $5.0 billion
bear interest at 3.375% and $26.0 billion bear interest at 3.25%, as of September 30, 2010. EUCA had an
outstanding repayable advances balance of $3.1 billion, which bears interest at 3.25%, as of September 30, 2010.




136   United States Department of Labor
                                                                                           Annual Financial Statements

                                                                           REQUIRED SUPPLEMENTARY INFORMATION
                                                                                                     (Unaudited)


Subsequent Events

This required supplementary information does not reflect the effects of the subsequent events described below.

Subsequent to September 30, 2010, the Extended Unemployment Compensation Account (EUCA) of the
Unemployment Trust Fund (UTF) borrowed as Advances from U.S. Treasury, $9.0 billion at interest rates ranging
from 2.875% to 3.0%. During the same period, the Federal Unemployment Account (FUA) of the UTF borrowed as
Advances from U.S. Treasury, $10.0 billion at interest rates ranging from 2.875% to 3.0%.

P.L. 111-312, the Tax Relief, Unemployment Insurance Reauthorization, and Job Creation Act of 2010, was enacted
on December 17, 2010. This Act, among other things, authorized continuing 100% Federal funding of extended
unemployment benefits to January 4, 2012, and changed the expiration date of the emergency unemployment
insurance program to January 3, 2012.

Effect of Projected Cash Inflows and Outflows on the Accumulated Net Assets of the UTF

The ability of the UI program to meet a participant’s future benefit payment needs depends on the availability of
accumulated taxes and earnings within the UTF. The Department measures the effect of projected benefit
payments on the accumulated net assets of the UTF, under an open group scenario, which includes current and
future participants in the UI program. Future estimated cash inflows and outflows of the UTF are tracked by the
Department for budgetary purposes. These projections allow the Department to monitor the sensitivity of the UI
program to differing economic conditions, and to predict the program’s sustainability under varying economic
assumptions. The significant assumptions used in the projections include total unemployment rates, civilian labor
force levels, percent of unemployed receiving benefits, total wages, distribution of benefit payments by state, state
tax rate structures, state taxable wage bases and interest rates on UTF investments.

Presented on the following pages is the effect of projected economic conditions on the net assets of the UTF,
excluding the Federal Employees Compensation Account.




                                                                                 FY 2010 Agency Financial Report   137
Financial Section

REQUIRED SUPPLEMENTARY INFORMATION
(Unaudited)


Expected Economic Conditions

Charts I and II graphically depict the effect of expected economic conditions on the UTF over the next ten years.

         Projected Cash Inflows and Outflows Under Expected Economic Conditions

         Chart I depicts projected cash inflows and outflows of the UTF over the next ten years under expected
         economic conditions. Both cash inflows and cash inflows excluding interest earnings are displayed. Current
         estimates by the Department are based on an expected unemployment rate of 9.27% during FY 2011,
         decreasing steadily to below 6% in FY 2015 and thereafter. Total cash outflows exceed total cash inflows
         through FY 2013, whereas total cash inflows exceed total cash outflows beginning in FY 2014 and through
         the end of the projected period. The net outflow decreases from $18.9 billion in FY 2011 to $0.5 billion in
         FY 2013. The net inflow increases from $7.2 billion in FY 2014 to $14.3 billion in FY 2016, and ranges
         between $13.4 billion to $6.6 billion thereafter. The net outflow occurs due to State unemployment
         benefits. The net inflow is sustained by the excess of Federal tax collections over Federal expenditures.

         These projections, excluding interest earnings, indicate decreasing net cash outflow from FY 2011 to FY
         2013, then net cash inflows at varied levels through 2020.

         Chart I


                                                  Unemployment Trust Fund
                                                             Cash Inflow and Outflow


                          120



                          100
           $ - Billions




                           80



                           60



                           40
                                2011    2012      2013         2014     2015       2016      2017       2018    2019      2020


                                       To tal Cash Inflows             Cash Inflow Excluding Interest          To tal Cash Outflow



                                                   E x cludes the Federal Employee Compensation Account




138   United States Department of Labor
                                                                                                         Annual Financial Statements

                                                                                      REQUIRED SUPPLEMENTARY INFORMATION
                                                                                                                (Unaudited)


Effect of Expected Cash Flows on UTF Assets

Chart II demonstrates the effect of these expected cash inflows and outflows on the net assets of the UTF
over the ten year period ended September 30, 2020. Yearly projected total cash inflows, including interest
earnings, and cash outflows, including interest payments, are depicted as well as the net effect of this cash
flow on UTF assets.

Total cash outflows exceed cash inflows for FYs 2011 through 2013 and total cash inflows exceed total cash
outflows beginning in FY 2014 and all other years in the projected period. The excess of total cash inflows
over total cash outflows peaks in FY 2016. Starting at $15.4 billion fund balance deficit at the beginning of
FY 2011, net UTF assets decrease by $29.4 billion over the next three years to an $44.8 billion fund balance
deficit by the end of FY 2013 and then increase by $73.2 billion over the next seven years to a $28.4 billion
fund net assets balance by the end of FY 2020. The fund is in a deficit situation from FY 2011 through FY
2016.

Chart II


                                     Unemployment Trust Fund
                                     E f fect of Net Cash Flow on Net Assets

                120

                100

                80

                60
 $ - Billions




                40

                20

                  0

                (20)

                (40)

                (60)

                (80)
                       2011   2012    2013      2014     2015      2016        2017    2018       2019        2020


                                 To tal Cash Inflows           To tal Cash Outflows             Ne t Assets



                                       E x cludes the Federal Employee Compensation Account




                                                                                              FY 2010 Agency Financial Report   139
Financial Section

REQUIRED SUPPLEMENTARY INFORMATION
(Unaudited)


Recovery Scenarios

Charts III and IV demonstrate the effect on accumulated UTF assets of projected total cash inflows and cash
outflows of the UTF over the ten year period ending September 30, 2020, under two recovery scenarios. Each
scenario uses an open group, which includes current and future participants in the UI program. Chart III assumes
decreasing rates of unemployment beginning in FY 2011 and Chart IV assumes higher unemployment in FY 2011
and then decreasing rates of unemployment beginning in FY 2012.

         Effect on UTF Assets of Recovery Scenario I

         The Department projects the effect of decreasing unemployment rates beginning in FY 2011 on the cash
         inflows and outflows of the UTF. Under this scenario, which utilizes a decreasing unemployment rate of
         8.30% beginning in FY 2011, net cash outflows including projected interest earnings and expenses from
         Federal sources are projected in FY 2011 and FY 2012. Net cash inflows are reestablished in FY 2013 and
         peak in FY 2017 with a drop in the unemployment rate to 5.2% for FYs 2017 through 2020. Starting at a
         $15.4 billion fund balance deficit at the beginning of FY 2011, net UTF assets decrease by $9.2 billion to a
         $24.6 billion fund balance deficit in FY 2012 and then increase by $65.2 billion over the next eight years to a
         $40.6 billion fund net assets balance by the end of FY 2020. The fund is in a deficit situation from FY 2011
         to FY 2015.

         Chart III


                                                Unemployment Trust Fund
                                               Ef f ect of Net Cash Flow on Net Assets


                          120
                          100
                          80
                          60
           $ - Billions




                          40
                          20
                            0
                          (20)
                          (40)
                          (60)
                                 2011   2012    2013       2014    2015      2016        2017   2018   2019     2020


                                          To tal Cash Inflows            To tal Cash Outflows          Ne t Assets




                                                E x cludes the Federal Employee Compensation Account




140   United States Department of Labor
                                                                                                     Annual Financial Statements

                                                                                       REQUIRED SUPPLEMENTARY INFORMATION
                                                                                                                 (Unaudited)


Effect on UTF Assets of Recovery Scenario II

The Department also estimates the effects of an increasing unemployment rate of 10.38% in FY 2011 and
decreasing unemployment rates beginning in FY 2012 on the cash inflows and outflows of the UTF. Net cash
outflows including projected interest earnings and expenses from Federal sources are projected in FY 2011
through FY 2013, with the fund in a deficit situation from 2011 to 2019. The net assets of the UTF decrease
$68.0 billion from a $15.4 billion fund balance deficit at the beginning of FY 2011 to an $83.4 billion fund
balance deficit in 2013. Net cash inflows are reestablished in FY 2014 and peak in FY 2017 with a drop in the
unemployment rate to 5.3% and then slightly lower rates for FYs 2018 through 2020. By the end of FY 2020,
this positive cash flow has increased the UTF fund balance to $8.6 billion. At the end of the projection
period of recovery scenario II, net assets are $19.8 billion less than under expected economic conditions.

Chart IV


                                      Unemployment Trust Fund
                                      Ef f ect of Net Cash Flow on Net Assets


                 140
                 120
                 100
                  80
                  60
 $ - Billions




                  40
                  20
                   0
                 (20)
                 (40)
                 (60)
                 (80)
                (100)
                        2011   2012    2013      2014     2015     2016         2017     2018   2019     2020


                                To tal Cash Inflows            To tal Cash Outflows             Ne t Assets




                                      E x cludes the Federal Employee Compensation Account



The three examples of expected economic conditions and two recovery scenarios demonstrate the counter
cyclical nature of the UI program, which experiences net cash outflows during periods of recession to be
replenished through net cash inflows during periods of recovery. In the three examples, State accounts
without sufficient reserve balances to absorb negative cash flows are forced to borrow funds from the FUA
to meet benefit payment requirements. State borrowing demands also deplete the FUA, which borrows
from the ESAA and the EUCA until they are depleted. The FUA then requires advances from the general
fund of the U.S. Treasury to provide for State borrowings. (See following discussion of State solvency
measures.)




                                                                                           FY 2010 Agency Financial Report   141
142 United States Department of Labor




                                                                                                                                                                                                                                                                   (Unaudited)
                                                                                                                                                                                                                                                                   REQUIRED SUPPLEMENTARY INFORMATION

                                                                                                                                                                                                                                                                                                        Financial Section
                                                                                                                            SUPPLEMENTARY SOCIAL INSURANCE INFORMATION
                                                                                                                                  CASH INFLOW AND OUTFLOW OF THE
                                                                                                           UNEMPLOYMENT TRUST FUND EXCLUDING THE FEDERAL EMPLOYEES COMPENSATION ACCOUNT
                                                                                                                          FOR THE TEN YEAR PERIOD ENDING SEPTEMBER 30, 2020
                                                                                                                                  (1) EXPECTED ECONOMIC CONDITIONS




                                        (Dollars in thousands)                               2011               2012            2013             2014             2015             2016             2017            2018             2019             2020


                                        Balance, start of year                          $   (15,430,104) $    (34,344,403) $   (44,268,606) $   (44,794,889) $   (37,607,974) $   (24,952,472) $   (10,639,924) $    2,737,364   $   14,200,655   $   21,840,966


                                        Cash inflow
                                            State unemployment taxes                        47,183,000         52,183,000      55,848,000       57,481,000       57,900,000       57,181,000       56,402,000       55,428,000       55,265,000       56,001,000
                                            Federal unemployment taxes                       7,034,000          7,687,000      10,397,000       12,963,000       14,934,000       15,375,000       14,699,000       15,359,000       13,964,000       14,642,000
                                            General revenue appropriation                   21,555,000              3,000             -                -                -                -                -                -                -                -
                                            Interest on loans                                1,376,000          2,146,000       2,442,000        2,594,000        2,589,000        2,454,000        2,237,000        2,006,000        1,825,000        1,691,000
                                            CMIA receipts                                        2,300              2,300           2,300            2,300            2,300            2,300            2,300            2,300            2,300            2,300
                                            Deposits by the Railroad Retirement Board          201,635            273,435         176,135           70,435           52,035           69,635          116,535          152,735          139,935          109,635

                                                Total cash inflow excluding interest        77,351,935         62,294,735      68,865,435       73,110,735       75,477,335       75,081,935       73,456,835       72,948,035       71,196,235       72,445,935

                                            Interest on Federal securities                     334,421           247,098          260,165          332,350          478,898          731,021        1,033,760        1,288,926        1,467,045        1,611,432

                                                Total cash inflow                           77,686,356         62,541,833      69,125,600       73,443,085       75,956,233       75,812,956       74,490,595       74,236,961       72,663,280       74,057,367


                                        Cash outflow
                                            State unemployment benefits                     90,100,000         66,110,000      62,929,000       59,304,000       56,253,000       54,568,000       54,342,000       56,192,000       58,536,000       61,012,000
                                            State administrative costs                       4,922,000          4,641,000       4,689,000        4,740,000        4,837,000        4,952,000        5,071,000        5,191,000        5,318,000        5,445,000
                                            Federal administrative costs                       194,524            198,924         203,441          208,078          213,839          219,730          226,753          233,915          240,219          247,670
                                            Interest on tax refunds                              2,476              2,459           3,250            4,361            5,544            6,314            6,373            6,857            6,336            6,738
                                            CMIA interest payment                                    -                  -               -                -                -                -                -                -                -                -
                                            Interest on advances                             1,250,000          1,400,000       1,720,000        1,890,000        1,880,000        1,640,000        1,350,000        1,030,000          800,000          620,000
                                            Railroad Retirement Board withdrawals              131,655            113,653         107,192          109,731          111,348          114,364          117,181          119,898          122,414          125,031

                                                Total cash outflow                          96,600,655         72,466,036      69,651,883       66,256,170       63,300,731       61,500,408       61,113,307       62,773,670       65,022,969       67,456,439
                                                Excess of total cash inflow excluding
                                                 interest over total cash outflow           (19,248,720)      (10,171,301)       (786,448)       6,854,565       12,176,604       13,581,527       12,343,528       10,174,365        6,173,266        4,989,496
                                                Excess of total cash inflow over
                                                 total cash outflow                         (18,914,299)       (9,924,203)       (526,283)       7,186,915       12,655,502       14,312,548       13,377,288       11,463,291        7,640,311        6,600,928

                                        Balance, end of year                            $   (34,344,403) $    (44,268,606) $   (44,794,889) $   (37,607,974) $   (24,952,472) $   (10,639,924) $    2,737,364   $   14,200,655   $   21,840,966   $   28,441,894



                                                Total unemployment rate                          9.27%             8.32%           7.35%            6.50%            5.85%            5.42%            5.20%            5.20%            5.20%            5.20%
                                                                                                                                    U.S. DEPARTMENT OF LABOR
                                                                                                                          SUPPLEMENTARY SOCIAL INSURANCE INFORMATION
                                                                                                                                 CASH INFLOW AND OUTFLOW OF THE
                                                                                                         UNEMPLOYMENT TRUST FUND EXCLUDING THE FEDERAL EMPLOYEES COMPENSATION ACCOUNT
                                                                                                                        FOR THE TEN YEAR PERIOD ENDING SEPTEMBER 30, 2020
                                                                                                                           (2) RECOVERY SCENARIO I UNEMPLOYMENT RATE




                                      (Dollars in thousands)                               2011               2012             2013             2014             2015            2016             2017             2018             2019             2020


                                      Balance, start of year                          $   (15,430,104) $     (24,037,033) $   (24,593,350) $   (22,861,632) $   (17,758,204) $   (6,345,983) $     5,898,428   $   18,256,785   $   27,152,508   $   33,825,170


                                      Cash inflow
                                          State unemployment taxes                        47,450,000         51,866,000       54,879,000       56,435,000       56,462,000       56,340,000       56,177,000       55,653,000       54,989,000       56,813,000
                                          Federal unemployment taxes                       7,109,000          7,797,000       10,508,000       12,807,000       14,765,000       13,359,000       14,248,000       13,372,000       14,259,000       15,173,000
                                          General revenue appropriation                   21,211,000                  -              -                -                -                -                -                -                -                -
                                          Interest on loans                                1,263,000          1,752,000        1,888,000        2,050,000        2,122,000        2,082,000        1,934,000        1,785,000        1,673,000        1,580,000
                                          CMIA receipts                                        2,300              2,300            2,300            2,300            2,300            2,300            2,300            2,300            2,300            2,300
                                          Deposits by the Railroad Retirement Board          201,635            273,435          176,135           70,435           52,035           69,635          116,535          152,735          139,935          109,635

                                              Total cash inflow excluding interest        77,236,935         61,690,735       67,453,435       71,364,735       73,403,335       71,852,935       72,477,835       70,965,035       71,063,235       73,677,935

                                          Interest on Federal securities                     465,967            323,169          348,401          421,011          594,705         856,106         1,154,084        1,385,871        1,548,230        1,658,985

                                              Total cash inflow                           77,702,902         62,013,904       67,801,836       71,785,746       73,998,040       72,709,041       73,631,919       72,350,906       72,611,465       75,336,920


                                      Cash outflow
                                          State unemployment benefits                     80,061,000         56,779,000       59,994,000       60,359,000       56,124,000       54,018,000       54,894,000       57,170,000       59,685,000       62,317,000
                                          State administrative costs                       4,760,150          4,456,150        4,602,200        4,731,200        4,821,150        4,927,050        5,059,450        5,185,400        5,314,700        5,443,700




                                                                                                                                                                                                                                                                  REQUIRED SUPPLEMENTARY INFORMATION
                                          Federal administrative costs                       194,524            198,924          203,441          208,078          213,839          219,730          226,753          233,915          240,219          247,670
                                          Interest on tax refunds                              2,502              2,494            3,285            4,309            5,482            5,486            6,178            5,970            6,470            6,982
                                          CMIA interest payment                                    -                  -                -                -                -                -                -                -                -                -
FY 2010 Agency Financial Report 143




                                          Interest on advances                             1,160,000          1,020,000        1,160,000        1,270,000        1,310,000        1,180,000          970,000          740,000          570,000          430,000
                                          Railroad Retirement Board withdrawals              131,655            113,653          107,192          109,731          111,348          114,364          117,181          119,898          122,414          125,031

                                              Total cash outflow                          86,309,831         62,570,221       66,070,118       66,682,318       62,585,819       60,464,630       61,273,562       63,455,183       65,938,803       68,570,383
                                              Excess of total cash inflow excluding




                                                                                                                                                                                                                                                                                                          Annual Financial Statements
                                               interest over total cash outflow            (9,072,896)         (879,486)       1,383,317        4,682,417       10,817,516       11,388,305       11,204,273        7,509,852        5,124,432        5,107,552
                                              Excess of total cash inflow over
                                               total cash outflow                          (8,606,929)         (556,317)       1,731,718        5,103,428       11,412,221       12,244,411       12,358,357        8,895,723        6,672,662        6,766,537

                                      Balance, end of year                            $   (24,037,033) $     (24,593,350) $   (22,861,632) $   (17,758,204) $    (6,345,983) $    5,898,428   $   18,256,785   $   27,152,508   $   33,825,170   $   40,591,707

                                              Total unemployment rate                          8.30%             7.32%            7.11%            6.67%            5.76%            5.31%            5.20%            5.20%            5.20%            5.20%




                                                                                                                                                                                                                                                                                            (Unaudited)
                                                                                                                                                                                                                                                                     (Unaudited)
                                                                                                                                                                                                                                                                     REQUIRED SUPPLEMENTARY INFORMATION

                                                                                                                                                                                                                                                                                                          Financial Section
144 United States Department of Labor




                                                                                                                                      U.S. DEPARTMENT OF LABOR
                                                                                                                            SUPPLEMENTARY SOCIAL INSURANCE INFORMATION
                                                                                                                                   CASH INFLOW AND OUTFLOW OF THE
                                                                                                           UNEMPLOYMENT TRUST FUND EXCLUDING THE FEDERAL EMPLOYEES COMPENSATION ACCOUNT
                                                                                                                          FOR THE TEN YEAR PERIOD ENDING SEPTEMBER 30, 2020
                                                                                                                             (3) RECOVERY SCENARIO II UNEMPLOYMENT RATE




                                        (Dollars in thousands)                               2011               2012             2013             2014             2015             2016             2017             2018             2019            2020


                                        Balance, start of year                          $   (15,430,104) $     (52,679,345) $   (76,373,129) $   (83,395,370) $   (80,405,025) $   (69,890,869) $   (53,055,154) $   (32,488,358) $   (15,572,690) $   (1,116,939)


                                        Cash inflow
                                            State unemployment taxes                         47,238,000        52,946,000       56,973,000       58,745,000       59,038,000       58,990,000       58,543,000       56,634,000       55,162,000       54,447,000
                                            Federal unemployment taxes                        6,960,000         7,572,000       10,285,000       12,888,000       15,107,000       17,515,000       18,692,000       16,930,000       17,051,000       15,085,000
                                            General revenue appropriation                    22,116,000             9,000              -                -                -                -                -                -                -                -
                                            Interest on loans                                 1,585,000         2,789,000        3,402,000        3,839,000        4,093,000        3,964,000        3,574,000        3,111,000        2,692,000        2,386,000
                                            CMIA receipts                                         2,300             2,300            2,300            2,300            2,300            2,300            2,300            2,300            2,300            2,300
                                            Deposits by the Railroad Retirement Board           201,635           273,435          176,135           70,435           52,035           69,635          116,535          152,735          139,935          109,635

                                                Total cash inflow excluding interest         78,102,935        63,591,735       70,838,435       75,544,735       78,292,335       80,540,935       80,927,835       76,830,035       75,047,235       72,029,935

                                            Interest on Federal securities                     310,553            228,680          246,372          321,855          470,417          774,317        1,111,150        1,396,604        1,551,986        1,635,851

                                                Total cash inflow                            78,413,488        63,820,415       71,084,807       75,866,590       78,762,752       81,315,252       82,038,985       78,226,639       76,599,221       73,665,786


                                        Cash outflow
                                            State unemployment benefits                     108,614,000        80,227,000       70,198,000       64,513,000       59,522,000       55,812,000       53,155,000       53,391,000       54,593,000       56,583,000
                                            State administrative costs                        5,240,100         4,952,200        4,895,200        4,901,100        4,965,800        5,046,250        5,125,150        5,218,600        5,330,100        5,452,450
                                            Federal administrative costs                        194,524           198,924          203,441          208,078          213,839          219,730          226,753          233,915          240,219          247,670
                                            Interest on tax refunds                               2,450             2,422            3,215            4,336            5,609            7,193            8,105            7,558            7,737            6,942
                                            CMIA interest payment                                     -                 -                -                -                -                -                -                -                -                -
                                            Interest on advances                              1,480,000         2,020,000        2,700,000        3,140,000        3,430,000        3,280,000        2,840,000        2,340,000        1,850,000        1,490,000
                                            Railroad Retirement Board withdrawals               131,655           113,653          107,192          109,731          111,348          114,364          117,181          119,898          122,414          125,031

                                                Total cash outflow                          115,662,729        87,514,199       78,107,048       72,876,245       68,248,596       64,479,537       61,472,189       61,310,971       62,143,470       63,905,093
                                                Excess of total cash inflow excluding
                                                 interest over total cash outflow           (37,559,794)       (23,922,464)      (7,268,613)      2,668,490       10,043,739       16,061,398       19,455,646       15,519,064       12,903,765        8,124,842
                                                Excess of total cash inflow over
                                                 total cash outflow                         (37,249,241)       (23,693,784)      (7,022,241)      2,990,345       10,514,156       16,835,715       20,566,796       16,915,668       14,455,751        9,760,693


                                        Balance, end of year                            $   (52,679,345) $     (76,373,129) $   (83,395,370) $   (80,405,025) $   (69,890,869) $   (53,055,154) $   (32,488,358) $   (15,572,690) $    (1,116,939) $    8,643,754



                                                Total unemployment rate                         10.38%              9.42%            8.25%           7.20%            6.35%            5.72%            5.30%            5.20%            5.20%            5.20%
                                                                                           Annual Financial Statements

                                                                            REQUIRED SUPPLEMENTARY INFORMATION
                                                                                                      (Unaudited)


States Minimally Solvent

Each State’s accumulated UTF net assets or reserve balance should provide a defined level of benefit payments over
a defined period. To be minimally solvent, a State’s reserve balance should provide for one year’s projected benefit
payment needs based on the highest levels of benefit payments experienced by the State over the last twenty years.
A ratio of 1.0 or greater indicates a state is minimally solvent. States below this level are vulnerable to exhausting
their funds in a recession. States exhausting their reserve balance must borrow funds from the Federal
Unemployment Account (FUA) to make benefit payments. During FY 2009, the balances in the FUA were depleted
and the FUA borrowed from the Treasury general fund and continued to do so in FY 2010.

Chart V presents the State by State results of this analysis at September 30, 2010 in descending order by ratio. As
the table below illustrates, 44 state funds were below the minimal solvency ratio of 1.00 at September 30, 2010.

Chart V

          Minimally Solvent                Not Minimally Solvent                  Not Minimally Solvent
          State           Ratio                State            Ratio                  State           Ratio
Louisiana                   1.79       Utah                       0.97       Colorado                    0.00
Nebraska                    1.40       Montana                    0.85       Rhode Island                0.00
Mississippi                 1.39       Oregon                     0.81       Idaho                       0.00
Wyoming                     1.30       Puerto Rico                0.79       Texas                       0.00
District of Columbia        1.15       Oklahoma                   0.79       Minnesota                   0.00
Washington                  1.12       New Mexico                 0.61       New Jersey                  0.00
Alaska                      1.08       South Dakota               0.59       New York                    0.00
Maine                       1.05       Iowa                       0.58       Arkansas                    0.00
North Dakota                1.02       West Virginia              0.33       Virgin Islands              0.00
                                       Maryland                   0.28       Illinois                    0.00
                                       Tennessee                  0.25       Florida                     0.00
                                       Massachusetts              0.06       Pennsylvania                0.00
                                       Kansas                     0.05       Nevada                      0.00
                                       Hawaii                     0.05       Missouri                    0.00
                                       New Hampshire              0.03       Wisconsin                   0.00
                                       Delaware                   0.00       California                  0.00
                                       Arizona                    0.00       Kentucky                    0.00
                                       Vermont                    0.00       Ohio                        0.00
                                       Virginia                   0.00       South Carolina              0.00
                                       Georgia                    0.00       Michigan                    0.00
                                       Alabama                    0.00       North Carolina              0.00
                                       Connecticut                0.00       Indiana                     0.00




                                                                                  FY 2010 Agency Financial Report 145
Financial Section

REQUIRED SUPPLEMENTARY INFORMATION
(Unaudited)


Black Lung Disability Benefit Program

The Black Lung Disability Benefit Program provides for compensation, medical and survivor benefits for eligible coal
miners who are disabled due to pneumoconiosis (black lung disease) arising out of their coal mine employment. The
U.S. Department of Labor operates the Black Lung Disability Benefit Program. The Black Lung Disability Trust Fund
(BLDTF) provides benefit payments to eligible coal miners disabled by pneumoconiosis when no responsible mine
operator can be assigned the liability.

Program Administration and Funding

Black lung disability benefit payments are funded by excise taxes from coal mine operators based on the sale of coal,
as are the fund’s administrative costs. These taxes are collected by the Internal Revenue Service and transferred to
the BLDTF, which was established under the authority of the Black Lung Benefits Revenue Act, and administered by
the U.S. Department of the Treasury. Prior to October 3, 2008, the Black Lung Benefits Revenue Act provided for
repayable advances to the BLDTF from the general fund of the Treasury, in the event that BLDTF resources were not
adequate to meet program obligations.

P.L. 110-343, Division B--Energy Improvement and Extension Act of 2008, enacted on October 3, 2008, in section
113, (1) allowed for the temporary increase in coal excise tax rates to continue an additional five years beyond the
current statutory limit and (2) restructured the BLDTF debt by refinancing the outstanding repayable advances
(which had higher interest rates) with the proceeds from issuing discounted debt instruments similar in form to
zero-coupon bonds (which had lower interest rates), plus a one-time appropriation. This Act also allowed that any
debt issued by the BLDTF subsequent to the refinancing may be used to make benefit payments, other authorized
expenditures, or to repay debt and interest from the initial refinancing. All debt issued by the BLDTF was effected
as borrowing from the Treasury's Bureau of Public Debt. (See Notes 1J and 8)

P.L. 111-148, Patient Protection and Affordable Care Act of 2010, enacted on March 23, 2010, in section 1556,
amended the Black Lung Benefits Act and became effective immediately. Among other things, section 1556 affects
claims for (1) total disability benefits filed by miners with long histories of employment in the coal industry and (2)
survivors benefits filed by widows and other surviving dependents of totally disabled coal miners upon their death.
The amendments apply to claims which were filed after 2004 and pending on this Act's effective date and
thereafter. These amendments may make it easier for some coal miners and their surviving dependents to meet
the eligibility requirements for total disability and survivors benefits.

Program Finances and Sustainability

At September 30, 2010, total liabilities of the BLDTF exceeded assets by $6.2 billion. This deficit fund balance
represents the accumulated shortfall of excise taxes necessary to meet benefit payments, administrative costs, and
interest expense incurred prior to the debt refinancing pursuant to P.L. 110-343. Prior to enactment of P.L. 110-343,
this shortfall was funded by repayable advances to the BLDTF, which are repayable with interest. Pursuant to P.L.
110-343, any shortfall will be financed with debt instruments similar in form to zero-coupon bonds, with a maturity
date of one year and bear interest at the Treasury 1-year rate. Outstanding debt at September 30, 2010 was $6.3
billion, bearing interest rates ranging from 0.267% to 4.556%. Excise tax revenues of $594.8 million, benefit
payment expense of $221.0 million and interest expense of $223.9 million were recognized for the year ended
September 30, 2010. The interest expense is accrued and capitalized to the principal of the debt until the debt
reaches its face value at the time of maturity. On September 30, 2010, the BLDTF issued debt in the amount of
$60.0 million, bearing interest at 0.267% and maturing on September 30, 2011. At September 30, 2010, there were
31 debt instruments with staggered maturities of September 30 for years 2011 through 2040, with a total carrying


146   United States Department of Labor
                                                                                                                         Annual Financial Statements

                                                                                                   REQUIRED SUPPLEMENTARY INFORMATION
                                                                                                                             (Unaudited)


value of $6,289.8 million and a total face value at maturity of $10,776.8 million. Of these 31 debt instruments, 30
are from the October 2008 refinancing and one debt instrument was issued on September 30, 2010.

As discussed in Note 1.K.3, DOL recognized a liability for disability benefits to the extent of unpaid benefits
applicable to the current period. Accrued disability benefits payable at September 30, 2010 were $16.9 million.
Although no liability was recognized for future payments to be made to present and future program participants
beyond the due and payable amounts accrued at year end, future estimated cash inflows and outflows of the BLDTF
are tracked by the Department for budgetary purposes. The significant assumptions used in the projections are coal
excise tax revenue estimates, number of beneficiaries, life expectancy, medical cost inflation, Federal civilian pay
raises, and the interest rate on new debt issued by the BLDTF. These projections are sensitive to changes in the tax
rate and changes in interest rates on debt issued by the BLDTF.

These projections, made over the thirty year period ending September 30, 2040, indicate that cash inflows from
excise taxes will exceed cash outflows for benefit payments and administrative expenses for each period projected.
Cumulative net cash inflows are projected to reach $13.3 billion by the year 2040. However, when payments from
the BLDTF’s maturing debt are applied against this surplus cash inflow, the BLDTF’s cash flow turns negative in 2011
and each of the subsequent periods included in the projections. Net cash outflows after payments on maturing
debt are projected to reach $17.0 billion by the end of the year 2040, resulting in a projected deficit of $4.1 billion at
September 30, 2040. (See Chart I)

The net present value of future projected benefit payments and other cash inflow and outflow activities together
with the fund’s deficit positions as of September 30, 2010, 2009, 2008, 2007, and 2006 are presented in the
Statement of Social Insurance. Yearly cash inflows and outflows are presented in the table on the following page.
The table presentation has been changed to (1) identify the maturity of obligations and reduction of debt as the
debt that was refinanced in October 2008 and (2) include interest on annual borrowing.


    Chart I

                                           BLACK LUNG DISABILITY TRUST FUND
                                                         CASH INFLOW AND OUTFLOW


                    1,400


                    1,200


                    1,000
     $ - Millions




                     800


                     600


                     400


                     200


                       0
                            2011        2015            2019            2023       2027          2031             2035            2039

                                   Total Cash Outflow          Total Cash Inflow   Cash Outflow Before Repayment of Debt and Interest




                                                                                                            FY 2010 Agency Financial Report 147
148 United States Department of Labor




                                                                                                                                                                                                                       (Unaudited)
                                                                                                                                                                                                                       REQUIRED SUPPLEMENTARY INFORMATION

                                                                                                                                                                                                                                                            Financial Section
                                                                                                                     U.S. DEPARTMENT OF LABOR
                                                                                                       SUPPLEMENTARY SOCIAL INSURANCE INFORMATION
                                                                                              CASH INFLOW AND OUTFLOW OF THE BLACK LUNG DISABILITY TRUST FUND
                                                                                                 FOR THE THIRTY-ONE YEAR PERIOD ENDING SEPTEMBER 30, 2040




                                        (Dollars in thousands)                                          2011              2012            2013            2014            2015         2016 - 2040        Total



                                        Balance, start of year                                      $ (6,238,612)      $ (5,910,338)   $ (5,579,036)   $ (5,249,566)   $ (4,926,832)   $ (4,610,748)   $ (6,238,612)

                                        Cash inflow
                                            Excise taxes                                                629,000            638,000         645,000         650,000         658,000      10,107,084      13,327,084


                                                  Total cash inflow                                     629,000            638,000         645,000         650,000         658,000      10,107,084      13,327,084



                                        Cash outflow
                                            Disabled coal miners benefits                               219,795            207,737         195,377         183,328         171,662       2,117,864       3,095,763
                                            Administrative costs                                         59,152             61,150          61,150          61,150          61,150       1,041,189       1,344,941

                                                  Cash outflows before repayment of
                                                   debt and interest                                    278,947            268,887         256,527         244,478         232,812       3,159,053       4,440,704
                                                  Cash inflow over cash outflow
                                                   before repayment of debt and interest                350,053            369,113         388,473         405,522         425,188       6,948,031       8,886,380


                                            Maturity of obligations refinanced October 2008             400,905            431,486         452,439         472,849         492,609       8,466,535      10,716,823

                                            Interest on annual borrowings                                      160               612         2,967           7,322          12,264       1,816,796       1,840,121

                                                  Total cash outflow                                    680,012            700,985         711,933         724,649         737,685      13,442,384      16,997,648

                                                  Total cash outflow over total cash inflow              (51,012)           (62,985)       (66,933)        (74,649)        (79,685)      (3,335,300)    (3,670,564)

                                            Reduction of debt refinanced October 2008                   379,286            394,287         396,403         397,383         395,769       3,841,692       5,804,820


                                        Balance, end of year                                        $ (5,910,338)      $ (5,579,036)   $ (5,249,566)   $ (4,926,832)   $ (4,610,748)   $ (4,104,356)   $ (4,104,356)
                                                                                          Annual Financial Statements

                                                                           REQUIRED SUPPLEMENTARY INFORMATION
                                                                                                     (Unaudited)


The preceding discussion of the Black Lung Disability Benefit Program does not reflect the effects of the subsequent
event described below.

The Division of Coal Mine Workers' Compensation (DCMWC) within the Office of Workers' Compensation Programs
administers the Black Lung Program and the payment of benefits under the Black Lung Benefits Act. The Federal
Coal Mine Health and Safety Act sets Black Lung benefits at 37.5% of the base salary of a Federal employee at level
GS-2, Step 1. P.L. 111-322, the Continuing Appropriations and Surface Transportation Extensions Act of 2011, was
enacted on December 22, 2010. This Act, among other things, provided that no Federal employee statutory pay
adjustment would take effect during the period January 1, 2011 through December 31, 2012. As a result, because
the Federal employee base salary will remain unchanged through 2012, the rates for Black Lung benefits will
likewise remain unchanged through 2012. (See Note 23)




STATEMENT OF BUDGETARY RESOURCES

The principal Statement of Budgetary Resources combines the availability, status and outlay of DOL’s budgetary
resources during FY 2010 and 2009. Presented on the following pages is the disaggregation of this combined
information for each of the Department’s major budget accounts.




                                                                                 FY 2010 Agency Financial Report 149
Financial Section

REQUIRED SUPPLEMENTARY INFORMATION
(Unaudited)


                                    COMBINING STATEMENT OF BUDGETARY RESOURCES
                                         For the Year Ended September 30, 2010

                                                                         Employment             Employment              Office
                                                                         and Training            Standards               of
   (Dollars in thousands)                                               Administration         Administration         Job Corps

   BUDGETARY RESOURCES
     Unobligated balance, brought forward, October 1                $        2,310,218     $          925,448     $        766,909
     Recoveries of prior year unpaid obligations                               107,214                  1,840               20,844
     Budget authority
       Appropriations received                                             220,750,431              2,934,510            1,708,205
       Borrowing authority                                                  29,050,000                 60,000                   -
       Spending authority from offsetting collections
         Earned
            Collected                                                           41,572              2,687,605                7,901
            Change in receivables from Federal sources                             458                 (23,759)                 -
         Change in unfilled customer orders
            Advance received                                                         -                      -                   -
            Without advance from Federal sources                                   (822)                    -                   -
         Expenditure transfers from trust funds                              4,715,245                  34,844                  -
     Total budget authority                                                254,556,884              5,693,200            1,716,106
     Nonexpenditure transfers, net                                               (3,340)                 4,263               8,850
     Temporarily not available pursuant to Public Law                                -                 (38,626)                 -
     Permanently not available
            Redemption of Debt                                              (2,889,021)              (353,424)                   -
            All other                                                       (1,644,184)                (54,531)             (10,341)
   Total budgetary resources                                        $      252,437,771 $            6,178,170 $          2,502,368
   STATUS OF BUDGETARY RESOURCES
     Obligations incurred
       Direct                                                       $      250,171,209     $        2,278,467     $      1,738,399
       Reimbursable                                                             27,857              2,891,782                  637
     Total obligations incurred                                            250,199,066              5,170,249            1,739,036
     Unobligated balances available
       Apportioned                                                           1,653,268                599,242              738,910
       Exempt from apportionment                                                     1                386,905                   -
     Total unobligated balances available                                    1,653,269                986,147              738,910
     Unobligated balances not available                                        585,436                 21,774               24,422
   Total status of budgetary resources                              $      252,437,771     $        6,178,170     $      2,502,368
   CHANGE IN OBLIGATED BALANCE
     Obligated balance, net
       Unpaid obligations, brought forward, October 1               $       16,643,118     $          269,839     $        582,354
       Less uncollected customer payments from Federal sources,
        brought forward, October 1                                          (2,317,856)                   (182)                  -
     Total unpaid obligated balance, net                                    14,325,262                 269,657             582,354
     Obligations incurred, net                                             250,199,066               5,170,249           1,739,036
     Less gross outlays                                                   (249,770,370)             (5,161,391)         (1,845,855)
     Other                                                                          -                       -                   150
     Less recoveries of prior year unpaid obligations, actual                 (107,213)                 (1,840)             (20,844)
     Change in uncollected customer payments from Federal sources              417,918                  23,759                   -
     Obligated balance, net, end of period
       Unpaid obligations                                                   16,964,600                276,858              454,841
       Less uncollected customer payments from Federal sources               (1,899,939)               23,577                   -
     Total unpaid obligated balance, net, end of period             $       15,064,661 $              300,435     $        454,841
   NET OUTLAYS
       Gross outlays                                                $      249,770,370 $             5,161,391 $         1,845,855
       Less offsetting collections                                           (5,174,371)            (2,722,449)              (7,901)
       Less distributed offsetting receipts                                 (56,305,080)          (20,233,057)               (1,089)
       Net outlays                                                  $      188,290,919 $          (17,794,115) $         1,836,865




150   United States Department of Labor
                                                                                                                       Annual Financial Statements

                                                                                                 REQUIRED SUPPLEMENTARY INFORMATION
                                                                                                                           (Unaudited)




  Occupational            Bureau of              Mine Safety       Employee Benefits        Veterans'                 Other
Safety and Health           Labor                and Health            Security            Employment              Departmental
 Administration           Statistics            Administration      Administration         and Training             Programs             Total


$         15,813      $           8,617     $             2,311    $          5,892    $            5,230      $          84,197    $      4,124,635
          16,166                  4,460                     817                 464                 1,321                  9,426             162,552

         558,620               533,183                 357,293              154,861                45,971                490,151        227,533,225
              -                     -                       -                    -                     -                      -          29,110,000


           1,928                  9,060                   1,625               7,682                    34                216,291           2,973,698
           1,590                    516                      -                   -                    883                   (661)             (20,973)

              -                      -                      -                    -                    -                   33,299              33,299
              -                      -                      -                    -                    -                         -                (822)
              -                 78,264                      -                    -               210,156                  31,666          5,070,175
         562,138               621,023                 358,918              162,543              257,044                 770,746        264,698,602
           4,425                 (3,486)                 7,246                6,574                  (65)                (30,849)              (6,382)
              -                      -                      -                    -                    -                       -              (38,626)

               -                     -                      -                    -                     -                      -          (3,242,445)
           (6,402)               (3,287)                  (196)                (514)               (3,334)                (7,523)        (1,730,312)
$        592,140 $             627,327 $               369,096 $            174,959 $            260,196 $               825,997 $      263,968,024



$        568,077      $        610,071      $          360,841     $        163,027    $         253,969       $         443,362    $   256,587,422
           2,752                 9,431                   1,148                7,444                   -                  248,008          3,189,059
         570,829               619,502                 361,989              170,471              253,969                 691,370        259,776,481

           1,969                 1,265                   5,645                2,964                2,207                  62,427          3,067,897
              -                     -                       -                    -                    -                       90            386,996
           1,969                 1,265                   5,645                2,964                2,207                  62,517          3,454,893
          19,342                 6,560                   1,462                1,524                4,020                  72,110            736,650
$        592,140      $        627,327      $          369,096     $        174,959    $         260,196       $         825,997    $   263,968,024


$         91,479      $        102,301      $           32,599     $         46,273    $           73,960      $         375,012    $    18,216,935

            (8,113)                   -                      -                   -                       -                (5,624)         (2,331,775)
           83,366               102,301                  32,599              46,273                 73,960               369,388          15,885,160
         570,829                619,502                 361,989             170,471               253,969                691,370         259,776,481
        (534,283)              (603,020)               (355,961)           (169,844)             (236,568)              (705,644)       (259,382,936)
                -                     -                      -                   -                       -                    -                  150
          (16,166)                (4,460)                  (817)               (464)                 (1,321)              (9,427)           (162,552)
            (1,590)                 (516)                    -                   -                 (17,190)               (2,145)            420,236

         111,859               114,323                  37,810               46,436                90,040                351,311         18,448,078
           (9,703)                (516)                     -                    -                (17,190)                (7,768)        (1,911,539)
$        102,156 $             113,807 $                37,810     $         46,436    $           72,850 $              343,543 $       16,536,539

$        534,283 $             603,020 $               355,961 $            169,844 $             236,568 $              705,644 $      259,382,936
           (1,928)              (87,324)                (1,625)                (7,682)           (193,883)              (278,450)         (8,475,613)
               -                     -                    (227)              (77,899)               (3,550)                   -         (76,620,902)
$        532,355 $             515,696 $               354,109 $              84,263 $             39,135 $              427,194 $      174,286,421




                                                                                                          FY 2010 Agency Financial Report 151
Financial Section

REQUIRED SUPPLEMENTARY INFORMATION
(Unaudited)


                                  COMBINING STATEMENT OF BUDGETARY RESOURCES
                                       For the Year Ended September 30, 2009

                                                                      Employment             Employment              Office
                                                                      and Training            Standards               of
(Dollars in thousands)                                               Administration         Administration         Job Corps

BUDGETARY RESOURCES
  Unobligated balance, brought forward, October 1                $        1,582,993     $        1,981,758     $        535,878
  Recoveries of prior year unpaid obligations                               151,234                 17,170               25,095
  Budget authority
    Appropriations received                                             154,078,690              9,473,825            1,851,962
    Borrowing authority                                                   7,950,000              6,495,717                   -
    Spending authority from offsetting collections
      Earned
         Collected                                                           47,728              1,585,050                8,435
         Change in receivables from Federal sources                             387                      (1)                 -
      Change in unfilled customer orders
         Advance received                                                        -                 (52,706)                  -
      Expenditure transfers from trust funds                              5,002,885                 34,409                   -
  Total budget authority                                                167,079,690             17,536,294            1,860,397
  Nonexpenditure transfers, net                                            (109,057)                16,064               96,530
  Temporarily not available pursuant to Public Law                               -                 (35,130)                  -
  Permanently not available
    Redemption of debt                                                           -             (10,483,557)                  -
    All other                                                              (616,062)              (436,890)              (5,740)
Total budgetary resources                                        $      168,088,798 $            8,595,709 $          2,512,160
STATUS OF BUDGETARY RESOURCES
  Obligations incurred
    Direct                                                       $      165,772,186     $        4,845,083     $      1,754,939
    Reimbursable                                                             27,930              2,793,010                  593
  Total obligations incurred                                            165,800,116              7,638,093            1,755,532
  Unobligated balances available
    Apportioned                                                           1,779,084                642,118              745,105
    Exempt from apportionment                                                    -                 301,542                   -
  Total unobligated balances available                                    1,779,084                943,660              745,105
  Unobligated balances not available                                        509,598                 13,956               11,523
Total status of budgetary resources                              $      168,088,798     $        8,595,709     $      2,512,160
CHANGE IN OBLIGATED BALANCE
  Obligated balance, net
    Unpaid obligations, brought forward, October 1               $        8,154,190     $          291,054     $        256,014
    Less uncollected customer payments from Federal sources,
     brought forward, October 1                                           (1,176,445)                  (183)                  -
  Total unpaid obligated balance, net                                      6,977,745                290,871             256,014
  Obligations incurred, net                                             165,800,116               7,638,093           1,755,532
  Less gross outlays                                                   (156,949,874)             (7,642,138)         (1,614,768)
  Other                                                                     (128,496)                    -              128,496
  Less recoveries of prior year unpaid obligations, actual                  (151,234)               (17,170)             (25,095)
  Change in uncollected customer payments from Federal sources            (1,107,686)                      1                  -
  Obligated balance, net, end of period
    Unpaid obligations                                                   16,724,702                269,839              500,179
    Less uncollected customer payments from Federal sources               (2,284,131)                 (182)                  -
  Total unpaid obligated balance, net, end of period             $       14,440,571 $              269,657 $            500,179
NET OUTLAYS
    Gross outlays                                                $      156,949,874 $             7,642,138 $         1,614,768
    Less offsetting collections                                            (3,943,314)           (1,566,752)             (8,435)
    Less distributed offsetting receipts                                 (18,096,067)            (6,502,766)               (350)
    Net outlays                                                  $      134,910,493 $              (427,380) $        1,605,983




152   United States Department of Labor
                                                                                                                         Annual Financial Statements

                                                                                                    REQUIRED SUPPLEMENTARY INFORMATION
                                                                                                                              (Unaudited)




  Occupational            Bureau of              Mine Safety        Employee Benefits         Veterans'                Other
Safety and Health           Labor                and Health             Security             Employment             Departmental
 Administration           Statistics            Administration       Administration          and Training            Programs               Total


$         14,009      $           9,431     $             1,466     $          3,000     $            3,779     $           25,114     $      4,157,428
          10,854                  6,366                   2,209                1,794                  5,067                 42,280              262,069

         513,042               518,918                 347,003               143,419                 26,330               510,517          167,463,706
              -                     -                       -                     -                      -                     -            14,445,717


           2,004                  8,434                   1,518               13,170                    141               194,474             1,860,954
              -                      -                       -                    -                      -                  4,750                 5,136

              -                     -                        -                    -                     -                   29,575              (23,131)
              -                 77,406                       -                    -                202,469                  31,161           5,348,330
         515,046               604,758                 348,521               156,589               228,940                770,477          189,100,712
           5,945                  (537)                     (30)               5,552                    -                  (16,170)               (1,703)
              -                     -                        -                    -                     -                       -               (35,130)

               -                     -                      -                      -                    -                       -          (10,483,557)
           (8,109)               (1,222)                  (149)                (1,919)                (630)                 (9,738)         (1,080,459)
$        537,745 $             618,796 $               352,017 $             165,016 $             237,156 $              811,963 $        181,919,360



$        520,698      $        601,599      $          348,465      $        146,590     $         232,001      $         498,129      $   174,719,690
           1,235                 8,580                   1,241                12,534                    -                 229,912            3,075,035
         521,933               610,179                 349,706               159,124               232,001                728,041          177,794,725

           2,909                    -                       69                 3,953                    -                  59,395            3,232,633
              -                     -                       -                     -                     -                      91              301,633
           2,909                    -                       69                 3,953                    -                  59,486            3,534,266
          12,903                 8,617                   2,242                 1,939                 5,155                 24,436              590,369
$        537,745      $        618,796      $          352,017      $        165,016     $         237,156      $         811,963      $   181,919,360


$         86,938      $          73,947     $            34,378     $         50,627     $           61,596     $         354,455      $      9,363,199

            (8,113)                   -                       -                    -                      -                   1,390          (1,183,351)
           78,825                73,947                  34,378               50,627                 61,596                355,845            8,179,848
         521,933                610,179                 349,706              159,124                232,001                728,041          177,794,725
        (506,538)              (575,458)               (349,277)            (161,684)              (221,765)              (657,418)        (168,678,920)
                -                     -                       -                    -                      -                      -                   -
          (10,854)                (6,366)                 (2,209)              (1,794)                (5,067)               (42,280)           (262,069)
                -                     -                       -                    -                      -                 (40,739)         (1,148,424)

          91,479               102,302                   32,598               46,273                 66,765               382,798           18,216,935
           (8,113)                  -                        -                    -                      -                 (39,349)         (2,331,775)
$         83,366 $             102,302      $            32,598     $         46,273     $           66,765     $         343,449 $         15,885,160

$        506,538 $             575,458 $               349,277 $             161,684 $              221,765 $              657,418 $       168,678,920
           (2,004)              (85,840)                 (1,518)             (13,170)              (202,610)              (255,210)          (6,078,853)
               -                     -                       (73)            (25,036)                    -                   (1,141)        (24,625,433)
$        504,534 $             489,618 $               347,686 $             123,478 $               19,155 $              401,067 $       137,974,634




                                                                                                              FY 2010 Agency Financial Report 153
Other Accompanying Information
                                                                                           Top Management Challenges
                                                                                                        (Unaudited)

                                     Top Management Challenges

The Top Management Challenges identified by the Office of the Inspector General (OIG) for the Department of
Labor (DOL) are discussed below.

              2010 Top Management Challenges Facing the Department of Labor

For 2010, the OIG considers the following as the most serious management and performance challenges facing the
Department:

•       Achieving the Goals and Protecting the Investment Provided by the American Recovery and Reinvestment
        Act
•       Protecting the Safety and Health of Workers
•       Improving Performance Accountability of Workforce Investment Act Grants
•       Ensuring the Effectiveness of the Job Corps Program
•       Safeguarding Unemployment Insurance
•       Improving the Management of Workers’ Compensation Programs
•       Maintaining the Integrity of Foreign Labor Certification Programs
•       Securing Information Technology Systems and Protecting Related Information Assets
•       Ensuring the Security of Employee Benefit Plan Assets
•       Ensuring DOL’s New Core Financial Management System Produces Reliable, Accurate, and Timely Financial
        Information

For each challenge, the OIG presents the challenge, the OIG’s assessment of the Department’s progress in
addressing the challenge, and what remains to be done. These top management challenges are intended to
identify and help resolve serious weaknesses in areas that involve substantial resources and provide critical services
to the public. The data and information contained in the Top Management Challenges report is as of November 15,
2010.



CHALLENGE: Achieving the Goals and Protecting the Investment Provided by the
American Recovery and Reinvestment Act

OVERVIEW:
The American Recovery and Reinvestment Act (Recovery Act) was enacted on February 17, 2009, to create new jobs
and save existing ones, spur economic activity, invest in long-term growth, and foster accountability and
transparency in government spending. As of August 19, 2010, the Department received nearly $71 billion in
Recovery Act funds. DOL has three key roles in the Recovery Act effort: providing worker training for these jobs,
easing the burden of the recession on workers and employers by providing for extensions and expansions of
unemployment benefits, and assisting and educating unemployed workers regarding expanded access to continued
health benefits. The Employment and Training Administration (ETA) is responsible for virtually all of the Recovery
Act funds provided to the Department. The mission of ETA is to contribute to the more efficient functioning of the
U.S. labor market by providing high-quality job training, employment, labor market information, and
unemployment insurance services primarily through state and local workforce development systems.

CHALLENGE FOR THE DEPARTMENT:
Ensuring program effectiveness and meeting Recovery Act requirements to stimulate the economy is a significant
challenge for the Department. However, in several DOL programs, large amounts of Recovery Act funds remain

                                                                                  FY 2010 Agency Financial Report 157
Other Accompanying Information
(Unaudited)
unspent. We reviewed DOL Recovery Act programs on the Health Care Tax Credit (HCTC), Unemployment
Insurance (UI) Modernization, and Job Corps Leasing, and we identified large amounts of unspent Recovery Act
funds and questionable expenditures of other such funds. Our March 2010 audit of the HCTC National Emergency
Grants found that just $8 million of the $150 million designated for the program had been awarded to states since
the Recovery Act was signed into law on February 17, 2009. Similarly, as part of our September 2010 audit of UI
modernization grants, nine states indicated in response to an OIG survey that they were unlikely to apply for $1.3
billion of UI modernization benefits.

Conversely, the need to spend funds quickly to meet Recovery Act requirements can lead to awards that may not
be in the government’s best interest. For example, Job Corps’ largest single expenditure of Recovery Act funds was
a 20-year lease totaling $82 million with the YWCA of Greater Los Angeles, Inc. for the construction of a new facility
to house the Los Angeles Job Corps Center. Job Corps also agreed to pay 60% of fair market value at the end of the
lease term if it opts to purchase the facility. The Recovery Act included provisions that specifically allowed Job
Corps to use the multi-year lease option and advance payments to lease real property as long as construction began
within 120 days of the Recovery Act’s enactment. To meet the 120-day requirement of the Act, OASAM issued a
Request for Proposals that closed on April 2, 2009, and required construction to begin on or before June 16, 2009.
This timetable gave the potential awardee less than 3 months to begin construction. Job Corps only received one
proposal, which was from the existing center operator. While Job Corps did negotiate the proposed cost of the
multi-year lease down from $105 million to $82 million, it did not perform a cost benefit analysis, claiming it was
not required to do so. Through our analysis, we estimate that Government construction of the facility may have
cost $31 million less than the $82 million multi-year lease. As a result, Job Corps may have lost the opportunity to
put at least $31 million of Recovery Act funds to better use.

DEPARTMENT’S PROGRESS:
In last year’s top management challenges, the OIG stated that ETA would be challenged to demonstrate that
Recovery Act grants were properly awarded. Our audit work over the past year found that ETA has announced,
evaluated, and issued Recovery Act grants in accordance with relevant criteria. Also, monitoring guidelines and
procedures were comprehensive, and grant agreements informed grantees of their responsibilities for Recovery Act
reporting. However, funds provided by the Act for monitoring Recovery Act grants have expired as of September
30, 2010, which impacts ETA’s ability to execute its Recovery Act grantee monitoring and oversight responsibilities
and may increase the risk that a portion of the $717 million in Recovery Act grant funds may not be spent for their
intended purposes. ETA has asked for funding to support an increase in grant monitoring staff as part of its FY 2011
budget request.

Regarding unused Recovery Act funds, Congress has rescinded $110 million of the $150 million appropriated for
HCTC National Emergency Grants. According to ETA, approximately $14 million of the original $150 million has been
obligated, leaving about $26 million available for future grants.

WHAT REMAINS TO BE DONE:
ETA needs to continue its efforts to identify and prioritize workloads and funding levels to ensure Recovery Act
grants are adequately monitored, grant funds are spent properly, and grants achieve their intended purpose. Over
the next two years, the OIG will focus its Recovery Act audit efforts on assessing how grantees and contractors
performed and what was accomplished with Recovery Act funding.

ETA also needs to consider whether unused Recovery Act funds should and could be put to better use. For the
remaining $26 million available for HCTC National Emergency Grants, ETA should obtain estimates of the amount of
HCTC National Emergency Grant funds needed by each state, an action ETA believes would be more prudent to
pursue after January 1, 2011, when the status of the Trade Adjustment Assistance program (which is pending
reauthorization) is clearer.



158 United States Department of Labor
                                                                                         Top Management Challenges
                                                                                                      (Unaudited)
Regarding the lease with YWCA, management objected to the audit report’s estimate of potential savings that
might have accrued from a direct land or building purchase as speculative, given that no other offeror came
forward to offer a suitable building or parcel of land. Management also stated that a cost benefit analysis was not
required because OMB waived certain budgetary reporting of the lease. We did not concur that this relieved the
Department of conducting a sound cost/benefit analysis. ETA needs to work with contracting officials in OASAM to
demonstrate that the multi-year lease with the YWCA to acquire a new facility at the LAJCC was the least expensive
option to the Government, and if appropriate, renegotiate the multi-year lease agreement.



CHALLENGE: Protecting the Safety and Health of Workers

OVERVIEW:
The Department administers the Occupational Safety and Health Act of 1970 (OSH Act) and the Federal Mine Safety
and Health Act of 1977 (Mine Act), as amended by the Mine Improvement and New Emergency Response Act of
2006. DOL’s effective enforcement of these laws is critical toward ensuring the workplace safety of our nation’s
workers.

The two DOL agencies primarily responsible for enforcing these laws are the Occupational Safety and Health
Administration (OSHA) and the Mine Safety and Health Administration (MSHA). OSHA is responsible for ensuring
safe and healthful working conditions for 130 million workers at more than seven million establishments. MSHA is
responsible for the safety and health of more than 350,000 miners who work at more than 14,500 mines.

CHALLENGE FOR THE DEPARTMENT:
Enforcement plays an important part in OSHA’s efforts to reduce workplace injuries, illnesses, and fatalities. With
4,340 fatal workplace injuries reported by the Bureau of Labor Statistics in 2009, OSHA’s challenges are how to best
target its resources and how to measure the impact of its efforts. OSHA carries out its enforcement responsibilities
through a combination of directed and complaint investigations, but can reach only a fraction of the seven million
entities it regulates. Consequently, OSHA must strive to target the most egregious and persistent violators while
protecting the most vulnerable worker populations. OSHA must also evaluate the success of its enforcement
strategies. For example, when unsafe conditions are identified, OSHA inspectors issue citations with penalties.
While the OSH Act requires OSHA to consider certain factors, such as the size of the company in finalizing penalty
amounts, specific reductions are not mandated. OSHA policies establish reductions as an incentive to abate
violations voluntarily. However, a recent OIG audit found that OSHA has not effectively evaluated the impact of
hundreds of millions of dollars in penalty reductions as incentives to reducing workplace hazards.

Regarding MSHA, the OIG’s reviews over the past several years revealed a pattern of weak oversight, inadequate
policies, and a lack of accountability on the part of MSHA, which were exacerbated by years of resource shortages.
MSHA’s challenge involves effectively managing existing resources and utilizing existing authorities to maximize its
enforcement efforts while fulfilling other important duties.

Historically, MSHA’s resource shortage negatively impacted its ability to meet statutory requirements to conduct
inspections at the nation’s coal mines. In recent years, after Congress allocated supplemental funding to MSHA to
hire additional mine inspectors, MSHA has emphasized completing 100% of its mandatory mine inspections.
However, this has resulted in backlogs in other areas, such as the review of mine plans.

Recruiting and maintaining a properly trained cadre of mine inspectors is also a challenge for MSHA. A recent OIG
audit found that journeyman MSHA inspectors were not being provided required periodic training. In addition,
retirements and other attritions make maintaining a sufficient number of trained mine inspectors an ongoing
challenge. By 2014, 41% of MSHA’s enforcement personnel will be eligible to retire, and 25% are estimated to do


                                                                                 FY 2010 Agency Financial Report 159
Other Accompanying Information
(Unaudited)
so. Consequently, MSHA must recruit and train the right personnel, as well as enough of them, to accomplish all of
its critical statutory responsibilities.

MSHA has also struggled to consistently and proactively utilize its authority to identify mine operators with the
worst compliance records. In 1977, with the passage of the Mine Act, MSHA was given the authority to take
enhanced enforcement actions when a mine operator demonstrates recurring safety violations. This Pattern of
Violations (POV) authority is an important tool for MSHA’s enforcement activities; however, a recent OIG audit
found that MSHA had not successfully used its POV authority in 32 years. Another challenge for MSHA’s
enforcement activities is the large volume of citations contested by mine operators and the resulting backlog of
cases currently before the Federal Mine Safety and Health Review Commission.

Lastly, studies show that the incidence of Black Lung disease is rising and the disease is being found in younger
miners. MSHA faces a challenge to reverse this trend through measures to reduce coal dust exposure.

DEPARTMENT’S PROGRESS:
OSHA has established a new program, the Severe Violator Enforcement Program (SVEP), which is designed to
concentrate resources on inspecting employers who repeatedly violate the OSH Act. SVEP includes a requirement
for mandatory follow-up inspections. As an example, for follow-up inspections of construction companies, which
frequently move from location to location, SVEP requires that at least one other worksite of the cited employer be
inspected if the initial worksite is closed. The Department has also introduced a new approach to measuring the
performance of worker protection agencies. Central to this new approach is establishing regular processes for
evaluating the success of enforcement strategies in helping to achieve desired outcomes.

MSHA continues to identify and hire mine inspector candidates within authorized personnel levels, and began
examining and implementing faster, more efficient methods of delivering training using online technologies.
Temporary resource reallocations and procedural changes have reduced the number of overdue mine plan reviews
by two-thirds since 2008. MSHA indicates it has continued to work with the Federal Mine Safety and Health
Commission to identify ways to reduce the backlog of challenged citations. Enacted in July 2010, the Supplemental
Appropriations Act, 2010 (Public Law 111-212) provided an appropriation of $18.2 million to the Department of
Labor for the purpose of reducing existing case backlog before the Commission, and for other purposes. Of that
amount, the Department has transferred $4.451 million to MSHA for backlog reduction project expenses. MSHA
continues to revamp the process and criteria for identifying mines with POV. In addition, MSHA is working with
Congress to receive additional enforcement authorities through legislative changes. Through its “End Black Lung –
Act NOW” initiative, MSHA has conducted public informational events, produced and distributed new educational
materials, and co-sponsored one-day workshops with National Institute for Occupational Safety and Health
(NIOSH). MSHA’s rulemaking agenda includes work on a final rule regarding personal coal dust monitors and
possible adjustments to coal dust exposure levels.

WHAT REMAINS TO BE DONE:
OSHA needs to monitor and evaluate the SVEP to ensure the program is being implemented as intended and is
resulting in the identification and abatement of hazards having the desired results. As part of the Department’s new
approach to measuring the success of enforcement strategies, OSHA needs to evaluate the impact of penalty
reductions on comprehensive improvements to workplace safety and health. OSHA also needs to implement its
planned new information system, replacing its current 35-year-old system, which is subject to errors that hamper
OSHA’s enforcement efforts. In addition, adjustments to the new information system will likely be needed over the
next several years to respond to program changes.

MSHA must formalize the policy and procedural changes of recent years by updating its operational handbooks,
implement a human capital strategy that will continue to address expected enforcement personnel losses during
the next five years, find ways to further reduce the number of overdue mine plan reviews, reduce the impact of any
backlog of challenged citations on the effectiveness of its enforcement program, simplify and make more

160 United States Department of Labor
                                                                                             Top Management Challenges
                                                                                                          (Unaudited)
transparent its process and criteria for placing mines on POV status, and monitor and measure efforts to reduce the
rise in Black Lung cases.

CHALLENGE: Improving Performance Accountability of Workforce Investment Act Grants

OVERVIEW:
In FY 2009, ETA reported program costs totaling $3.4 billion for the Workforce Investment Act (WIA) Adult,
Dislocated Worker, and Youth programs. WIA adult employment and training programs are provided through
financial assistance grants to States and territories to design and operate programs for disadvantaged persons,
including public assistance recipients. ETA also awards grants to States to provide reemployment services and
retraining assistance to individuals dislocated from their employment. Youth programs are funded through grant
awards that support program activities and services to prepare low-income youth for academic and employment
success, including summer jobs.

CHALLENGE FOR THE DEPARTMENT:
Successfully meeting the employment and training needs of citizens requires selecting the best service providers,
making expectations clear to grantees, ensuring that success can be measured, providing active oversight, and
disseminating and replicating proven strategies and programs. DOL is challenged to ensure the grants it awards
accomplish program objectives. For example, SWAs are required under WIA to conduct evaluations of their Title IB
workforce investment activities (Adult, Dislocated Worker, and Youth programs). A recent OIG audit found that not
all SWAs conduct these evaluations, and those who do conduct them, do not always report the identified best
practices in their respective WIA Annual Reports to ETA. ETA also did not have a process for analyzing and sharing
the results with other SWAs and stakeholders. Without a mechanism for capturing, analyzing, and sharing the
evaluations, SWAs and other grantees are missing opportunities to know and learn from other programs which may
lead to significant improvements in their own operations.

ETA may face challenges in providing adequate oversight and monitoring for some of the grants it awards. Funds
provided by the Recovery Act to ETA and used to monitor discretionary grants expired on September 30, 2010. The
reduction in staff resources and funding for travel costs will impact ETA’s ability to fully execute its grant monitoring
and oversight functions. ETA is also still working to improve the quality of WIA performance data reported by
states. Reliable and timely performance data are needed to allow ETA to identify performance problems in time to
correct them.

DEPARTMENT’S PROGRESS:
ETA has commissioned independent evaluations of demonstrations and initiatives. In response to an OIG audit, ETA
issued policy guidance in September 2010, which clarifies the information states should submit regarding
evaluation studies of WIA activities.

With respect to grant monitoring, ETA has requested funding for 48 additional Recovery Act monitoring positions in
the FY 2011 budget. In the meantime, it plans to assign the Recovery Act workload to a combination of both
Recovery Act-funded and permanent Federal Project Officers. ETA has developed a Workforce Analysis report for
each Regional Office on how the Recovery Act grants will be absorbed into ongoing operations. ETA also indicated
it has used its remaining Recovery Act administrative funds to secure contract support for administrative tasks
related to grants management. ETA stated this will free up permanent staff time for grants monitoring.

WHAT REMAINS TO BE DONE:
ETA needs to develop a process to analyze evaluation results so that it can improve delivery of services nationally
and be a proactive clearinghouse to the SWAs for best practices. ETA has indicated it will: 1) develop guidelines for
Regional Office staff to initially review SWA evaluations to determine which ones to pass on to its national office for
final review; 2) share best practices, tools, and replicable models identified through state evaluations based on

                                                                                    FY 2010 Agency Financial Report 161
Other Accompanying Information
(Unaudited)
rigorous research practices through its online technical assistance platform (www.Workforce3 One.org); and 3)
explore opportunities, depending on funding availability, to improve the functionality of the Workforce3 One.org
website. ETA also needs to complete the Data Validation component of its Core Monitoring Guide, provide training
to ensure that its Regional Administrators and Federal Project Officers understand how to use the new component,
and ensure data validation reviews are being done as part of regional monitoring in FY 2011.



CHALLENGE: Ensuring the Effectiveness of the Job Corps Program

OVERVIEW:
Education, training, and support services are provided to approximately 60,000 students at 124 Job Corps centers
located throughout the United States and Puerto Rico. Job Corps centers are operated for DOL by private
contractors, and by other Federal Agencies through interagency agreements. The program was appropriated nearly
$1.7 billion in FY 2010.

CHALLENGE FOR THE DEPARTMENT:
Placement and Recruitment Outcomes – Job Corps has been challenged to meet its placement and recruitment
goals over the past several years. The number of Job Corps graduates placed in jobs, continuing their education,
and/or entering the military has declined from 91% for the year ended June 30, 2005, to 76% for the year ended
June 30, 2010. In addition, in June 2009, Government Accountability Office (GAO) reported that Job Corps achieved
between 95 and 98% of the planned enrollment for male residential students during program years 2005 through
2007, but about 80% or less of the planned enrollment for female residential students. GAO recommended that Job
Corps modify its recruiting methods and offer more career training that is both attractive to females and leads to
careers that will enable them to become self sufficient.

Safety and Health Issues – Ensuring the quality of life at centers, including healthy living conditions and the sense of
safety, is a continuing challenge for Job Corps. OIG audits continued to identify unsafe or unhealthy conditions and
the lack of required safety inspections at some centers. We also found that some centers did not hold required
behavior review board meetings to evaluate student misconduct and initiate disciplinary action; and underreported
significant incidents occurring at the centers.

Performance and Financial Reporting – Ensuring the integrity of performance and financial data reported by center
operators is a challenge for Job Corps. OIG audits have found that weak controls at centers have resulted in the
overstatement of performance results, as well as unallowable costs charged to Job Corps. This is a particular
challenge for Job Corps as most centers are operated by contractors through performance-based contracts with
incentive fees and bonuses that are tied directly to contractor performance. Under such contracts, there is a risk
that contractors will overstate performance results. Regarding financial activity, examples of problems identified by
OIG audits include questioned costs of $1.8 million related to a contractor’s indirect costs, and $65,553 that
another contractor charged for the Center Director’s personal housing and travel expenses.

DEPARTMENT’S PROGRESS:
In FY 2010, Job Corps stated it developed new female-oriented marketing and recruitment materials and increased
its career technical training offerings to attract females, including high-growth industries such as health care and
green jobs. Job Corps also created and distributed new materials and DVDs to assist with recruitment efforts.

Job Corps stated it has published several Information Notices and Program Instructions on safety issues, sent
quarterly memoranda to the Regional Directors regarding major hazards identified during centers’ quarterly
inspections, and provided technical assistance in response to inquiries about center abatement action plans. Job
Corps also reported that centers continued to provide training and support to students on issues such as conflict


162 United States Department of Labor
                                                                                          Top Management Challenges
                                                                                                       (Unaudited)
resolution, abuse, and student leadership. Job Corps is in the process of clarifying its behavior management
policies.

Job Corps stated that it added “Improving Data Integrity” to Regional Directors’ performance standards, and
conducted data integrity audits concurrently with onsite compliance/quality assessments.

WHAT REMAINS TO BE DONE:
Job Corps needs to evaluate the drop in graduate placements and identify strategies to reverse this trend. Job Corps
stated it is closely examining ways to improve the graduate placement rate but noted that the economic climate is a
factor in employment results. Job Corps also needs to evaluate the success of its newly developed training
programs and its efforts to attract female students, and make adjustments where needed. In addition, Job Corps
needs to take actions to ensure centers provide a safe and conducive learning environment while supporting
student success and program retention. Finally, Job Corps needs to provide proactive, consistent, and rigorous
oversight of contractors at all centers.



CHALLENGE: Safeguarding Unemployment Insurance

OVERVIEW:
ETA partners with the states to administer unemployment benefit programs. State UI provides benefits to workers
who are unemployed and meet the eligibility requirements established by their respective states. UI benefits are
largely financed through employer taxes imposed by the states and deposited in the Unemployment Trust Fund
(UTF) from which the states pay the benefits. The states administer these programs under an agreement with DOL
in accordance with their state laws and regulations. ETA funds SWAs who administer the UI program through grant
agreements. These grant agreements are intended to ensure that SWAs efficiently administer the UI program and
comply with Federal laws and regulations. In addition, the SWAs are required to have disaster contingency plans in
place to enable them to administer benefits in the aftermath of a disaster.

CHALLENGE FOR THE DEPARTMENT:
The current economic downturn has made controlling overpayments more difficult, as the number of claims filed
has greatly increased and new programs had to be implemented quickly, which ETA stated caused states to shift
resources from detecting improper payments to processing claims. For the 2010 Improper Payment and
Information Act (IPIA) reporting period (July 2009 to June 2010), ETA reported a total overpayment rate of 10.59%,
which equates to more than $15.2 billion in UI overpayments – an increase from the $11.4 billion reported for the
2009 IPIA period. ETA estimates that about $3.4 billion of these overpayments are attributable to fraud – an
increase of $600 million from the $2.8 billion reported in FY 2009. OIG investigations continue to uncover UI fraud
committed by individuals, as well as identity theft schemes designed to illegally obtain UI benefits. OIG’s review of
ETA’s compliance with Executive Order 13520 and its required Report on UI Improper Payments identified
improvements needed to measure and to mitigate UI improper payments.

ETA is also challenged to ensure that SWAs have adequate information technology (IT) contingency plans in place
that provide for the continuation of services in the aftermath of disasters. Our prior audit found that ETA had not
ensured that SWA partners had established and maintained adequate IT contingency plans. Specifically, 50 out of
51 plans lacked critical elements needed to ensure the continued availability of the UI systems.

DEPARTMENT’S PROGRESS:
In March 2010, the Department implemented the State Information Data Exchange System (SIDES), which enables
communication and transmission of UI separation information requests from UI agencies to multi-state employers
and third-party administrators. In May 2010, the Unemployment Compensation Program Integrity Act draft


                                                                                 FY 2010 Agency Financial Report 163
Other Accompanying Information
(Unaudited)
legislation was delivered to Congress, and if enacted, the legislation would permit states to use up to 5% of
recovered unemployment compensation overpayments to deter and detect benefit overpayments. The legislation
would also give employers incentive to provide timely, accurate, and complete information about why their former
employees no longer work for them – information critical for states to determine eligibility. In addition, three more
SWAs began using the National Directory of New Hires (NDNH) to identify persons who continued to collect UI
payments after obtaining employment. ETA also agreed to conduct annual verification of SWAs’ IT contingency
plans to verify both plan existence and reliability. ETA stated they provided funding to assist states to develop or
update UI IT contingency plans. Thirty-one states were provided funding totaling more than $4 million for this
initiative.

WHAT REMAINS TO BE DONE:
ETA can further improve its oversight of the states’ detection and prevention of UI, extended benefits, and Disaster
Unemployment Assistance overpayments by fully implementing SIDES; increasing the frequency of SWA on-site
reviews; and ensuring that California implements NDNH (California is the only state not to have done so, and it
alone represents 13% of the UI overpayments nationally). ETA stated that California will implement NDNH by
September 2011. ETA is continuing to pursue legislation to define the “Date of Hire” and mandate its reporting by
employers; and continuing to promote States’ use of a variety of other databases (e.g., Social Security, Department
of Corrections) to prevent and detect improper UI benefit payments. ETA also needs to provide additional, more
detailed information on its efforts to reduce improper payments in its next Report on UI Improper Payments.
Finally, in FY 2011, ETA needs to continue working with the states on their development of well-documented IT
contingency plans.



CHALLENGE: Improving the Management of Workers’ Compensation Programs

OVERVIEW:
The Department has responsibility for managing the Energy Employees Occupational Illness Compensation Act
Program (Energy workers’ program) and the Federal Employees’ Compensation Act (FECA) Program. Both of these
programs are within DOL’s Office of Workers’ Compensation Programs (OWCP).

The Energy workers’ program was created to provide monetary compensation and/or medical benefits to civilian
employees who incurred an occupational illness, such as cancer, as a result of their exposure to radiation or other
toxic substances while employed in the nuclear weapons and testing programs of the U.S. Department of Energy
and its predecessor agencies. In certain circumstances, these employees’ survivors may be eligible for
compensation. Since the program began in 2001 and through August 26, 2010, DOL reports it has paid more than
$6 billion in compensation and medical benefits to more than 61,400 claimants nationwide.

The FECA provides wage-loss compensation and pays medical expenses for covered Federal civilian and certain
other employees who incur work-related occupational injuries or illnesses as well as survivors benefits for a
covered employee’s employment-related death. This program is administered by the Department, impacting all
Federal agencies’ budgets and employees. In FY 2010, Federal employees filed 127,526 new injury claims and
19,861 claims for loss compensation. FECA benefit expenditures totaled nearly $2.8 billion for wage-loss
compensation and medical treatment to more than 250,000 beneficiaries in FY 2010. Most of these costs were
charged back to individual agencies for reimbursement to OWCP’s Federal Employees’ Compensation Fund.




164 United States Department of Labor
                                                                                           Top Management Challenges
                                                                                                        (Unaudited)
CHALLENGE FOR THE DEPARTMENT:
The overall challenge for the Energy workers’ program centers on the timeliness of its claim decisions. For the FECA
program, minimizing improper payments and fraud continues to be its primary challenge. FECA fraud opportunities
continue to exist, and certain ones are made more likely by FECA’s inability to match FECA compensation recipients
against social security wage records.

The Energy Workers Compensation program, though administered by the DOL, requires the pre-adjudication input,
assistance, and determinations of three other major Federal agencies and a Federal advisory board. Complex
regulatory requirements and the difficulty of locating employment and other records, as well as the inability of sick,
often aging, claimants to fully understand their rights and responsibilities, contribute to the lengthy decision
process. Furthermore, the NIOSH must prepare a complicated and time consuming dose reconstruction of the
amount of radiation to which an employee with cancer was exposed. The Department has no regulatory authority
to control the completion time of the NIOSH process.

The FECA program must ensure it makes proper payments, while also being responsive and timely to eligible
claimants. The challenges facing the FECA program include moving claimants off the periodic rolls when they can
return to work or their eligibility ceases, preventing ineligible recipients from receiving benefits, and preventing
fraud by service providers and by individuals who receive FECA benefits while working. The OIG recognizes that it is
difficult to identify and address improper payments and/or fraud in the FECA program, and we have previously
reported OWCP does not have the legal authority to match FECA compensation recipients against Social Security
wage records. Currently, OWCP must obtain written permission each time from each individual claimant in order to
check records. Having direct authority to perform the match would enable OWCP to identify individuals who are
collecting FECA benefits while working and collecting wages.

DEPARTMENT’S PROGRESS:
The Division of Energy Employees Occupational Illness Compensation indicates it has implemented new procedures
to reduce the time it takes to develop impairment claims and it is revamping its procedural guidance. In addition,
the Department has set up procedures to measure its timeliness of performance starting from the point of
application to the final decision and payment. Furthermore, DOL now publishes graphs on its Web site that show
processing times for various types of cases, including those sent to NIOSH for completion of a dose reconstruction.
DOL has sponsored town hall meetings to inform workers and their survivors about available program benefits, and
its Traveling Resource Center goes out monthly to assist individuals with the filing of their claims. DEEOIC continues
to work with pre-decisional components to streamline and improve the issuance of final decisions.

The Department completed the rollout of its FECA benefit payment system, the Integrated Federal Employee
Compensation System. This system is designed to track due dates of medical evaluations, revalidate eligibility for
continued benefits, use data mining to prevent improper payments, boost efficiency, and improve customer
satisfaction. The Department has sought legislative authority to allow it access to Social Security Administration
wage records. In addition, the OIG continued to provide training to DOL and to other Federal agencies in the
detection and prevention of fraud against the FECA program.

WHAT REMAINS TO BE DONE:
The Department needs to continue its efforts to further reduce case processing times. While average processing
times in the Energy Workers program have improved over the past several years, it still takes more than 18 months
to reach a final decision on a Part B case. Part B covers current or former workers who have been diagnosed with
cancers, beryllium disease, or silicosis, and whose illness was caused by exposure to radiation, beryllium, or silica.

In addition to the need for access to SSA wage records, the Department needs to continue to seek legislative
reforms to the FECA program to enhance incentives for employees who have recovered to return to work, address
retirement equity issues, discourage unsubstantiated or otherwise unnecessary claims, and make other benefit and


                                                                                  FY 2010 Agency Financial Report 165
Other Accompanying Information
(Unaudited)
administrative improvements. Through the enactment of these proposals, the Department estimates savings to the
government over 10 years to be $437 million.



CHALLENGE: Maintaining the Integrity of Foreign Labor Certification Programs

OVERVIEW:
The Department’s Foreign Labor Certification (FLC) programs are administered by the ETA. These programs are
intended to provide U.S. employers access to foreign labor to meet worker shortages under terms and conditions
that do not adversely affect U.S. workers. The permanent labor certification program allows an employer to hire a
foreign worker to work permanently in the United States, if a qualified U.S. worker is unavailable and the
employment of the foreign worker will not adversely affect the wages and working conditions of similarly employed
U.S. workers. The H-1B program allows the Department to certify employers’ applications to hire temporary foreign
workers in specialty occupations such as medicine, biotechnology, and business. The H-2B program permits
employers to hire foreign workers to come temporarily to the United States and perform temporary non-
agricultural labor on a one-time, seasonal, peak load, or intermittent basis. To obtain certification, employers must
show that there are insufficient qualified U. S. workers available and willing to perform the work at the prevailing
wage paid for the occupation. In addition, employers are required to pay any foreign worker the wage rate that
prevails in the area of employment for the occupation and to comply with all laws governing such employment.

CHALLENGE FOR THE DEPARTMENT:
ETA is challenged in ensuring the integrity of the FLC programs it administers. OIG investigations (initiated on
referrals from ETA and other law and non-law enforcement entities, as well as pro-active OIG efforts) continue to
uncover schemes carried out by immigration attorneys, labor brokers, and transnational organized crime groups,
some with possible national security implications. OIG investigations have repeatedly revealed schemes involving
fraudulent applications filed with DOL on behalf of fictitious companies, and those wherein fraudulent applications
were filed using the names of legitimate companies without the companies’ knowledge. Additionally, OIG
investigations have uncovered complex schemes involving fraudulent DOL FLC documents filed in conjunction with
or in support of similarly falsified identification documents required by other Federal and state organizations.

Additional challenges ETA faces in maintaining the integrity of its foreign labor certification programs include
statutory limits on its authority in the H-1B program, making system improvements in its H-1B Labor Condition
Application processing system to better identify incomplete and/or obviously inaccurate applications, and
uncertainty regarding the Department’s authority to debar individuals or entities.

DEPARTMENT’S PROGRESS:
ETA’s Office of Foreign Labor Certification (OFLC), Fraud Detection and Prevention Unit, which targets application
fraud by reviewing applications for inconsistencies, errors, and omissions, continues to work closely with the OIG to
identify and reduce fraud in the FLC process.

WHAT REMAINS TO BE DONE:
The Department needs to continue working with OIG to identify and reduce fraud, ensure appropriate training is
provided to OFLC staff, and evaluate the results of its certification processes to assess their effectiveness. The
Department needs to make adjustments to enhance integrity of its iCert H-1B Labor Condition Application
processing system to incorporate missing electronic controls. Additionally, the Department should ensure
debarments are considered, and decisions documented, for anyone convicted of FLC violations, and FLC
debarments are reported to appropriate DOL personnel for inclusion in the government-wide exclusion system. To
this end, ETA needs to work with the Office of the Solicitor to resolve this matter.



166 United States Department of Labor
                                                                                           Top Management Challenges
                                                                                                        (Unaudited)

CHALLENGE: Securing Information Technology Systems and Protecting Related
Information Assets

OVERVIEW:
DOL systems contain vital, sensitive information that is central to the Department’s mission and to the effective
administration of its programs. DOL systems are used to determine and house the Nation’s leading economic
indicators, such as the unemployment rate and the Consumer Price Index. They also maintain critical data related
to worker safety and health, pension, and welfare benefits, job training services, and other worker benefits. The
Congress and the public have voiced concerns over the ability of government agencies to provide effective
information security and to protect critical data. The administration has called upon federal agencies to bring
about greater use of technology to consolidate data center operations, use cloud computing infrastructures and
services, and make use of Web 2.0 technologies, including blogs and social-networking services.

CHALLENGE FOR THE DEPARTMENT:
Overall, management of IT systems is a continuing challenge for DOL. Keeping up with new threats, IT
developments, providing assurances that IT systems will function reliably, and safeguarding information assets will
continue to challenge the Department today and in the future. The administration’s goal of expanding the use of
technology to create and maintain an open and transparent government, while safeguarding systems and
protecting sensitive information, has added to the challenge.

The FY 2010 Federal Information Security Management Act (FISMA) audit identified access controls, inventory of
sensitive IT assets, oversight of third-party systems, and remediation of known vulnerabilities as significant
deficiencies. The OIG has reported on access control weaknesses over the Department’s major information
systems since FY 2001. These weaknesses represent a significant deficiency over access to key systems and may
permit unauthorized users to obtain or alter sensitive information, including unauthorized access to financial
records. Furthermore, the security of sensitive information that can be accessed remotely or stored on mobile
computers/devices is a continuing challenge to the Department and in the Federal government overall.
Management of these areas will likely become more challenging in the future as cloud computing is implemented.
Consolidating data centers and moving mission critical systems to the cloud increases the risk of exposing personal
identifiable information (PII) and unauthorized information exchanges, including critical and sensitive pre-decisional
budget and policy information. While acknowledging the ongoing opportunity to improve controls, management
has expressed its disagreement with these FISMA audit findings, in particular the seriousness of the issues
identified by the OIG.

In light of these challenges, the OIG continues to recommend the creation of an independent Chief Information
Officer (CIO) to provide exclusive oversight of all issues affecting the IT capabilities of the Department. While the
Administration has moved to establish a separate CIO and Chief Technology Officer, DOL continues to manage its IT
systems with a CIO who must balance IT with other important responsibilities, such as serving as the Chief
Acquisition Officer (CAO) and Privacy Officer. The administration has clearly signaled that to be effective in meeting
its objectives and goals going forward, such as implementing an open and transparent government, it will take a
greater level of dedication to IT management and governance than in the past.

DEPARTMENT’S PROGRESS:
The Department is participating on several Federal Councils, Committees and Forums (e.g., Federal Chief
Information Officer Council, Information Security and Identity Management Committee, the Chief Information
Security Officer Forum) to assist in the development and implementation of policies, procedures, and standards
that will address these challenges. In FY 2010, the Department focused its continuous monitoring program on the
implementation of NIST 800-53 Rev 2 minimum security controls and on testing and evaluating access control and
configuration management policies and procedures. Additionally, the Department established a Social Media
Governance Work group that developed a Social Media policy and Handbook.

                                                                                  FY 2010 Agency Financial Report 167
Other Accompanying Information
(Unaudited)
WHAT REMAINS TO BE DONE:
The Department needs to establish an independent CIO to provide exclusive oversight of all issues affecting the IT
capabilities of the Department. DOL management recognizes the challenges associated with protecting the
Department’s information and information systems and is committed to strengthening its security posture. As
such, the Department currently has plans in place to improve upon it’s security controls testing and evaluation
process by performing agency specific customized testing that will focus on the agencies’ high-risk vulnerabilities
and control weaknesses and to pursue a technical solution for logging computer readable data extracts.
Additionally, the Department will continue its current enterprise IT efforts to strengthen DOL’s operating
environment to include: infrastructure optimization, trusted internet connection, logical access control system, and
a DOL risk management and compliance profile program. Social networking technologies will require the
Department to develop new approaches to continuous monitoring of computer usage and providing information
security assurance as the Department and its agencies begin taking advantage of Web 2.0, including blogging, Wiki,
Facebook, MySpace, and Twitter as part of replacing old ways of communicating.



CHALLENGE: Ensuring the Security of Employee Benefit Plan Assets

OVERVIEW:
The mission of the Department’s Employee Benefits Security Administration (EBSA) is to protect the security of
retirement, health, and other private-sector employer-sponsored benefits for America’s workers, retirees, and their
families. EBSA oversees benefit security for an estimated 708,000 private retirement plans, 2.8 million health plans,
and similar numbers of other welfare benefit plans, such as those providing life or disability insurance. Benefits
under EBSA’s jurisdiction consist of approximately $5 trillion in assets covering more than 150 million participants
and beneficiaries. EBSA is charged with overseeing the administration and enforcement of the fiduciary, reporting,
and disclosure provisions of Title I of the Employee Retirement Income Security Act (ERISA).

CHALLENGE FOR THE DEPARTMENT:
Protecting benefits and benefit plan assets generally against fraud, misconduct, and negligence remains an ongoing
challenge for the Department. OIG investigations have shown that benefit plan assets remain vulnerable to labor
racketeering and/or organized crime influence. These pension plans, health plans, and welfare benefit plans
comprise trillions of dollars in assets covering more than 150 million American workers. Dishonest benefit plan
service providers, including accountants, investment advisors, and plan administrators, continue to be a strong
focus of OIG investigations, as well as corrupt union officials and/or organized crime members.

EBSA Has Limited Authority to Oversee Plan Audits – Employee benefit plan audits by independent public
accountants (IPAs) must provide a first-line defense for plan participants against financial loss. Ensuring that audits
by IPAs meet quality standards adds to the Department’s challenge because the Department’s authority to require
plan audits to meet standards remains limited. EBSA does not have the authority to suspend, debar, or levy civil
penalties against employee benefit plan auditors who perform substandard audits. In addition, ERISA allows plan
administrators to exclude investments held by certain regulated institutions, such as banks and insurance
companies, from the scope of a plan audit, resulting in the auditor’s disclaimer of opinion on the financial
statements, which seriously impairs the usefulness of the audit in protecting employee benefit plan assets.

EBSA Lacks Ability to Assess Enforcement Program Effectiveness – EBSA lacks the ability to assess the effectiveness
of its civil enforcement programs. Our audits have found that EBSA could not determine whether its civil
enforcement projects, such as the Multiple Employer Welfare Arrangements project and the Rapid ERISA Action
Team (REACT) project, were increasing compliance with ERISA, or whether the projects were decreasing the risk
that workers will lose benefits. We also found that EBSA could not clearly demonstrate it was directing resources to
the enforcement areas with the most impact on its mission to deter and correct ERISA violations. Each EBSA
regional office differed in its interpretation of its enforcement program impact and desired outcomes. As a result,

168 United States Department of Labor
                                                                                         Top Management Challenges
                                                                                                      (Unaudited)
the allocation of resources differed among the regional offices, and agency resources may not have been directed
at areas with the most impact.

Multiple Challenges Stem from Implementing the Patient Protection and Affordable Care Act (Health Care Reform
Act) –The broad changes required by the Health Care Reform Act will challenge the Department to develop in
excess of thirty new health plan regulations and provide ongoing technical assistance, incorporate new
requirements into employee benefit enforcement programs, institute new statutorily mandated research and
health plan surveys, and broaden assistance and educational programs for employee benefit plan participants and
beneficiaries. These new and extensive health care requirements will pose major challenges for the Department.

DEPARTMENT’S PROGRESS:
The Department has previously sought legislative changes, such as expanding the authority of EBSA to address
substandard benefit plan audits, and ensuring that auditors with poor records are not allowed to continue
performing plan audits; these changes have not been enacted by Congress. In addition, the Department has
unsuccessfully sought recommended legislative changes to either eliminate or modify the limited-scope audit
exception to strengthen the protections afforded plan participants and beneficiaries. EBSA is working on new
approaches to these issues and developing possible legislative language. In an effort to address inadequate
assessments of the effectiveness of its enforcement program, EBSA, as part of the Department’s FY 2011- 2016
Strategic Plan, will be implementing a Sample Investigation Program in 2011, which will review randomly selected
employee benefit plans for compliance with ERISA. EBSA has also published eight interim final regulations under the
Health Care Reform Act, as well as other sub-regulatory guidance documents and model notices.

WHAT REMAINS TO BE DONE:
EBSA needs to continue work to obtain legislative change to address deficient benefit plan audits, to ensure that
auditors with poor records do not perform any additional plan audits, and to repeal the limited scope audit
exception. EBSA will need to evaluate the results of the Sample Investigation Program to determine what changes
are needed to improve program effectiveness, and continue its efforts to develop guidance to support its
implementation of the Health Care Reform Act.



CHALLENGE: Ensuring DOL’s New Core Financial Management System Produces Reliable,
Accurate, and Timely Financial Information

OVERVIEW:
From FY 1989 to FY 2010, the DOL has relied upon the Department of Labor Accounting and Related Systems
(DOLAR$) as the financial system of record for the department. DOLAR$ was implemented prior to all of the
modern-day laws and regulations that drive Federal accounting, financial management, financial reporting, and
information security. As a result, DOLAR$ was enhanced and extended numerous times to meet the Department’s
internal and external reporting requirements; however, DOLAR$ antiquated technology did not allow DOL to
efficiently and effectively meet its current and future financial and accounting needs. In July 2008, the Department
awarded a contract for the development of the New Core Financial Management System (NCFMS). NCFMS was
planned to be fully implemented and operational by mid-October 2009, but migration of data from DOLAR$ to
NCFMS did not occur until January 2010.

CHALLENGE FOR THE DEPARTMENT:
The implementation of NCFMS has presented the Department with several challenges. The number of actual users
is significantly higher than planned. Initial estimates were 500 total users, but as of October 2010, the count is
more than 2,600. It remains a challenge to support this larger than expected user base.



                                                                                 FY 2010 Agency Financial Report 169
Other Accompanying Information
(Unaudited)
The Department is currently unable to produce auditable financial statements on schedule. The Department is
challenged to clean up inaccurate financial data from DOLAR$ and interfacing systems. Until these actions are
completed, the system will continue to provide incorrect financial and budgetary information.

While many of the problems the Department has encountered with NCFMS can be attributed to the migration of
data from DOLAR$, new problems have been introduced due to the significant change in business processes and
the users’ lack of understanding of the new system. In NCFMS, certain key processes are performed differently than
they were in DOLAR$, because NCFMS incorporates the various OMB, Treasury and other Federal financial
requirements, processes and controls.

DEPARTMENT’S PROGRESS:
The Department has indicated that NCFMS is now providing all of DOL with day-to-day financial transaction
processing, budget execution, and reporting. Initially, integration and data migration issues required some manual
workarounds to release grants and procurements. Additional data migration activities have substantially improved
processing of these transactions, and the issuance of grants, travel payments and procurements is being
consistently performed accurately and timely by NCFMS.

Initial NCFMS training was started in the summer of 2009; and based on feedback from attendees, the training was
reformatted and given again with an agency focus in the fall of 2009. Computer Based Training and Quick Reference
Guides were available in January 2010 prior to the NCFMS go-live, and continue to be used.

DOL stated it has been working with its service provider to scale the hardware, software, help desk, training,
operations, and onsite support staff. According to DOL, this surge in support has resulted in the reduction of
transaction backlogs, the lowering of late payment penalties and the increase in the accuracy of the data as
transactions are getting processed more timely.

WHAT REMAINS TO BE DONE:
DOL needs to continue to work closely with OMB, Treasury and the OIG to address data quality and accuracy of
reporting. The Department needs to enhance training materials on NCFMS and continue to train the NCFMS user
community on its full capabilities. In addition, standard operating procedures and other such tools for NCFMS
should be reviewed and revised on an ongoing basis to ensure that newly hired personnel have references on how
to use the system. The first 9 months saw substantial increases in the number of late payment penalties as staff
adjusted to the new business process. While DOL states it has nearly reached pre-implementation late payment
rates, DOL needs to improve operational efficiencies in 2011 beyond the benchmarks of the previous system.

Changes from Last Year
Changes to the Top Management Challenges from FY 2009 include the addition of the challenge related to the
implementation of the Department’s NCFMS.

Improving Procurement Integrity was previously discussed in our FY 2009 Top Management Challenges. While the
enactment of the Recovery Act greatly increased the amount of acquisition activity in the Department, our audit
work found that, overall, the awards were announced, evaluated, and selected in accordance with relevant criteria.
Additionally, Job Corps has addressed concerns expressed in previous audits regarding the lack of adequate
segregation of duties between its Regional Director and Contracting Officer responsibilities by placing those
functions in two different reporting structures.

While we have removed procurement integrity from the FY 2010 Top Management Challenges, we remain
concerned that the Department has decided against appointing a CAO whose primary duty is acquisition
management, as required by the Services Acquisition Reform Act of 2003. Audits of the Department’s procurement
activities will remain a priority for the OIG.


170 United States Department of Labor
                                                                                       Top Management Challenges
                                                                                                    (Unaudited)

        Management’s Response to the 2010 Top Management Challenges
The Department of Labor continues to streamline and modernize its programs and increase transparency. These
efforts have been possible because of a dedicated team of professionals working every day in support of the
Department’s mission to promote the welfare of job seekers, wage earners, and retirees of the United States.

We have made significant improvements in worker safety and health and strengthened the management of benefit
and compensation programs in difficult economic times. Information technology systems are more secure and core
programs operate more effectively for the benefit of the American people. Overall, management of the
Department’s programs and resources is stronger today than at this time last year.

Nonetheless, management understands that ongoing improvements in many of the areas identified by the Office of
Inspector General (OIG) are necessary for continued success of the Department’s programs and services. To that
end, management has reviewed OIG’s presentation of the issue, current status, progress, and next steps for each
identified challenge. OIG has fairly represented the Department’s views on these challenges, and as such the
Department has no specific additional comments. OIG has recognized the Department’s progress in the last year in
each of the ten identified areas and the Department will continue to work collaboratively with OIG to address and
resolve these challenges. While some improvements are outside the Department’s immediate control,
management will continue to pursue legislative options and work with stakeholders where appropriate to pursue
resolution of issues underlying many of these challenges.

The Department appreciates OIG’s recognition of procurement improvements that have resulted in that item’s
removal from the Top Management Challenges list. The Department also recognizes that issues resulting from the
deployment and transition to the New Core Financial Management System have resulted in a new management
challenge in FY 2010. Management remains committed to sound financial management and will make every effort
to address OIG’s concerns and ensure the ongoing reliability of the Department’s financial data.

As we move into FY 2011, the Department will continue to institute changes and improvements with OIG’s Top
Management Challenges in mind as it works toward fulfilling the Secretary’s vision of good jobs for everyone.




                                                                              FY 2010 Agency Financial Report 171
Other Accompanying Information
(Unaudited)

           Summary of Financial Statement Audit and Management Assurances
The following tables provide a summary of the Department’s FY 2010 financial statement audit and its management
assurances.

                                          Summary of Financial Statement Audit
 Audit Opinion                                                                                              Unqualified
 Restatement                                                                                                       No
 Material Weaknesses                                                               Beginning     New      Resolved      Consolidated   Ending
                                                                                    Balance                                            Balance
 Lack of Sufficient Controls over Financial Reporting                                             1                                       1
 Lack of Sufficient Controls over Budgetary Accounting                                            1                                       1
 Improvements Needed in the Preparation of Journal Vouchers                                       1                                       1
 Lack of Adequate Controls over Access to Key Financial and Support Systems                       1                                       1
 Total Material Weaknesses                                                               0        4            0             0            4


                                           Summary of Management Assurances

                              Effectiveness of Internal Control over Financial Reporting (FMFIA § 2)
 Statement of Assurance                                                                            Qualified
 Material Weaknesses                                            Beginning New         Resolved        Consolidated      Reassessed     Ending
                                                                 Balance                                                               Balance
 Weaknesses over Financial Reporting                                       1                                                              1
 Weaknesses over Preparation and Review of Journal Vouchers                1                                                              1
 Weaknesses over Budgetary Accounts Reconciliation                         1                                                              1
 Total Material Weaknesses                                          0      3                 0             0                0             3
                                   Effectiveness of Internal Control over Operations (FMFIA § 2)
 Statement of Assurance                                                                           Unqualified
 Material Weaknesses                                            Beginning New         Resolved        Consolidated      Reassessed     Ending
                                                                 Balance                                                               Balance
 Total Material Weaknesses                                          0      0                 0             0                0             0
                          Conformance with financial management system requirements (FMFIA § 4)
 Statement of Assurance                                                 Financial management systems do not substantially conform
 Non-Conformances                                               Beginning New         Resolved        Consolidated      Reassessed     Ending
                                                                 Balance                                                               Balance
 Federal Financial Management System Requirements, Internal
 Controls, Preparation of Financial Statements                                 1                                                         1
 Total non-conformances                                             0          1             0             0                0            1
                           Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                                                   Agency                                  Auditor
 Overall Substantial Compliance                                                     No                                       No
   1. System Requirements                                                           No                                       No
   2. Accounting Standards                                                          No                                       No
   3. USSGL at Transaction Level                                                    No                                       No




172 United States Department of Labor
                                                                  Improper Payments Information Act Reporting Details
                                                                                                        (Unaudited)

                 Improper Payments Information Act Reporting Details
The Improper Payments Information Act (IPIA) of 2002, as implemented by OMB Circular A-123, Appendix C,
Requirements for Effective Measurement and Remediation of Improper Payments, requires Federal agencies to
review their programs and activities annually, identify programs that may be susceptible to significant improper
payments, perform testing of programs considered high risk, and develop and implement corrective action plans for
high risk programs.

The Department’s review for FY 2010 identified one program, the Unemployment Insurance (UI) benefit program,
to be at risk of significant improper payments in accordance with OMB criteria (programs with annual improper
payments exceeding both $10 million and 2.5 % of annual program payments). One additional program, the
Workforce Investment Act (WIA) grant program, is classified as high risk in OMB’s Circular A-123, Appendix C, due
to its level of expenditures, although the Department’s risk assessment does not support such a high risk
designation.

In FY 2010, the Department performed detailed testing for the UI and WIA programs to estimate the level of
improper payments and their major causes. The Department has taken corrective actions to address the causes and
reduce improper payments in these programs and has established improper payment reduction targets in
accordance with OMB guidance.

The target UI improper payments error rate for FY 2010 was 9.9%, whereas the actual error rate is 11.2%. This
difference is primarily due to increases in overpayments to claimants who continued to claim benefits after they
returned to work, claimants ineligible for benefits because they voluntarily quit their jobs or were discharged for
cause, and claimants who failed to meet active work search requirements. These 3 causes accounted for 64% of
overpayments in FY 2009 and 65% of overpayments in FY 2010 and represent approximately 70% of the increase in
the overpayment rate. Corrective actions to address these causes are described in Section III. The higher actual
error rate for WIA in FY 2010 compared to the program’s annual target is primarily due to including the results of
DOL Office of Inspector General audits and other monitoring activities in the measurement methodology and higher
incidence of error.

           Target and Actual Improper Payments Rates for the Department’s At‐Risk Programs
                  DOL Program               FY 2008            FY 2009         FY 2010          FY 2011
                                        Target    Actual    Target Actual Target Actual         Target
           Unemployment Insurance       11.5%     10.0%     10.0%    10.3% 9.9%     11.2%        9.8%
           Workforce Investment Act      0.19%     0.07%     0.07%    0.2% 0.07%     0.2%        0.07%

I.     Risk Assessment

The Department’s FY 2010 risk assessment of its various programs included the following:
    • Reviewed prior three year’s results of IPIA risk assessments and detailed tests. In addition to testing the
       two programs (UI and WIA) designated as high risk, DOL performed detailed testing on all its other
       significant programs in the last 3 years. These programs included Black Lung Disability Trust Fund, Federal
       Employees’ Compensation Act, Energy Employees Occupational Illness Compensation Program, State
       Unemployment Insurance and Employment Service Operations, Payroll Costs and Non Payroll Costs. The
       results of this detailed testing showed that these programs were low risk.
    • Reviewed DOL OIG and Government Accountability Office (GAO) audit reports issued for DOL programs to
       determine whether the reports indicate that control weaknesses or other issues could potentially impact
       the amount of improper payments for DOL programs.




                                                                                FY 2010 Agency Financial Report 173
Other Accompanying Information
(Unaudited)
      • Reviewed results of the Department’s OMB Circular A-123 internal control assessment to determine
        whether control weaknesses were identified that could potentially impact the amount of improper
        payments for DOL programs.
    • Reviewed DOL programs’ funding levels for FY 2010 for significant changes in program funding that may
        impact the amount of improper payments.
Outlays for State UI, Unemployment Compensation for Federal Employees (UCFE), Unemployment Compensation
for Ex-Service Members (UCX), Extended Benefits (EB), Emergency Unemployment Compensation 2008 (EUC08) and
Federal Additional Compensation (FAC) increased sharply in FY 2009 and FY 2010 to an estimated $119 billion and
$156 billion, respectively, compared with just over $42 billion in FY 2008, reflecting the adverse labor market
conditions. FY 2009 and FY 2010 UI outlays include approximately $24.9 billion and $32.7 billion provided by the
American Recovery and Reinvestment Act of 2009 (Recovery Act) for benefit payments to unemployed individuals
by extending the period of eligibility for benefits and providing additional weekly benefits. For WIA, the Recovery
Act provided additional resources primarily for formula grants to states and for other discretionary grants; the
Recovery Act outlays in FY 2009 and FY 2010 include approximately $0.8 billion and $2.2 billion, respectively.

The additional funds are disbursed/monitored through established systems and processes as utilized in the past. In
addition, the Department has taken and will continue to take various actions to minimize and manage the risk
associated with the Recovery Act programs, including the following:
      •   Issued specific guidance on the use of the funds distributed through the Recovery Act programs.
      •   Conducted outreach to states and other eligible grant applicants to communicate policies and guidelines
          and is utilizing the regional office Federal Project Officers to conduct and document quarterly desk reviews
          of financial obligations, expenditures and program performance. Grantees identified as “high risk grantees”
          through these reviews are given priority attention for on-site monitoring.
      •   Trained grantees on Federal grant requirements, performance expectations, fiscal and program
          requirements, and allowable use of funds.
      •   Closely monitor the draw-down of UI Recovery Act funds from the specific accounts and has systems in
          place for reporting information required for monitoring and evaluating the operations of these programs.
      •   Conduct program reviews to ensure that the various activities included in the Recovery Act are properly
          implemented, including the use of these funds according to various operating instructions/guidance
          provided to the states.

II.       Statistical Sampling

The following sampling was performed for the two programs designated as high risk:

Unemployment Insurance

Sampling Process: Improper payment rates are estimated from the Benefit Accuracy Measurement (BAM)
program. BAM includes the three largest permanently authorized unemployment compensation (UC) programs:
State UI4, UCFE, and UCX. The Department reports two overpayment rates -- the Annual Report rate and the
Operational rate, as well as an underpayment rate. Executive Order 13520 required “high-priority” federal
programs to develop supplemental measures. The Department, in consultation with the Office of Management and
Budget, developed two supplemental measures -- the Operational rate, which includes those fraud and nonfraud
recoverable overpayments that state agencies are expected to identify and establish for recovery, and the
Employment Service (ES) registration rate, which measures the percentage of UI claimants who were required to

4
 Included in the UI program are the 50 states and Puerto Rico, US Virgin Islands and the District of Columbia (referred to as
states/areas). The US Virgin Islands does not participate in BAM.

174 United States Department of Labor
                                                                            Improper Payments Information Act Reporting Details
                                                                                                                  (Unaudited)
register with the state ES, but who were not actively registered during the paid week selected for the BAM audit.
The Department reports these two supplemental measures quarterly for publication on the Department of the
Treasury Payment Accuracy Web site (http://www.paymentaccuracy.gov/). The Operational rate is also reported
annually as part of the IPIA reporting requirements.

BAM investigators in each state conduct comprehensive audits for randomly selected weekly samples of paid and
denied claims. Effective January 2008, all paid claims sampled for BAM investigation must be matched with the
National Directory of New Hires (NDNH) database to improve the ability to detect overpayments due to individuals
who claim benefits after returning to work, the largest single cause of UI overpayments. The universe (population)
includes paid and denied claims under the State UI, UCFE, and UCX programs. However because the claims
processes and eligibility requirements are very similar for the additional benefits paid to unemployed individuals
under the EB, EUC08, and FAC programs, the estimated improper payment rates are assumed to generally reflect
the accuracy of these benefit payments. Overpayment and underpayment rates for FY 2010 shown in the Improper
Payment Reduction Outlook Table are for the period July 1, 2009, to June 30, 2010. Data are shown for this period
rather than the fiscal year because a higher percentage of BAM investigations have been completed and will,
therefore, produce more accurate estimates. For the period July 1, 2009, to June 30, 2010, state agencies
completed audits for 22,093 paid claims cases, a completion rate of 99.8 %. Additional information about the BAM
methodology can be found at: http://www.oui.doleta.gov/unemploy/bam/2009/bam-cy2009.pdf

Workforce Investment Act

Sampling Process: For FY 2010, the Department used a separate methodology (similar to its previous
measurements) to estimate the improper payments rate in the WIA grant program because grant programs are
administered differently than benefit programs. Unlike the benefit programs, data are not readily available to allow
the Department to directly sample grant payments to develop a statistically valid estimate of improper payments.
This is because the grant programs’ funding stream makes it very difficult to assess the improper payment rate on
payments to final recipients. The Department provides grants to states, cities, counties, private non-profits, and
other organizations to operate programs, and relies significantly on Single Audit Act Reports (as required by the
Single Audit Act of 19965) to monitor funding to all grant recipients. Based on a review of the definition of
questioned costs in OMB Circular A-133 and OMB's IPIA implementation guidance, the Department determined
that questioned costs can be used as a proxy for improper payments. Therefore, these Single Audit Act Reports,
along with other data in FY 2010, were utilized to determine the improper payment rate for the WIA grant program.

The Department reviewed FY 2008 (most recent available) Single Audit Act Reports with DOL-related findings from
the Federal Audit Clearinghouse (which is the national repository of Single Audit Act Reports) and identified all WIA
program questioned costs included in such reports. As additional evidence that no other audit reports included
questioned costs for the DOL grants programs, the Department selected and reviewed random samples of audit
reports classified in the Clearinghouse database as not having any questioned costs. In addition to using the Single
Audit Act Reports, the Department performed additional procedures to assess the level of improper payments
which included a review of (1) the results of the monitoring work performed by the ETA staff who are responsible
for managing the WIA program and (2) the Government Accountability Office (GAO) and DOL Office of Inspector
General (OIG) audit reports issued for the WIA program. To determine an approximate rate of improper payments
for the grant programs, the Department divided the average annual amount of questioned costs from these sources
by the direct program outlays. The resulting improper payment rate (assumed to be representative of the FY 2010
rate) was applied to the WIA program outlays for FY 2010 to determine the estimated improper payment amount

5
  The Single Audit Act of 1996 provides for consolidated financial and single audits of state, local, non-profit entities, and Indian
tribes administering programs with Federal funds. Non-Federal entities that expend $500,000 or more of Federal awards in a
year are subject to a consolidated financial single audit; any non-Federal entities that do not meet this threshold are not
required to have a single audit. All non-Federal entities are required to submit all single audit reports to a Federal Audit
Clearinghouse (Clearinghouse) that is administered by the Census Bureau.

                                                                                            FY 2010 Agency Financial Report 175
Other Accompanying Information
(Unaudited)
for FY 2010. The Department is performing additional procedures to assess the risk of improper payments and to
determine if a new measurement methodology could be developed and used for future reporting on WIA improper
payments.

III.    Corrective Actions

Unemployment Insurance

Many errors in the UI program are due to eligibility errors that can be prevented or detected early through state
use of third-party verification resources, such as matching claimant records with new hire and Social Security data.
The leading cause of overpayments is claimants who have returned to work and continue to claim UI benefits. Early
detection of these overpayments -- which represented 27 % of all overpayments in FY 2010 -- allows agencies to
stop payments sooner and to recover these overpayments more readily. Matching the Social Security Numbers
(SSNs) of UI claimants with the National Directory of New Hires (NDNH) and State Directory of New Hires (SDNH)
databases is the most effective tool in identifying these improper payments. For the period July 2009 to June 2010,
Benefit Payment Control (BPC) operations reported using new hire matching to detect and establish for recovery
$155 million in overpayments. During the same period, BAM identified an estimated $319 million in overpayments
through matching with the NDNH or SDNH. The Department is developing standard operating procedures for state
BPC operations to ensure that states are effectively utilizing the NDNH as part of their integrity activities. The
recently enacted Claims Resolution Act of 2010 (P.L. 111-29) included a provision that requires employers to report
the first day of earnings for new hires to the NDNH. This additional information will facilitate the more timely
identification of claimants who have returned to work and continue to claim UI benefits.

The second largest cause of overpayments is errors in handling separation issues, which represented 20 % of all
overpayments in FY 2010. To reduce improper payments due to separation issues, the Department is working with
the state agencies to facilitate their participation in the State Information Data Exchange System (SIDES) -- an
automated employer response system to standardize the collection of information on employee separations from
employers and third-party administrators (TPAs) to improve the accuracy of claimant eligibility determinations. The
Department is aggressively promoting state planning a phased implementation of state participation in SIDES. The
development and testing of SIDES is complete, and SIDES became operational in February, 2010. Currently,
Colorado, Georgia, Ohio, and Utah and a third party administrator (TPA), Automated Data Processing, Inc., are
participating in this initiative. A total of 18 other states are in varying phases of implementation.

The Department continues outreach activities to promote the use of SIDES and provide technical assistance for
SIDES implementation to the states. ETA, in conjunction with the National Association of State Workforce Agencies
(NASWA) and the Information Technology Support Center (ITSC), conducted a training session in June, 2010.
Participants from 12 states and 4 TPAs (AZ, CT, IA, KS, MD, MI, MS, NC, NY, RI, TX, UT, VA, Barnette Associates,
Paychex, UCTA, and Corporate Cost Control) attended the training session. Pending the availability of resources,
the Department will provide Supplemental Budget Request opportunities to states that have not yet committed to
SIDES implementation.

Most of the improper UI payments not caused by benefit year earnings or separation errors are due to the claimant
not meeting one or more of the continued eligibility requirements, such as conducting an active work search,
registering with the state employment service, and being able and available for work. The Department has been
focused on new strategies designed to get at the most prevalent root causes of improper payments: 1) claimants
continuing to claim benefits after returning to work; 2) incomplete and/or untimely employment separation
information from employers or their third party administrators; and failure to register claimants with the state’s
employment service as required by the state’s law. The strategies include a new state performance measure
focused on improper payment prevention, enhanced use of the National Directory of New Hires, development of a
claimant messaging campaign and intensive technical assistance to high impact states.


176 United States Department of Labor
                                                                     Improper Payments Information Act Reporting Details
                                                                                                           (Unaudited)
The Department In FY 20 has been providing SBRs to states to support state technology investments related to UI
integrity. In FY 2010 $10.7 million were provided to states for technology based integrity activities to improve the
prevention, detection, and collection of UI overpayments. These activities, when implemented, can result in
significant reduction in overpayments and increased recovery of those made. Additionally, In FY 2005, the
Department began providing states funds to conduct Reemployment and Eligibility Assessment (REAs) with UI
beneficiaries to reduce improper payments both by speeding claimants' return to work and by detecting and
preventing eligibility violations. During FY 2010, the Department provided $50 million in funding to support REA
activities in 33 states and the District of Columbia. A total of 40 states have received funding to implement REA
programs.

Workforce Investment Act

The improper payment rate estimate work indicated that the major types of errors found in the WIA program are
primarily administrative in nature, including cash management, unallowable costs and insufficient documentation
for participant and vendor payments. The grant management and monitoring processes focus on these items to
reduce and prevent improper payments. ETA currently uses a multi-step approach to ensure proper administration
and effective program performance of WIA grants. First, ETA starts its review/oversight process by conducting a
structured initial risk assessment of all new grants and grantees at the time of the award. Second, ETA Federal
Project Officers (FPOs) conduct quarterly desk reviews of the financial and program performance of each grant.
The results of these activities are recorded in the Grants e-Management System (GEMS), an electronic tracking and
grant management system. This serves as an early warning system to detect potential financial management
and/or programmatic performance issues and allows ETA to target technical assistance more effectively. Finally,
ETA staff (FPOs, financial management and others) conduct periodic onsite reviews of grantees. ETA attempts to
conduct an onsite review of each grantee at least once every three years, but actual review schedules are based on
the results of the risk assessments and desk reviews. Onsite reviews are conducted using ETA's Core Monitoring
Guide as well as program specific and technical guide supplements designed to provide a more detailed review of
program requirements and financial activities. Results of the onsite monitoring activities are also cataloged in the
GEMS system. For grantees with large numbers of sub-recipients (e.g., WIA formula grantees), the onsite review
conducted using the formula program supplement to the Core Guide includes an assessment of the grantee's sub-
recipient monitoring activities. In addition, ETA conducts onsite review of local areas as part of its review of the
state grantee. The results of the onsite monitoring are also catalogued in the GEMS system. ETA now has the
capability to review trends or issues that arise in a more comprehensive and consistent manner. Whenever
deficiencies or problems are identified as a result of a desk review, onsite review, or an independent audit, ETA
immediately begins working with the grantee to obtain appropriate corrective actions. Corrective actions
undertaken by the grantee are tracked by ETA and follow-up technical assistance and reviews are scheduled as
needed.

The ETA Division of Policy Review and Resolution processes each grant at closeout, reviewing final grantee reports, the
grant closeout package, FPO recommendations, and other documents available to them to determine whether the
objectives of the grant were accomplished and that all funds were expended as authorized. Expenditures which are
questioned are resolved through the normal determination process and disallowed costs are forwarded for collection.
The Audit Resolution staff receives grantee A-133 audit reports (Single Audit Act reports) which report questioned costs
and/or administrative weaknesses in need of correction. These items are followed up using the same determination
process noted above, disallowed costs are forwarded for collection, and resolution reported back to the OIG. In addition,
these units participate in special grantee reviews and provide fiscal policy training for grantee and Federal staff.




                                                                                    FY 2010 Agency Financial Report 177
Other Accompanying Information
(Unaudited)


IV.        Improper Payment Reduction Outlook FY 2009– FY 2013 ($ in millions)

        Program                  FY 2009                       FY 2010                     FY 2011                    FY 2012                    FY 2013

                                                                                  Est                        Est                        Est
                          Outlays    IP %   IP $     Outlays     IP%     IP$     Outlays IP %        IP $   Outlays IP %        IP $   Outlays    IP %     IP $
Unemployment
Insurance                 $119,249                   $156,000                    $90,977                    $66,780                    $63,859

     Operational Rate                5.2%   $6,201               5.7 % $8,892                5.1% $4,640                5.1% $3,406                5.1% $3,257
     Annual Report Rate
       Over- payment                 9.6% $11,448                10.6% $16,536              9.05% $8,233               8.95% $5,977               8.85% $5,652
       Underpayment                  0.7%    $835                 0.6%   $936               0.71%    $646              0.71%    $474              0.71%    $453


Workforce                   $4,300   0.2%     $8.6     $5,875     0.2%   $11.8 $4,496 0.07%           $3.1 $3,723 0.07%          $2.6 $3,700      0.07%     $2.6
Investment Act




Notes:
Actual UI outlays in FY 2009 and FY 2010 include approximately $24.9 and $32.7 billion, respectively, of Recovery Act benefit payments
under the EB, FAC and EUC08 programs. Recovery Act UI modernization incentive and administrative cost payments to states are not
included. For WIA, the FY 2009 to 2011 outlays include $0.8, $2.2 and $0.8 billion, respectively, of Recovery Act grants.
The rates were determined as described in the preceding pages and applied to the outlays for the fiscal year. UI rates are estimates
based on a statistical survey of State UI, UCFE, and UCX payments. Because the claims processes and eligibility requirements are very
similar for the EB, EUC08, and FAC programs, the estimated improper payment rates are assumed to generally reflect the accuracy of
these benefit payments. These rates, which include full and partial overpayments, overestimate the improper payments relating to FAC
outlays (about 7 % of total outlays in FY 2009 and 2010), as the FAC payments are payable in full to claimants entitled to at least $1 in
unemployment compensation. FY 2010 rates exclude Georgia BAM data, which are currently under review by DOL to resolve BAM
coding and methodology issues.
Only an estimated 2.31 % and 2.37 % of UI benefits were overpaid due to fraud in FY 2009 and FY 2010, respectively. Overpayments
due to fraud are included as part of both the Annual Report and Operational overpayment rates.

Recovery of Improper Payments

State Benefit Payment Control (BPC) operations identify UI overpayments for recovery through such methods as
crossmatching claimant SSNs with State and National Directories of New Hires, wage record files submitted each
quarter by employers, matches with other databases, such as Workers Compensation and State Corrections, and
other sources such as appeals, reversals and tips and leads. States collect overpaid claims through offsets of UI
benefits, state income tax offsets, and direct cash reimbursement from the claimant. The identification of
overpayments for recovery for the WIA program is primarily done through ETA’s onsite monitoring activities, the
Single Audit Act reports and Office of Inspector General (OIG) program audits. From FY 2004 through FY 2010
approximately $4,456 million has been recovered for the UI and the WIA programs.

V.         Recovery Auditing

Recovery auditing is a control technique to identify improper contractor payments and initiate recovery actions
where appropriate. Recovery auditing involves data analysis and detailed reviews of the documentation supporting
contract payments, including purchase orders, invoices, vendor statements/correspondence, procurement records,
contracts, contract modifications, payment transaction records, etc.

Prior to FY 2008 the Department performed statistical sampling of non-payroll costs consisting of department
expenses, including contract payments, related to the operation and administration of programs' and headquarters'
activities. Such testing found these costs to be at low risk for improper payments. In FY 2008, the Department

178 United States Department of Labor
                                                                      Improper Payments Information Act Reporting Details
                                                                                                            (Unaudited)
performed a recovery audit of the contract payments made in FY 2007 and in FY 2010, the Department performed a
recovery audit of the contract payments made in FY 2008, FY 2009 and the first quarter of FY 2010. The work was
performed by a contractor together with DOL staff. The recovery audit procedures included analysis of the
payment database and review of supporting documentation for various selected payments. Excluded from the
review were payments to other Federal departments and payments for travel reimbursements to and on behalf of
employees.
          Recovery Audit Results (in millions)
             Agency        Amount         Actual Amount   Amounts        Amounts      Amount         Amounts
                          Subject to       Reviewed and Identified for Recovered in Identified for Recovered in
                         Review for FY Reported in FY Recovery in FY     FY 2010     Recovery in Prior Years
                       2010 Reporting           2010        2010                     Prior Years
           DOL              $4,087             $4,087       $5.9           $5.6          $0            $0


VI.       Management Accountability

The Employment and Training Administration (ETA) is responsible for Federal oversight of state unemployment
insurance (UI) programs, including oversight of state activities to reduce and recover improper UI benefit payments.
ETA has taken/continues to take the following steps to hold Federal managers accountable for reduction and
recovery of improper UI payments by states. In FY 2010, ETA will continue to focus on the following integrity
related activities and ensure the annual performance standards for managers include the completion of significant
milestones for the projects listed below.

      •   ETA requires states to measure and report the percent, dollar amount, and reasons for improper payments.
          These data are derived from investigations of a statistically valid sample of payments using Federally
          prescribed procedures. ETA reviews these data for validity, analyzes data for each state, and makes the
          data available publicly on the ETA Web site –
          http://www.oui.doleta.gov/unemploy/bam/2009/bam-cy2009.pdf. Data review, analysis and publication are
          included in the performance plan of the Administrator of ETA’s Office of Unemployment Insurance (OUI)
          and in the elements and standards of numerous staff in that office.
      •   ETA has implemented a core performance measure for detection of overpayments by state UI programs.
          States that fail to meet the performance criterion submit corrective action plans. Analysis of state
          performance and monitoring of states’ corrective actions continue to be an evaluation factor in OUI
          managers’ performance plans. ETA is developing an additional performance measure that will require
          states to reduce by 50 percent those overpayments attributable to individuals who continue to claim
          multiple weeks of UI benefits after they return to work.
      •   ETA has promoted and continues to promote cost effective methods for states to prevent, detect, and
          recover improper UI benefit payments. Development, delivery, and/or successful implementation of these
          initiatives by states have been and continue to be factors on which the OUI administrator and managers are
          evaluated. A few of the most noteworthy are:
               • National Directory of New Hires: The Department’s activities with respect to facilitating state
                   implementation of the NDNH crossmatch to address the largest cause of UI improper payments --
                   earnings while benefits are being paid -- are discussed in Section III (Corrective Actions).
               • Separation Information Data Exchange System: This initiative will improve the accuracy of claimant
                   eligibility determinations, which is the second largest cause of improper payments by enabling
                   state agencies to obtain more timely and complete information regarding the reasons that UI
                   applicants were separated from work. The Department’s activities are discussed in Section III
                   (Corrective Actions).
               • Treasury Offset Program (TOP): The “SSI Extension for Elderly and Disabled Refugees Act” (P.L. 110-
                   328) included provisions to permit states to recover certain Unemployment Compensation debts

                                                                                     FY 2010 Agency Financial Report 179
Other Accompanying Information
(Unaudited)
                due to fraud from Federal income tax refunds under TOP. The recently enacted Claims Resolution
                Act of 2010 (P.L. 111-29) includes provisions that expand the use of TOP to recover nonfraud
                overpayments if the UC debt is due to failure to report earnings. The Department issued
                Unemployment Insurance Program Letter (UIPL) No. 11-11 on March 8, 2011, to notify states of
                these changes.
                The Department continues to work with Department of Treasury officials to develop program
                requirements and procedures for state access to TOP. On January 28, 2011, Treasury published the
                interim rule concerning the use of TOP to collect covered UC debt in the Federal Register at 76 Fed.
                Reg. 5070. UIPL No. 02-09, Change 1, informed the state workforce agencies of the due process
                and TOP system access requirements, including the completion of a certification agreement,
                security, and connectivity issues. The Department will issue Change 2 to UIPL No. 02-09, which will
                inform states of amendments to the procedures to implement TOP to recover UC debt as well as
                provide the most current and accurate information on those procedures. New York and Wisconsin
                have begun accessing TOP. Additional states are expected to participate in TOP during FY 2011.
       •   UI Integrity Legislation ‐ The Department has prepared legislation, which is currently under review, to
           allow states to redirect a small percentage of recovered overpayments to fund integrity activities and
           will require employers to report rehired employees, in addition to new hires, as part of their NDNH
           submission. Specific provisions of the proposed legislation are discussed in section VIII - Statutory or
           Regulatory Barriers.
       •   Claimant Messaging Campaign to Deter Continued Claims Filing After Return to Work ‐ ETA is working
           with the ITSC to secure contractor support to: 1) inventory current state practices; 2) develop
           messaging tools and products for state use; and 3) disseminate tools and products and provide
           technical assistance to communicate to claimants that their eligibility for UI ends when they have
           returned to work.
       •   Work Collaboratively with the Partnership Fund for Integrity Innovation to Explore More Timely Data
           Sources Indicating Claimant’s Return to Work - ETA will explore data available through Early Warning
           Services, a proprietary service administered by a bank consortium, that could help detect when payroll
           checks are deposited in bank accounts, indicating a claimant has returned to work.
       •   Aggressive and Targeted Technical Assistance and Monitoring of States with the Highest Percentage of
           ES Registration Improper Payments - ETA will inform targeted states by letter of plans for ETA to work
           with them aggressively to lower this portion of their improper payment rate. Targeted states will be
           contacted personally by the UI Administrator and ETA Regional Administrator to examine state specific
           causes for the problem and to request a formal plan from the state to address it.
       •   Federal/State Workgroup to Identify State Improper Payment Prevention Strategies - Working with the
           NASWA, ETA has convened a workgroup to develop recommendations for new innovative options to
           reduce improper payments. The workgroup held its initial meeting in December 2010 and will conclude
           its work by September 30, 2011.
       •   Enhance the State Quality Service Planning (SQSP) Process To Incorporate New Elements Related to
           Prevention of Improper Payments‐ ETA has drafted a new section of the SQSP requiring states to
           identify state specific root causes and to provide strategies for addressing them. The new performance
           measure focused on the prevention of benefit year earnings overpayments (discussed above) will be
           incorporated into the FY 2013 SQSP process by requiring states to provide corrective action plans if
           they fail to meet the performance standard.
       •   National Integrity Conference: In order to provide a forum for disseminating successful practices for
           preventing, detecting and recovering UI overpayments, the Department hosted a National
           Unemployment Insurance Integrity Professional Development Conference in April 2010. The next
           conference is scheduled for 2012.
       •   In order to improve the adjudication on non-monetary eligibility issues, the Department conducted
           three sessions of Nonmonetary Determinations Benefits, Timeliness and Quality Training over the past
           fiscal year. One session was an in-person session with over 30 trainees in the Philadelphia Region.

180 United States Department of Labor
                                                                    Improper Payments Information Act Reporting Details
                                                                                                          (Unaudited)
              There were also two sessions of the Nonmonetary Benefits, Timeliness and Quality E-learning Course
              with 20 trainees in each session. An on-line adjudication course has also been developed, and is
              currently available for interested staff.

       As part of its monitoring and oversight responsibilities of the State's UI operations, the Department takes an
       active role in facilitating and promoting strategies to reduce improper payments and meet the payment
       accuracy and recovery targets set by the Office of Management and Budget. However, it should be noted that
       these strategies require the cooperation and implementation by individual states, including changes to state
       laws and regulations. The Department has no explicit authority over how states establish priorities in
       administering their UI programs and, therefore, can only make recommendations and provide technical
       assistance in the use of these strategies.

       ETA has revised and expanded its training for grant managers and is currently implementing an expansion of
       GEMS to include all WIA grants. GEMS tracks the grant managers’ grant review actions and provides the grant
       manager financial and other information useful in managing the grants. The ETA Division of Policy Review and
       Resolution has requirements in its closeout grant officer performance standards relating to the requirement to
       follow-up on Single Audit Act, OIG or GAO audit findings and questioned costs relating to WIA grants, and the
       Director of the Office of Grant and Contract Management has overall responsibility for ensuring that these
       procedures are followed.

VII.      Information Systems and Infrastructure

Unemployment Insurance
State and Federal information systems and infrastructure were upgraded to accommodate the additional Federal
compensation programs and extensions to other unemployment compensation programs included in the Recovery
Act.

As a result of ETA monitoring, states modified computer matching procedures to improve the productivity of NDNH
as a resource to detect improper payments. ETA is also working closely with the state agencies to develop the
information systems and infrastructure to support SIDES, which is discussed in Section III, Corrective Actions.

Workforce Investment Act
ETA currently has multiple technology projects underway in an effort to improve grants management. The WIA
program utilizes these tools to execute the risk management process to assess and monitor grantees. They include
the web-based EBSS (Enterprise Business Support System), with GEMS. EBSS is the Enterprise Business Support
System, a web-based solution used to track and manage grants. A component of the EBSS is the automated grant
cost reporting system that captures grant costs and obligations, which improves fiscal integrity. The combination of
the two is part of the cradle-to-grave E-grants solution for the entire Department. The GEMS system, mentioned
also in Section III of this appendix is an online grants management tool meant to provide web accessible,
customizable, role based context access to grant related information from multiple sources. The utilization of the
GEMS system by the Federal Project Officers and program management and financial staff allows ETA a more
coordinated and comprehensive repository of grant specific information. A GEMS technology project has recently
been undertaken to provide for a report writing module and the cataloging of the Core Monitoring Guide and
supplements. This will allow ETA staff to customize and target their oversight efforts.

VIII.     Statutory or Regulatory Barriers

Unemployment Insurance
The UI program has several statutory barriers to reducing improper payments. First, States administer the UI
program and set operational priorities. The Department has limited authority to ensure they pursue improper


                                                                                  FY 2010 Agency Financial Report 181
Other Accompanying Information
(Unaudited)
payment reduction activities. Second, the "immediate deposit" requirement (Sec. 3304(a)(3), Federal
Unemployment Tax Act (FUTA) and Sec 303(a)(4), Social Security Act (SSA)) and the "withdrawal standard" (Sec.
3304(a)(4), FUTA and Sec 303(a)(5), SSA) preclude the use of recovery auditing techniques and affect recovery
efforts.

Unemployment Compensation (UC) integrity legislation is under review and will be submitted to the Congress. The
draft legislation, if enacted, will help states reduce improper benefit payments. This will ensure that benefits are
available for eligible UI claimants, thus contributing to the DOL strategic goal to “Ensure income support when work
is impossible or unavailable.”

The key provisions of the Integrity Act are:

    •   Permits states to use up to 5% of UC overpayments recovered to augment administrative funding to deter,
        detect, and recover benefit overpayments.

    •   Permits states to use up to 5% of contributions collected due to employer fraud or tax evasion, including
        misclassification of employees, to augment administrative funding for activities related to these purposes.

    •   Requires states to assess a penalty of not less than 15% of the amount overpaid on any claim for benefits
        that is determined to be due to the claimant’s fraud.

    •   Prohibits states from relieving an employer of benefit charges if the employer’s (or its agent’s) fault has
        caused an inappropriate payment and if the employer (or agent) has established a pattern of failing to
        respond timely or adequately to requests for information.

    •   Requires employers to report employees re-hired within 60 days of their last employment to the NDNH.
        This change will significantly expand the number of employee records available for matching and can be
        expected to increase the number of detections, and potential prevention, of overpayments due to claimant
        who continue to claim benefits after they return to work.

ETA will also pursue the following regulatory changes to facilitate the redirection of resources and activities
towards improving UI program integrity.

    •   Require a percentage of state UI administrative grants be dedicated for integrity activities.
    •   Revise the regulation governing the BAM program (20 CFR 602.43) to remove the prohibition on the use of
        sanctions or incentives to achieve specific improper payment rates.

Workforce Investment Act
No statutory or regulatory barriers exist that limit WIA's ability to address and reduce improper payments. The WIA
program has the legal authority to establish receivables and implement actions to collect those receivables.




182 United States Department of Labor
                                                 Acronyms
ACSI     American Customer Satisfaction Index          MSHA     Mine Safety and Health Administration
                                                       NCFMS    New Core Financial Management System
BLS      Bureau of Labor Statistics                    OASAM    Office of the Assistant Secretary for
                                                                Administration and Management
CAM      Cost Analysis Manager                         OASP     Office of the Assistant Secretary for
CFO      Chief Financial Officer                                Policy
                                                       OCFO     Office of the Chief Financial Officer
DOL      U.S. Department of Labor                      OCIA     Office of Congressional and
DOLAR$   Department of Labor Accounting and                     Intergovernmental Affairs
         Related Systems                               ODEP     Office of Disability Employment Policy
DVOP     Disabled Veterans’ Outreach Program           OFCCP    Office of Federal Contract Compliance
                                                                Programs
EBSA     Employee Benefits Security                    OFLC     Office of Foreign Labor Certification
         Administration                                OIG      Office of Inspector General
ERISA    Employee Retirement Income Security           OLMS     Office of Labor-Management Standards
         Act                                           OMB      Office of Management and Budget
ESA      Employment Standards Administration           OPA      Office of Public Affairs
ETA      Employment and Training Administration        OSHA     Occupational Safety and Health
                                                                Administration
FASAB    Federal Accounting Standards Advisory         OWCP     Office of Workers’ Compensation
         Board                                                  Programs
FECA     Federal Employees’ Compensation Act
FFMIA    Federal Financial Management                  PBGC     Pension Benefit Guaranty Corporation
         Improvement Act                               PMA      President’s Management Agenda
FMFIA    Federal Managers’ Financial Integrity Act     PPI      Producer Price Index
FLSA     Fair Labor Standards Act                      PY       Program Year
FTE      Full Time Equivalent
FUTA     Federal Unemployment Tax Act                  RAPIDS   Registered Apprenticeship Partners
FY       Fiscal Year                                            Information Data System
                                                       RECA     Radiation Exposure Compensation Act
GAO      U.S. Government Accountability Office
GPRA     Government Performance and Results            SOL      Office of the Solicitor
         Act                                           SSA      Social Security Administration
GSA      General Services Administration               SWA      State Workforce Agencies

HVRP     Homeless Veterans’ Reintegration              TAA      Trade Adjustment Assistance
         Program                                       TAP      Transition Assistance Program

ILAB     Bureau of International Labor Affairs         UI       Unemployment Insurance
IPIA     Improper Payments Information Act             USPS     U.S. Postal Service
IRS      Internal Revenue Service                      UTF      Unemployment Trust Fund
IT       Information Technology
                                                       VA       U.S. Department of Veterans Affairs
LMRDA    Labor-Management Reporting and                VETS     Veterans’ Employment and Training
         Disclosure Act                                         Service
LPD      Lost Production Days                          WB       Women’s Bureau
LVER     Local Veterans’ Employment                    WHD      Wage and Hour Division
         Representative                                WIA      Workforce Investment Act




                                                                   FY 2010 Agency Financial Report 183
              U.S. Department of Labor



                                         FY 2009 Performance and Accountability Report   185
www.dol.gov
